<html>
<title> - NOMINATION OF HON. NIMRATA ``NIKKI'' HALEY, OF SOUTH CAROLINA, TO BE U.S. AMBASSADOR TO THE UNITED NATIONS</title>
<body><pre>[Senate Hearing 115-345]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-345

                   NOMINATION OF HON. NIMRATA ``NIKKI''
                  HALEY, OF SOUTH CAROLINA, TO BE U.S.
                    AMBASSADOR TO THE UNITED NATIONS

=======================================================================


                                 HEARING
                                 
                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                              __________

                             JANUARY 18, 2017

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


                   Available via the World Wide Web:
                           http://govinfo.gov
                           
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
31-612 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7f180f103f1c0a0c0b171a130f511c101251">[email&#160;protected]</a>                            
                           
                           
                          


                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD, YOUNG, Indiana                 CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee....................     1

Graham, Hon. Lindsey, U.S. Senator from South Carolina...........     1

Scott, Hon. Tim, U.S. Senator from South Carolina................     3

Menendez, Hon. Robert, U.S. Senator from New Jersey..............     4

Haley, Hon. Nimata ``Nikki'' Haley, of South Carolina, nominated 
  to be U.S. Ambassador to the United Nations....................     9
    Prepared statement...........................................    13

              Additional Material Submitted for the Record

Responses to Additional Questions for the Record Submitted to 
  Hon. Nikki Haley by Members of the Committee

    Questions submitted by Senator Robert Menendez...............    73

    Questions submitted by Senator Marco Rubio...................    91

    Questions submitted by Senator Benjamin L. Cardin............    95

    Questions submitted by Senator Todd Young....................   110

    Questions submitted by Senator Jeanne Shaheen................   111

    Questions submitted by Senator Johnny Isakson................   113

    Questions submitted by Senator Christopher A. Coons..........   114

    Questions submitted by Senator Tom Udall.....................   115

    Questions submitted by Senator Tim Kaine.....................   119

    Questions submitted by Senator Edward J. Markey..............   121

    Questions submitted by Senator Jeff Merkley..................   125


United Nations Security Council Resolution (UNSCR) 2334 (2016)...   129

Explanation of the U.S. vote on UNSCR 2334.......................   133

``Russia: The Threat, the International Order, and the Way 
  Forward,'' by Ambassador Samantha Power........................   137

The Screening Process for Refugee Entry into the United States...   145

                                 (iii)

  

 
 NOMINATION OF HON. NIMRATA ``NIKKI'' HALEY, OF SOUTH CAROLINA, TO BE 
                 U.S. AMBASSADOR TO THE UNITED NATIONS

                              ----------                              


                      WEDNESDAY, JANUARY 18, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Rubio, 
Johnson, Flake, Gardner, Young, Barrasso, Portman, Paul, 
Cardin, Menendez, Shaheen, Coons, Udall, Murphy, Kaine, Markey, 
Merkley, and Booker.
    Also Present: Senators Graham and Scott.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    We had a few conflicting things happening at 10:00 a.m. and 
so we started at 10:10 a.m. to make sure our ranking member 
could be with us.
    We have two very distinguished guests with us today from 
the State of South Carolina--Senator Lindsey Graham, Senator 
Tim Scott. The way the order is going to work today, they will 
be introducing our outstanding nominee. They are going to say 
some brief comments. We are going to make some opening 
comments.
    As is the norm, I will not question at first. I will save 
my time for interjections, and we will move directly to Senator 
Cardin. But we welcome our nominee, we welcome our 
distinguished friends, and with that, Lindsey, if you want to 
lead off, we would love to hear from you.

               STATEMENT OF HON. LINDSEY GRAHAM, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Graham. Well, thank you, Mr. Chairman.
    The Chairman. It is a great honor to have you here in our 
committee.
    Senator Graham. Well, thank you. You are probably the only 
one who would say that. So I am--[Laughter.]
    Senator Menendez. I will second it.
    Senator Graham. I am having a hard enough time staying on 
the committees that I am actually assigned to. So I may drop by 
more often. John McCain would be real pleased to see me drop by 
here more often.
    You are going to hear a personal story that I think is 
uniquely American. So as Nikki begins to explain who she is, 
where she comes from, and how she got the job she has got, I 
think you are going to be really proud of our country. And I 
will not get in the way of that story other than to say it is 
one of the most compelling stories in American politics, and 
all of us in South Carolina are proud.
    As to the U.N., I consider myself an internationalist. The 
chairman has been working on trying to deal with modern 
slavery. I think the U.N. is a body that can do a lot of good 
but needs to be reformed. Most Americans are losing trust in 
the body.
    Twenty resolutions against Israel and six against the world 
at large is probably a body that needs to refocus on the world 
as it really is. I think Governor Haley will talk about her 
desire to stand up more forcefully for Israel, and I think it 
is time for America to stand up more forcefully for Israel in 
the U.N.
    She will talk about reform. I am the chairman of the 
Foreign Operations Subcommittee on Appropriations with Senator 
Leahy. We are in charge of the U.N.'s budget, the State 
Department's budget. And let me tell you a little bit about the 
body.
    PEPFAR and other programs that the U.N. administers have 
saved millions of lives. The new Secretary-General, I had a 
long talk with him a couple of days ago, really encouraged by 
his vision for the United Nations. He was in charge of refugee 
programs throughout the world. So he understands the body. He 
has been out in the field.
    And I think Nikki Haley and the new Secretary-General will 
form a partnership that will reform a body that is long 
overdue, and the first thing out of the new Secretary-General's 
mouth was, ``I intend to reform this body to make you more 
proud of the way it functions.'' In that regard, he will have a 
good partner in Governor Haley.
    She has been the Governor of our State in some of the most 
difficult times you could imagine--a thousand-year flood, the 
massacre of nine people in a church in Charleston. She has 
handled some of the most difficult experiences in modern South 
Carolina with grace, poise, determination, and dignity.
    Trust me, it has been a tough year or so for South 
Carolina, and Governor Haley has brought us together and gotten 
us to places we should have been a long time ago. I think that 
skill set is exactly what the U.S. Ambassador to the United 
Nations needs.
    You can learn the details of foreign policy, but you either 
have the ability to persuade people, you have the ability to 
transform organizations, or you do not. Now I have seen her 
persuade people who have dug in for literally centuries about 
now is the time to move the Confederate flag. I have seen her 
bring international business concerns to our State by engaging 
in a fashion to convince them that of all the places you could 
do business in the world, South Carolina is where you need to 
be.
    Bottom line, America's voice in the United Nations needs to 
be strong. It needs to be somebody that can bring people 
together. It needs to be a voice that understands what America 
is all about.
    I think Nikki Haley, our Governor in South Carolina, is the 
right person at the right time. She represents a combination of 
intellect, determination, grace, and the understanding of 
America that the world needs to hear. I know that if she is the 
Ambassador for our country to the United Nations, the United 
Nations will be better off, and our country will be in good 
hands.
    The Chairman. Thank you so much.
    Now I will turn to Senator Scott, who in his very brief 
amount of time here has brought great consciousness, I think, 
to our body and clarity. We thank him for his service, his 
unique perspective on so many issues that we deal with, and we 
look forward to your comments.

                 STATEMENT OF HON. TIM SCOTT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Scott. Thank you, Mr. Chairman, ranking member, and 
members of the committee. It certainly is a pleasure for me to 
be here introducing not only my Governor, but my friend who I 
have gotten to know over many years.
    And her story really is the epitome of the American dream 
coming to life. Her parents migrated from India to Canada and 
then to rural South Carolina back in 1969. Her father, 
brilliant man, college professor. Her mother, an entrepreneur, 
started a clothing boutique store where Nikki figured out how 
to work. Thank her mom for that today.
    According to my staff, and this is perhaps the most 
important part of my introduction, she attended a school in 
upstate South Carolina that in 2015 was the number two football 
team in the country, Cory Booker. [Laughter.]
    Senator Scott. This year, they were the number one team. 
They also are known as the Clemson Tigers, and her daughter is 
a student at Clemson as well.
    She learned how to get along with folks. She learned how to 
study. She learned how to be a student of the things that 
mattered in life. And over time, that transcended everything 
that she did.
    I met Nikki back when I started serving in the South 
Carolina House of Representatives in 2009. She had already been 
there. She served three terms in the South Carolina House of 
Representatives. Before she was in the House, she led the local 
chamber of commerce, becoming the president of the National 
Association of Women Business Owners and was elected in 2004 to 
the South Carolina House.
    I was able to see firsthand the way she embodied the 
American values in her leadership, something that we all have 
grown to love and appreciate about her. In 2010, she became the 
first female Governor of South Carolina and only the second, 
second in the Nation Indian-American Governor in our Nation.
    Under Governor Haley's leadership, South Carolina's 
unemployment rate hit a 15-year record low. New jobs in every 
single county in South Carolina, representing the greatest 
names in industry. From the Boeings of the world to the 
expansions of the BMWs, to the attraction of more investment 
from Michelin, to Bridgestone, Nikki Haley during her term 
created over 82,000 jobs in South Carolina.
    Nikki is also a champion of transparency and accountability 
in government, two things that I and many of us hope to see 
more of at the United Nations. In 2015, as Lindsey has already 
mentioned, during some of the darkest hours our State has ever 
known, the Mother Emanuel massacre, Nikki Haley led not only as 
a Governor, not only as a strong leader, but as a mother, as a 
human being that was impacted by such an atrocity. She led our 
State to come together.
    With those types of leadership skills, bringing people 
together under the worst of times, under the most difficult 
conditions is something that she specializes in. The United 
Nations will be better because Nikki Haley will be a part of 
it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you both. I know that you have other 
business, and you are welcome to go deal with that business, 
but we thank you for being here.
    And Governor Haley, we thank you for putting yourself 
forward. We look forward to your comments in just a moment.
    Governor Haley. Thank you.
    The Chairman. The United Nations Security Council was 
created after World War II to create stability and to maintain 
security in the world, and yet as we look around the world 
today, it is failing in its cause of peace and security. We can 
only look to Syria, where over a half a million people have 
been slaughtered, people have been tortured, chemical weapons 
have been used against people, and yet the United Nations 
Security Council has been unable to do anything to counter what 
has happened there.
    Russia has remade the map by invading Georgia in 2008, 
again in Ukraine, and yet the United Nations has been unable to 
deal with that issue.
    China is violating all kinds of international norms in the 
South China Sea, and yet the United Nations Security Council is 
unable to deal with that issue. As a matter of fact, United 
Nations Security Council has been unable to deal with the 
issues that it has agreed upon, its own resolutions, whether it 
is North Korea and the violations that are taking place and the 
half-hearted efforts that have taken place by members to really 
push and enforce strong sanctions.
    In Iran, we have the same issue where an agreement has been 
reached, and yet Iran continues to violate especially on 
ballistic missiles, something that, again, the United Nations 
Security Council had agreed to.
    And what it has done instead is continue to pursue anti-
Semitic measures. The Permanent Five have two members that 
actually are causing the world to be less safe, and that is 
Russia and China.
    So we have a built-in issue here, where any of those 
permanent five members can veto the actions of the rest and 
keep the United Nations from rightfully dealing with issues 
that need to be dealt with. As a matter of fact, the gap 
between what the United Nations was meant to be and what it has 
become has never been wider at this moment in time.
    The U.S. is the largest contributor, 22 percent of the 
normal dues. We pay 29 percent of the peacekeeping dues or 
participation. We also give billions of dollars to other 
organizations that are affiliated. And yet we see in the 
peacekeeping mission violations of sexual exploitation and 
abuse and yet again, it seems, no real action.
    And yet I believe the United Nations can and should play an 
important role. I believe it is and can play an important role 
in conflict areas in delivering humanitarian aid. But I think 
we are at a pivotal point, and that is why I am excited that 
our nominee is here today.
    While our former Secretary-General, to me, in many cases 
for me it was hard to determine if he even had a pulse when big 
issues were being dealt with by the world, I will say the new 
U.N. Secretary-General, Guterres, seems to me to be somebody 
that really wants the United Nations to do what it was intended 
to do. I had several very strong conversations with him over 
the last several days as the United Nations was dealing with 
some current business, and I have a feeling you are going to 
have a much better partner when confirmed to this position.
    I know that Governor Haley is a fierce advocate for U.S. 
interests. All of us who have met with her in our offices have 
seen that. I really do believe that she is a person that knows 
the United Nations needs tremendous reform and change, and I 
really believe that we have a right to demand that as the 
largest contributor, as the greatest country on Earth. I think 
that our nominee will, in fact, demand that, and I think we 
will, in fact, see very positive changes when she is confirmed.
    And with that, I turn it over to our distinguished ranking 
member and my friend, Ben Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Chairman Corker, thank you for the 
manner in which this hearing has been arranged. Thank you very 
much for all the courtesies that you have shown.
    Governor Haley, thank you. Thank you for being here.
    Governor Haley. Oh, it is my pleasure. Thank you.
    Senator Cardin. It is a very difficult time to serve in 
government, and it is a very difficult time to serve at the 
United Nations and serve in a critically important position for 
our national security and our global affairs. So we thank you 
for being willing to step forward to serve your country.
    I want to thank your husband and son, who are here, because 
this is going to be a family sacrifice. So you are going to 
have to share your mother and your wife with our country and 
with the global community, and we thank you for being willing 
to do that.
    Chairman Corker, you are correct. In the meeting I had with 
Governor Haley, it was most impressive to see Governor Haley's 
passion for U.S. values, and her statements as to how she sees 
the role at the United Nations I found to be very encouraging. 
So I thank you very much for that opportunity.
    International institutions like the United Nations are 
under tremendous stress as is the entire liberal international 
order of the last seven decades. The United Nations plays a 
vital role in the maintenance of the current international 
order, which has served the United States well since 1945. As 
Ronald Reagan said, ``We must,'' in his own words, ``determine 
that the U.N. should succeed and serve the cause of peace for 
humankind, for the stakes are high.'' I could not agree more 
with our former President.
    So we will need a strong, principled voice at the United 
Nations who is committed to reforming and strengthening it. I 
firmly believe in a world where America works with our allies 
and partners, a world that is governed by just laws and 
institutions, a world where we champion our values, both at 
home and abroad. And in many ways, the United Nations is the 
premier international forum to engage in such activities.
    Much will be said about your experience today, and I am 
concerned, I must say, about your lack of foreign policy 
experience, and we will talk a little bit more about that as we 
go through this hearing.
    One area where I was particularly impressed with your 
leadership was when you publicly called for the removal of the 
Confederate flag from South Carolina's State capitol, an effort 
that was ultimately successful. Your actions not only 
demonstrated your willingness to address hate and bigotry, but 
also your ability to build and work with coalitions, which will 
be critically important if confirmed to be our United Nations 
Ambassador.
    It is my hope that your shrewd political sensibility, 
history of coalition and consensus building, and desire to 
undertake new challenges will help you in the early weeks and 
months of your tenure, should you be confirmed.
    If confirmed, you will lead the fight for American values 
at the United Nations by standing up against violations of 
international humanitarian laws, against war crimes, against 
human rights violations, and against crackdowns on democracy 
and freedom of speech.
    You will face complex challenges like today's global 
humanitarian crisis. People are fleeing their homes on a scale 
not seen since World War II, all at a time when climate change, 
food insecurity, and water scarcities are increasing tensions 
and instability across the globe.
    These are challenges that cut across borders that the 
United States alone cannot meet. The United Nations is uniquely 
placed to address these problems, and we must engage it 
robustly to advance America's interests.
    The United Nations and the global community need U.S. 
leadership promoting our core values. The United Nations' 
failings are well known. Less known is what it gets right--
vaccinating 40 percent of the world's children; assisting more 
than 55 million refugees fleeing war, famine, and human rights 
abuses; providing food to 90 million people in 80 countries and 
maternal health work that has saved the lives of 30 million 
women. Many of us have traveled around the world, and we have 
seen the faces of people who are here today and families that 
are here today that would not have been but for the work of the 
United Nations.
    The United Nations has also launched the Sustainable 
Development Goals, which, if fully embraced, could have a 
powerful impact globally on reducing human rights abuses, 
poverty, and poor governance, in addition to reaching important 
benchmarks in women and children's health, economic 
development, and education. I was particularly proud to promote 
the U.S. leadership on Goal Number 16, which is a special and 
unprecedented international commitment to improving governance 
and reducing corruption, which are critically important to U.S. 
national security interests.
    The SDGs, as they are known, are extraordinary and 
ambitious goals that can be achieved in concert with American 
diplomatic and development efforts. They represent among the 
best of what the United Nations can do as a convening power.
    Another dimension of that convening power is the United 
Nations Framework Convention on Climate Change. For 25 years, 
the nations of the world have come together to try to tackle 
the most existential threats to humanity, climate change. There 
has been substantial attention paid to the Paris Accords, and 
rightly so. But Governor Haley, I want to know your thoughts 
about America's larger role in climate diplomacy leadership 
around the world.
    The United Nations can and must be more effective in 
dealing with challenges affecting the world order. U.S. 
leadership is essential. I do not believe we strengthen the 
United Nations by enacting across-the-board funding cuts to the 
United Nations, and yet I do believe we can all agree that the 
United Nations must do better in many areas. For it to achieve 
its full potential, it must change.
    So let me share with you some areas where I hope we can 
work to reform and change the way the United Nations does its 
business. First, the United Nations must be fair. One of the 
persistent weaknesses across the U.N. system has been its 
biased and ugly approach to issues related to Israel. This must 
end.
    The responsibility for doing so starts with the member 
states and our Ambassador, if confirmed, with your voice. The 
United States must continue to use its voice and its vote to 
call out and push back against resolutions and other actions 
that aim to isolate Israel, our unique ally in the Middle East. 
I remain deeply disappointed by the U.N. Security Council's 
passage of a blatantly one-sided resolution this December, and 
it is absolutely unacceptable, though telling, that the 
attendees at that session applauded after Resolution 2334's 
passage, underscoring the isolation and bias against Israel.
    Second, Russia's cynical obstructionism in the United 
Nations Security Council must be addressed. I agree completely 
with Senator Corker. The war in Syria has resulted in more than 
400,000 deaths and the displacement of millions. Russia has 
vetoed six U.N. Security Council resolutions that could have 
reduced the violence, further exposing the vulnerability of the 
international system to Russia's aggression.
    Atrocities committed in Syria amount to war crimes, and 
those responsible must be held accountable. That is our role in 
the international community to make sure that, in fact, takes 
place.
    Third, U.N. peacekeeping must be strengthened. United 
Nations peacekeepers deploy to conflicts around the world, and 
as a result, the United States does not have to do it alone. 
U.N. peacekeepers help end war, protect civilian populations, 
and secure territory. But troop quality and effectiveness must 
be increased, and the United Nations must aggressively address 
sexual exploitation and abuse by U.N. peacekeepers. No other 
issue has so profoundly eroded the trust of local populations 
or the confidence of the international community.
    Fourth, the United Nations must reform its internal 
management through simplification, flexibility, and 
decentralization. It must focus more on quality and less on 
process and on people rather than bureaucracy. It must be 
committed to building a culture of accountability and 
protection of whistleblowers.
    I am confident that the U.S. has a strong partner in reform 
with the new Secretary-General. I agree again with Chairman 
Corker. I think that Secretary-General Guterres represents a 
strong leader who takes this position with a stronger 
background than any previous Secretary-General of the United 
Nations. He led the U.N. refugee agency. I urge you to work 
closely with the new Secretary-General in accomplishing the 
purposes that we need to accomplish.
    Finally, we must shore up the U.N. humanitarian response 
system, which is under extraordinary stress. Brutal conflicts 
and violent extremism are devastating the lives of millions of 
people, but the international assistance being provided is not 
keeping up with the need and scale of the problem.
    South Sudan is a tragic example of the struggles in the 
U.N., and the international system which is faced with corrupt, 
entrenched leaders who put their interests and lives ahead of 
the people with devastating results. Tens of thousands are 
dead, and millions are being displaced, and are hungry and 
vulnerable.
    The Security Council members must resolve to use the U.N. 
as a platform and a voice to speak up for the people whose 
voices often go unheard as well as those working hard on the 
front lines. We must do so not merely because it is the right 
thing to do--the United States has a profound moral obligation 
to lead on these issues--but also because it is squarely in our 
national interest to do this. The United States is better 
served when we address these issues through the United Nations 
than to face it alone.
    For all of its shortcomings and, more importantly, for all 
of the unsung good that it does, it is almost impossible to 
imagine a world without the U.N. For 70 years, it is where the 
world has come together to reaffirm norms and values and work 
through the most pressing shared challenges facing humanity.
    Our national security is strengthened when we are at the 
table at the United Nations, and the United Nations is more 
effective when American leadership and values are on display. 
In a time when the world is in turmoil, it is in the interest 
of the American people for the United States to support and 
maintain cultural alliances, and institutions that create 
stability--they are more important today than ever before. We 
have already seen instability and unrest bring crisis to our 
own doors.
    In addition to the United Nations, there should be little 
debate about the essential role of the Euro-Atlantic 
institutions in maintaining peace and security in Europe and 
elsewhere since the end of World War II. In the 20th century, 
Europe has been divided by wars and rivalries. Today, Europe 
faces its challenges, but the progress in creating a stable and 
free Europe through such institutions as NATO, the EU, and the 
Organization for Security and Cooperation in Europe has 
contributed immeasurably to European peace, stability, and 
prosperity and to the American strength, well-being, and 
leadership in the world as well. The vitality and endurance of 
these institutions serve the interests of the United States.
    So let me just mention one last point. I was particularly 
disturbed by President-elect Trump's comments over the weekend 
about NATO as being obsolete, repeating a statement he had made 
earlier. Vladimir Putin wishes it were, but it is not.
    So I am anxious to hear your views, Governor Haley, on 
NATO, on the importance of our alliances. We need to be 
reassuring our allies, not threatening to abandon them. With a 
strong and sustained U.S. leadership, the United Nations will 
continue to be the indispensable force for a better world. 
America's Ambassador to the U.N. is essential to that effort.
    Governor Haley, I will look forward to hearing from you 
today and learning more about your vision as to how the United 
Nations can better serve the international community.
    Governor Haley. Thank you.
    The Chairman. Well, thank you, Senator Cardin.
    As I listened to your analysis of the United Nations, much 
of which I agree to, I know that being the United Nations 
Ambassador is really more about reform and causing something 
that is dysfunctional to function. And in many ways, having a 
Governor, a Governor with your energies could well be again a 
very--a very inspired choice.
    I know you have a number of family members here. I have 
noticed members always treat nominees with much greater 
kindness when their family members are with them. If you would 
like to introduce them, you are welcome to do so.
    We look forward to your opening comments and questions. 
Again, thank you for being willing to serve in this capacity.

 STATEMENT OF HON. NIMRATA ``NIKKI'' HALEY, OF SOUTH CAROLINA, 
     NOMINATED TO BE U.S. AMBASSADOR TO THE UNITED NATIONS

    Governor Haley. Thank you, Mr. Chairman, and thank you, 
Senator Cardin, for your comments. And I certainly look forward 
to discussing all of those things with you and the rest of the 
committee.
    I do have my family behind me because I have never been 
able to do anything without the support of my family.
    And so, to my left, I have my favorite younger brother, 
Gogi Randhawa, who owns his own business and is an 
entrepreneur.
    I have my parents, Dr. and Mrs. Randhawa, who reminded my 
brothers, my sister, and me every day how blessed we were to 
live in this country.
    I have my amazing husband, but also the coolest first man 
ever, but he is also a combat veteran. Michael is behind me. 
And next to him is one of my pride and joy kids, and that is 
Nalin, who is wearing a suit today, which he would prefer not 
wearing, but he does have his basketball shoes on.
    [Laughter.]
    Governor Haley. So I pick and choose my battles as a mom.
    I have my in-laws, Bill and Carole Haley, who have been an 
amazing support to me and a second set of parents to us as we 
have gone through struggles.
    And then I have my favorite older brother, Mitti Randhawa, 
who is also a combat veteran, and his wife, Sonya.
    And then I have lots of friends behind them as well, and so 
I told them if I started to mess up, one of them needed to act 
like a protester. So we will see if that----
    [Laughter.]
    Governor Haley [continuing]. If that happens.
    The Chairman. I think she is going to do very well at the 
United Nations.
    [Laughter.]
    Governor Haley. So, with that, I would like to say, 
Chairman Corker, Ranking Member Cardin, distinguished members 
of the committee, I come before you today both humbled and 
honored to be considered to represent the United States of 
America at the United Nations.
    Just as other nominees for this position have done, I am 
here to outline my vision and discuss my qualifications. My 
story is an American story. I was born in Bamberg, South 
Carolina, the daughter of immigrant parents from Punjab, India. 
My parents had comfortable lives in India, but they chose to 
give up those comforts and move to America with just $8 in 
their pockets because of the freedoms and the opportunities 
this country offers.
    Our family's experience is unique, but it is also familiar 
because it is one that has been repeated many times by many 
people in American history. Growing up in a small rural 
community in the South, our family was different. We were not 
white enough to be white. We were not black enough to be black. 
My father wore a turban. My mother wore a sari.
    Our new neighbors did not quite know what to make of us. So 
we did face challenges, but those challenges paled next to the 
abundance of opportunities in front of us.
    My dad was a professor at a small historically black 
college. My mom was a social studies teacher and started a 
clothing store from scratch. I started doing the books for the 
family business when I was 13. It was not until I got to 
college that I realized that was not normal. But it was normal 
to me. In my family, we worked.
    I was also privileged to take advantage of the educational 
opportunities that America affords, and I am painfully aware 
that the chance for 13-year-old girls to read and learn and 
grow is something that does not exist in far too many places 
around the world today.
    I went on to serve in the South Carolina General Assembly 
and to be elected and re-elected Governor of the Palmetto 
State. Serving the people of South Carolina has been the 
greatest honor of my life. During the 6 years of my 
governorship, our State has faced many challenges. But South 
Carolina today is stronger economically and more united 
culturally than it has ever been before, and I could not be 
more proud.
    While South Carolina will always be my home, I am eager to 
begin this new chapter. International diplomacy is a new area 
for me. There is much I am learning about the intricacies of 
the U.N. and its associated agencies. I do not claim that I 
know everything or that leadership at the U.N. is the same as 
leading South Carolina.
    But diplomacy itself is not new to me. In fact, I would 
suggest there is nothing more important to a Governor's success 
than her ability to unite those with different backgrounds, 
viewpoints, and objectives behind a common purpose. For 6 
years, that has been my work day after day, in times of 
celebration and in times of great tragedy.
    I have negotiated deals with some of the largest 
corporations in the world and convinced them to make South 
Carolina their home. I have been the chief executive of a 
government with more than 67,000 employees and an annual budget 
of more than $26 billion. And we have achieved real results. 
South Carolina is a different, stronger, better place than it 
was 6 years ago.
    Like most government agencies, the United Nations could 
benefit from a fresh set of eyes. I will take an outsider's 
look at the institution. As I have in every challenge in my 
life, I will come to the U.N. to work and to work smart.
    I will bring a firm message to the U.N. that U.S. 
leadership is essential to the world. It is essential for the 
advancement of humanitarian goals and for the advancement of 
America's national interests. When America fails to lead, the 
world becomes a dangerous place. And when the world becomes 
more dangerous, the American people become more vulnerable.
    At the U.N., as elsewhere, the United States is the 
indispensable voice of freedom. It is time that we once again 
find that voice.
    The job of U.N. Ambassador is different from being 
Governor, but there is one essential element of leadership that 
is the same, and that is accountability. A leader must be 
accountable to the people she serves. Should you confirm me as 
Ambassador, I will be accountable, first and foremost, to the 
people of the United States.
    Mr. Chairman, accountability means being honest with 
ourselves. As I appear before you today, when we look at the 
United Nations, we see a checkered history. The U.N. and its 
specialized agencies have had numerous successes. Its health 
and food programs have saved millions of lives. Its weapons 
monitoring efforts have provided us with vital security 
information. Its peacekeeping missions have at times performed 
valuable services.
    However, any honest assessment also finds an institution 
that is often at odds with the American national interests and 
American taxpayers. Nowhere has the U.N.'s failure been more 
consistent and more outrageous than it is--than its bias 
against our close ally, Israel.
    In the General Assembly session just completed, the U.N. 
adopted 20 resolutions against Israel and only 6 targeting the 
rest of the world's countries combined. In the past 10 years, 
the Human Rights Council has passed 62 resolutions condemning 
the reasonable actions Israel takes to defend its security.
    Meanwhile, the world's worst human rights abusers in Syria, 
Iran, and North Korea received far fewer condemnations. This 
cannot continue.
    It is in this context that the events of December 23rd were 
so damaging. Last month's passage of U.N. Resolution 2334 was a 
terrible mistake, making a peace agreement with the Israelis 
and the Palestinians even harder to achieve. The mistake was 
compounded by the location in which it took place in light of 
the U.N.'s long history of anti-Israel bias.
    I was the first Governor in America to sign legislation 
combating the anti-Israel Boycott, Divest, and Sanctions, or 
the BDS movement. I will not go to New York and abstain when 
the U.N. seeks to create an international environment that 
encourages boycotts of Israel.
    In fact, I pledge to you this. I will never abstain when 
the United Nations takes any action that comes in direct 
conflict with the interests and values of the United States.
    In the matter of human rights, Mr. Chairman, whether it is 
the love of my family's and America's immigrant heritage or the 
removal of a painful symbol of an oppressive past in South 
Carolina, I have a clear understanding that it is not 
acceptable to stay silent when our values are challenged. I 
will be a strong voice for American principles and American 
interests, even if that is not what other U.N. representatives 
want to hear. The time has come for American strength once 
again.
    There are other elements of accountability as well. As 
Governor, the South Carolina constitution required me to report 
annually to the people of my State on how their security and 
prosperity were being advanced by their government. In fact, I 
gave that State of the State address just one week ago.
    I was able to tell the citizens of South Carolina that we 
now invest more dollars in public education than ever before, 
that our reserves have doubled while our debt service has been 
cut in half, and more South Carolinians are working today than 
ever in the history of our State.
    Without fundamental changes at the U.N., I cannot envision 
making the same kind of report to the American people as their 
Ambassador. We contribute 22 percent of the U.N.'s budget, far 
more than any other country. We are a generous nation. But we 
must ask ourselves what good is being accomplished by this 
disproportionate contribution? Are we getting what we pay for?
    To your credit, the Congress has already begun to explore 
ways the United States can use its leverage to make the United 
Nations a better investment for the American people. I applaud 
your efforts, and I look forward to working with you to bring 
seriously needed change to the U.N. If I am confirmed, I will 
need you, and I hope to have your support.
    In short, Mr. Chairman, my goal for the United Nations will 
be to create an international body that better serves the 
interests of the American people. After the passage of the 
infamous U.N. resolution equating Zionism with racism in 1975, 
U.S. Ambassador Daniel Patrick Moynihan came to the unsettling 
realization that, as he put it, ``If there were no General 
Assembly, this could never have happened.''
    Today, over 40 years later, more and more Americans are 
becoming convinced by actions like the passage of Resolution 
2334 that the United Nations does more harm than good. The 
American people see the U.N.'s mistreatment of Israel, its 
failure to prevent the North Korean nuclear threat, its waste 
and corruption, and they are fed up.
    My job, our job is to reform the U.N. in ways that will 
rebuild the confidence of the American people. We must build an 
international institution that honors America's commitment to 
freedom, democracy, and human rights. I hope this can be done. 
I believe it is possible. And I know that if you confirm me, I 
will do all I can to see that that happens.
    Some say we live in cynical and distrustful times, but I 
believe we all carry in our hearts a bit of idealism that 
animated the creation of the United Nations. I know I do.
    With your blessing, I will represent our great country in 
this international forum. I will do it in ways that I hope 
bring honor to our country, our values, and our national 
interests.
    Thank you very much for your time.
    [The Governor Haley's prepared statement follows:]


         Prepared Statement of Governor Haley of South Carolina

    Chairman Corker, Ranking Member Cardin, distinguished members of 
the committee, I come before you today both humbled and honored to be 
considered to represent the United States of America at the United 
Nations. Just as other nominees for this position have done, I am here 
to outline my vision and discuss my qualifications.
    My story is an American story. I was born in Bamberg, South 
Carolina, the daughter of immigrants from Punjab, India. My parents had 
comfortable lives in India, but they chose to give up those comforts 
and move to America with just eight dollars because of the freedoms and 
opportunities this country offers. Our family's experience is unique, 
but it is also familiar, because it is one that has been repeated many 
times, by many people, in American history.
    Growing up in a small rural community in the South, our family was 
different. We were not white enough to be white, not black enough to be 
black. My father wore a turban, my mother a sari. Our new neighbors 
didn't quite know what to make of us, and so we faced challenges. But 
those challenges paled next to the abundance of opportunities in front 
of us.
    My Dad was a professor at a small, historically black college. My 
Mom was a social studies teacher and started a clothing store from 
scratch. I started doing the books for the family business when I was 
thirteen. It wasn't until I got to college that I realized that wasn't 
normal, but it was normal to me--in my family, we worked. I was also 
privileged to take advantage of the educational opportunities America 
affords. I am painfully aware that the chance for thirteen-year old 
girls to read and learn and grow is something that does not exist in 
far too many places around the world today.
    I went on to serve in the South Carolina General Assembly and to be 
elected and reelected governor of the Palmetto state. Serving the 
people of South Carolina has been the greatest honor of my life. During 
the six years of my governorship, our state has faced many challenges, 
but South Carolina today is stronger economically and more united 
culturally than it has ever been before. I couldn't be more proud.
    While South Carolina will always be my home, I am eager to begin 
this new chapter.
    International diplomacy is a new area for me. There is much I am 
learning about the intricacies of the U.N. and its associated agencies. 
I don't claim that I know everything, or that leadership at the U.N. is 
the same as leading South Carolina.
    But diplomacy itself is not new to me. In fact, I would suggest 
there is nothing more important to a governor's success than her 
ability to unite those with different backgrounds, viewpoints, and 
objectives behind a common purpose. For six years that has been my 
work, day after day, in times of celebration and in times of great 
tragedy.
    I have negotiated deals with some of the largest corporations in 
the world, and convinced them to make South Carolina their home. I have 
been the Chief Executive of a government with more than 67,000 
employees and an annual budget of more than $26 billion. And we have 
achieved real results. South Carolina is a different, stronger, better 
place than it was six years ago.
    Like most government agencies, the United Nations could benefit 
from a fresh set of eyes. I will take an outsider's look at the 
institution. As I have in every challenge in my life, I will come to 
the U.N. to work--and to work smart.
    I will bring a firm message to the U.N. that U.S. leadership is 
essential in the world. It is essential for the advancement of 
humanitarian goals, and for the advancement of America's national 
interests. When America fails to lead, the world becomes a more 
dangerous place. And when the world becomes more dangerous, the 
American people become more vulnerable. At the U.N., as elsewhere, the 
United States is the indispensable voice of freedom. It is time that we 
once again find that voice.
    The job of U.N. Ambassador is different from being a governor, but 
there is one essential element of leadership that is the same, and that 
is accountability. A leader must be accountable to the people she 
serves. Should you confirm me as Ambassador, I will be accountable, 
first and foremost, to the people of the United States.
    Mr. Chairman, accountability means being honest with ourselves. As 
I appear before you today, when we look at the United Nations, we see a 
checkered history.
    The U.N. and its specialized agencies have had numerous successes. 
Its health and food programs have saved millions of lives. Its weapons 
monitoring efforts have provided us with vital security information. 
Its peacekeeping missions have, at times, performed valuable services.
    However, any honest assessment also finds an institution that is 
often at odds with American national interests and American taxpayers.
    Nowhere has the U.N.'s failure been more consistent and more 
outrageous than in its bias against our close ally Israel. In the 
General Assembly session just completed, the U.N. adopted twenty 
resolutions against Israel and only six targeting the rest of the 
world's countries combined. In the past ten years, the Human Rights 
Council has passed 62 resolutions condemning the reasonable actions 
Israel takes to defend its security. Meanwhile the world's worst human 
rights abusers in Syria, Iran, and North Korea received far fewer 
condemnations.
    This cannot continue.
    It is in this context that the events of December 23 were so 
damaging. Last month's passage of U.N. Resolution 2334 was a terrible 
mistake, making a peace agreement between the Israelis and the 
Palestinians harder to achieve. The mistake was compounded by the 
location in which it took place, in light of the U.N.'s long history of 
anti-Israel bias.
    I was the first governor in America to sign legislation combatting 
the anti-Israel Boycott, Divest, and Sanction, or ``BDS'' movement. I 
will not go to New York and abstain when the U.N. seeks to create an 
international environment that encourages boycotts of Israel. In fact, 
I pledge to you this: I will never abstain when the United Nations 
takes any action that comes in direct conflict with the interests and 
values of the United States.
    In the matter of human rights, Mr. Chairman, whether it's the love 
of my family's and America's immigrant heritage, or the removal of a 
painful symbol of an oppressive past in South Carolina, I have a clear 
understanding that it is not acceptable to stay silent when our values 
are challenged. I will be a strong voice for American principles and 
American interests, even if that is not what other U.N. representatives 
want to hear. The time has come for American strength once again.
    There are other elements of accountability as well.
    As governor, the South Carolina constitution required me to report 
annually to the people of my state on how their security and prosperity 
were being advanced by their government. In fact, I gave that State of 
the State address just one week ago. I was able to tell the citizens of 
South Carolina that we now invest more dollars in public education than 
ever before, that our reserves have doubled while our debt service has 
been cut in half, and that more South Carolinians are working today 
than at any point in our state's history.
    Without fundamental changes at the U.N., I cannot envision making 
the same kind of report to the American people as their Ambassador. We 
contribute 22 percent of the U.N.'s budget, far more than any other 
country. We are a generous nation. But we must ask ourselves what good 
is being accomplished by this disproportionate contribution. Are we 
getting what we pay for?
    To your credit, the Congress has already begun to explore ways the 
United States can use its leverage to make the United Nations a better 
investment for the American people. I applaud your efforts, and I look 
forward to working with you to bring seriously needed change to the 
U.N. If I'm confirmed, I will need you, and I hope to have your 
support.
    In short, Mr. Chairman, my goal for the United Nations will be to 
create an international body that better serves the interests of the 
American people.
    After the passage of the infamous U.N. resolution equating Zionism 
with racism in 1975, U.S. Ambassador Daniel Patrick Moynihan came to 
the unsettling realization that, as he put it, ``if there were no 
General Assembly, this could never have happened.'' Today, over forty 
years later, more and more Americans are becoming convinced by actions 
like the passage of Resolution 2334 that the United Nations does more 
harm than good. The American people see the U.N.'s mistreatment of 
Israel, its failure to prevent the North Korean nuclear threat, its 
waste and corruption, and they are fed up.
    My job--our job--is to reform the U.N. in ways that rebuild the 
confidence of the American people. We must build an international 
institution that honors America's commitment to freedom, democracy, and 
human rights.
    I hope this can be done. I believe it is possible. And I know that 
if you confirm me, I will do all I can to see that it happens.
    Some say we live in cynical and distrustful times. But I believe we 
all carry in our hearts a bit of the idealism that animated the 
creation of the United Nations. I know I do.
    With your blessing, I will represent our great country in this 
international forum. I will do it in ways that I hope bring honor to 
our country, our values, and our national interests.
    Thank you very much.


    The Chairman. Thank you for those comments.
    We will begin a 7-minute round, including answers from the 
nominee, and we will start with Senator Cardin and go to 
Senator Johnson.
    Senator Cardin. Thank you, Mr. Chairman.
    Governor Haley, first of all, thank you for your 
presentation. I find it very encouraging, very refreshing. You 
have hit points that I strongly agree with--about not staying 
silent when our values are challenged. You indicated that to me 
when we were together in my office--and made your point about 
America being the indispensable voice of freedom.
    So I am very encouraged by your statement. So let me get 
specific, if I might, and talk a little bit about Russia. 
Russia certainly has not been a voice for freedom under 
President Putin.
    A free country has free and fair elections and does not 
interfere with other countries' free and fair elections. Russia 
has not only interfered with our elections, they are 
interfering with other elections, including in Europe.
    A country that believes in freedom allows civil societies 
to function. It allows opposition a fair opportunity. Mr. Putin 
imprisons his opponents and kills them, if need be.
    A free country does not invade another country and take 
over territory. Russia has invaded not just Ukraine but is in 
Georgia and Moldova and other countries.
    My first question to you, involves speaking up when you say 
that you will and your statement that staying silent is not an 
option, so speak to me about Mr. Putin and Russia.
    Governor Haley. Well, thank you, Senator Cardin, for that 
question, and I think that Russia is going to continue to be at 
the forefront of a lot of issues that we have to deal with.
    What I will tell you is Russia is trying to show their 
muscle right now. It is what they do. And I think we always 
have to be cautious. I do not think that we can trust them. I 
think that we have to make sure that we try and see what we can 
get from them before we give to them.
    They certainly have done some terrible atrocities when you 
look at things in Syria and how they are working with Iran, and 
I think that we have to continue to be very strong back and 
show them what this new administration is going to be. And it 
is going to be an America that shows exactly where we stand, 
what we are for, what we are against, and how we are going to 
proceed.
    And I think that we need to let them know we are not okay 
with what happened in Ukraine and Crimea and what is happening 
in Syria, but we are also going to tell them that we do need 
their help with ISIS and with some other threats that we all 
share, that we have to move forward.
    Senator Cardin. Does Russia have legitimacy in Crimea?
    Governor Haley. I do not think--I think what we saw with 
Crimea and Ukraine is a big concern because I think it is 
Russia trying to make sure that they are inserting themselves 
in places that they want to continue to insert themselves. The 
problem is there is no boundaries with Russia. They do not have 
boundaries. They consider that whatever they want, they will.
    It is the same thing with NATO. They do not want to see 
NATO become stronger or more powerful.
    Senator Cardin. But the EU and the United States have made 
it clear they will never recognize Russia's incursion into 
Crimea. Do you agree that Crimea is Ukraine? It is not Russia.
    Governor Haley. I do, and I think that we have to make that 
very clear to them. And I think that is what we have to show is 
our disappointment in those things.
    Senator Cardin. And talk to me a little bit about the 
sanctions we currently have against Russia.
    Governor Haley. We do.
    Senator Cardin. We have been able to get Europe to go along 
with those sanctions.
    Governor Haley. Yes.
    Senator Cardin. Do you agree that those sanctions should 
not be at all reduced or eliminated until Russia complies with 
the Minsk Agreement?
    Governor Haley. I think that Russia has to have positive 
actions before we lift any sanctions on Russia.
    Senator Cardin. Some of us have filed legislation to 
strengthen the sanction regime against Russia--getting 
additional tools, additional power to impose additional 
sanctions. Do you support additional sanctions if Russia does 
not change its behavior?
    Governor Haley. I think that what I do believe is important 
is that we get together with the National Security Council and 
the President-elect, and we decide a plan for Russia--what we 
expect from them, what we plan on looking at as we go forward, 
what violations will trigger additional sanctions. And when we 
say it, we should do it and follow through with it.
    Senator Cardin. The Philippines have been an ally of us for 
a long time. Under their current president, they have 
sanctioned extrajudicial killings. People have been killed that 
have not gone through court proceedings because they are 
suspected of using drugs. Do you agree that that violates basic 
human rights?
    Governor Haley. I am sorry. I missed the first part of that 
question.
    Senator Cardin. The President Duterte of Philippines----
    Governor Haley. Yes.
    Senator Cardin [continuing]. Has sanctioned extrajudicial 
killings.
    Governor Haley. Right.
    Senator Cardin. Does that violate basic human rights?
    Governor Haley. It does, yes.
    Senator Cardin. And you are prepared to speak up about that 
in the United Nations?
    Governor Haley. Yes, I am. I am prepared to speak up on 
anything that goes against American values, and the American 
values is something that we should talk loudly about all the 
time to all countries because I think it is the values that we 
hold dear, and it is at the core of what the United States 
American heart is all about. We have always been the moral 
compass of the world, and we need to continue to act out and 
vocalize that as we go forward.
    Senator Cardin. I mentioned the Sustainable Development 
Goal 16, good governance. I talked to you about expanding that 
so that the United States' leadership in good governance, 
fighting corruption, would use the model that we have used in 
regards to fighting modern-day slavery and trafficking. Will 
you work with us and in your role in the United Nations to 
strengthen the U.S. role in fighting corruption globally?
    Governor Haley. Absolutely. I think that is who we are as 
Americans, and I think that is what we need to do to make sure 
that we continue to fight corruption. Because if we fight 
corruption, we will move closer to peace.
    Senator Cardin. There has been some suggestion of a 
national registry for subgroups of Americans. It has been 
talked about in regards to Muslim Americans that perhaps there 
should be a registry. Could you just tell us your view as to 
whether it is acceptable to have a registry for subgroups of 
Americans?
    Governor Haley. Thank you, Senator Cardin, for that 
question because I think it goes to maybe some discussions that 
had been had by President-elect Trump early on, and this 
administration and I do not think there should be any registry 
based on religion. I think what we do need to do is make sure 
that we know exactly which countries are a threat, which ones 
have terrorism, and those are the ones that we need to watch 
and be careful and vet as we go forward in terms of who comes 
into the country.
    Senator Cardin. I understand vetting people who come to 
America. I am talking about American citizens. Is there any 
justification for any registry of subgroups of Americans?
    Governor Haley. No, there is not.
    Senator Cardin. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Johnson.
    Governor Haley. Thank you, Senator.
    Senator Johnson. Thank you, Mr. Chairman.
    Governor Haley. Good morning.
    Senator Johnson. Governor Haley, welcome.
    Governor Haley. Thank you.
    Senator Johnson. I want to thank you for your willingness 
to serve. The testimony from your State Senators and outlined 
in your own testimony here, you have been a very effective 
leader in South Carolina. So you are obviously going to be 
leaving a State you love, a job you have performed well in, 
taking on a pretty significant challenge.
    It is striking, quite honestly, to listen to the chairman 
lay out point by point how ineffective the U.N. has been, how 
Ranking Member Cardin says that the U.N. must change. It must 
be fair. People must be held accountable.
    In your testimony, you point out going back 40 years, then-
Ambassador Daniel Patrick Moynihan said if there were no 
General Assembly, this could never have happened.
    So you are taking on a challenge here to reform a U.N. that 
has been unreformable. Do you have a game plan for doing so?
    Governor Haley. It is what I have done all my life. I love 
to fix things, and I see a U.N. that can absolutely be fixed. 
There are reforms that need to be taken place in a lot of 
different areas. There are things that the U.N. does well, and 
we talked about the food and health organizations, what they 
have done with the AIDS epidemic. All of those things have been 
very good.
    But we have to look at certain issues. If you look at we 
have 16 peacekeeping operations. Some are very successful. Some 
are not. And we need to go back and look at when we get into a 
mission, what is the end goal? Is it happening? Do we need to 
shift and do things differently, or do we need to pull out?
    You look at Sierra Leone, and you see it started off rocky, 
but it ended up very strong. If we look at South Sudan, it is 
terrible. But you also have to look that we are not getting 
cooperation from their own government, and that requires us to 
go back and look at that and see what can be salvaged from 
that.
    So I see peacekeeping reform from the standpoint of not 
just those issues, also when it comes to the whistleblower 
issues. We have seen fraud. We have seen sexual exploitation. 
We have seen corruption of all kinds. And the whistleblower 
protections are not strong enough. People are still too afraid 
to speak up.
    We need to make sure that the countries that are 
contributing troops hold those troops accountable when they go 
and make these violations. That is not happening, and they need 
to understand that if we have to pull out their country's 
troops altogether, we will do that. Because many of those 
countries actually make money off of the peacekeeping missions.
    And so I do see lots of areas of reform that need to 
happen, but that is where I thrive. That is what I look forward 
to is making real change at the U.N.
    Senator Johnson. So to a certain extent, what you are 
describing is shining light on these situations, sexual 
exploitation, highlighting that to hopefully effect change and 
reform. In testimony, you also talked about leverage, and that 
would be the funding that the U.S. provides.
    Would you have a particular game plan in terms of how we 
would use U.N.--or U.S. funding to the U.N. to gain that 
leverage to actually enact some reforms that, again, that have 
been pretty hard to enact over the last 40 years?
    Governor Haley. Absolutely. I think that we need to go into 
every part of the organizations of the U.N., but one in 
particular is you can look at the Human Rights Council, and you 
have to really question what is the goal of the Human Rights 
Council when they allow Cuba and China to serve on those? They 
basically are protecting their own interests while they are 
going after other countries to make sure that they give them a 
hard time.
    And so do we want to be a part of that? Do we want to 
leverage funding for that and say we do not want to do that? We 
have done that with UNESCO before, and we have also--you know, 
we have got decisions to make on those types of organizations.
    And so I do think it can be leveraged, and I do think it is 
something that we should be open about, and it is something I 
look forward to exploring further.
    Senator Johnson. So you will not shy away from threatening 
and actually enacting, withholding U.S. funding to get real 
reforms out of the U.N.?
    Governor Haley. I will not shy away, and I need your help 
to do it. Because I need to be able to say that I have Congress 
backing me up, saying that if this does not change, the funding 
will stop. And I think that that could be great leverage.
    Senator Johnson. I agree with your assessment of the real 
harm, the damage of the most recent anti-Israel resolution. 
What can we do to repair the damage? Have you given that any 
thought?
    Governor Haley. I have given it a lot of thought, and I 
think it is going to take time, and I think it is going to take 
effort by more than just me.
    First, we need to go and make sure that we let Israel know 
that we are an ally and that we will be an ally, and it is 
important because what happened with Resolution 2334, it 
basically said that being an ally to the United States does not 
mean anything. And if we are a strong ally, if we always stand 
with them, more countries will want to be our allies, and those 
that challenge us will think twice before they challenge us.
    What we saw with 2334 was it not only sent a bad signal to 
Israel, it told the entire world that we do not stand with 
anyone. And I think that that was a terrible mistake, and we 
have to come out strong. We have to be incredibly vocal. We 
need to probably fight harder than we have fought before.
    And it will not just be me. It needs to be from this 
Congress. It needs to be from the National Security Council. It 
needs to be from the President-elect, and we need to speak with 
one voice.
    Senator Johnson. I was in Israel the Sunday before that 
resolution, and I had about an hour-long meeting with Prime 
Minister Netanyahu, and we talked about that. Tried to push 
back on it, but I do not think there is anything we could have 
done to deter this administration from basically poking a stick 
in his eye and Israel's eye.
    I certainly saw the consulate there in Jerusalem. Have you 
taken a position, would you support moving the embassy from Tel 
Aviv into that consulate? It is really just a matter of 
changing a sign.
    Governor Haley. Absolutely.
    Senator Johnson. Is that something you--would that be one 
of the actions we can take to repair the damage of that 
resolution?
    Governor Haley. Absolutely. Not only is that what Israel 
wants, but this Congress has also said that that is what they 
support.
    Senator Johnson. So we have talked about U.N. reforms. We 
have talked about repairing the damage of that U.N. What other 
priorities, moving into this position, would you really 
concentrate on?
    Governor Haley. I think the biggest part is how we 
represent America going forward. We need to represent our 
country from a point of strength. We need to remind the rest of 
the world that we are the moral compass of the world, and we 
need to express our values as we go forward.
    We need to let them know that we are not one that is going 
to be gray anymore. When we say something, that is where we 
stand. And when we say we are going to do something, we need to 
follow through and do that.
    And I think that we--the strength that we show from the 
beginning and the way we handle it through our actions and my 
work with the Security Council and how we move forward dealing 
with other countries is going to do that.
    Senator Johnson. Well, again, Governor Haley, thank you for 
being willing to serve. We look forward to working with you to 
effect those reforms.
    Governor Haley. Thank you, Senator.
    Senator Johnson. Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chair.
    And Governor Haley, congratulations on your nomination.
    Governor Haley. Thank you. Good morning.
    Senator Menendez. Thank you for stopping by to visit with 
me. I think everybody here is impressed by your personal and 
professional story, and certainly, nobody doubts your 
commitment to public service.
    Governor Haley. Thank you.
    Senator Menendez. However, the world in which we live in is 
complex, and the United Nations is an enormous organization 
with a wide mandate in which we have to carefully navigate our 
own interests, those of our allies, confront direct and 
indirect threats, and build consensus around some of the most 
confounding and complex problems.
    So with that in mind, I would like to ask you a broad set 
of questions. I think some of these can be yes or noes, others 
may require a little bit more of an answer, and then move to 
some specific areas.
    Do you believe it is in the national interests and security 
of the United States to continue to preserve and promote the 
international rules-based order that we created after World War 
II?
    Governor Haley. In terms of----
    Senator Menendez. Of our national interests and security, 
to continue to promote and preserve the international order and 
rules-based structure we created after World War II?
    Governor Haley. Yes, sir. I do.
    Senator Menendez. Do you believe that as part of that 
rules-based structure, the inviolability of borders and 
territorial sovereignty is an essential part of that?
    Governor Haley. I think that--are you referencing Israel 
and the Palestinian Authority, or are you----
    Senator Menendez. No. I am just saying in general, as part 
of the rules-based order, do we--do you believe that the 
inviolability of borders of a nation and its territorial 
sovereignty is an essential element of that?
    Governor Haley. I do.
    Senator Menendez. Okay. And do you believe that there 
should be serious consequences for violation of the 
international order?
    Governor Haley. Again, I believe it is up to the 
circumstance, but yes.
    Senator Menendez. Okay. So when you say ``up to the 
circumstance,'' what circumstances of violations of the 
international order would you believe there are not serious 
consequences for, and which ones should there be serious 
consequences for?
    Governor Haley. So I think with every situation, it is 
important that we discuss it with the National Security 
Council, with the President-elect, and we have a plan. What we 
do not want is knee-jerk reactions. What we do not want is just 
quick answers to things. We should have a plan on every 
situation so that we know what our end goal is and what our 
mission is.
    Senator Menendez. I would hope that there are some things 
that are so overarching that we do not have to convene the 
National Security Council to say that is a violation of the 
international order. For example, do you believe that Russia 
violated the international order when it annexed Crimea and 
invaded Ukraine?
    Governor Haley. Yes, I do.
    Senator Menendez. Do you believe there should be serious 
consequences for such actions?
    Governor Haley. I think there should be consequences that 
we say, but if we are going to do that, we need to follow 
through on them and make sure they happen.
    Senator Menendez. I agree with you. We should always follow 
through. But you do believe there should be serious 
consequences for violating that.
    Governor Haley. Yes. Yes.
    Senator Menendez. So in that regard, we have a series of 
sanctions that have been levied against Russia. Many members of 
this committee and others in a bipartisan basis have been 
promoting a new round of sanctions because of what they have 
continued to do in that regard, what they have done in Syria, 
what they have done in trying to interfere in our own domestic 
elections.
    And my question to you is do you believe that those 
sanctions that are there should be preserved until there is a 
dramatic change by Russia? Do you believe that they should be 
enhanced? Knowing what we know today, forgetting about what may 
happen tomorrow, what is your view on sanctions as it relates 
to Russia?
    Governor Haley. I certainly think they should be preserved, 
and I do not think they should be lifted unless we have seen a 
strong change from the Russian government.
    Senator Menendez. Okay. Do you believe that Russia 
committed war crimes when it ultimately indiscriminately bombed 
civilians in Aleppo and hospitals in Aleppo?
    Governor Haley. Yes, I do.
    Senator Menendez. Let me ask you this. When you sat with 
the President-elect, I assume that in taking this role that has 
a global magnitude to it, you had some discussions about what 
the role would be like and what not. Did you discuss Russia 
with him?
    Governor Haley. We discussed, basically, the international 
situation, and I think that the President-elect is coming in, 
again, with a fresh set of eyes. He wants to look at each and 
every country. He wants to look at all of the threats that face 
us, and I think that he wants to work with the national 
security team to come up with a plan with each and every one.
    Senator Menendez. Did you specifically discuss Russia with 
him, though, as part of that?
    Governor Haley. Russia came up. Yes, it did. Just from the 
standpoint of that we were going to have issues with Russia.
    Senator Menendez. Uh-huh. There were no greater specificity 
than that?
    Governor Haley. No, sir. There was not.
    Senator Menendez. Did you discuss China?
    Governor Haley. Yes, we did.
    Senator Menendez. Uh-huh. And in what context was that 
discussion?
    Governor Haley. The same thing. Just it was more about the 
issues that we had and the countries we were going to have them 
with, but it did not go into detail as to what those were going 
to be.
    Senator Menendez. These two countries obviously are 
Security Council members----
    Governor Haley. Yes, they are.
    Senator Menendez [continuing]. And part of your challenge 
is getting them not to be using their vetoes in ways that 
actually have undermined, in my view, the international order 
versus promote it. You know, I totally agree with you when in 
your opening statement you said U.S. leadership is essential in 
the world, essential for the advancement of humanitarian goals, 
advancement of America's national interests, and when we fail 
to lead, the world becomes a more dangerous place.
    But I read some of the President-elect's comments that seem 
nothing short of denigrating towards our international 
commitments and international organizations like the U.N. I 
could read a litany of tweets, but I will just choose two. 
``When do you see the United Nations solving problems? They do 
not. They cause problems.'' Then at the flip side of that, he 
says ``China is filling the vacuum left by Obama at the U.N.''
    So it is either an entity that is worthy of being used to 
help promote U.S. national interests and security interests, or 
it is not. And if you are worried about ``China filling the 
vacuum,'' it is because there is something worthwhile to pursue 
because you do not care about losing and having a vacuum filled 
if the entity is of no value.
    So my question is how do you reconcile those comments with 
concerns that if the United States pulls back at the U.N. that 
China will fill the void? Have you talked to the President-
elect about the value and the effort that you are willing to 
undertake, leave your governorship and go to undertake in terms 
of making the U.N. as a strong institution that will promote 
our national security?
    Governor Haley. I have talked to the President-elect about 
that, and when this position came up, he said that he wanted me 
to have a very strong voice in the U.N. And he wanted us to 
have a higher profile in the U.N. and to really use it to work, 
and so I do think that, obviously, you know, any comments that 
the President-elect has made, those are his comments.
    What I will tell you from my standpoint is I think that we 
need to go back to what the U.N. was intended to be. And we 
host the U.N., and that should give us great leverage in the 
way that we handle that. We are going to be dealing with some 
tough partners on the Security Council, you know, whether it is 
China, whether it is Russia, those that do veto. But we also 
have to remember, we have a veto. So we can keep bad things 
from happening.
    The other side of that is we still need both those 
countries. We are going to need their help. We need China's 
help when it comes to North Korea. We need Russia's help when 
it comes to ISIS. We have got to find ways to let them know 
when we disagree with them, we should not be afraid to say when 
we disagree with them.
    When we need to work with them, we should tell them exactly 
what the end goal is and how we need to work with them. And the 
way we will get those vetoes not to happen is to show how it is 
in their best interests for their country to make sure they do 
that.
    You see China right now pulling away from North Korea a bit 
because they see the missiles that are being built. They know 
what is happening, and we just have to encourage them this is 
not good for China. And then when you do that, that is when we 
can start seeing more pressure being put on North Korea.
    Senator Menendez. Thank you, Mr. Chairman.
    Governor Haley. Thank you.
    The Chairman. Thank you. Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you, Governor for----
    Governor Haley. Thank you.
    Senator Gardner [continuing]. Your willingness to serve. 
And thank you to your family for being here today. And thank 
you for your leadership during a time of shame in this country 
and tragedy in South Carolina. You made America proud for your 
action.
    Governor Haley. Thank you. Thank you very much.
    Senator Gardner. Last week we had an opportunity to hear 
from Rex Tillerson, the nominee for Secretary of State, who 
talked about the importance of U.S. global leadership.
    Governor Haley. Yes.
    Senator Gardner. We had a great interaction about the need 
for the U.S. to share our values around the globe because 
nobody else will do it. In his testimony, he talked about 
security. He talked about liberty. He talked about prosperity 
and the great need to share those values because, in his words, 
he said, ``We are the only country able to protect--to project 
those values with authority.''
    In 1950 in the observance of the fifth anniversary of the 
creation of the United Nations, President Truman stated that, 
``The United Nations represents the idea of a universal 
morality, superior to the interest of individual nations. Its 
foundation does not rest upon power or privilege. It rests upon 
faith. They rest upon the faith of men and human values, upon 
the belief that men in every land hold the same high ideals and 
strive toward the same goals for peace and justice. This faith 
is deeply held by the people of the United States of America, 
and, I believe, by the peoples of all other countries.''
    It seems like we have a United Nations today composed of 
people that are pretty far from the idea and the vision that 
President Truman outlined. It is this idea of faith of men and 
human values. The faith of men and human values apparently in 
Russia is illegal annexation of Crimea. Human values to North 
Korea means torturing its own people, 200,000 people in 
political concentration camps. Values--human values in Iran 
mean the leading sponsor of terrorism around the globe.
    The United Nations recently, as we have talked about here, 
passage of Resolution 2334, and I encourage everybody here to 
watch the video of the reaction of the Security Council after 
the United States abstained from our leadership. Raucous 
applause broke out in the Security Council. Contrast that with 
the passage of Resolution 2270 at the Security Council, passage 
of a sanction against North Korea that has hundreds of 
thousands of people in political concentration camps killing 
its own people, torturing its own people, starving its own 
people, and there was silence. The world apparently applauds 
when we attack our ally, but sits by silently when we condemn 
dictators.
    So, to you, Governor Haley, how does the United States 
continue to project our values in the absence that we have 
shown the last eight years to assure that we are going to be 
indeed working with the world on those ideas that Rex Tillerson 
laid out of security, prosperity, and liberty?
    Governor Haley. You know, I think that so much of this goes 
back to the fact that the world has seen us gray. They have not 
seen a black and white of where we stand and where we do not 
stand. We need to stand, and we need to stand strong. The world 
wants to see a strong America. That is what they were used to. 
That has faded, and it hit the ultimate low with Resolution 
2334, because when it shows that we will not will not even 
stand with our allies, that is a sad day in America, and it is 
a sad day for us in the world.
    I do think that what we will now start to do is show our 
strength. We will not be afraid to stand up. When we decide to 
make an action, we are going to follow through with it, and we 
are going to make sure that that is known. And I do not think 
we will be shy about the values of America and about what we 
are trying to achieve in bringing peace to the world. And we 
have to be loud and strong about that, and I intend to do that.
    Senator Gardner. Thank you, Governor Haley. And we have 
talked about the importance of projecting that strength of 
leadership.
    Governor Haley. Yes.
    Senator Gardner. And I want to talk a little bit about 
alliances. Your role is particularly important to be the face 
and voice of the United States and that commitment to our 
allies. Organizations, alliances, such as NATO, matter, and 
matters greatly. And so, is it--is it your commitment to 
strengthen our global alliance, strengthen alliances like NATO 
through the work that you carry out at the United Nations?
    Governor Haley. Absolutely. We need as many allies and 
alliances as we can possibly get. At this point, it is not a 
numbers game. It is about addition because if we go and do 
sanctions, sanctions just by the U.S. does not work. Sanctions 
when we combine and work with alliances, that makes progress. 
And so, so much of what I look forward to doing is not just 
expressing the ideals of the United States and where we stand 
and the agreements and disagreements that we have. It is also 
building coalitions so that we look so strong, everyone wants 
to be our ally.
    Senator Gardner. And when it comes to calling out in public 
forums at the United Nations, no matter what country they are 
in, no matter where they are in the globe, when a dictator is 
corrupt, when a dictator abuses human rights, we will call it 
as we see it. You will not be afraid to do that. Is that 
correct?
    Governor Haley. You should ask the people of my General 
Assembly in South Carolina. I have no problem calling people 
out.
    Senator Gardner. Very good. Thank you, Governor Haley. Last 
Congress, Senator Menendez and I worked together on passage of 
the North Korea Sanctions Policy Enhancement Act. It is the 
first standalone, mandatory legislation on North Korea this 
Congress signed into law. It mandated sanctions on North 
Korea's ability to proliferate. It sanctions human rights 
violations and abuses. Just last week additional sanctions were 
levied by the administration, and it sanctioned for the first 
time ever mandatory cyber sanctions, requiring them to be put 
in place. In 2016, the Obama administration led and helped with 
those two security resolutions through addressing North Korea.
    Have we effectively enforced the North Korea Sanctions--
enforced sanctions on North Korea? We effectively made sure 
that they are effective as well as United Nations sanctions, 
the 2270 Resolution. Have they been effectively enforced.
    Governor Haley. I do not--sanctions are only as good as if 
you enforce them, and clearly there is more to do in North 
Korea. And when a line is crossed, to not say anything is going 
to be a problem. And so, I think North Korea is definitely one 
to watch. I think we are going to have to work closely with 
China to show the threat of what is happening.
    And we cannot let up on North Korea. What we are seeing 
right now is production of nuclear weapons, and he does not 
care. He is going to continue to do it, and we have to continue 
to make sure that we are making our voices loud, that we are 
talking about North Korea, and that we continue to put the 
pressure on China and other countries to make sure that North 
Korea does start to slow down.
    Senator Gardner. And what should we do with China in order 
to get them more active in enforcing the sanctions against 
North Korea and their ability to help de-nuclearize the North 
Korean regime?
    Governor Haley. I think that North Korea has started to do 
that themselves because China is now nervous, and China has 
already started to pull back economically. And China has the 
greatest threat to North Korea, and they know that.
    And so, what we have to do is let China know this affects 
China. This affects their region of the world. This affects us. 
Not talk about it within our--from our results and what it will 
do to the United States. Talk about it in terms of China, and 
really encourage them to say you are the one that can make a 
difference here. And I think that we just push them in that 
direction.
    Senator Gardner. Thank you.
    Governor Haley. Thank you.
    The Chairman. Absolutely. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman and Governor 
Haley.
    Governor Haley. Good morning.
    Senator Shaheen. Congratulations on your nomination.
    Governor Haley. Thank you very much.
    Senator Shaheen. Thank you for spending some time with me 
yesterday.
    Governor Haley. I enjoyed it. Thank you.
    Senator Shaheen. Me too. And as I said to you then, I have 
been impressed by your work as the governor of South Carolina.
    Governor Haley. Thank you.
    Senator Shaheen. And I very much appreciate in your 
statement your commitment to the U.S. leadership in the world, 
and to your comments about--your conversation with the 
President-elect about being a strong voice at the U.N. for the 
United States.
    But I have to say that unfortunately, as strong as I 
believe our ambassador to the U.N. can be, the President's 
words are often taken with much more weight. And I am disturbed 
by some of the President-elect's comments that are different 
than those positions you have enunciated here about the 
institutions that the United States helped create after World 
War II, about the U.N. He recently called it in a tweet just a 
club for people to get together and talk and have a good time.
    In interviews this weekend, he criticized NATO. He was 
amazingly nonchalant about the future of the European Union and 
the Transatlantic Alliance. And I see the potential for real 
negative consequences because of that failure to recognize 
those institutions that have helped promote the security of the 
United States, and have helped--have helped us as we have tried 
to lead in the world.
    So, I appreciate that you have said that you have the ear 
of the President and that you will be part of the national 
security apparatus. I think that is very important. But how 
will you avoid the conflict between your efforts at the U.N. 
and the Security Council and the President-elect's tweets, 
his--the positions that he is taking on many of the issues that 
will come before the Security--the United Nations?
    Governor Haley. You know, I think that what the President-
elect has put out there are his opinions as they stand now. 
What I do think is going to happen is I look forward to 
communicating to him how I feel, as I do--I know the rest of 
the National Security Council does as well. It is important 
that we have alliances. I know the President-elect realizes 
that. It is important that we create coalitions, and I know 
that he realizes that as well.
    And so, his comments are really coming from the fact that 
he does have a fresh set of eyes. He is looking at those 
things. But my job is not just at the U.N. My job is to come 
back to the National Security Council and let them know what I 
know, which is I want to bring back faith to the U.N. I want to 
show that we could be a strong voice in the U.N. I want to show 
that we can make progress and have action in the U.N. That is 
going to happen from my actions and from the things that I do. 
And that is how I will show him that the U.N. matters.
    NATO obviously has been an alliance that we value, an 
alliance that we need to keep. And I think that as we continue 
to talk to him about these alliances and how they can be 
helpful and strategic in the way that we move forward, I do 
anticipate that he will listen to all of us, and hopefully that 
we can get him to see it the way we see it.
    Senator Shaheen. Well, so do you agree with his suggestion 
that Vladimir Putin has been a stronger, better leader than 
Angela Merkel?
    Governor Haley. I think that what he is looking at, just 
like he is looking at associations, he is looking at 
opportunities, and he is trying to find opportunities where he 
can relate to different leaders and work with different 
leaders. That is not a bad thing.
    Senator Shaheen. It is not a very good way to relate to 
Angela Merkel.
    Governor Haley. No, it is not, and I agree with you on 
that. But I do think that is where he is trying to go is see 
what relationship he can have with a lot of different leaders. 
And I think our goal is pull out the best we can in who we can 
deal with without having to talk negatively about someone else.
    Senator Shaheen. I was--I appreciated your comments about 
disagreeing with the idea of a registry for any particular 
group in the United States, for Muslims. In the past you have 
criticized then candidate Trump for proposing a ban on all 
Muslims traveling to the United States. Do you continue to 
believe that that is unconstitutional?
    Governor Haley. Yes, I do, and I made that clear during 
that time just as I always speak up when I think something is 
wrong. But I do want to add that the President-elect has 
corrected his statement and said that he does not believe there 
should be a full ban on Muslims. He does believe that we should 
be conscious as we are looking at the refugee crisis and 
otherwise that we do not take people from many areas of threat.
    Senator Shaheen. Today about 60 percent of all maternal 
deaths take place in humanitarian situations like refugee camps 
or areas that have been affected by conflict, and in these 
settings, women and girls are often cut off from healthcare. 
You pointed out in your statement that you appreciate the 
challenge that so many young women and girls face around the 
world in terms of access to the advantages we have in the 
United States.
    Many of those lives have been saved and can be saved with 
access to proper care, including prenatal care, voluntary 
family planning, and skilled birth attendants. And the United 
Nations Population Fund is the world's leading provider of 
lifesaving care for mothers and their babies in humanitarian 
settings. They with the World Food Program, with UNICEF, with 
the UNHCR.
    So, if confirmed, would you continue to support those 
efforts by UNFPA?
    Governor Haley. I will support any efforts that help 
educate, help plan, help let them know what contraceptions are 
in place so that we can avoid any other further action. I am 
strongly pro-life, and so anything that we can do to keep from 
having abortions or to keep them from not--knowing what is 
available, I will absolutely support.
    Senator Shaheen. Well, I very much appreciate that because 
I think sometimes the idea of access to family planning 
services is conflated with abortion, and it is a very different 
issue.
    Governor Haley. Right.
    Senator Shaheen. And this is a way to avoid abortions, 
unplanned pregnancies.
    Governor Haley. Absolutely. You are quite right.
    Senator Shaheen. So, thank you very much for that comment.
    As governor of South Carolina, you took the position that 
Syrian refugees were not being properly vetted, and so you 
questioned whether they should be allowed to settle in South 
Carolina. As ambassador to the U.N., the U.S. has had a role in 
galvanizing global support for refugees. Do you see that the 
position--how will you be able to resolve the position that you 
have taken in South Carolina with your new role as ambassador 
when it comes to refugees?
    And I am out of time.
    The Chairman. Very briefly.
    Governor Haley. It is hard to give a brief answer to that, 
but I will say that, first of all, our refugee program in this 
country is one that is valued and has done a lot of good. And 
when it comes to refugees, we have to remember those that we 
have always tried to help, those that have been persecuted for 
any reason.
    I will give a personal story in that my husband when he was 
deployed to Afghanistan, there were two interpreters that kept 
his unit safe, and they kept them without harm. When it was 
time for that unit to leave, those two interpreters staying, 
they would have been killed. And so, what the refugee program 
rightly does is it allowed them to go through and vet those 
interpreters. Those interpreters are now in the United States. 
They are now having jobs and contributing members of society.
    The issue with the refugees in terms of the Syrians, as 
governor of South Carolina, we always welcomed the refugee 
program. It changed when it came time to the Syrian refugees, 
and that was at a time where I did have a conversation with 
Director Comey, and I said tell me if this is any different 
than the way we have handled it before. And that is when 
Director Comey said we do not have enough information to vet 
these refugees. And I said, so you cannot vet them the same way 
you vet others, and he said we do not have the information. And 
that is when I said we cannot take refugees from Syria until I 
know that I can protect the people of South Carolina.
    Senator Shaheen. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Governor Haley. Thank you.
    The Chairman. Before moving to Senator Young, Senator Rubio 
asked me a question a minute ago. I know that this has nothing 
to do with today's hearing. But a lot of committees swear 
nominees and witnesses in and have them stand up and do that, 
and some do not. Whether they do that or not, they are bound by 
exactly the same obligations to Congress in that you have to 
tell the truth when you are in front of a committee. I know it 
came out relative to the last hearing we had, and I just wanted 
to make sure everyone understood that.
    Senator Young.
    Senator Young. Thank you, Chairman, and thank you, 
Governor.
    Governor Haley. Good morning.
    Senator Young. Good morning, and thank you for your service 
in the past and your interest in continuing to serve.
    Governor Haley. Thank you.
    Senator Young. Article 1, Section 8 of the Constitution 
grants to Congress the power to declare war. Going to war, of 
course, is one of the most serious decisions a nation can make, 
and the founders explicitly gave that authority to make the 
decision to the American people through their elected 
representatives. The U.S. has not declared war since World War 
II, and instead have periodically relied on authorizations of 
the use of military force.
    Two and a half years after we started bombing ISIS in Iraq, 
Congress still sits on the sidelines in terms of exercising 
this most important responsibility. We are instead relying on a 
2001 authorization for the use of military force. It strains 
credibility at best and I think sets a dangerous precedent.
    Perhaps some are concerned about going on the record in 
support or in opposition to the war against ISIS. Our 
warfighters and their families, like your husband, have 
demonstrated incredible courage in taking the fight to 
terrorists. I believe members if members of Congress show just 
a fraction of their courage, we can fulfill our constitutional 
duty to vote on an AUMF focused on ISIS. Friends and foes alike 
should know that our Nation is all in when it comes to taking 
the fight to ISIS and other groups.
    So, I know Senator Kaine has been actively engaged on this 
issue. Others have been involved in this fight for some time. I 
understand that details and wording matter of such an 
authorization or declaration as it were.
    I just want to go on the record early and clearly here in 
the Senate that I am in favor of Congress showing courage in 
exercising its constitutional responsibility with respect to an 
AUMF focused on ISIS. Do you believe, with that long lead in, 
that Congress should pass an AUMF, an authorization for the use 
of military force, against ISIS?
    Governor Haley. Well, understand that any time--first of 
all, Congress does have that authority, and that is an 
authority that should be respected always. I think that when 
you talk about any sort of war or any sort of military 
interference, it is important to have a plan, and it is 
important to have an end goal. I say that as the wife of a 
military combat veteran. I say that as a sister, because 
families, once they send their loved ones into harm's way, they 
want to know that Congress and the President-elect has a plan.
    And so, with that, ISIS is an extreme threat to America and 
the rest of the world. I do think that they have to be dealt 
with. I just think it needs to be done responsibly, knowing 
that we have measurables on what we are looking for, where the 
end goal is, and knowing exactly where the start and stop is.
    Senator Young. Okay. I wanted to see how you thought 
through that issue. I agree with measurables. That takes me to 
another topic with the understanding that we cannot defeat or 
take on the world's ills through hard power alone.
    Governor Haley. Agreed.
    Senator Young. It is a mix of hard and soft power in order 
to counter what has been called violent extremism by the U.N. 
and by the United States. We are going to have to certainly 
defeat the perverse--perverted ideology of radical Islam, and 
do so by engaging in and winning the war of ideas.
    So, based on your preparation for this hearing, what is 
your assessment of the U.S. government and the United Nations' 
current performance in the war of ideas abroad against Islamic 
terrorists' ideology, and what do you specifically think needs 
to be improved? Back to measuring success, how do we measure 
success in the war of ideas?
    Governor Haley. Well, I think that, first of all, we need 
to speak with one voice, and that is something that has not 
happened. I think it needs to be the President-elect, I think 
it needs to be the National Security Council, and I think it 
needs to be Congress along with the U.N., that when we say this 
is a problem, then we follow through with it, and we finish 
what we start. I think that is incredibly important. And that 
way when we are all speaking with one voice, the rest of the 
world knows this is serious to us. We mean business, and we are 
not going to stop until it is resolved.
    Senator Young. How will you divine what that one voice is? 
Will it be based on legislative, sort of, resolutions coming 
out of Congress? Will it--and legislation signed into law by 
the President, directives of the of the executive branch that 
you will take with you to the United Nations? Is that how you 
will determine what that----
    Governor Haley. My hope is that the President----
    Senator Young [continuing]. Voice is that you would echo?
    Governor Haley [continuing]. My hope is that the President-
elect, the National Security Council, and Congress work 
together to decide what that looks like, because I think that 
is very important. If in any way any country in the world or 
ISIS sees a break in any of us, that will show us weak, and I 
think we need to all stand together and be very strong if we 
are going to go take this on and finish it.
    Senator Young. And then to measure success, how do we 
measure success in the war of ideas?
    Governor Haley. When they are no longer a threat and when 
they are no longer causing harm to Americans.
    Senator Young. Are there any incremental success measures--
public opinion polling, surveys? Those come to mind for me, but 
I am sure there are probably some other sophisticated tools.
    Governor Haley. It is hard to find anyone in America today 
that does not understand the threat of ISIS.
    Senator Young. Okay. In your prepared statement, you cite 
some of the failures of the United Nations, and they are 
multifaceted: mistreatment of Israel, preventing the North 
Korean nuclear threat. I think the failure to act on Syria also 
belongs on the long list of U.N. failures. Hundreds of 
thousands of Syrians have been killed. Half the country's 
population has been uprooted. Much of the infrastructure lay in 
ruins. This is a genocide.
    Governor Haley. Absolutely.
    Senator Young. I do not think we remind the American people 
and the international community frequently enough that a 
genocide has occurred here. Would you agree the U.N. Security 
Council has failed with respect to the Assad regime and the 
catastrophe in Syria? Yes or no.
    Governor Haley. Yes.
    Senator Young. In your opinion, why did the U.N. Security 
Council fail to act more forcefully with respect to the Assad 
regime and the catastrophe in Syria?
    Governor Haley. I look forward to getting into the U.N. and 
finding out why they think hitting Israel is so much more 
important than dealing with Syria.
    Senator Young. Well, I think it is because Russia 
consistently employed a veto. Russia vetoed at least six U.N. 
Security Council resolutions focusing on the Assad regime. You 
indicated Russia committed war crimes in Syria I believe in the 
hearing here today. I am glad you acknowledged that. Do you 
agree that both at the U.N. in New York and on the streets of 
Aleppo, Moscow has acted as an active accomplice in Assad's 
murder of his own people?
    Governor Haley. Yes, I do.
    Senator Young. All right. Thank you.
    The Chairman. Thank you. If I could, I cannot let this 
pass. It would be my observation, and everybody has their own, 
that the AUMF issue has nothing whatsoever to do with courage. 
Nothing. That if there was an authorization for the use of 
force that gave the President all means to fight ISIS and that 
was it, and it was, like, 12 words, you would have, like, 11 
votes. And if you add one that said he can use all means, but 
you cannot do this, you cannot do this, you cannot do this, and 
you can only go into X countries, it would have 10 votes.
    And so, the fact is that there is a divide, and we have an 
authorization that is legal, that everybody has come before our 
committee has said is legal. And at a time when we did not want 
to show division as it related ISIS, it just seemed it was 
better, instead of getting to a hung place here, it was better 
to stand behind what most people believe to be a perfectly 
legal basis upon which to fight ISIS. But I am more than 
willing to take it up.
    There is a divide about whether the Commander-in-Chief 
should have all means available to him to fight ISIS. It is a 
philosophical divide. And I would just say one more time--I say 
it strongly--has nothing whatsoever to do with courage.
    Senator Cardin. Could I--Mr. Chairman, if I could just--I 
agree with everything the chairman said there. I just want to 
go on record as saying that, except for one point. And that is 
there is serious concern as to whether the current 
authorization used by the Obama administration and potentially 
to be used by the Trump administration covers the military 
actions that they have pursued. There is a serious challenge 
about that.
    The Chairman. Yeah, there is, and, you know, the 
administration has made their point. I happen to have agreed 
with that point. I do want to say that Senator Kaine and 
Senator Flake have brought this issue up several times. I am 
more than willing to engage in a discussion. I just think that 
when you are going to authorize the President to do something, 
it is best for Congress not to micromanage what is being 
authorized in that regard.
    There is disagreement there, and that is something that we 
might flesh out. But I just want to say one more time, the 
courage issue hits a nerve. Nothing whatsoever. As a matter of 
fact, sometimes it takes courage to do the things that make 
sure that people see our country as being unified and not 
divided over something that I know we are unified on. Everybody 
on this panel wants to see us defeat ISIS.
    There are some issues we may want to resolve, but we are 
unified in that regard. And showing division is not something 
that I feel is particularly good for our country to do at this 
time, but I am more than willing to debate it. You might want 
to say one other thing.
    Senator Young. Yes. To the extent I offended or impugned 
the courage of any of my colleagues, I, of course, want to go 
on record and say that was not the intent. But I do think that 
we will have to lay into this issue, continue to very publicly 
exchange views on it. And I do think that that requires courage 
because it is an uncomfortable topic to broach.
    So, thank you. With that, I yield back.
    The Chairman. Thank you so much. Senator Udall.
    Senator Udall. Thank you very much, Mr. Chairman. And 
Governor Haley, thank you very much for coming to my office and 
sharing your views. And it is great to have you here today, and 
great to have your family here. And I want to thank your 
husband and your older brother for their service in the 
military. You obviously have an impressive story here to tell, 
and we appreciate you being here.
    Governor Haley. Thank you.
    Senator Udall. I am a--I am a very strong supporter of the 
United Nations, and I believe that strong U.S. leadership is 
needed to ensure that the United Nations remains a viable 
institution in the future. I have been extremely alarmed by 
some of the President-elect Trump's derisive comments about the 
U.N., and I am very concerned that his statements have harmed 
our efforts in that body. And it is good to see that you are 
clarifying some of those.
    The most discouraging is that he has insinuated or allowed 
the perception that the United States will no longer take a 
leadership role, and you are saying today, I think, that you 
are going to assert that role. That he would have cut off 
funding and would end our participation and important aspects 
of the U.N.
    This is not a formula for success. U.S. leadership is 
paramount. If we left a political vacuum, it would likely be 
filled by countries that might not necessarily share our 
interests, such as Russia and try and China. I hope that I am 
mistaken, and I hope you will be an advocate for U.S. 
participation in the United Nations, and I believe you have 
stated that here today.
    It is very clear that Russia attempted to influence our 
election. If you are confirmed to serve as ambassador to the 
U.N., will you stand up to Vladimir Putin and against Russia's 
attempt to interfere with our electoral system?
    Governor Haley. We should stand up to any country that 
attempts to interfere with our system.
    Senator Udall. And what will your message to your Russian 
counterpart on the Security Council be with regard to their 
attempts to influence the U.S. elections?
    Governor Haley. That we are aware that it has happened, 
that we do not find it acceptable, and that we are going to 
fight back every time we see something like that happening. I 
do not think Russia is going to be the only one. I think we are 
going to start to see this around the world with other 
countries. And I think that we need to take a firm stand that 
when we see that happens, we are not going to take that softly. 
We are going to be very hard on that.
    Senator Udall. And your--it sounds like you are going to 
stand strong and tough on this.
    Governor Haley. Without question.
    Senator Udall. Now, last September, the world passed a 
milestone in carbon emissions reaching 400 parts per million. 
2016 I think was also the hottest on record in terms of our 
climate. We are moving closer to more--a more unstable climate 
future, a future that could threaten my home State of New 
Mexico with heat waves and dangerous droughts, and your state 
with increased coastal flooding and perilous storms. And that 
threatens stability, I think, across the globe. And a lot of 
people talk about climate refugees. We have talked about other 
kinds of refugees here.
    Do you agree that the United States is indispensable and 
must maintain its leadership in the Paris Agreement in order to 
ensure that countries abide by their climate obligations?
    Governor Haley. I think that the climate change situation 
should always be on the table. It should always be one of the 
issues that we look at. But I do think that when we look at the 
Paris Agreement, we should acknowledge what we do believe it is 
right, but we do not want to do it at the peril of our 
industries and our businesses along the way. As governor of 
South Carolina, what you would see is we would work really hard 
to recruit a company to--from another country, and then by the 
time they saw the regulations and the burdens that were put 
down on them, they started to pull back. We do not ever want to 
interfere with our economy.
    But I absolutely think that climate change should always be 
on the table as one of the factors that we talk about.
    Senator Udall. But you are not one to say you are going to 
tear up the Paris Agreement, and the United States, which has 
helped to bring all these countries together and for the first 
time in a generation, we have countries together that you are 
going to walk away from that.
    Governor Haley. I think that we want to work on the things 
that we believe work, can benefit the world and the United 
States. But if we do see burdens that are costing our 
businesses, then I do think that that is something that I would 
not agree with.
    Senator Udall. Well, are you--are you--are you committed to 
stay a part of the Paris Agreement and work towards climate 
change objectives and goals?
    Governor Haley. Climate change will always be on the table 
for me.
    Senator Udall. Now, we talked earlier about U.N. Resolution 
2334. This was a resolution about Israeli settlements. These 
settlements have been greatly expanded in recent years. The 
settlement dispute goes way, way back many, many years. In 
fact, Ronald Reagan said in 1982, and this is his statement: 
``The United States will not support the use of any additional 
land for the purpose of settlements during the transitional 
period. Indeed, the immediate adoption of a settlement freeze 
by Israel, more than any other action, could create the 
confidence needed for a wider participation in these talks.''
    That position on settlements has been a bipartisan policy 
of the United States going back to President Johnson. Are the 
settlements that break up the possibility of a future 
contiguous Palestinian state harmful to achieving a two-state 
solution in your opinion.
    Governor Haley. I think what was very harmful to achieving 
a two-state solution was Resolution 2334, because the whole 
goal has been to have Israel and the Palestinian Authority at 
the table talking. That should be the role of the United 
Nations, and as we go forward, is to support that. When we 
basically abstained from 2334, we made Israel more vulnerable. 
We made America more vulnerable and that we do not stand by our 
allies.
    We need to let the two bodies resolve this themselves. That 
is what has always taken place. And I think it is dangerous 
when the U.N. starts to tell two different bodies what should 
and should not happen.
    Senator Udall. Well, you--all those things you said were 
also in Samantha Power's statements. But are you committed on 
settlements to the bipartisan policy that has stood for over 50 
years in this country----
    Governor Haley. I understand.
    Senator Udall [continuing]. The U.N., the bipartisan policy 
our country has taken on settlements?
    Governor Haley. I do understand the issue on settlements. I 
will continue to--I do understand how they think that could 
hinder peace, but at the same time I will always stand with 
Israel and make sure that they know we are an ally and the rest 
of the world knows that we are an ally.
    Senator Udall. But the question is, are you committed to 
the bipartisan policy on settlements----
    Governor Haley. Yes, I am.
    Senator Udall [continuing]. And the expansion of 
settlements? Thank you very much.
    The Chairman. Thank you. I think, if I understand 
correctly, what she is saying is she supports a two-state 
solution, but understands the parties themselves have got to 
resolve it. And the U.N. Security Council inserting themselves 
into that process, as it has been, can be very detrimental.
    Governor Haley. Yes, thank you.
    Senator Udall. Mr. Chairman? Mr. Chairman, the statement, 
and I would like to put the full statement of our U.N. 
ambassador, Samantha Power, in the record at this point.


    [The information referred to is located in the Additional 
Material Submitted for the Record section of this transcript 
beginning on page 133.]


    Senator Udall. She said specifically what you have said. 
The United States supports this two-state solution, many of the 
things that our ambassadorial designate say here. But the issue 
of the resolution--the issue of the resolution was about an 
expanded settlement policy. And she has committed to stand with 
that bipartisan policy, which I believe you answered the 
question yes when I said----
    Governor Haley. Well, I----
    Senator Udall [continuing]. Are you going to stand with the 
bipartisan policy that has this--not only this administration, 
but every administration since President Johnson has supported 
on the expansion of settlements?
    Governor Haley [continuing]. And I want to clarify because 
I do not want there to be any gray in this. What I think 
happened with 2334 was a kick in the gut to everyone. And so, 
we can think what we want to think on settlements, but you have 
to go back to the fact that the U.S. abstention, when that has 
not happened since 2011 at all, against Israel was wrong. And I 
think the fact that we have not allowed the Palestinian 
Authority and Israel to resolve this themselves is wrong. And I 
think for the U.N. to have inserted themselves into that, I 
believe is wrong.
    So, I want to make sure that I am clear on record as to 
saying what I think about Resolution 2334.
    The Chairman. I appreciate it. I think there may be some 
factual dispute about your last statement, and I think we had 
some discussion about that in committee. I just want to--I do 
not want to leave that last statement hanging without a retort. 
And with that, Senator Flake.
    Senator Flake. Thank you. Thank you, Mr. Chairman.
    Governor Haley. Good morning.
    Senator Flake. Good morning. Thank you for your testimony. 
Thanks for coming to my office and visits that you have made, 
and appreciate also your family.
    Governor Haley. Thank you.
    Senator Flake. It is great to have them here, and 
appreciate the sacrifices they have made in the past for your 
public service and will make in the future, as well as their 
military service for our country.
    I have seen examples of the U.N. working well, and 
obviously seen examples of dysfunction. I happened to spend a 
year of my life and my family, we went to the country of 
Namibia in 1989 to see U.N. Resolution--Security Council 
Resolution 435 be implemented, April of 1989 to April of 1990, 
and watched where the U.N. can work and work well. That was a 
process by which Namibia achieved its independence from South 
Africa. That resolution was passed a decade earlier, and it was 
finally implemented then. And Namibia is a fine democracy 
today, much owing to the United Nations and the role that the 
Security Council resolution played there. And so, I have seen 
it work.
    But also, you mentioned in your testimony many examples of 
the dysfunction, and a lot of that has to do with the General 
Assembly, or UNESCO, and other organizations, but also plenty 
of dysfunction with the Security Council. And the failure, as 
has been mentioned, to take a position and take a stand with 
regard to Syria will, I think, be judged harshly by history.
    Governor Haley. That is right.
    Senator Flake. But let me talk just a bit about 
peacekeeping. We have seen examples where peacekeeping has 
worked as well. U.N. peacekeeping forces on the Golan Heights, 
for example, for years kept the peace there. A lot of 
peacekeeping now is done obviously on the continent of Africa. 
I have a particular interest obviously there.
    The U.N.--the U.S. contributes $2.6 billion peacekeeping--
in peacekeeping activities. That is about 28 percent of the 
entire U.N. budget. It is about 22. But peacekeeping, as you 
know, it is a more--even more of a disproportionate number. The 
next highest is China with just 10 percent.
    We talked a little bit earlier on about South Sudan and the 
situation there. That is an area where peacekeeping is not 
working well. The focus of the mission there has been changed a 
bit. We are trying to make sure that, I think, the quote is 
``protection of civilians, human rights monitoring, support of 
delivery of humanitarian assistance, and implementation of the 
cessation of hostilities agreement.'' That is not going well.
    What can we do to make the situation better there? That is 
a particular focus of our peacekeeping activities.
    Governor Haley. With South Sudan?
    Senator Flake. Yes.
    Governor Haley. You know, I think that, first of all, we 
should look at all 16 of them. Secondly, I do want to point out 
that we are pushing on 29 percent for the peacekeeping budget. 
And according to the Helms-Biden Act, it really should be at 25 
percent, and we need to be conscious of that.
    First of all, I think what is very important is we have to 
start encouraging other countries to have skin in the game. 
They have to start being a part of the peacekeeping process, 
because by doing that, they will want to see more transparency. 
They will want to see more accountability in the way that 
peacekeeping missions are handled.
    When you look at South Sudan, I think there is something to 
be said that we have to make sure that the security is already 
in place when we go to do a peacekeeping mission. The 
peacekeeping officials are not meant to fight. They are not 
meant to get involved or take sides on anything. They are there 
to keep the peace. And so, our goal should be go in, keep the 
peace, get it settled, and get out.
    And what we are seeing in South Sudan is the government 
does not agree with the fact the peacekeepers are there. And 
so, that is a problem, and we need to know that if we are doing 
good, we want to stay. If we are not doing good, then we need 
to get out. And I think it is extremely hard to see that the 
government is against us because it is kind of going against 
what we are trying to do with the peacekeeping mission to start 
with.
    Senator Flake. You mentioned 16 peacekeeping operations. 
Nine of those are in Africa.
    Governor Haley. Yes, they are.
    Senator Flake. The last six that have been approved by the 
Security Council are in Africa as well. And I am happy to hear 
that you are going to delve in and see how we are doing with 
those. What other metrics can be used--I know Senator Young 
mentioned that--in terms of whether or not we are getting bang 
for the buck out of our involvement?
    Governor Haley. You know, it is one of those where you do 
have to decide before you even take on a peacekeeping mission 
if it is something that can see success, if we can get to a 
resolution. And I think that part of that is making sure that 
there is a secure base to start with, making sure that we are 
taking care of things.
    If you look at the peace missions in Africa, it has been 
devastating to see this sexual exploitation, the fraud, the 
abuse that is happening. And we have to acknowledge that some 
countries are contributing troops because they are making money 
off of that. And so, if they are not willing to make sure that 
they are punishing the violators, then we need to actually pull 
that country's troops out because they are harming the peace 
process.
    The last thing we want is for U.N. peacekeepers to go into 
a country, and for people to be scared, and for people to be 
vulnerable, and I think we are seeing that right now, and 
mostly in Africa. And I think that is a problem because once we 
have transparency of how this money is being spent, then we can 
bring accountability to the actions that are being taken, 
strengthen the whistleblowing process, and make sure that we 
are actually doing what was intended to do.
    And I think this is extremely important because when we 
start to become more transparent and accountable, we will start 
to see the waste of the dollars, and you will not see the U.S. 
putting 29 percent in. You will see them putting in less than 
25, and we will see countries starting to really have skin in 
the game, which I think is hugely important if we are going to 
continue peacekeeping missions.
    Senator Flake. Well, thank you. I am glad to hear you 
knowledge the problems that have--we have had with these 
peacekeeping missions. To see the sexual abuse and whatnot 
going on there is just devastating.
    Governor Haley. It is.
    Senator Flake. And you are right, for those countries in 
which peacekeepers are there, not to have trust in the U.N. 
process there is devastating. So, I hope that we are more 
proactive to make sure the offending countries with troops 
there are dealt with more quickly. And I appreciate the 
testimony and look forward to--for the discussion.
    Governor Haley. Thank you very much.
    The Chairman. Thank you. Without objection, I am going to 
ask that we go ahead and enter into the record U.N. Security 
Council Resolution 2334 so everyone can discern for themselves 
what it actually said.


    [The information referred to is located in the Additional 
Material Submitted for the Record section of this transcript, 
beginning on page 129.]


    The Chairman. Senator Murphy.
    Senator Murphy. Thank you, Mr. Chairman. Thank you, 
Governor Haley, for being willing to serve. Thank you for your 
history of speaking truth to power. I enjoyed the time we spent 
together discussing some of the issues you are going to face. 
Appreciate you being here before the committee.
    And so, I say this respectfully. I sort of feel like the 
hearings we have had, this hearing and hearing on Secretary of 
State nominee Tillerson, have occurred in an alternate 
universe. I hear loud and clear what you are saying about 
needing for the United States to be clear about where we stand 
and strong in our values, and I think that Mr. Tillerson used 
the same phrasing over and over again And I think we would all 
agree that those should be goals of U.S. foreign policy.
    But President-elect Trump has downplayed Russian attempts 
to influence our election. He has suggested that NATO is 
obsolete. He has openly rooted for the breakup of the European 
Union. He has lavished praise on Vladimir Putin and refused to 
commit to continuing sanctions. He has criticized one of our 
most important allies in the world, Chancellor Merkel. He has 
promised to bring back torture, and he has called for Japan and 
South Korea to take a look at obtaining nuclear weapons because 
they probably cannot rely on our security guarantee any longer.
    And so, I hear what you are saying, but can you understand 
why right now the world perceives the Trump administration's 
foreign policy to be the exact opposite of ``clear about where 
we stand and strong in our values?'' I hear you are saying, but 
can you understand why the world perceives the foreign policy 
to be the exact opposite of what you are articulating it will 
be?
    Governor Haley. I understand that anytime there is a new 
administration, there is always nervousness, and there is 
always concern. It happened with President Obama. It has 
happened with presidents before that. That is something that is 
just natural. It is natural to the world to all watch the 
United States, because we are such a leader, to see who would 
who's going to follow it.
    It is also natural for a candidate or an incoming President 
to look at everything and to say things. Once you govern, it 
becomes very different. And I think that what we have seen is 
that once the President-elect gets to hear from his national 
security team, I think what he says after that will be most 
important. And I think those are the focuses that we are going 
to have with the National Security Council and making sure that 
we educate, inform him of what we know, inform him of 
strategies, and then go along with whatever decision he decides 
to make.
    Senator Murphy. And I heard a version of this in your 
answer to Senator Shaheen. So, you believe that after two years 
of suggesting radical changes regarding U.S. policy about 
conveying really muddled messages about where we stand, that is 
all going to change after Friday?
    Governor Haley. Not all of that will change after Friday. 
But what I know is I am going to control the part that I can, 
and what I can control is the U.N. And so, I am going to use 
the power of my voice in the U.N. to talk about America's 
ideals, and our values, and our strength, and our freedoms.
    I am going to talk to the President-elect about the U.N. 
and the opportunities for strategy in dealing with Russia, and 
China, and North Korea, and Syria as we go forward. And I think 
that we are going to have a lot of opportunities to make that 
better. And I do think that my counterparts as well are going 
to inform the President-elect's on what they are seeing.
    And so, you know, that is how an administration works. You 
surround yourself with people who do not just say yes to what 
you think. They actually challenge you and they tell you of 
other opinions, and what I know about the President-elect is he 
actually will listen.
    Senator Murphy. Let me--let me ask you about the future of 
the U.N. You have a lot of Democrats in South Carolina that do 
not get what they want all the time from the state legislature 
and from their governor. And so, would you advise Democrats in 
the state legislature in South Carolina to boycott the state 
legislature if they do not get what they want, or for 
registered Democrats in South Carolina to stop paying their 
taxes if they do not get what they want from the state 
government?
    Governor Haley. Well, we have laws in place so they cannot 
just stop paying their taxes, or they will deal with that. 
Legislators have been known to do whatever they want, and I as 
governor, I have seen that happen. So, it is two totally 
different things.
    Senator Murphy. I guess you understand why I am making the 
point. The reason that we invest in the U.N. is not because we 
expect to win every fight. It is not because we expect to have 
our views prevail, but because we think it is important to have 
a deliberative body in which differences can be expressed out 
in the open rather than always dealt with behind closed doors.
    And the risk of pulling funding because the United States 
does not get its way is potentially catastrophic. The U.N. 
provides food for 90 million people in 80 countries around the 
world. It vaccinates 40 percent of the world's children. It 
assists 55 million refugees and people fleeing wars, famine, or 
persecution, and it provides maternal healthcare to 30 million 
vulnerable women.
    And so, I guess my question is, you are suggesting that we 
should pull funding from the United Nations if we do not win 
votes in the General Assembly.
    Governor Haley. I have never suggested that, sir, and if 
that is the way you took it, then that was not what I intended 
to say. I do not think we need to pull money from the U.N. We 
do not believe in flash and burn. It did not--was not anything 
I considered as governor. It is not something I would consider 
as ambassador, or anything that I would suggest back to you for 
Congress.
    I think that what is important is we look at every 
organization, see if it is working for us, see if it is 
something we want to be a part of, and then I will report back 
to you as well as to the President-elect on whether that is 
something we need to be a part of. I know that he had made 
comments about the U.N., but those are not my feelings, and I 
do not think that is what is going to happen.
    Senator Murphy. I really thank you for that answer. I think 
it is a really important answer, and so I want to just maybe 
ask you to make that answer a little bit clearer. So, you do 
not believe that we should be threatening to pull funds based 
on outcomes in the General Assembly that we do not agree with. 
You would pull funds if you do not think that programs are 
effective, but you would not threaten to pull funds because we 
do not get the outcome that we want from the deliberative 
process.
    Governor Haley. Right. My job is to make sure that we work 
to figure out how we get the outcomes, and to negotiate, and to 
make sure that I am working with those leaders and doing that. 
If, for example, we see in the Human Rights Council that Cuba 
is there and China is there, and we are not seeing the human 
rights move in a way that American values are supposed to, yes, 
I am going to come back to you and I am going to say this is a 
real problem, just does not follow our mission. I may go there 
and find out that there is a way to resolve that.
    And so, with those, I will come back to you. But, no, I do 
not think we should have a slash and burn of the U.N.
    Senator Murphy. I appreciate that. I will just note that 
since rejoining the Human Rights Council--we were out of it 
from 2007 to 2009--once we rejoined, special sessions on Israel 
dropped by 50 percent and resolutions on Israel dropped by 30 
percent. So, engagement in these forums do matter. And I really 
appreciate your answer to the questions.
    Governor Haley. And I look forward to looking into that. 
Thank you.
    Senator Murphy. Thank you very much.
    The Chairman. Very good. Thank you. Senator Portman.
    Senator Portman. Thank you, Mr. Chairman, and welcome to 
you and your family.
    Governor Haley. Thank you. Good morning.
    Senator Portman. Your family story is the quintessential 
American story.
    Governor Haley. Thank you.
    Senator Portman. And in my view, it is a story that the 
rest the world appreciates and respects when reminded of it. 
And I think your very presence at the United Nations would be a 
reminder of that and what makes our country unique. And I also 
think your management skills that you have shown as governor 
will be effective in encouraging the U.N. to be more efficient, 
which is problem in my view.
    I was once a member of the U.N. Human Rights Subcommittee 
after the first Bush administration, and after I left that 
administration--during that administration I served, and it was 
a very interesting experience, you know. You had some 
positives, which is talking about human rights. You also had 
negatives, which is that human rights abusers used it for their 
own political purposes.
    And so, I do think, in response to your question to Senator 
Murphy, that the opportunity for reform is obvious. And when 
all of our taxpayers are paying roughly 22 percent of the 
budget, I think they do expect to see a more efficient 
organization that is more objective and more in keeping with 
our values, and, again, the values that so many other countries 
seek as well when they look at America's story that you will 
represent.
    We have talked about a lot of issues today. My view is that 
we are in a more dangerous and volatile world in part because 
America has not led. And if you look at what is happening on 
the eastern border of Ukraine, or with Crimea, or in the South 
China Sea today, or certainly what is happening in Syria, you 
know, part of this is a lack of leadership. And I do think that 
you also see a crumbling of the very foundation of the post-
World War II U.S.-led security umbrella that has kept the 
peace.
    And so, I guess my first question to you is just about 
that, you know. How do you intend to support U.S. national 
security interests, but also ensure that the U.N. is a more 
effective body toward promoting a more peaceful and less 
volatile world?
    Governor Haley. Well, thank you for that question, Senator. 
I think that, first of all, we need to really have a 
conversation with other countries on the importance of them 
having skin in the game, because when they have skin in the 
game, they will care more about how those dollars are spent. 
And I think that that is where we can really bring more 
efficiencies to the U.N., more effectiveness to the U.N. when 
we get more involved. That is something that I am going to try 
and work on and see if we can get them to understand that being 
present is not enough. Being invested is what is going to make 
the U.N. stronger for everyone. So, that is the first thing.
    I think the second thing is we have to have a very strong 
voice. We have to be very strong on if there are resolutions 
coming up and we are not seeing resolutions that deal with 
Syria, and we are not seeing resolutions that deal with North 
Korea, and we are not calling out the violators that are there, 
that is up to us to bring up that conversation. It is for us to 
start it.
    Senator Portman. Yeah. Israel has been talked about today, 
obviously a big issue at the U.N. And I would agree with what 
was said today about the fact that this relationship is a 
cornerstone of our strategy in the Middle East. They are our 
best ally in the region. They are the one democracy in the 
Middle East.
    Let me focus on one specific issue, which is the boycotts, 
divestments, and sanctions movement, BDS. and this is something 
that I have worked on over the years actually with Ben Cardin, 
the ranking member here. In fact, we have proposed a number of 
legislative solutions, one of which is the law of the land now 
that was passed as part of the Trade Promotion Authority bill 
that requires us to look at BDS as a trade negotiating 
objective in our trade agreements, which is--which is an 
historic change in the way the U.S. has dealt with this.
    Can you talk a little about that? What do you think should 
be done with regard to countering boycott divestment and 
sanction efforts against Israel, really the sense of trying to 
delegitimize Israel, and a little bit about your experience in 
South Carolina with regard to this issue?
    Governor Haley. Well, first of all, I am very proud to say 
as governor of South Carolina that we were the first state in 
the country to pass an anti-BDS law in our state, and so, that 
was trying to really make the point of how important we think 
it is. I think as we go to the U.N., that is a point that has 
to be made.
    We have to look at the fact and call out the fact why is it 
that the Security Council is so concerned with Israel? It is an 
obsession that they have with Israel where they do not have 
with North Korea, where they do not have with Syria, where they 
do not have with other things that are going on. And so, it is 
up to us to talk about the fact that you cannot have boycotts 
against a country that is just trying to protect its people.
    And I think that you are finding an authority, not a state, 
that is actually leading the charge on this. And I think that 
that is wrong, and I think that we are going to have to 
continue to really be more aggressive, call them out, let them 
know what is wrong, and then find out what their answers are, 
because there is no good, fair honest answer on why they 
continue to pick on Israel and why they continue to allow these 
things happen.
    Senator Portman. We talked briefly about this broader issue 
of Russia, China, and other countries using disinformation and 
propaganda. There has been a lot of discussion about the 
meddling in our election here, which is a great concern of all 
of us. Publicly I have heard the UK and Germany both express 
concerns even recently on this topic.
    Governor Haley. Yes.
    Senator Portman. Certainly when I travel in Eastern Europe, 
every country in the region is very concerned about this issue 
of disinformation and, specifically, the effort to meddle in 
democracies--fledgling democracies.
    I wonder in your role as ambassador what you would intend 
to do about that. There is this new Global Engagement Center 
that has been set up at the State Department. Senator Murphy 
and I worked on legislation that was passed as part of the 
National Defense Authorization bill to establish this.
    I think the U.S. is asleep at the switch. I think we have 
not kept up with the--the counter efforts that have come our 
way and to our allies, specifically with regard to technology 
and being online. Can you comment on that and what you are 
willing to do as ambassador to push back against this campaign 
of disinformation that is being waged by some countries?
    Governor Haley. Well, first of all, I applaud you for 
wanting to improve our technologies and the way we handle 
cybersecurity issues or other types of hackings and countries 
getting involved in our business, because we are behind the 
curve on that. And we very much need to get in front of it 
because the rest of the countries are.
    Having said that, we need to make it very clear that we do 
not accept any country that tries to meddle in any of the 
business of the United States, and that needs to be made loud 
and clear. It needs to be made loud of any of the violators. We 
need to be able to call them out by name, and we need to let 
them know that this is not something that we are going to allow 
going forward.
    And I think this is going to be more of a conversation not 
just for the United States, but for our European allies and 
other allies around the world because they are feeling the same 
thing. And they are concerned about the same thing, and in some 
cases have witnessed the same thing.
    Senator Portman. Thank you, Governor. Thank you, Mr. 
Chairman.
    Governor Haley. Thank you, Senator.
    The Chairman. Senator Booker.
    Senator Booker. Thank you, Mr. Chairman.
    Governor, it is very good to see you here. And I want to 
just thank you for bringing your family here. You add a proud 
level of diversity to the leadership of our country, and I 
think it is needed.
    And I think your record is something in South Carolina that 
there are many aspects of it that I celebrate, particularly 
what I think you showed especially in the wake of a horrific 
shooting. You showed grace and dignity in dealing with the 
tragedy, and then you showed tremendous courage in removing the 
Confederate flag from the Statehouse. And I have been in a 
state of gratitude about that, in particular. So thank you very 
much for showing a strength of leadership during very, very 
difficult times.
    Governor Haley. Thank you.
    Senator Booker. You and I have had some time to talk in the 
past, and we have known each other for some years. And you will 
have to forgive me. I have three hearings going on at the same 
time.
    Governor Haley. So you are just here to say nice things 
about me. [Laughter.]
    Senator Booker. Touche, Governor.
    Forgive me if some of these questions may have been covered 
before.
    Governor Haley. Understood.
    Senator Booker. All right, so, Governor Haley, do you 
support a two-state solution?
    Governor Haley. I do.
    Senator Booker. Governor Haley, do you believe that it 
advances U.S. interests to provide food, jobs, homes, and hope 
to the people of the West Bank and Gaza by decreasing the pool 
of potential recruits or radicalized individuals to join 
terrorist organizations like Hamas?
    Governor Haley. Yes, I think that we need to do whatever we 
can to protect the region, and I think that we need to make 
sure that we are doing all we can to go against the threats.
    Senator Booker. Yes, and I am grateful for your very 
strong, steadfast statements in terms of the support of Israel 
and pointing out what even a former U.N. Secretary-General has 
pointed out about the biased nature of the U.N. against Israel.
    But security for Israel is something that is of critical 
import to me, and there are serious issues around the security. 
But, again, as a security guarantor, does the aid that the U.N. 
provide save the Government of Israel the expense of providing 
assistance to the people of the West Bank? In other words, a 
lot of the work that the U.N. is doing to provide basic 
humanitarian aid, uplifting the dignity of people, access to 
clean water, are these things critical as a larger part of 
Israeli security and that of the beauty and the dignity of the 
Palestinian people?
    Governor Haley. I think it is. It is something I want to 
get more information on, but I think that anytime that we can 
help mankind, regardless of where they are and what country 
they are in, the United States has always been there. So I do 
think that anytime we can create peace, then we want to do 
that. And so certainly, any services that we are giving to the 
area right now, we will continue to look into and work on.
    Senator Booker. And I hear, and sometimes I find it 
problematic, that with the obvious realities of terrorism, 
sometimes people's response to that is wanting to cut off that 
vital aid that provides basic human needs. Is that something 
that, those calls to cut off that kind of aid, does that 
concern you?
    Governor Haley. You know, I have not had anyone talk to me 
about cutting off the aid, but I also think that it is like 
everything else I have said. We need to look at each and every 
mission, see what we are doing, and see how we can make it more 
effective for the people in the area.
    Senator Booker. Okay, I want to switch really quickly to 
something you and I discussed together, and I think it is 
important to do it on the record. We talked about the 
challenges of the LGBT community even here in the United 
States. We see 40 percent of all homeless youth in this country 
are LGBT youth. Fifteen percent of LGBT youth miss school 
because of fear of bullying.
    On the international context, you see even more serious 
challenges to the basic human rights and dignity of LGBT 
citizens of the world.
    Ambassador Power has been a champion of LGBT human rights. 
She has really put it at the forefront of her work. She put the 
issue at the heart even of the Security Council, which is a 
pretty important and bold step.
    She said in a speech that LGBT rights are human rights; 
human rights are LGBT rights; and human rights must be 
universal.
    If confirmed, can you just say a little bit about how you 
plan to continue the leadership of the United States on this 
issue, given the fact of really tragic realities going on 
around the globe of not just abuse, not just harassment, but 
physical torture and killings, imprisonment and killings of 
LGBT people? And do you pledge, can you pledge here, that you 
will maintain our country's positive voting record on critical 
human rights resolutions and mechanisms for all people, 
obviously, but including LGBT? And finally, under your 
leadership, will the United States continue to work behind the 
scenes to support the principle that LGBT rights are human 
rights?
    Governor Haley. Thank you, Senator, for that question. I 
think it is very important that we talk about America's values. 
And when it comes to America's values and opportunities, we do 
not allow for discrimination of any kind to anyone.
    And that is something that I will always speak loudly 
about. It is something that I will always fight for. And I 
think it is important that we never have to deal with 
discrimination in this country, and I do not want to see any 
other country have to deal with discrimination.
    Senator Booker. And specifically on LGBT rights, will you 
be looking to be a champion of protecting their dignity, their 
security, and their safety in the global human rights context?
    Governor Haley. I will make sure that there is no one that 
is discriminated against for any reason whatsoever, and every 
person deserves decency and respect.
    Senator Booker. Thank you very much.
    I know Senator Shaheen asked a little bit about 
contraception. If I may just drill down on that a little bit 
more, the United Nations announced in 2012 that access to 
contraception is also a universal human right that can 
dramatically affect the lives of women and children in some of 
the world's poorest countries.
    As you know, women who use contraception are generally 
healthier; better educated; more empowered in their households 
and communities; and, economically, often more productive. And 
women's increased labor force participation that is a result 
often of having access to contraception boosts nations' 
economies. This is giving women the power of contraception. It 
has a profound impact.
    Can you just speak generally, in the remaining seconds I 
have, on how you will work with other countries to recognize 
the benefits of access to safe and effective family planning 
methods and support politics and policies that are supportive 
of family planning?
    Governor Haley. Well, and as we discussed, I am strongly 
pro-life and will always be pro-life. And so to me, education 
and contraception are important to those countries, so that 
they know that they do not get put into a situation where we 
have to sacrifice a life in the process.
    So, yes, absolutely, when it comes to the education and the 
contraception, I think those are incredibly important, that we 
educate and that we make sure that those are provided to other 
countries.
    Senator Booker. And I just want to say, in closing before 
the next round that, as I said to you in private, I am very 
grateful that you are--that Donald Trump is including you, the 
President-elect Donald Trump is including you in his Security 
Council and in a significant role. I hope that you will be one 
of those independent voices, as you were during the campaign, 
that will speak truth to power no matter what the consequences.
    Governor Haley. Yes, I will.
    Senator Booker. Thank you.
    Governor Haley. Thank you, Senator.
    The Chairman. Thank you.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    Governor Haley, welcome.
    Governor Haley. Good morning.
    Senator Rubio. Congratulations.
    Governor Haley. Thank you.
    Senator Rubio. I, of course, had the opportunity to get to 
know you and your family quite a bit about this time last year 
in another endeavor, and came away from it incredibly impressed 
and excited now about this opportunity you will have to 
represent our country.
    I wanted to summarize some of the testimony, because it is 
going to lead to the question that I have to ask.
    First, in your written statement, you said that in the 
matter of human rights, I have a clear understanding that it is 
not acceptable to stay silent when our values are challenged. 
You also said that in terms of reforming the U.N., we need to 
build an international institution that honors America's 
commitment to freedom, democracy, and human rights.
    In your testimony, you have said that you do not believe 
that sanctions should be removed from Russia without positive 
actions regarding the actions that led to the sanctions in the 
first place. You testified as well that you believe that war 
crimes have been committed in Aleppo by the Russian military. 
You testified that the Russian Government has helped Assad 
murder his own people.
    In the Philippines, you acknowledged that the current 
President of the Philippines has conducted--involved in 
extrajudicial killings, violated human rights.
    And, of course, you acknowledged that the Human Rights 
Council of the United Nations, you called into question their 
legitimacy because of not just their membership but their 
pattern of behavior over the last--forever.
    And therefore, I imagine by extension you believe that we 
should consider returning to the Bush policy of not being a 
part of it.
    From your testimony--yet, I know you also understand, as 
you said in your testimony, you have to be able to work with 
countries all over the world at the Security Council and the 
General Assembly on critical issues.
    So I take it and gather from both your testimony, from all 
of the testimony, that, if confirmed as Ambassador to the 
United Nations, you are going to have to deal with countries 
whose behavior violates human rights and international law. And 
yet you believe it is possible to speak truth to those 
countries and their horrendous human rights records and yet 
still negotiate with them on issues of importance at the 
Security Council when necessary.
    Governor Haley. Absolutely. I do not think we should ever 
apologize for the American values, and I do not think we should 
ever shy away from talking about them.
    At the same time, I think it is very important that when 
negotiating with other countries and when we are dealing with 
them, they know exactly where we stand, they know where we 
support and agree. They know where we disagree. And they also 
know what our intended goals are in terms of working together.
    And that is what I have had to do as Governor. That is what 
you do when you deal with legislators and international 
officials. And I think that is what we will be doing there.
    But I do not think that we have to compromise one to get 
the other. I think that we make sure that we always stand firm 
and strong for what we believe in.
    Senator Rubio. And on an unrelated topic, in March 2015, 
and many times afterward, our current Secretary of State told 
this Senate that the Iran nuclear deal would not be legally 
binding on the United States. Yet, the outgoing administration 
attempted to use the United Nations, in particular the Security 
Council through Resolution 2231, to go around Congress on the 
Joint Comprehensive Plan of Action and attempt, as they 
claimed, to create a binding, legal obligation under what they 
claimed to be international law related to a flawed new Iran 
nuclear deal.
    I would first ask, what is your view of this use of the 
Security Council to go around Congress, and, in particular, to 
go around the Senate's constitutional role to provide advice 
and consent on treaties?
    Governor Haley. Well, I think I have been on record that I 
think that it was a huge disappointment. I think that it 
created more of a threat. And I think that we are going to have 
to do a lot of things to fix what has happened.
    Senator Rubio. If confirmed, would you advise the 
President-elect never to use the United Nations to try to 
circumvent Congress, especially the Senate, on international 
agreements?
    Governor Haley. Yes, I would, because I think Congress and 
the Senate are extremely important that we work together with 
the U.N. to make sure that anything that is proposed is always 
supported by Congress, as we go forward.
    Senator Rubio. And this is related to one of your answers, 
but I think for a point of clarification, because I know you 
were asked about the recent Security Council resolution with 
regards to Israel and the Palestinian question, and I think you 
recognized that, as part of that agreement, it assumed, for 
example, that portions of Jerusalem are occupied territory, 
that portions of Jerusalem are, therefore, by definition, 
settlements.
    I believe you would agree when I say that Jerusalem is not 
a settlement.
    Governor Haley. Right, I agree.
    Senator Rubio. And so you continue to see--it is important 
to understand, and I think that is what the chairman was 
getting at when he talked about some dispute over the meaning 
of that resolution, that it, in fact, assumed and accepted as 
fact the notion that basically any Israeli presence in Judea 
and Samaria constitutes a settlement.
    So I think that is the key point. I also think it is not 
true to say that this is the longstanding policy of the U.S., 
to somehow try to organize and utilize international 
organizations to force a negotiation. What has been, in fact, a 
bipartisan commitment, and I think certainly what our partners 
in Israel would like to see, is a negotiation between the two 
parties involved with assistance from the international 
community as a forum potentially, but certainly not by pre-
imposing conditions and the like.
    And I guess my question, you have already answered this. 
Had you been the U.N. Ambassador and had been asked to abstain 
on a vote of this kind, would you have agreed to do so?
    Governor Haley. I would never have abstained. I do not like 
when legislators abstain. I certainly think that it has to be a 
huge exception when you do abstain. I think that that was the 
moment that we should have told the world how we stand with 
Israel, and it was a kick in the gut that we did not.
    Senator Rubio. Well, I thank you. And I just would close by 
pointing out that the United Nations actually came about as a 
result of the work of someone from Tennessee, the former 
Senator from Tennessee, Cordell Hull. So it is appropriate that 
you are chairing this meeting here today. It all comes back to 
Tennessee.
    The Chairman. It always does. [Laughter.]
    The Chairman. I thank you for reminding everyone who has 
tuned in that that is the case. Thank you.
    Governor Haley. Thank you, Senator.
    Senator Rubio. Thank you.
    The Chairman. I would just say I know that you all have a 
special relationship for lots of reasons that have not been 
involved here. Senator Cardin and I were talking earlier, and 
there are some things that you have very good instincts, and 
you have been a Governor, and I think going into an 
organization that needs reform, having been a Governor, someone 
who solves problems, is something that is going to be very 
useful.
    I would also say that this committee at large has spent a 
lot of time in places all around the world and has an 
understanding of things that, coming into this, may be somewhat 
new to you. And I think the committee as a whole, if you 
utilize it, can be very useful to you as you undertake what you 
are going to be undertaking at the United Nations. And I think 
everyone here, especially as they have seen you in operation 
today, would be more than glad to do so.
    Governor Haley. Well, and I plan on using this committee 
quite a bit, and look forward to having you, if confirmed, to 
the U.N. so that you can actually speak with the Security 
Council members, and they can hear from you, because I think 
that is hugely important, that it is not just me speaking, that 
they hear from Congress as well and know how important all 
these issues are to the United States.
    The Chairman. Thank you again.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And thanks, Governor Haley. It was good visiting the other 
day.
    Governor Haley. It is always nice to talk to a fellow 
Governor.
    Senator Kaine. Indeed. Once a Governor, always a Governor.
    Governor Haley. That is right. That is right.
    Senator Kaine. Authoritarian nations around the world are 
cracking down on freedom of the press, and that is a freedom 
that is part of the 1947 U.N. Declaration of Human Rights. And 
even nations that are allies--for example, Turkey and Egypt 
where we have significant alliances--have seen real declines in 
press freedom. I think recently a study came out suggesting 
Turkey may be the principal violator of press freedoms now in 
the world.
    What can be done through the U.N. to promote a free press 
around the world?
    Governor Haley. Well, you know, I think the United States 
has always promoted freedom of press. And while those of us 
that have been in elected office may not always like it, it is 
the way it is supposed to be. The press has a job to do, and we 
should allow them to do it.
    And so I think, again, that goes in with American values, 
that we should talk about that. And that is something that I 
would be happy to express.
    Senator Kaine. So you agree that efforts to restrict the 
press would be a clear violation of not just the U.N. charter 
but American values?
    Governor Haley. Absolutely.
    Senator Kaine. And that would include blacklisting members 
of the press corps whose coverage you do not like, ridiculing 
individual journalists who are doing their job.
    Governor Haley. Are you trying to imply something?
    Senator Kaine. Not about you. Or imploring voters not to 
trust the media. That is sort of a violation of our leadership 
role in trying to promote a free press, would you not agree?
    Governor Haley. We do always want to encourage free press.
    Senator Kaine. Thank you.
    With respect to Israel and Palestine, you answered a very 
direct question from Senator Murphy about whether you believe 
the longstanding bipartisan U.S. policy with respect to the 
goal would be a two-state solution between the Jewish state of 
Israel and an Arab state of Palestine. That was the phraseology 
of the original 1947 U.N. resolution.
    To the best of your knowledge, is the Trump administration 
committed to maintaining that 70-year bipartisan commitment?
    Governor Haley. I have not heard anything different.
    Senator Kaine. Okay. If as U.S. Ambassador to the U.N. 
there are actions taken by Palestine, violence incitement, 
rocket attacks from Gaza, that threaten the prospects of peace, 
would you be firm in calling those out?
    Governor Haley. I will be firm in calling out anyone that 
is trying to disrupt peace around the world.
    Senator Kaine. And so if it is Palestinian actions or 
Israeli actions that you think threaten the bipartisan 
commitment toward a two-state solution, you would not hesitate 
to speak out?
    Governor Haley. I think that we will always have those 
conversations. What forum we have those conversations in may be 
different, but, yes, I will always have those conversations.
    Senator Kaine. Okay. This committee forwarded a resolution 
to the floor last week stating that the U.S. should not allow 
Security Council actions that would either dictate peace terms 
or recognize unilateral Palestinian actions but would instead 
encourage the parties to find the path forward. I think it was 
reported out unanimously.
    We have all been disappointed by the lack of progress on 
this issue. How could you use your role as U.S. Ambassador to 
help find--it may not seem like it is right around the corner, 
but we always have to be trying--to help find a path toward 
achieving the goal that we have had for so very long?
    Governor Haley. You know, I think that as important as it 
is for the United States to see Israel as an ally, it is just 
as important for us to want peace in that area. And so I think 
it is important that we support the two coming to the table, 
that they continue to have those discussions, and that we 
encourage other Security Council members, rather than putting 
forth or allowing resolutions like that, to instead show their 
support for how they want the two to come together and have 
those discussions.
    Senator Kaine. Senator Young asked you a question. You were 
having a discussion about Syria and about why there had been 
insufficient actions here. He pointed out that Russia had over 
and over again vetoed Security Council resolutions about Syria, 
and it was not really a surprise. It was probably understood 
that they would veto them. But there is still a value in 
putting a resolution on the table even if a Security Council 
member is going to be veto it, just to point out sort of who 
will stand up for principles and who will not.
    We had all of this report about Russian effort to influence 
the American election, and it is not the first time. They did 
it with respect to the Brexit election. There is significant 
discussion about what they may be doing with respect to the 
French presidential elections, and with elections for the 
German Chancellor as well.
    Would you be willing to speak out for the integrity of 
nations' electoral processes and work with colleagues to 
present a Security Council resolution counter Russia for their 
activity to try to influence the elections of other nations?
    Governor Haley. Yes, Russia or any other country that tried 
to commit that act.
    Senator Kaine. You indicated that you were an opponent of 
the Iran deal. Would you support the U.S. unilaterally backing 
out of the Iran deal at this point?
    Governor Haley. I think what would be more beneficial at 
this point is that we look at all the details of the Iran deal. 
We see if they are actually in compliance. If we find that 
there are violations, then we act on those violations.
    I think watching that very closely is important. What we 
did is we gave the state sponsor of terrorism a pass that, even 
after 10 years, they will not be held to any sort of 
prohibitions on building nuclear weapons, and we gave them 
billions of dollars to do it.
    So I believe that if that has passed, and if that is where 
it is, we need to hold them accountable and watch them as we go 
forward.
    Senator Kaine. I would encourage you to read the agreement, 
because what you just stated about the agreement is quite 
inaccurate. There are many, many restrictions in the agreement 
after 10 years, specific restrictions in perpetuity. The first 
paragraph of the agreement says that Iran, pursuant to the 
agreement, will never seek to develop, acquire, or otherwise 
construct a nuclear weapon. So the notion that there is no 
restriction after 10 years, I do not know where you got that 
from.
    The notion that we gave them money, we did not give them 
anything. There was money that was Iran's that had been frozen. 
We released access so they could get money that was theirs in 
exchange for their agreement to restrict their nuclear weapons 
program and guarantee in perpetuity not only to not have 
nuclear weapons but allow inspections by the International 
Atomic Energy Agency that accurately reported to this body that 
Iraq did not have a nuclear weapons program, and we disbelieved 
them and started a war and found out that they were right.
    So I would encourage you to read the agreement because if 
you think those things, I can see why you were against it, and 
I can see why you might want to back out of it. But actually, 
that is a completely inaccurate reflection of the agreement.
    I would also encourage you to speak to intelligence and 
military officials in Israel, many of whom now say that they 
think the agreement is working with respect to the nuclear 
aspect of Iran's activity. There is other activity that is very 
troubling that we obviously need to be very aggressive in 
countering.
    That is all I have. Thanks, Mr. Chair.
    Governor Haley. Thank you, Senator. And I would just say 
that while, yes, I will look into that, what we all need to 
remember is a nuclear Iran is very dangerous for the entire 
world, and it is important that we look at all the details of 
the agreement, which I will do, and make sure that they are 
actually following through on the promises that were made.
    Senator Kaine. I appreciate that.
    The Chairman. And I think your emphasis was on radically or 
strongly enforcing the agreement as it sits----
    Governor Haley. That is correct.
    The Chairman [continuing]. And beginning in that place.
    Senator Paul.
    Excuse me. Senator Risch.
    Senator Risch. Thank you.
    Governor Haley, thank you so much for agreeing to take this 
on.
    My good friend Senator Kaine, I agree with sometimes, and 
sometimes I do not. His description of the wonderfulness of 
this Iran agreement, in my judgment, is 180 from what the facts 
are in real life. One of the primary objections that a lot of 
us had to the Iran agreement was something that you alluded to, 
and that is the fact that although a lot of us both publicly 
and privately urged the administration to take Iran by the 
throat, and if you are going to make them change their 
behavior, make them change their behavior.
    You cannot take the bad kid in the classroom and say, look, 
you have been throwing spitballs. You have to stop that. And 
the kid says, well, okay, I will do it. And they say, and not 
only that, you are also throwing erasers around and what have 
you. And they say, well, the kid says, well, I am not going to 
do that, but I will stop throwing the spitballs. You cannot do 
that. These people needed to change their behavior. And they 
have not changed their behavior.
    And your characterization of us giving billions of dollars 
to them that they are going to be able to use to go out and 
finance terrorism is absolutely accurate. And my friends on the 
other side had their eyes absolutely closed on that as we went 
forward.
    And they were financing--they were the world's largest 
sponsor of terrorism when they were broke. What do you think is 
going to happen after we have given them billions of dollars? 
This is going to be awful.
    So with all due respect to my friends on the other side, 
and particularly Senator Kaine, who I admire, they are just 
dead wrong on that issue.
    Having said that, as far as the Iran deal is concerned, we 
have sanctions in place that deal with other things than just 
the nuclear agreement. And I know a lot of people are just 
ignoring that, including Iran itself. It is complaining, oh, 
they are not agreeing, or they are not doing what they are 
supposed to do on the sanctions.
    But they forget they are still sponsoring terrorism. The 
fact that they launched a missile in absolute contravention of 
a U.N. resolution that prohibited that within days after it was 
signed shows you how they feel about all this.
    So in any event, do not back down from where you are on 
that. Keep their feet to the fire.
    Governor Haley. I have no intention. Thank you.
    Senator Risch. Thank you.
    Glad to hear your comments about the reputation and 
confidence of the U.N. in America. You know, people on the East 
Coast do not have an understanding that there is that lack of 
confidence. There is a lot of disagreement as far as the U.N. 
is concerned.
    There are places in America where units of government have 
passed resolutions to declare their area a U.N.-free zone. That 
is how strongly they feel about the lack of confidence in the 
U.N.
    I want to focus for a minute on something that I think is 
incredibly important. Senator Rubio talked about it with you, 
and I want to underscore that. And that is this business of 
thinking that somehow the second branch of government can bind 
America.
    Probably the poster child for that is the Paris Agreement. 
You know, my good friends on the other side and the media and 
everybody keeps saying, well, it is in violation of the Paris 
Agreement. There is no America--no American bound by one word 
in the Paris Agreement simply because the President signed it.
    And when you talk to--particularly when you talk to the 
foreign media, they just, their eyes just go round and round. 
They say, well, the President signed it. They do not understand 
that we have three branches of government, and the head of the 
second branch of government is just that. The first branch of 
government has the power of the purse strings, and the job of 
the second branch of government is to execute the laws that we 
pass and to oversee the spending that we authorize.
    To somehow think that the second branch can create law and 
bind Americans to a law that has not been approved by Congress 
is outrageous.
    The provision in the Constitution that says that all 
treaties, before they can become effective, have got to be 
approved by this body is incredibly important. And I hope and I 
know that you will take that with you when you go to the U.N., 
and underscore that whenever the second branch starts talking 
about going off on their own. We are much stronger--we are much 
stronger--if we have all of our branches of government in 
support of those kinds of things.
    So I cannot stress that enough. In the last administration, 
we have had really nothing but disdain for this provision in 
the Constitution which says that we have the power to either 
ratify or not ratify an agreement with a foreign power.
    Let me just close here, and I do not mean this to the sound 
the way it does. You did make the statement that says, well, 
sanctions by us alone do not work. I want to--our experience on 
this committee and on the Intelligence Committee I sit on, I 
can tell you that sanctions by us alone do work.
    Now, I will agree with you, they do not work nearly as well 
as when we have everybody on board, but because of our control 
over the financial and banking sectors on this Earth, we can 
really have some substantial effect by ourselves.
    When you get right up against it, if we put sanctions on 
other countries, other banking institutions are going to have 
to make a choice. Are they going to deal with American 
institutions, or are they going to deal with Iranian 
institutions, or whatever country we are talking about? And 
that always resolves in our favor. It has to resolve in our 
favor.
    So I just ask you to modify that and say that, indeed, they 
will work better if everybody is on board.
    Governor Haley. And if I can clarify?
    Senator Risch. Sure.
    Governor Haley. Sanctions obviously do work. I just think 
they work better if we have allies with us to help do that.
    Senator Risch. Absolutely no question about it.
    Governor Haley. And the second thing is that sanctions have 
to be enforced.
    Senator Risch. Absolutely. They have to be enforced 
aggressively.
    That was one of our objections also to the Iran deal. They 
kept talking about these snapback provisions. Well, I want to 
see all these heroes try to put that genie back in the bottle 
and snap back. That is just flat not going to happen. We are 
going to have to rely on our own sanctions, if we get to that 
point. And I, for one, am ready to do that.
    Thanks for agreeing to do this. I think you are going to be 
a great Ambassador to the United Nations. We really appreciate 
it.
    Governor Haley. Thank you very much.
    Senator Risch. Thank you, Mr. Chairman.
    The Chairman. Thank you. Thank you very much.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    Governor, our negotiating strength at the U.N. depends on 
having our allies standing with this. This weekend, President-
elect Trump gave an interview to European journalists in which 
he undermined that unity by yet again disparaging NATO as 
obsolete and threatening to start a trade war with the European 
Union.
    Last week, General James Mattis, President-elect Trump's 
nominee for Secretary of Defense, testified that President 
Putin ``is trying to break the North Atlantic alliance,'' and 
noted that if we did not have NATO today, we would need to 
create it.
    Do you agree with President-elect Trump that NATO is 
obsolete? Or do you agree with General Mattis that it is vital?
    Governor Haley. I think NATO is an important alliance for 
us to have, and now we need more allies than ever, and we need 
more alliances than we have ever had. And I think it is one 
that we need to strengthen.
    Senator Markey. So what would you say to our allies about 
the need for us to stay together in our resistance to 
especially the Russian attempts to destroy that alliance?
    Governor Haley. Well, I think that is a great question, 
because you will see me, if confirmed, all over the U.N., 
making sure that they understand the importance of alliances 
and allies, and working together where we can for the greater 
good.
    Senator Markey. There are some that wish to have the United 
States placating Russia, making concessions to Russia that go 
right at the core of what the key alliance that NATO represents 
has been providing as security for the world for generations. 
And from my perspective, but I think from the United States' 
perspective generally, NATO is not only not obsolete, it is 
essential. It is the key to making sure that Russia understands 
that there is no room on a partisan basis that exists in our 
country in terms of our commitment to resisting Russian 
incursion.
    So from my perspective, I am glad to hear your answer, and 
I thank you for it.
    On the question of global health, in Haiti, I talked to you 
about this in my office yesterday, the United Nations' 
peacekeeping force from Nepal actually introduced cholera into 
a country that had never had cholera before, in the year 2010 
after the earthquake in Haiti. Eight hundred thousand people 
have contracted cholera; 9,000 have died from it. It was 
created by a Nepal peacekeeping U.N. mission that actually 
brought that disease to the country by their introduction of it 
into the water system with their own human waste.
    Thus far, there has been no real U.N. financial commitment 
to cleaning up the sanitation system in that country so that 
they do not have to worry that every time a hurricane comes 
through, like it did in October 2016, that it just once again 
raises up this cholera issue.
    Can you talk a little bit about what you feel the United 
Nations' responsibility is to countries like Haiti where the 
peacekeeping mission has, in fact, wound up creating more harm 
than any that was ever reduced by the introduction of that 
peacekeeping mission?
    Governor Haley. Yes, sir. Senator, thank you for that 
question.
    I will tell you what happened in Haiti is just nothing 
short of devastating, and it is the reason why I think every 
peacekeeping mission needs to be looked at thoroughly to make 
sure that things are moving in the right direction. But it is 
also why I think it is so important that the contributing 
countries take responsibility and take actions against those 
violators that are doing anything to harm the people that they 
are supposed to be protecting.
    And so I think that that was a terrible problem, and so we 
have to acknowledge the fact that there were peacekeepers 
involved in that, that there were peacekeepers that contributed 
to that. And it is really that action that I think we can use 
to show that these contributing countries have to stand up and 
take responsibility and be accountable for those causes that 
they happen to do during peace missions.
    Senator Markey. And you would argue for increased financial 
commitment from the countries around the world so that that 
funding can go into Haiti in order to help with their 
sanitation system?
    Governor Haley. Those violating countries need to be held 
accountable.
    Senator Markey. I agree.
    Governor Haley. And they need to have that responsibility 
of resolving that problem.
    Senator Markey. The problem is that Nepal does not have the 
financial capacity to remediate the problem, but they actually 
created the problem in the name of all the countries in the 
world that are part of the United Nations. So it would be 
necessary to ensure that all the other countries that use the 
Nepalese military as their agent to then be held accountable as 
well financially.
    Governor Haley. Right. And there are two things. I do not 
know if you were in the room when I said it. I think that, one, 
it is very important that we get other countries to contribute 
to our peacekeeping missions because they have to have skin in 
the game because when these things happen, they will help the 
United States be more accountable, hold these peacekeepers more 
accountable, hold these contributing countries more 
accountable, and we should decide should we use their 
peacekeepers again, because I think that is another 
conversation that needs to be had.
    We are going to have to make this right with Haiti, without 
question. And the U.N. is going to have to take responsibility. 
And I hope that we can have peacekeeping reform in the process 
while we do that.
    Senator Markey. Thank you. Eighty-five percent of the 
Security Council's peacekeeping personnel actually serve in 
Africa.
    Governor Haley. Yes.
    Senator Markey. And the U.N. is deeply involved in ending 
conflict there. But much of the conflict is caused by poverty. 
It is caused by disease.
    President Bush initiated a program, PEPFAR, to deal with 
the HIV/AIDS epidemic in Africa. Mr. Tillerson testified last 
week about his strong support for that program and pointed out 
that it should be continued and enhanced.
    Can you talk a little bit about how you view the PEPFAR 
program in terms of going forward in the future and the funding 
levels that would be needed to make it the success it has been 
thus far?
    Governor Haley. I think PEPFAR, you can look at the results 
and see the success. You can look at the numbers and the lives 
that have been affected by that. And I think it is one of the 
successful programs that happen at the United Nations, and I 
certainly would continue to support it going forward.
    Senator Markey. Great. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, sir.
    Senator Paul.
    Senator Paul. Governor Haley, congratulations on your 
nomination.
    Governor Haley. Thank you.
    Senator Paul. James Madison wrote that the executive branch 
is the branch of government most prone to war. Therefore, the 
Constitution, with studied care, vested that power in the 
legislature.
    In the days of our Founding Fathers, it was very important 
who had that power, you know, distributed among the U.S. 
Government. I do not think they ever conceived of an 
international body compelling the U.S. to go to war.
    I still think it is an incredibly important debate, and we 
have lost a little bit of this. We let Presidents go to war 
willy-nilly without much oversight at all. We have still not 
voted on the current war in the Middle East.
    So my question to you is, will you vote for any U.N. 
resolution that commits U.S. soldiers to war or to a war or to 
a battle zone that has not been authorized by Congress?
    Governor Haley. Well, and thank you, Senator, for that 
question, because I think it is an important one.
    First of all, I think that as we go forward with all the 
threats that we have in the world, understand that you are 
talking to a military wife and a military sister, where both of 
them have been in combat. And I think that we have to really be 
careful, if we are going to decide to go to war.
    But I also think that, if we decide to go to war, it is 
important that we have the President-elect, the National 
Security Council, Congress, everyone moving in the same 
direction in order to do that. It will show our strength in the 
world when we do that. It will also give confidence to those 
military families that everyone is in agreement that we are 
doing the right thing.
    And so I think it is in the best interests of us regardless 
of partisanship or anything else to make sure that we all stand 
in agreement if we decide to show military influence.
    Senator Paul. You know, I agree with the sentiment. I am 
not sure if we got to the specifics of would you vote for a 
resolution to send our soldiers, a U.N. resolution, to a war 
that had not been authorized by the U.S.?
    Governor Haley. And I think that probably the best answer I 
can give you is that, as a member of the National Security 
Council, I would encourage them to make sure that they have had 
these conversations with Congress and that they have Congress' 
buy-in before we interfere.
    Senator Paul. I would go one step farther in the sense that 
many say, well, we should have the advice of Congress, and we 
ought to occasionally go down there and pat them on the back 
and talk to them. No, no. The rules are pretty specific. We do 
not go to war really unless Congress votes on war.
    And the reason I bring this up is, we may well be in a 
situation--we are in a war right now, primarily with ISIS in 
Syria and Iraq. That war has not been authorized. We have had 
no vote here on whether or not we should be involved in that 
war.
    Some try to stretch a resolution that said we could go 
after those who attacked us on 9/11. ISIS did not attack us on 
9/11. They are not related in any way to anybody who attacked 
us on 9/11.
    Governor Haley. Right.
    Senator Paul. So we have had no vote. And one generation 
should not bind another generation to war, but that could well 
come before you.
    Right now, we are at war. You could say, well, we are 
already at war. We can send people there in the U.N. banner. 
Well, you should not. I mean, we should say to you, you should 
not vote for that. You should come back to us and say I will 
vote for it gladly after Congress does their job and 
authorizes.
    But no U.S. soldiers should ever fight under any 
international banner without a vote here by Congress. And I 
cannot state that strong enough because that is a check. That 
is a check and a balance to try to prevent unnecessary war.
    There is a bill floating around to try to withhold U.N. 
dues until the vote on the Israeli settlements is reversed. 
Without asking you specifically on that, what do you think of 
the concept of withholding U.N. dues based on U.N. behavior?
    Governor Haley. Senator, I do not believe in the slash-and-
burn approach. As a Governor, you could never do that. That is 
not effective. I know many legislators will put bills out of 
frustration, and I absolutely understand the frustration over 
Resolution 2334. But I think it is important that we are 
strategic in the way that we hold dues.
    So, yes, I do see a place where you can hold dues. I do 
think it needs to be strategic in nature. I would want to use 
Congress as my heavy and leverage in terms of doing that so 
that I could get members of the council to do the things that 
we need it to do.
    But, yes, I do think that there are times where you can 
withhold dues. I do not think you should slash and cut across-
the-board, because I do not think that will accomplish the 
goal.
    Senator Paul. And finally, the general concept of U.S. 
sovereignty is important to many of us. You have heard from 
some of the other members about whether a U.N. resolution 
instructs us legally. And, I would say only if approved by 
Congress, that really there is no supersedence of U.N. 
resolutions over U.S. law, and I think that is important 
because we can go to war through the U.N.
    But we can do a lot of things through the U.N. that really 
need to be approved by Congress, not as a consultation, not as 
a ``here is what we are doing, guys.'' No, it is coming to us 
and asking permission, because we are directly responsible to 
the people as well. And it is a check and balance.
    And I hope, as you become the U.N. Ambassador, and I will 
support you, but as you become the U.N. Ambassador, I hope you 
will consider that and that some of these questions are not 
simple questions, but they are incredibly profound questions. 
And whether or not when we go to war and when we do not go to 
war--as you know, you have family members who will fight in 
these wars. You know, war is the last resort. We do not want to 
make it easy. The Founding Fathers did not want to make it easy 
to go to war. They wanted to make it difficult.
    And then we go through consensus. But we do not go through 
consensus if the U.N. takes us to war.
    And I have a great deal of sympathy. There is a young man 
who is currently suing the U.S. military saying it is an 
unlawful order for him to take an order from the United Nations 
because it is a war that has not been authorized here. And I 
have some sympathy for that.
    So I hope you will continue to ponder that and how 
important it is that we maintain the checks and balances of how 
we go to war.
    Governor Haley. And I strongly believe of the importance 
of, should I be confirmed, the U.N. always working with 
Congress and Congress always having that sort of element to be 
able to make those decisions as we go forward. Thank you.
    The Chairman. Thank you for those sentiments.
    Senator Merkley.
    Senator Merkley. Thank you very much, Mr. Chairman.
    And thank you, Governor, for appearing today.
    Governor Haley. Thank you.
    Senator Merkley. It is a pleasure to hear you talk about 
these challenging issues in the world and what is ahead of us.
    I wanted to start out with a topic that we conversed about 
some of my office, and that is the challenge of North Korea, 
its nuclear weapon development program and its missile program, 
ballistic missile program.
    And specifically, what do you think that we should do more 
in regard to heading off the continued development of the 
missiles and the weapons?
    Governor Haley. I actually think we need to have a lot of 
conversations with a lot of other countries. And that comes 
from the fact that North Korea is trying to exercise their 
muscle right now, and they are trying to show their strength.
    And I think that while we have seen China start to pull 
away, we need to talk to China and let them know of the threat. 
We need to talk to other countries within the area and let them 
know how strong a threat this is. And we need to try to create 
a united front in approaching North Korea, because North Korea 
will feel it if China puts the pressure on them.
    And I think that is very, very important because it is 
getting to a very dangerous situation.
    Senator Merkley. So, Governor, last year in January, there 
was a fourth nuclear weapon test by North Korea, and then in 
February, a major ballistic missile test. And within less than 
a month of that, the United States was able to get China to 
agree to increase sanctions on North Korea that included 
mandatory inspection of all cargo going to and from North 
Korea, and the requirement to terminate all banking 
relationships. And it lays out a whole--and that came out 
exactly the type of pressure you are talking about.
    But that Resolution 2270, do you think that was a step 
forward in terms of that U.S., China, and the world saying to 
North Korea you have to stop?
    Governor Haley. Absolutely. If followed. And that is the 
thing, that they are not following that, and so actions need to 
happen from there.
    Senator Merkley. So and then there was another nuclear test 
that followed that in September, the fifth nuclear test. And 
the U.S. again went to work to really try to get the 
international community and China to push on North Korea. And 
what they did was put a hard binding cap on North Korea's coal 
exports. This was considered to be the single most vulnerable 
point of pressure, because it is their largest source of 
external revenue.
    And China did sign up, and America signed up. And we have 
this mandatory inspection in place. It is that, too, a step 
forward in terms of pressuring North Korea?
    Governor Haley. Absolutely.
    Senator Merkley. But as you pointed out, we have done this, 
and then North Korea goes ahead anyway. And so in terms of the 
conversation, China said it is on board. It has agreed to cut 
all the banking relationships, inspect every piece of cargo, 
cut their ability to generate revenue.
    Should we specifically draw any sort of redline over the 
missile tests or the nuclear weapon tests? And if so, what 
would that be?
    Governor Haley. Well, obviously, that is a conversation I 
need to have with the National Security Council as well as with 
the President-elect. But I do think this warrants very strong 
conversations with China to say that this is a slap in the face 
to China. This is a slap in the face to every country that told 
North Korea they were not to proceed. And the fact that they 
are doing it anyway should be offensive to all countries 
involved in sanctions. So I think that we do need to see where 
do we go forward.
    Senator Merkley. I will be very interested in hearing more 
of your thoughts after you are at the U.N., because we have 
been using the U.N. really aggressively on this particular 
topic.
    And I went back after our conversation. I was surprised at 
the amount that had been done that I was not aware of when we 
talked in my office.
    Turning to China, China has dramatically increased its 
engagement in the U.N. In 2003, they did not really have any 
U.N. peacekeeping troops, and then they increased it to 2,000, 
more recently 3,000. Now they have made a pledge to contribute 
8,000 troops. It is not clear to me if that is 8,000 on top of 
the 3,000 or 8,000 total.
    But they are now the third overall contributor to the U.N. 
They are the second overall contributor to fund peacekeepers. 
And they are the first overall contributor to peacekeepers 
among the Permanent Five members of the Security Council. So 
they have vastly--they have really moved in there.
    And one of the concerns, and it is related to several 
questions that were asked about whether the U.S. essentially 
holds its monetary support of the U.N. hostage. One of the 
concerns has been that China would love for us to do that 
because then they go from being almost at the top of the heap 
to being at the top of the heap in terms of their influence on 
the organization.
    Do you share the concern about China's kind of growing 
expansion of its power inside the U.N.?
    Governor Haley. I think that you have to look at--and this 
is a lot of what we discussed yesterday. You have to look at 
the fact that China is very different from Russia. Russia is 
trying to show their military strength. China is trying to show 
their economic strength.
    So their strategy is to go and help other countries, to 
build infrastructure in other countries to buy favor with them 
and to try to take over that way. So whereas Russia looks at 
military force, China looks at economic force. And we need to 
realize that.
    And it is a lesson to the United States that we need to 
strategically understand that the funding needs to be used as a 
force, the same way China does. And I absolutely agree that we 
have to keep an eye on China and the funding and the way they 
are engaging in these other countries, because they are trying 
to add to their allies list, and we need to be conscious of 
that.
    Senator Merkley. Well, this is part of an enduring 
discussion about tactics in the United States, to the degree we 
have an outside game and pressure the U.N. by saying you did 
wrong and we are going to hold you hostage on different 
programs, or we have an inside game of diplomacy, 
communication, relationship-building, the type of inside game, 
actually, that led to those two major resolutions in regard to 
North Korea.
    You will obviously be captain of the inside game, and I 
look forward to learning more from your viewpoint as that 
unfolds.
    Governor Haley. Thank you.
    Senator Merkley. In my last few seconds, turning to the 
global warming, the National Intelligence Council has said that 
climate change is a wide-ranging national security challenge 
for the U.S. over the next 20 years.
    Do you share the view that global warming is a security 
threat to the United States?
    Governor Haley. I think it is one of the threats, yes. I do 
not think it is the most important, but I do think it is on the 
table.
    Senator Merkley. One of the widely discussed issues is how 
it affected the refugees that moved into the Syrian cities, 
sparking the Syrian civil war. Are you familiar with that chain 
of events? And do you consider that an example of how climate 
change can trigger a chain of events that cause a lot of 
security concerns and impacts in the world?
    Governor Haley. I think there are many countries that look 
at climate change and what their effects are on all types of 
elements in the world. So that is why I think it will always be 
something on the table that would look at and always something 
that we consider.
    Again, as we had the conversations yesterday, I think we 
have to make sure that we continue to look at it and keep it as 
a strong element, but not to the burdens of industry and the 
economy as we go forward.
    Senator Merkley. My time has expired. Thank you.
    Governor Haley. Thank you, Senator.
    The Chairman. Thank you.
    It would be my observation that while the U.N. Security 
Council may have been active on the North Korean issue, the 
members themselves, China is not living to the letter of the 
sanctions that have taken place. Had they been doing so, we 
might be in a slightly different place.
    But I agree that there may be some unilateral actions at 
some point that need to take place.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Congratulations. Great to see you again.
    Governor Haley. Thank you very much. Absolutely.
    Senator Barrasso. The last questioner just used the phrase, 
``We are using the U.N. aggressively.'' And I think this last 
administration has actually been using the U.N. aggressively to 
bypass Congress to support Iran, to attack our closest ally 
Israel, to attack American energy.
    So the question to you is, as our Nation's top 
representative at the United Nations, I think you have to be 
committed to standing up for American ideals, American values, 
our standards.
    So can you talk a little bit about that, about your 
commitment to challenging the actions of the United Nations 
that run counter to our values, our interests, our ideals?
    Governor Haley. You know, and I think that that is a very 
good question, because the United Nations I think has 
overstepped. And when you look at Resolution 2334, there is no 
better example of how they have overstepped.
    And I think that there is a role for the United Nations. 
And I think that is in negotiating deals, in telling what our 
story is, in talking about America's values and ideals and 
freedoms and what makes us the best country in the world. And 
we need to continue to use the U.N. forum to show what we are 
for, what we are against, and what we will not tolerate.
    But having said that, I think that the U.N. is not a place 
to insert into what other countries do and is not a place to 
actually take action without Congress having a strong support 
of it or without the President-elect and the National Security 
Council.
    Senator Barrasso. We are the largest financial contributor 
to the United Nations. When you take a look at our Nation, our 
contribution is more to the U.N. budget than all of the other 
member permanent members of the U.N. Security Council combined.
    Governor Haley. Yes.
    Senator Barrasso. We have an incredible debt in this 
country that I continue to hear about. They say, why are we 
spending money at the United Nations with this kind of debt?
    So can you talk a little bit about your commitment to 
safeguarding U.S. taxpayer dollars at the U.N. and the kind of 
transparency that we really need with regard to those funds?
    Governor Haley. Well, thank you, Senator. In South 
Carolina, that was something that was very important to me, 
because I think transparency breeds accountability, and that 
needs to happen.
    We do pay 22 percent of the general fund. We are close to 
29 percent on the peacekeeping fund, which is actually not what 
the law requires. We are supposed to be at 25 percent. And I 
think that when you look at that, every organization and 
government can always be improved and can always be efficient. 
And the way you get to that is through transparency. And we 
need to start showing how the money in peacekeeping is being 
spent. We need to start showing the programs that are happening 
in the United Nations and how that is being handled.
    I think that there was good progress made in that they had 
inspector general oversight come in. But I think that is not 
independent. And as long as it is not independent, we are not 
getting the true facts there.
    So that is something that I will also try to do, is try to 
make that oversight council more independent so that no 
countries can weigh in on that, so that we can actually get to 
the heart of how we can fix the U.N. and make it more 
effective.
    Senator Barrasso. Can I just stay on the issue of the U.N. 
peacekeepers for a second, because there have been horrendous 
reports of sexual exploitation and abuses being committed by 
the peacekeepers? It is unacceptable. It is outrageous that the 
United Nations peacekeepers are inflicting terrible atrocities 
on the people that they are supposed to be protecting.
    As the largest contributor of money, all the things, can 
you talk a little bit about working to ensure that the United 
Nations holds these peacekeepers accountable in ways from the 
sort of things that we have been seeing with sexual 
exploitation and abuse?
    Governor Haley. Yes, Senator. And I spoke about this 
earlier. I think it is devastating when you have a child or you 
have a mother who sees peacekeepers and are afraid. And that is 
something that can never happen.
    And I think that we absolutely have to strengthen the 
whistleblower protections because it is not working. People are 
too scared to speak up when they see something wrong.
    I think that we have to really make sure that we are 
holding our contributing countries accountable, because when 
their troops violate, we cannot just let them give them a pass. 
They have to actually be dealt with accordingly.
    And then in some cases, we have to look at whether that 
country should be providing peacekeepers at all, because a lot 
of times, they are doing it just to make money and it is not 
about whether they are protecting people.
    And when someone goes in from the U.N. and when they 
present themselves, people should feel safe, and people should 
feel protected. They should not be scared, and they should not 
be leery of what is happening. And we cannot say that right 
now, and so--especially in the peacekeeping missions in Africa.
    So I do think it is very, very important that we start to 
really hold these countries accountable and let them know. And 
that is why I think them putting money, more money, toward 
peacekeeping will have skin in the game. And when they have 
skin in the game, they will care more about how their money is 
spent.
    And so I think that is true for the general fund as well as 
the peacekeeping fund.
    Senator Barrasso. And I want to get back to Resolution 
2334, and I think that is just part of an ongoing strategy to 
undermine our friends in Israel.
    In 2011, UNESCO voted to admit Palestine as a member state 
in the organization.
    Governor Haley. Right.
    Senator Barrasso. And it triggered a law that we have in 
the United States cutting off contributions to UNESCO.
    Could you talk a little bit about the United States in 
terms of opposing Palestinian efforts to obtain full membership 
at any U.N. agency or organization?
    Governor Haley. Absolutely, because we do not recognize the 
Palestinian Authority as a state. And I think that we will not, 
whether it is funding UNESCO--and the fact that we stopped 
that, I think that was a good move to do that. Or whether it is 
something where they are trying to insert themselves to be a 
member, which they tried to do. And I think that now we have to 
make sure that we continue to hold that ground on that front.
    And I think that there are more and more attempts to try to 
do that. So far, they have failed, but we have to make sure 
that we do that, because I do think that they are still getting 
in through resolutions and issues that are happening. And that 
is all the more reason why we have to stand strong.
    Senator Barrasso. Well, I appreciate your attention. I 
thank you very much, Governor.
    Governor Haley. Thank you very much.
    Senator Barrasso. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Just to understand the state of play, I had not planned to 
have a second round, but there was an email exchange with one 
of our staff members indicating that was a possibility, and I 
think the minority has understood that to be, that there will 
be.
    Because I do want to conduct always our business with an 
air of trust, we will have, for some few members who wish to 
have a second round, a 5-minute round. I do not know of 
anything that is controversial that has occurred. I would just 
ask members to respect the fact that it was not something that 
I intended. But if you really have something that you want to 
ask, in order to maintain trust, we will have a second round 
for those few members who may have questions.
    I would ask our nominee, who has been here now for 3 hours, 
would you like to take a 10-minute break?
    Governor Haley. No, sir. I am ready to continue.
    The Chairman. Okay.
    Senator Coons will finish his first round of questioning. 
And if other members do, in fact, have questions, I would 
remind folks that we are going to have QFRs, and those will be 
due as of the close of business tomorrow.
    But with that, we will continue on and plow through this.
    Senator Coons.
    Senator Coons. Thank you, Chairman Corker.
    Welcome, Governor Haley. I enjoyed our conversation 
yesterday, and I was encouraged to hear in your opening 
statement that you think U.S. leadership is essential in the 
world and that you look forward to being a strong voice for 
both American principles and American interests at the U.N. I 
recognize that, as you said, international diplomacy is a new 
area for you. We talked about the transition from county 
executive to senator, from governor to potentially U.N. 
ambassador.
    Let us talk about the U.N. Security Council and some of the 
challenges we face there and some of the interests that other 
countries bring into play there. We talked yesterday about the 
Iran nuclear deal, the Joint Comprehensive Plan of Action, and 
why Russia and China worked with us on imposing and enforcing 
multilateral sanctions, negotiating to a finished deal, and 
then to enforcing it. Another member asked you earlier about 
why the U.N. Security Council has not been able to make 
progress in challenging or confronting Assad's war crimes 
against his own people.
    Do you have a clear understanding of what might be driving 
these two issues at this point?
    Governor Haley. Well, first of all, with the Iran deal, the 
fact that Russia and China were supportive is the red flag that 
I need to know that there is a problem with the deal, and I 
think that we have to be very conscious of that.
    I also think that as we deal with Syria, we have got to 
start seeing something that happens. You cannot turn on the TV 
and see what is happening to children and women and all of 
those that are just trying to live being dealt with that way. 
And so I think we are seeing terrible things that happen. And 
when, again, you see Russia protecting Syria and Russia 
protecting these issues that are happening, it is dangerous and 
it is something that we need to be very conscious of, because 
right now it is not about protecting human life. I think it is 
very much about making sure they are protecting their own 
interests, and that is not what America is. We value human 
life.
    Senator Coons. And these were questions I told you 
yesterday I would follow up on again today. Let me make sure I 
understand your answer.
    Is it clear to you that the reason the Security Council has 
not acted to confront human rights violations in Syria is 
because Russia blocks that action?
    Governor Haley. Yes, it is clear.
    Senator Coons. Why does it raise a red flag for you that 
Russia and China supported the JCPOA, the Iran deal, if the 
United Kingdom and Germany and the EU and other vital American 
allies, France, did so as well? Are you questioning the value 
of our international partnerships with them? And let me ask the 
follow-on question. If we walk away from it without giving it a 
chance to be fully implemented, will we be safer?
    Governor Haley. Well, first of all, I think that it is in 
our best interest to be distrustful of all countries as we move 
forward, as they are distrustful of us. That is just us 
protecting American interests. So when you look at Russia, you 
should always know that there is an angle that they are trying 
to do; the same with China. They are all playing strategy, and 
that is part of what they continue to do.
    With the Iran deal what I said, as I said to you yesterday, 
I think it is very important that we look at every aspect of 
the Iran deal and see if it is being followed. And if it is not 
being followed, and if we do find violations, then I think we 
should act, and I think we should act strongly.
    Senator Coons. And I think you will find strong bipartisan 
partners here in insisting in its vigorous enforcement. I do 
encourage you to read the details of the deal, because it does 
have longer-term and more binding consequences than a previous 
answer you gave may suggest.
    Let me also, if I could, before we turn to U.N. reform, ask 
you about Russia and your view of Russia. A number of the 
recent statements by the President-elect have unsettled a 
number of our allies, and a number of us, and he has in some 
ways suggested that if we reach a much closer relationship with 
Russia, it could break the log jam at the Security Council, it 
could make progress in the fight against terrorism. Many of our 
allies ask what is on the table.
    So in your view, what should be on the table if there were 
some closer arrangement with Russia? Would you ever accept 
recognizing their illegal annexation of Crimea?
    Governor Haley. No. I think that we need to make it very 
clear with Russia on where we stand on Crimea and Ukraine and 
Syria and be strong on that. Having said that, it is very much 
like we talk about human rights violations. We may not agree 
with a country on human rights violations, but we need to work 
with them on other things.
    I think what the President-elect is trying to do is see are 
there any opportunities to work with Russia, because we can use 
Russia's help in trying to go against ISIS, and we can use 
Russia's help on trying to help with other threats throughout 
the world.
    Senator Coons. We have vital allies in NATO such as the 
Germans, the French, the Brits, who have gone alongside us and 
fought in Afghanistan, who have invoked Article 5 of the NATO 
charter and stood alongside us in the fight against terrorism. 
I have real trouble with his idea that in any way we should 
trust Vladimir Putin and his Russia at an equal level as Angela 
Merkel and Germany, and all of our NATO allies, his ongoing, 
steady diminution of the value of NATO when NATO has been the 
strongest, most important, most enduring alliance we have built 
and been a part of.
    Ambassador Power gave a very pointed farewell speech 
yesterday where she laid out the case that Russia is the single 
greatest threat to the world order today, to the world order 
that we have built, the so-called liberal rules-based world 
order that the U.N. is one of the highest examples of. Did you 
read or follow that speech?
    Governor Haley. I did not.
    Senator Coons. I urge you to do so.
    Governor Haley. I will. I have been working towards this 
committee assignment, so I have not had the time to do that, 
but I will make a point to do that.
    Senator Coons. Mr. Chairman, I will ask that it be admitted 
to the record, entered into the record, because I think it is a 
very clear-eyed assessment of just how persistent a threat 
Russia has been to our core values, which I would argue are our 
core interests--free press, democracy, human rights, and our 
vital NATO alliance.
    Governor Haley. And, Senator, just to be clear, we agree on 
that. We agree on Russia, and I know that your concerns over 
the comments of the President-elect are probably best suited to 
ask him as opposed to me.
    Senator Coons. But he is not in front of me and you are, so 
forgive me.
    Governor Haley. And you are not getting any answers from me 
on that. So I am just telling you, in the importance of time.
    Senator Coons. About U.N. reform, if we were to simply, as 
some have suggested, in order to punish the U.N. for the 
Security Council taking a vote which I think we have 
unanimously opposed, if we were to simply cut funding to the 
U.N., would that strengthen or weaken our hand in defending 
Israel at the U.N.?
    Governor Haley. Well, as I have said, you can never win 
with slash and burn techniques. That does not work. What is 
important is that we do strategic types of cutting if we are 
going to cut anything at all. So I do not agree with that. I do 
not think that is the way that we can come out strong and show 
our strength in terms of what we believe in and what we are 
against. I think it is better to do that with negotiations than 
I think with just slash and burn.
    Senator Coons. I will close and then come back for another 
round, briefly, if I could.
    Let me commend to you that the new Secretary General, 
Antonio Guterres, I think will be a strong partner for you in 
engaging in thoughtful and systemic reform, and our vital ally, 
the United Kingdom, does have a multilateral aid effectiveness 
review, a process that they go through to look at the return on 
investment, as you have put it, or the effectiveness of their 
contributions, and they have assessed many of the U.S. 
voluntary funded programs as having a high impact. I would 
recommend that to you for your reading.
    I look forward to asking you some more questions in a few 
minutes.
    Governor Haley. Thank you very much.
    The Chairman. The statements by Samantha Power will be, 
without objection, entered into the record.


    [The information referred to is located in the Additional 
Material Submitted for the Record section of this transcript, 
beginning on page 137.]


    The Chairman. It would be my observation that sometimes 
even our closest friends have different interests. If you 
remember, there were 58 senators I think that opposed the Iran 
deal. Unfortunately, by virtue of it being done the way that it 
was that many people have alluded to--it was done by an 
executive agreement with the U.N. Security Council. But our 
friends in Germany and Great Britain and France had mercantile 
interests that caused them to support an agreement that allowed 
them to do business with Iran, in addition to other issues. 
Again, I would say that 58 senators here disagreed with them on 
the efficacy of this agreement. So we sometimes disagree even 
with our closest friends.
    Senator Cardin.
    Senator Cardin. Mr. Chairman, thank you for the courtesy on 
the second round.
    Governor Haley, thank you for your strength to continue 
through.
    Governor Haley. Oh, there is a lot more strength than that.
    Senator Cardin. You are going to need it at the United 
Nations, so the best to you.
    I want to take my time to go over a few issues that were 
covered in the first round. You have mentioned frequently that 
we want other countries to have skin in the game as it relates 
to peacekeepers and the importance of the peacekeeping 
missions. I just really want to point out that in 2016 alone, 
79 U.N. peacekeepers lost their life in service to humanity. So 
countries have skin in the game. We have used mostly resources, 
money, and there is the ability-to-pay issue among different 
states. I do not disagree, and I included in my opening 
comments my concern about the sexual exploitation and abuse 
that cannot be tolerated, and we do need more countries 
participating. But I just wanted to point out that countries 
have given their people, and some have lost their lives in 
support of our peacekeeping----
    Governor Haley. And I have great respect for that. My 
ordering was about monetary.
    Senator Cardin. Well, some countries cannot afford the 
monetary aid, and that is why they use their people. They 
subsidize that way.
    Secondly, I want to just respond to what you did in South 
Carolina in regards to Syrian refugees. I do not question the 
way that you responded based upon the information given to you 
by the FBI. I just really want to set the record straight here 
about the vetting process used for Syrian refugees. It is the 
most strict vetting process of any coming into America. I think 
we have had somewhere around 13,000 settled through the Syrian 
refugee program; this is far less than our pro rata share by 
any reasonable allocation, and there have been no problems that 
I am aware of for any Syrian refugees that have come to this 
country. Most, of course, are women and children.
    In fact, if you look at the refugee program, which you were 
complimentary of----
    Governor Haley. Yes.
    Senator Cardin [continuing]. Between 1975 and 2015, over 3 
million refugees have come to America, and it is my 
understanding there have been three specific episodes of 
terrorist involvement that have led to convictions. That is 
three too many, do not get me wrong. It should be zero, and we 
have to continue the strict vetting. But it is not the risk 
pool that maybe is popularly perceived by refugees coming to 
America, and I just really wanted to correct the record in that 
regard.
    I want to underscore one or two points, one dealing with 
war crimes. You have acknowledged that what has happened in 
Syria has elevated to war crimes. Not only has it been what we 
saw in Aleppo, which was absolutely outrageous, with the use of 
chemical weapons, which has also been confirmed, which in and 
of itself would be war crimes. I just want to make sure that 
you are focused on not only calling them war crimes but using 
the United Nations forum to say we cannot condone this. You 
cannot wipe this off. You cannot say, well, we will deal with 
the other issues of the Syrian civil war, but we will not hold 
those who are responsible accountable. That cannot be the U.S. 
position, and I just urge you to make sure that when we say 
never again, we mean never again.
    When we are talking about never again, what is happening in 
South Sudan? Ethnic cleansing is taking place as we are here. 
Civilians are losing their lives because of this ethnic 
conflict. The leadership has been unable or unwilling to deal 
with this. In the United Nations there are a couple of 
proposals that are pending, one is an arms embargo that I would 
urge you to support. There is strong support in Congress for an 
arms embargo. The other is to get a peace process actually 
working while protecting human life. We have got to be more 
aggressive because it is the next ethnic cleansing when we say 
never again.
    And the last thing I want to say, Mr. Chairman, in my 50 
seconds that are remaining is that it was refreshing to hear 
your comments about speaking truth to power. I think it came 
out in the context of the President-elect and the U.N. National 
Security Council, which I am convinced that you are going to 
speak up for what you believe is right. But it is also dealing 
with Russia and China and the Security Council resolutions. 
When you are confronted with the situation where they say, 
well, you want our help here, then get off this kick of human 
rights; I am convinced that you are not going to get off this 
kick of human rights, that you will continue to speak out for 
American values, and that we can do more than one thing at a 
time and we are not going to be bullied to give up the values 
that have made this country's leadership so critically 
important around the globe.
    Once again, thank you for your patience, and thank you for 
being willing to serve.
    Governor Haley. Thank you very much.
    The Chairman. Thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Governor, I just want to follow up on Senator Cardin's 
remarks.
    Mr. Chairman, I would like to enter into the record a State 
Department process of how refugees enter into the United 
States.
    The Chairman. Without objection.


    [The information referred to is located in the Additional 
Material Submitted for the Record section of this transcript, 
beginning on page 145.]


    Senator Menendez. And I would just simply say that even 
Director Comey, in testimony before the Homeland Security and 
Government Affairs Committee, when he referenced the Syrian 
refugees, said ``I think we have developed an effective way to 
touch all of our databases and resources to figure out what we 
know about these individuals.'' And also in other testimony by 
Director Rodriquez of the USUHS, 20 percent of all Syrian 
refugee applications are not granted entry into the United 
States. So I hope you will look at that. One thing is what you 
were given at the time, but I hope you will look at that 
because, particularly at the U.N., the question of refugees, 
whether they be Syrian or not, is particularly of global 
concern.
    I would like to talk to you a little bit. You have answered 
the sanctions question a couple of times here, and I am left 
concerned because in your answers you said sanctions by the 
United States do not work if they are alone; they have to be 
multilateral. Of course we would like to see multilateral 
sanctions, but I would call to your attention that the 
sanctions regime that we built on Iran that ultimately led them 
to come to the negotiating table--I did not care for the 
ultimate result and voted against it--but that led them to the 
negotiating table was built largely by members of this 
committee working with the Congress, and then getting the 
administration on board, and started off alone, and then worked 
to build an international coalition.
    So I would like to just hear from you that sometimes we 
have to go it alone before we get others to go with us. You 
talked about leadership various times. Leadership is not always 
being able to get a coalition from the start. Leadership 
sometimes takes action and then getting others to join you in a 
coalition.
    Governor Haley. Yes. Thank you, Senator, for the 
opportunity to clarify that. I clarified earlier. Sanctions 
work when they are enforced. And of course, you know, if the 
U.S. were to put sanctions against certain countries, that does 
work. It just works better when we have coalitions. I think for 
us to do sanctions against--I give that example--against North 
Korea, that is all well and good. If I can get China to help 
and really strengthen those sanctions, then we make magic.
    So it is always going to be that we lead and we lead 
strongly. It is my job to make sure that we just are not the 
only ones doing sanctions, that we have others with us.
    Senator Menendez. Okay. I appreciate hearing that 
clarification, and I look forward to you making a lot of magic 
at the end of the day. But sometimes we have to lead in order 
to achieve that, and sanctions do not always start off with a 
multilateral unity at the beginning.
    And because sanctions is a tool of peaceful diplomacy--and 
I do not think it should be used each and every time, I do not 
think it is the only tool of peaceful diplomacy, but it is a 
major one--if you have neutered yourself of it, then you have 
left yourself very little in the pursuit of peaceful diplomacy.
    I want to go to Iran. U.N. Resolution 2231 specifically 
calls upon Iran ``not to undertake any activity related to 
ballistic missiles designed to be capable of delivering nuclear 
weapons, including launches using such ballistic missile 
technology.'' Since it was adopted at the Security Council, 
Iran has launched at least 10 ballistic missiles.
    Earlier this month a report from the United Nations 
indicated Iran is likely in violation of these resolutions 
because of armed shipments to Hezbollah and possibly to rebels 
in Somalia and Yemen. The U.N. Security Council's arms embargo 
and ballistic missile sanctions require not just compliance of 
Iran but also member states to enforce them.
    If Iran violates both the ballistic missile sanctions, as 
has been universally recognized, and violates the arms embargo, 
do you plan to use your position at the United Nations to try 
to create a coalition to hold Iran accountable?
    Governor Haley. Absolutely. And any time that we put 
sanctions forward, we should follow through on those when there 
are violations.
    Senator Menendez. Now, in doing so, do you also plan to 
leverage against those--I wanted to underline the emphasis 
that, yes, Iran is responsible, but so are other member 
countries not to allow Iran to have the wherewithal to do that 
in terms of suppliers and other things. We also seek to pursue 
them as well.
    Governor Haley. I think that we have to call out anyone 
that is helping Iran do anything. I think that the other side 
of that is we are seeing more and more where Iran is not 
allowing us access to see if violations are occurring, and that 
is also going to be something we will have to be careful of.
    Senator Menendez. I have another line of questioning but I 
will wait, Mr. Chairman.
    Governor Haley. Thank you.
    The Chairman. There will not be a third round. If it is a 
brief question, because of your distinguished service here, 
then we will let you do that so we can close this out. Would 
you like Senator Coons to go first so you can collect your 
thoughts?
    Senator Menendez. Yes. In order to make it brief, Mr. 
Chairman, if I can collect my thoughts.
    The Chairman. Before I go to Senator Coons, I would make 
this observation. I am all for the pursuit of Russia 
potentially being involved in war crimes in Syria, all for it. 
There is nobody on this committee that would be more for that. 
I will say that it has been interesting with our witnesses 
coming in for a new administration, that has been a line of 
push, but there has not been much towards the sitting 
administration and the sitting U.N. ambassador relative to 
calling those out.
    So it would be more fulsome to me if we were talking about 
that over the last month also.
    Senator Cardin. Mr. Chairman, I would take personal 
exception to that. I will give you the volume of letters and 
phone calls and public questioning that I have done to not only 
the Obama administration but the Bush administration. As I said 
previously, we generally have disagreements with all 
administrations as to how helpful Congress can be, but I can 
assure you that I am an equal opportunity human rights 
advocate.
    The Chairman. I think you probably are. I just would, 
again, stick to my observation.
    Senator Coons.
    Senator Coons. Thank you, Mr. Chairman.
    Governor, a number of us have real concerns about fragile 
states and about the arc from troubled states, states with 
internal conflict, to really fragile states, to failed states 
and what the consequences are. Typically, a fragile state is 
one that really has a legitimacy problem. The central 
government really does not control the whole country. It has 
some insurgencies. It has real disconnections between its 
average citizen and very weak state capacity, but it is not yet 
a completely failed state.
    Tell me, why should the average American care about fragile 
states, and how do they affect our national security? Just name 
a couple of states you consider fragile, if you would. Then I 
want to talk about U.N. platforms to address and deal with 
fragile states.
    Governor Haley. Well, Americans should always be concerned 
about fragile states, and it is because usually when states are 
fragile they start to erupt in things that can cause threats 
down the road. I think if you look at South Sudan, that is a 
perfect example, that while we have tried to bring peace to 
that area, you now have a government that is not wanting that. 
We are starting to see other issues that are starting to happen 
in that area.
    So it is important for us to work towards peace everywhere, 
and I think it is important for us to get in front of the 
situation. We can see it before it gets fragile. We can see 
conflict before it happens. It is important that I think the 
U.N. not acknowledge it once it is too late, that we start to 
acknowledge it as we see it happening because I think we can 
get more effectiveness done that way than otherwise.
    Senator Coons. The archetypal fragile state in this area 
has been Afghanistan, which was a refuge for the terrorist 
organization, Al Qaeda, that attacked us largely because it 
really was not a coherent or effective state.
    I would argue that the U.N. offers some of the strongest 
tools we have to address fragile states without deploying 
American troops, whether it is UNICEF, which does great work in 
terms of dealing with human suffering, or whether it is UNHCR, 
which deals with refugees, or it is U.N. peacekeeping.
    Talk to me about how you would imagine advocating for the 
U.N. being a more effective platform for addressing fragile 
states in the interest of our security and values.
    Governor Haley. I think it is important that we look for 
results. It should not just be that we have a conversation 
about how a state is becoming more fragile. It is actually 
looking at results. Any time we are dealing with any situation 
that could start to pose a threat, we need to decide what we 
want to do as a plan and where we want to go and what we will 
consider success. I think there need to be measurables along 
the way to make sure that we are complying with that. I think 
those conversations need to be more detailed in nature, as 
opposed to more high-reaching, saying that it is fragile or it 
may cause problems or it may be an issue. I think we need to 
get more involved.
    Senator Coons. Let me ask you a closing question, if I 
might, that Mr. Tillerson and I went back and forth on, and 
several others did as well. Some view our values--and I will 
just give three examples, things that we fight for in the world 
that, frankly, the Chinese and the Russians do not: press 
freedom and transparency; human rights and democracy. I see 
those as essential to our interests, not distinct from our 
interests. In one exchange Mr. Tillerson suggested that at 
times, at times, our national security interests have to take a 
front seat and we maybe have to, with some of our allies and 
partners, have our advocacy for our values take a back seat. I 
would argue there are other settings where it is our failure to 
consistently advocate for democracy and human rights and good 
governance that leads to failed states, in some cases.
    What is your view about the value of continuously 
advocating for democracy and human rights and a free press? Is 
it in conflict with our interests, or does it complement our 
interests?
    Governor Haley. I think we always talk about the values of 
America. I think we always talk about why we are the greatest 
country in the world. I think that we always express why we 
want to share those values with the rest of the world.
    When it comes to other issues, I understand that we can 
have more pressing issues that we want to negotiate. I do not 
think we have to compromise our values to do that. I think 
these are conversations that can take place at the same time. I 
think it is very important that countries around the world know 
what we value, but they also know where we stand. I think we 
can have negotiations, conversations on issues that are at hand 
without ever compromising us talking about our values. I think 
both can be done at the same time.
    Senator Coons. I think we will have a productive 
conversation about how we keep those in the right balance going 
forward and how we invest appropriately in advancing democracy 
and governance and human rights and a free press at the same 
time that we advance our commercial or security or other 
interests as well.
    Thank you, Governor.
    Governor Haley. Thank you very much.
    The Chairman. Thank you.
    Senator Menendez for a succinct question.
    Senator Menendez. Mr. Chairman, it is because the questions 
are too important, I am not going to synthesize them. I will 
submit them for the record. They involve our participation with 
the U.N. Commission on Refugees in Central America. They 
involve where we are headed and what role the Governor thinks 
we can pursue in Venezuela, which is a crisis right here in our 
own hemisphere. And also I would like to hear from the Governor 
something that you are very passionate about that we worked 
together on, which is a greater role at the United Nations on 
human trafficking. And because I cannot synthesize those and do 
them honor and worth, I will submit them for the record and 
look forward to what I hope will be a very explicit response to 
them.
    I just want to take one more moment to say I appreciate the 
Chairman's comments earlier, but speaking only for myself, 
there has been no one who has more consistently challenged this 
administration as part of his own party on various issues, 
including the question of actions in Syria and war crimes. So, 
it is not new to some of us.
    The Chairman. And I think that is, especially coming from 
you, I will say, a very accurate statement, and I appreciate 
the way we have been able to work on the Syrian issue. I know 
that we all have been very disappointed with the actions that 
have not been taken, and certainly working together on the Iran 
resolution, trying to oppose it. So I thank you for that.
    This is an observation. There is a new zeal relative to it 
for lots of reasons, but I think that all of us certainly need 
to be pushing back against Russia and the violations of 
international norms that they have put forth. Certainly what 
has happened in Aleppo is something that somebody needs to pay 
a price for. It upsets all of our sensibilities, and I 
appreciate everyone here on the committee expressing that.
    Senator Cardin. Mr. Chairman, I may be a little sensitive 
on this, but as one of those individuals who has been on a list 
for a long time not able to go to Russia because of my 
leadership on the Magnitsky law, this is not just recent. Our 
concern about Russia has been building for a long time, and 
many of us have been very open about the danger Russia poses to 
the world order. So I do not think this is something that is 
new.
    The Chairman. With that, do you have any other statements 
relative to our nominee?
    Senator Cardin. No. But just again, it has been a pleasure 
hearing your responses and, as I said the first time we met, 
thank you for being willing to serve your country.
    Governor Haley. And thank you for the opportunity. I 
appreciate it.
    The Chairman. So, for the state of play, we are going to 
leave the record open until the close of business tomorrow. I 
have just talked to the ranking member, and we plan on having 
the markup on Mr. Tillerson on Monday, Monday afternoon, 
assuming his questions come in this week and are answered 
thoroughly.
    In the event you are able, and it would be quite a feat I 
think, I hope that people will keep the questions to questions 
that really need to be answered. But to the extent you are able 
to answer the questions by the end of the week also, we would 
attempt to have your markup at the same time we have Mr. 
Tillerson.
    Just an observation again. I think that people have very 
much respected your instincts here today, and I think the 
nuance of some of the foreign policy, having been the governor 
of South Carolina and all of a sudden coming to New York to the 
U.N. Security Council, there is going to be a lot of nuance 
that you are going to pick up over time, and certainly 
knowledge relative to foreign relations issues that you just 
have not been dealing with.
    But I think I can tell you as Chairman, I feel very good 
about you going there with the instincts that drive the desire 
for reform that you have expressed here. I think you have 
impressed everybody in the individual meetings that you have 
had. I am certain that you are going to be confirmed 
overwhelmingly, and I thank you for your desire to serve our 
country at this time in this important capacity.
    Senator Cardin. What is the date for the questions for the 
record? When is it open until?
    The Chairman. Close of business tomorrow.
    Governor Haley. And I would respectfully ask that I do not 
need 1,023 of them. I am hoping that we do not have quite that 
many.
    Senator Cardin. We will try to keep it under 1,000.
    The Chairman. You remember how the General Assembly or 
legislature was in South Carolina?
    Governor Haley. I do remember.
    The Chairman. They generally did not listen to you, and I 
doubt that will be heeded.
    Governor Haley. I do not expect you to listen now, but I 
thought at least I could try.
    The Chairman. But I do hope that people ask questions that 
truly need to be answered, and I appreciate your sentiment 
there.
    Governor Haley. And I look forward to answering them.
    The Chairman. The meeting is adjourned.
    Governor Haley. Thank you very much.
    [Whereupon, at 1:38 p.m., the hearing was adjourned.]



                              ----------                              


              Additional Material Submitted for the Record

            Responses to Additional Questions Submitted for 
                 the Record by Members of the Committee


       Responses to Additional Questions for the Record Submitted
           to Governor Nikki Haley by Senator Robert Menendez

U.S.-U.N. Ambassador
    Question. Antonio Guterres of Portugal was appointed by the General 
Assembly to succeed Ban Ki-Moon as the U.N. Secretary-General on 
January 1, 2017. Guterres stated that his priorities will include 
working for peace, supporting sustainable development, and reforming 
internal management. He is seen as having priorities much better 
aligned to that of the U.S. than many of his predecessors.

   What tact will you take to cultivate a direct, personal 
        relationship and to forge a partnership with him to advance 
        U.S. policy interests?

   Broadly, what will you tell the Secretary-General when you meet him 
        as to what the U.S. thinks his priorities should be?

    Answer. I believe the new Secretary-General's long experience as 
U.N. High Commissioner for Refugees will be a unique asset as we work 
together not just on refugee issues, but also on peacekeeping and other 
security and reform issues. I look forward to working with him as we 
will both be newcomers and will have fresh eyes on the many challenges 
ahead for the U.N. If confirmed, I expect to pursue an open and 
continuous dialogue with him. The issues of U.N. reform, including 
peacekeeping, management and transparency reforms, will be some of the 
early topics I will address with him as priorities.

    Question. President-elect Trump has made a number of perplexing and 
even disturbing statements regarding foreign policy issues and the role 
of the U.S. in the world. Importantly, as our ambassador to the United 
Nations, you be the chief spokesperson in New York as to our values and 
priorities. An anxious world wants to know what an ``America First'' 
approach means in international affairs.

   How will you address these legitimate concerns?

   Will you work within the administration, as a member of the 
        National Security Council, to advance traditional 
        understandings of foreign policy and U.S. values? What 
        particular values will you highlight/champion?

    Answer. As I mentioned in my testimony, I will always stand for 
American values and ideals at the United Nations. I believe the 
President's ``America First'' approach in practice means that he will 
identify America's fundamental national interests and vigorously defend 
them using all of the diplomatic, economic and military tools at his 
disposal. If confirmed, I look forward to vigorously promoting our 
nation's objectives through diplomacy at the U.N.

United Nations
    Question. The U.N. Human Rights Council (UNHCR) has not lived up to 
it mandate and some have called for the U.S. to withdraw. But the 
council has had a number of important successes over the years 
(highlighting abuses in the DPRK and Iran, among others), and others 
therefore argue that the U.S. must remain committed and engaged in the 
council to help it be more effective and to drive the agenda.

   In your opinion, are U.S. policy goals better achieved by remaining 
        in the UNHRC by limiting our involvement?

   How would you advance a positive human rights agenda reflective of 
        our values at the U.N.?

    Answer. As I mentioned during my hearing, I think that the Human 
Rights Council is a flawed body, particularly in its bias against 
Israel and the ability of human rights violators to be elected and 
shield each other from criticism. I do not know if or how the Trump 
administration plans to engage with the Human Rights Council, but will 
work to implement the policies of the administration in this area.

    Question. While there is a commonly-held perception that the U.N. 
is generally anti-American and not a partner with us on many of the 
seminal issues of the day, a recent poll indicated that 61 percent of 
Americans have a positive opinion of the organization. Certain 
programmatic areas such as peacekeeping, enjoy even more support. 
Nevertheless, the U.N. has not lived up to its mandate and often 
engages in actions and rhetoric that is either hostile to the U.S. or 
to our allies.

   What is the role of the United States U.N. Ambassador in explaining 
        U.S. foreign policy to a global audience?

   To what extent do you plan to educate, inform, and reach out to 
        broad sectors of the American public? How will you accomplish 
        this?

   How do you plan to refresh and sustain public support for the 
        institution during your tenure?

    Answer. As I said in my testimony, I believe part of my role as 
U.N. Ambassador is to be accountable, first and foremost, to the people 
of the United States. I believe that, if confirmed, an important part 
of my job will be to explain to the American people what is happening 
at the U.N. and to give an honest assessment of the successes and 
challenges I find there. I am committed to making domestic public 
outreach a priority, as well as speaking to the international audience 
that cares about the work of the U.N. My firm message will be that U.S. 
leadership is essential in the world, and certainly at the U.N. In 
every case, I will call it as I see it.

The United Nations Security Council
    Question. The U.S. has a history of opposing one-sided U.N. 
Security Council (UNSC) Resolutions where Israel is concerned. These 
initiatives, where the Israeli-Palestinian conflict is concerned, are 
not helpful and actually are counterproductive to producing positive 
outcomes. This past September, I and some Senate colleagues sent a 
letter to President Obama expressing our concerns about such votes.

   Will you continue the longstanding U.S. policy to veto any one-
        sided UNSC resolutions that may arise during your tenure?

    Answer. Yes.

    Question. What steps will you take to encourage other member states 
to engage in productive efforts and to resist joining such anti-Israel 
resolutions?

    Answer. Israel is a vital ally of the United States, and we must 
meet our obligations to Israel as our most important strategic ally in 
the region. Should I be confirmed, I would recommend to the President 
that the U.S. will any U.N. Security Council resolution that unfairly 
condemns Israel, undermines progress toward a mutually agreed peace 
agreement, or is in conflict with U.S. interests.

    Question. A number of our Western Hemisphere neighbors and other 
counties who often otherwise share similar worldviews, continue to vote 
for these one-sided resolutions (e.g., resolutions on the Committee on 
the Exercise of the Inalienable Rights of the Palestinian People, the 
Division for Palestinian Rights, and the Special Committee to 
Investigate Israeli Practices Affecting the Human Rights of the 
Palestinian People)

   Will you urge your colleagues at the U.N. to withdrawal their 
        support of these annually recurring resolutions by the U.N. 
        General Assembly? What arguments will you make to get them to 
        change their positions?

   How will you counter such future initiatives that do little than 
        stoke unproductive efforts to inappropriately use international 
        funding and the mantle of the United Nations to pursue a 
        unilateral approach in the region?

    Answer. Yes. If confirmed, I will work with Congress and other 
Cabinet officials to use U.S. diplomatic and economic pressure to 
encourage such outcomes and assess if U.S. funding for these 
initiatives can be eliminated or conditioned.

    Question. I am an original cosponsor of S. Res. 6 which expresses 
grave objection to United Nations Security Council Resolution 2334. If 
further calls for United Nations Security Council Resolution 2334 to be 
repealed or fundamentally altered so that it is no longer one-sided and 
rejects efforts by outside bodies, including the United Nations 
Security Council, to impose solutions from the outside that set back 
the cause of peace.

   What are your views about this resolution?

    Answer. Israel is a vital ally of the United States, and we must 
meet our obligations to Israel as our most important strategic ally in 
the region. Should I be confirmed, I would recommend to the President 
that the U.S. announce it no longer supports that resolution and would 
veto any U.N. Security Council efforts to implement it or enforce it, 
and block any future U.N. sanctions based on it.

    Question. Some have argued for the need for reform of the Security 
Council (UNSC) to including broadening permanent membership to include 
additional countries such as India. Others have called for changes as 
to the use of the veto power.

   What, if any, reforms of the UNSC would you support?

   Would expanding membership on the UNSC help or harm the legitimacy 
        and effectiveness of the body? How about increasing the 
        permanent membership?

   Does the P5 structure impede getting more support (e.g., financial, 
        peacekeeping) from other developed and advanced nations? What 
        arguments would you make to those countries who only 
        occasionally have a seat on the council to get them to share in 
        shouldering the burdens of global engagement?

    Answer. As I understand it, there is not a broad consensus among 
U.N. member states on Security Council reform. If confirmed, my advice 
would be based on the particulars of such a proposal. I would not 
support any reform proposal that weakens U.S. influence in the Security 
Council or undermines U.S. interests in that body. Although this can be 
immensely frustrating--for example, Chinese and Russian opposition to 
taking stronger action with respect to North Korea--I would not support 
any change to the veto power because such a change would undermine the 
ability of our nation's representatives to protect U.S. interests in 
that body.

U.N. Reform
    Question. While the U.N. has taken steps to improve its efficiency, 
operational effectiveness, and accountability, the continuing need for 
reform is obvious to most observers, even to strong supporters of the 
institution. The incoming Secretary-General has committed to an agenda 
of reform. The U.S. push for reform is one of the main drivers behind 
the progress to date. Sustained engagement by successive 
administrations have improved the environment and the U.N.'s 
receptivity to change.

   In your opinion, what are the top three reforms that the U.N. could 
        undertake in the coming two years that will have the greatest 
        impact?

   How will you explain to the Secretary-General and the member states 
        that continued reform is a precondition for full U.S. support 
        of the U.N.?

   What tactics would you use if reform efforts falter or lack 
        urgency?

   Are you satisfied with the pace of reform? Why or why not?

    Answer. As I mentioned during my hearing, I agree that the U.N. is 
in serious need of reform. I also believe that Congress can be a vital 
partner in pressing the U.N. to adopt specified reforms through 
application of financial leverage. If confirmed, I will consult with 
Congress on reform priorities and how to best achieve them.12)

    Question. There has been considerable talk of late about the U.S. 
withholding financial support of the U.N. in response to various votes 
and resolutions. Critics have countered that a distinction should be 
made between the institution of the U.N. and the actions and votes of 
its individual members. In some ways, votes contrary to U.S. policy 
positions and national interests can be seen as a partial result of 
U.S. ineffectiveness in working with fellow member states at the U.N. 
in addition to institutional bias.

   In general, do you think the threat of financial withholding is an 
        effective tool in advancing a U.S. policy of U.N. reform?

   Does threatening to limit our engagement and financial support 
        enhance U.S. leverage?

   Would you agree with the statement that our significant financial 
        contributions garners increased influence at the U.N. and that 
        reductions in such support will actually create opportunities 
        for our adversaries?

    Answer. As I stated during my confirmation hearing, I do not 
support slash and burn cuts to U.S. funding, but targeted and selective 
withholding tied to specific reforms has proven in the past to be an 
effective means for pressing the organization to implement reforms.

U.N. Peacekeeping Operations
    Question. Former Chairman of the joint Chiefs Admiral Mike Mullen 
stated that ``[United Nations] peacekeepers help promote stability and 
help reduce the risks that major U.S. military interventions may be 
required to restore stability in a country or region.'' Also, studies 
indicate that U.N. peacekeepers are significantly less expensive than 
the U.S. equivalent. Reform efforts to date have reduced the cost of 
U.N. peacekeepers by about 18%.

   Do you view U.N. peacekeeping operations as complimentary to U.S. 
        military efforts elsewhere?

   Is peacekeeping participation a genuine expression of a burden-
        sharing?

   How could U.N. peacekeeping operations be made more effective, more 
        accountable?

    Answer. As I stated during my hearing, I believe that U.N. 
peacekeeping operations have been useful and effective in some 
circumstances. U.S. support should be decided on a case-by-case basis.

    Question. U.N. peacekeepers often enjoy a degree of credibility 
that forces from sovereign nations do not. U.N. peacekeepers operate in 
a number of challenging areas where there would be minimal public or 
Congressional support for U.S. forces to do so. The conflict in Korea 
provides a historical example of how U.N. peacekeeping operations can 
directly benefit U.S. policies, there are more contemporary examples as 
well.

   Would you be prepared to engage in active U.S. leadership with 
        regards to U.N. peacekeeping operations to ensure improved 
        accountability, operational effectiveness, and further 
        efficiencies?

   What particular initiatives would you engage in this area within 
        the first six months?

    Answer. If confirmed, yes. As I mentioned in my hearing, I am 
particularly troubled by sexual exploitation and abuse by peacekeepers 
and will focus on bolstering current policies and efforts to address 
this serious problem.

    Question. Recently a Department of State authorization was passed 
by Congress for the first time in more than a decade. In the 
authorization, there was specific language that called for the 
Secretary of State to submit a (1) a United States strategy for 
combating sexual exploitation and abuse in United Nations peacekeeping 
operations; and (2) an implementation plan for achieving the objectives 
set forth in the strategy.

   What will be your role and the role of the Mission you lead over 
        the next six months to ensure that the submitted report is 
        comprehensive, actionable, and in keeping with the intent of 
        the legislation?

    Answer. If confirmed, I will work with the Department of State to 
ensure that this report complies fully with the law.

    Question. There are 16 U.N. peacekeeping missions worldwide--the 
U.S. is the largest financial contributor in the world to these 
operations. However, there are longstanding differences between the 
U.N. and the U.S. regarding our financial contributions to U.N. 
peacekeeping operations (28.47 percent vs. 27.14 percent) The new 
authorization calls on the United States U.N. Ambassador to have 
peacekeeping credits for discontinued operations returned to the U.S. 
(and thus not available to be used towards the resolution of the 
assessment gap) The continuation of this disagreement undermines our 
standing at the U.N. and contribute to financial irregularities.

   What steps can be done to regularize our peacekeeping funding 
        assessment and to eliminate the so-called gap?

   What strategies will you use to ensure the U.S. receives any 
        unspent credits from discontinued peacekeeping operations?

   Do you think it is appropriate that the P5 are assessed more for 
        peacekeeping operations as opposed to the general assessment?

    Answer. If confirmed, I will work to establish a maximum 
peacekeeping assessment of 25 percent to comply with U.S. law enacted 
in 1994. I will also seek to spread the scale of assessments more 
equitably among the member states so that even small contributors have 
a financial interest in making sure that there is efficient use of 
their contributions.
                               functional
Climate and Environment
    Question. The Paris climate agreement sets a baseline goal of 
limiting warming to 2 degrees Celsius over pre-industrial temperatures, 
with an ultimate goal of limiting it to 1.5 degrees Celsius. It was an 
agreement adopted with near global consensus. Many foreign countries do 
not see the U.S. as a leader on climate change and are concerned about 
the incoming Trump administration's commitment to climate change 
mitigation.

   Do you believe the United States should meet its commitments under 
        the Paris agreement?

    Answer. See answer below.

    Question. How would you assert American leadership in this area at 
the U.N. and demonstrate resolve in confront the issue of climate 
change with determination and clearheaded global effort?

    Answer. If confirmed, I expect that the State Department and other 
departments of the government will conduct a review of the Nationally 
Determined Contribution submitted by the Obama administration as part 
of our review of the Paris Agreement and the U.N. Framework Convention 
on Climate Change to determine whether the NDC and/or the international 
agreements advance U.S. national interests. Both the UNFCCC and Paris 
Agreement were negotiated by different presidential administrations and 
it is the obligation of the incoming administration to make its own 
determination regarding the ongoing viability of those agreements to 
determine whether they advance U.S. national interests.

    Question. Marine mammals play a vital role in marine ecosystems and 
are critical to the health of our oceans. Unfortunately, human 
activities, have devastated many populations of marine mammals. On an 
international level, the United States is a signatory of the 
International Convention for the Regulation of Whaling and a member of 
the International Whaling Commission, which regulates whaling practices 
and the conservation of whales. The International Whaling Commission 
has implemented a moratorium on commercial whaling since 1986 with 
exceptions for certain subsistence whaling by indigenous populations.

   What steps will you take at USUN to help sustain support for the 
        international moratorium on whaling?

   Where do you see maintaining marine ecosystems in the ranking of 
        environmental priorities at the U.N.?

    Answer. This is an area on which I look forward to be briefed as 
soon as feasible, should I be confirmed.

Development
            Sustainable Development Goals (SDG)
    Question. The 2030 Agenda for Sustainable Development is an example 
of broad, U.N.-led policies to guide international efforts to address 
global economic, social and environmental development issues. The SDGs 
logically build on the accomplishments of the Millennium Development 
Goals. The U.S. was deeply engaged in this effort and pushed hard for a 
number of specific goals.

   Do you believe that the SDGs are in accordance with our foreign 
        assistance goals? Are they a useful framework for addressing 
        complex, global problems and development challenges?

   How do you plan to leverage your position to help advance SDGs of 
        particular goals at the U.N.?

   Which are most important to the advancement of U.S. foreign policy? 
        Are there particular goals/targets that you will individually 
        champion?

    Answer. I have not been fully briefed on the Sustainable 
Development Goals. My experience as a governor has convinced me that 
market oriented policies, reduced regulatory barriers to business and 
entrepreneurship, and a strong, fair and transparent rule of law are 
essential to higher economic growth and development. To the extent that 
the Sustainable Development Goals promote and encourage sound policy in 
developing countries, I believe they can be a useful tool in promoting 
global development. If confirmed, I commit to learning more about this 
issue.

    Question. One of the SDGs has a specific target of taking 
``immediate and effective measures'' to eradicate forced labor and 
human trafficking and to ``secure the prohibition and elimination of 
the worst forms of child labour.'' The recent report on the Trafficking 
Victims Protection Reauthorization Act of 2005 lists the total number 
of goods produced by child or forced labor at 139, involving 75 
countries.

   How can the U.S. and the U.N. be more effective in shining a 
        spotlight on countries that have not made a genuine commitment 
        to abolishing child or forced labor?

   Is ``conscious capitalism'' a U.S. value? What does the term mean 
        to you in the context of the SDGs.

   Are we doing enough to share with the international community how 
        the SDGs align with our values?

    Answer. Should I be confirmed, I commit to working tirelessly with 
the President, senior policymakers, and other federal agencies to 
assist in the fight against human trafficking through my voice, vote 
and influence in the United Nations.

Women and Girls
    Question. U.N. agencies such as UNICEF, U.N. Women and UNFPA, and 
associated programs such as Girl Up, work to help realize the 
Sustainable Development Goals by promote gender equality and equal 
rights for men and women around the world.

   How can you and our mission to the U.N. help these efforts and to 
        build sustaining global support for these issues?

   In what way, if any, do women and girls' policy issues stand apart 
        from wider human rights and development goals? Are women and 
        girls issues best treated within a broader policy framework or 
        do they need particular focus, support to be successfully 
        implemented?

    Answer. Should I be confirmed, I commit to learning more about the 
Sustainable Development Goals in this area and what appropriate role 
the U.S. should play.

    Question. The U.N. carries out vital work supporting women and 
girls access to education and employment and by advising governments on 
how to combat violence against women and girls. But needed programming 
demands far exceed the U.N.'s ability to deliver, due to funding gaps 
and inconsistent political will amongst U.N. member states.

   Given the enormous, proven returns on investment this work 
        generates, and its importance to U.S. foreign policy, how do 
        you plan to further the U.N.'s efforts in this regard?

    Answer. I agree that violence against women and children is a 
serious problem and, if confirmed, I will use my voice, vote, and 
influence to bring attention to this matter.

    Question. There is a growing body of evidence showing that the 
empowerment of women and girls, through investments in their health, 
education, livelihoods, and the prevention of violence, not only 
benefits them as individuals, but leads to healthier, more prosperous, 
and more stable societies.

   Under your leadership, how will you continue to prioritize the 
        empowerment of women and girls in US development and 
        humanitarian assistance and diplomatic engagement?

    Answer. The issue of empowering women is personally important to me 
and, if confirmed, I will support efforts to advance women's 
participation in peace, security, and the political process.

    Question. Violence against Women and girls continues to plague our 
world. It is reported that one billion children a year are victims of 
violence, and the global economic impact of physical, psychological, 
and sexual violence against children is as high as $7 trillion--or 8 
percent of the world's GDP.

   Will you use your position to encourage your colleagues, publicly 
        and privately, to garner support for continuing efforts aimed 
        at ending violence against children?

   What specific steps might you take to accomplish this?

    Answer. I enthusiastically support programs to empower women and 
girls and to help them gain access to education and employment. Such 
efforts are proven to increase economic growth and stability. Violence 
against women and girls is abhorrent and I will look for opportunities 
to advance efforts to prevent this violence and to mitigate the impact 
of it where it has occurred around the world.

Trafficking In Persons
    Question. I co-sponsored with Senator Rubio, The Trafficking in 
Persons Report Integrity Act (TIPRIA) legislation designed to 
comprehensively reform the State Department's annual Trafficking in 
Persons (TIP) Report. Our TIP process came under widespread 
international scrutiny after the 2015 report rankings were flagged as 
having been blatantly and intentionally watered-down due to political 
pressures: certain countries received favorable adjudications despite 
failure to meet minimum legal standards prescribed by Congress. This 
harms our witness to the international community and collective efforts 
to address TIP.

   What steps will you take to restore the credibility of the TIP 
        report amongst member states?

    Answer. I will ensure that data is better integrated into the 
Trafficking in Persons report by consulting with academics and 
specialists in the field to create a more objective system for tier 
ranking evaluation.

    Question. Will you be a determined advocate in working with Tier 3 
countries to make the necessary reforms or risk restrictions on certain 
U.S. assistance if they fail to combat human trafficking?

    Answer. Yes, if confirmed I will do so to the best of my ability.

    Question. The crime of human trafficking is a $150 billion 
worldwide enterprise that enslaves tens of millions of people in 
commercial sex and forced labor. According to estimates by the 
International Labor Organization, nearly 21 million people around the 
world are victims of human trafficking. Despite international and U.S. 
efforts to curtail human trafficking, reports indicate TIP stubbornly 
remains pervasive global blight.

   What, in your view, could international organizations, especially 
        those associated with the U.N., to improve efforts to combat 
        trafficking?

    Answer. International organizations should require employees 
working in the field to receive training on how to recognize signs of 
human trafficking. International organizations should do a better job 
of integrating anti-trafficking efforts into broader global 
initiatives.


    Question. How could the U.S. and especially you at the U.N., work 
to provide additional leadership on this issue and to help make 
progress?

    Answer. Should I be confirmed, I commit to working with the State 
Department in the fight against human trafficking. I believe the United 
States should continue to lead international efforts to combat 
trafficking in persons and believe the Trafficking in Persons report is 
a valuable diplomatic tool.

    Question. UNICEF estimates approximately 21 million people around 
the world are victims of human trafficking each year, and the 
International Labor Organization estimates that 5.5 million of those 
are children. Research has found that because one of the primary 
drivers of trafficking is poverty and the inability of parents to care 
for their children, making them susceptible to traffickers. Family 
planning plays a critical role in the ability of parents and families 
to care for their children. Education about and access to contraception 
allows women to choose the timing and number of children they have, 
thereby enhancing their ability to provide for those children, and may 
ultimately be a step toward reducing one of the causes of trafficking. 
As the largest multilateral provider of voluntary family planning 
services, the United Nations Population Fund (UNFPA) is working to 
address this root cause and eliminate a key driver of trafficking.
    Family planning and reproductive health also play an important role 
in the package of services needed for victims of trafficking. Girls and 
women who have been trafficked are often victims of sexual exploitation 
and violence and need targeted health services. The United Nations 
Population Fund (UNFPA) is on the front lines in places ranging from 
Cambodia, Vietnam and Laos, to Syria and Iraq, providing vital services 
to trafficking victims including psychosocial support; voluntary family 
planning services, including emergency contraception; prevention and 
treatment of sexually transmitted infections, including HIV/AIDS; treat 
of injuries such as fistula arising from sexual violence; and other 
critical health services. The U.S. is the third largest contributor to 
UNFPA, and without U.S. funding UNFPA's ability to do its critical work 
combatting human trafficking would be severely diminished.

   Given your dedication to fighting against human trafficking, will 
        you commit to continuing U.S. funds to UNFPA to ensure this 
        scourge of human abuse does not continue and that victims of 
        trafficking receive the care they need to recover and thrive?

    Answer. I anticipate that the Trump administration will be taking a 
look at our relationship with and funding for all U.N. and affiliated 
agencies to make sure our contributions are appropriate.

Intellectual Property Rights (IPR)
    Question. Countries and economies that deny adequate and effective 
protection of intellectual property rights (IPR) and/or who deny fair 
and equitable market access to U.S. persons (entities) who rely on such 
protection are a serious problem that plagues U.S. businesses and 
creative citizens. The 2016 Special 301 Report identified many 
countries, some of whom are allies and recipients of U.S. foreign 
assistance that have serious gaps in IPR.

   What strategies will you use to continue to highlight this problem 
        at the United Nations?

    Answer. I have not been fully briefed on this issue, but should I 
be confirmed, I commit to learning what additional measures might be 
taken and giving them my full support. Intellectual property theft 
worldwide is one of the most pressing trade issues facing our country. 
I will work with the White House National Trade Council and the U.S. 
Trade Representative, and other agencies, to ensure we have a 
coordinated and effective response against IP theft.

    Question. Will you work with the U.S. Trade Representative to 
encourage those cited in the 2017 report to make positive changes, such 
as the necessary legislation, enforcement, and policies, to be removed 
from the 2018 list?

    Answer. Yes.

    Question. The United Nations can take a more active role relating 
to intellectual property protections that drive America's innovation 
and creativity-led economy that supports more than 45 million jobs 
across the country.

   If confirmed, what will you do to ensure the U.N. makes an improved 
        effort to protect intellectual property and to safe guard the 
        creative and innovative work of American citizens and 
        businesses?

    Answer. I have not been fully briefed on the United Nations and 
IPR. If confirmed, I commit to learning more about this issue.

International Child Abduction
    Question. Beginning this year, the 2007 Hague Convention on the 
International Recovery of Child Support and Other Forms of Family 
Maintenance entered into force for the United States. We now have 
treaty relationship with 32 countries under this multilateral 
convention. However, many countries, including some of our closest 
allies, have failed to ratify the treaty or to address this tragic 
problem in a forthright manner. There are dozens of children from New 
Jersey that have been taken overseas without authorization.

   What specific steps can you undertake at the U.N. and with the 
        international diplomatic community to encourage additional 
        progress in this arena?

   Will you actively enforce U.S. public policy in this area as part 
        of your foreign affairs agenda?

   Will you pledge to undertake determined diplomatic efforts to 
        discourage international child abduction and to seek the return 
        of children illegally removed from this country?

    Answer. I have not been fully briefed on the Hague Convention on 
the International Recovery of Child Support and Other Forms of Family 
Maintenance. If confirmed, I commit to learning more about this issue.

Security
    Question. Harnessing the legitimacy and outreach of the U.N. to 
support shared U.S. security and counterterrorism objectives has been 
shown to be an important component to effective strategy since the 
attacks of 9/11. The U.N. and it agencies have been partners in 
preventing and countering violent extremists (CVE). Studies indicate 
that failing and failed states are breeding grounds for such groups and 
the utility of promoting stability, human development, good governance, 
and poverty alleviation as important tools in the collective CVE 
effort.

   How can we work better with the U.N. and its member states to 
        combat violent extremism and terrorist activity?

    Answer. Should I be confirmed I would work with the rest of the 
cabinet to determine what additional measures would be appropriate and 
give my full support to working for their implementation.

    Question. Would you agree with the notion that in some perhaps 
many, cases a dollar spent on U.N. peace, security, and CVE efforts 
could actually be more productive in advancing our interests than 
spending it on U.S.-only led programs?

    Answer. I believe there is a place for both. Should I be confirmed 
I pledge to work with the rest of the cabinet to determine the 
effective and efficient balance that best support U.S. goals and 
objectives and work tirelessly to ensure the U.N. does its part.

Human Rights
    Question. Throughout the world, political dissidents, activists, 
journalists, and human rights advocates have been victims of 
repression, and have been imprisoned solely for peacefully exercising 
their right to freedom of expression.

   What would you do to reiterate the U.S. government's commitment to 
        protect and advocate for those on the frontlines, including 
        civil society organizations, who are exercising basic freedoms?

   Are there ways the U.N. could strengthen the protections governing 
        freedom of expression?

    Answer. If confirmed, I will use the microphone of the U.N. 
ambassador to state publicly and often that the United States supports 
and is committed to free speech and expression all over the world, and 
that we will call out those who are victimized because they are 
peacefully advocating their beliefs.

    Question. Similarly, securing the southern U.S. border must be done 
in conjunction with addressing root causes driving people to flee 
Central America. The problems in the region are numerous, ranging from 
poverty to the pernicious activities of violent criminal/terrorist 
organizations, and defy unilateral or simple solutions.

   How can the U.N. a partner with the U.S. and Central American 
        governments to address the underlying causes resulting in these 
        migrant flows?

   How does the Refugee Convention and its Protocol, which the U.S. 
        codified in the Refugee Act of 1980, contribute to this effort?

    Answer. Should I be confirmed, I will work with Congress and the 
President to ensure that our foreign policy priorities align with our 
domestic needs and fulfil our legal obligations. I have not yet been 
briefed on all aspects of the U.S. refugee policies, but should I be 
confirmed, I commit to learning more about this matter.

    Question. The recently passed Department of State authorization 
stated that the U.S. should ensure that ``the United Nations Human 
Rights Council takes steps to remove permanent items on the United 
Nations Human Rights Council's agenda or program of work that target or 
single out a specific country or a specific territory or territories.''

   What is your strategy to mitigate the noxious impact of item number 
        7 on the UNHRC agenda?

    Answer. I oppose Agenda Item 7 and, if confirmed, I would strive to 
eliminate it. I do not know if or how the Trump administration plans to 
engage with the Human Rights Council, but, if confirmed, I would advise 
the President that elimination of Agenda Item 7 should be a primary 
goal of our participation or a condition for U.S. participation.

Humanitarian Assistance
    Question. The U.N. is often the ``first responder'' in global 
crises. The number, scope, and duration of the humanitarian needs of 
today dwarf those of even twenty years ago. The persistence of failing 
and failed states is very concerning. Climate change, conflict, 
enduring poverty, and other challenges bedevil mitigation efforts. In 
2017, the global appeal for the U.N. office for the Coordination of 
Humanitarian Affairs (UNOCHA) was $22.2 billion, its highest ever. The 
U.S. is the single largest donor of international humanitarian 
assistance, providing approximately one third of the total contributed.

   Are other member state contributions to UNOCHA adequate?

    Answer. I do not have sufficient knowledge to answer that question 
at this time. Should I be confirmed, I commit to learning more about 
this issue.

    Question. Despite valid ``burden sharing' considerations, is there 
an opportunity for the U.S. to demonstrate further leadership in this 
area? How so?

    Answer. I do not have sufficient knowledge to answer that question 
at this time. Should I be confirmed, I commit to learning more about 
this issue.

    Question. What would you do to build consensus for increased 
international awareness of and financial support to the UNOCHA?

    Answer. I do not have sufficient knowledge to answer that question 
at this time. Should I be confirmed, I commit to learning more about 
this issue, determining what measures would be most effective and 
working tirelessly to build consensus for equitable burden sharing.

    Question. How can the U.S. hold the 173 signatories to Secretary-
General Ban Ki-Moon's World Humanitarian Summit accountable to make aid 
more efficient and effective?

    Answer. Should I be confirmed, the best I can contribute to this 
effort is press the case that the U.S. government takes this issue 
seriously.

    Question. The U.N. High Commissioner for Refugees (UNHCR) reported 
that at the end of 2015, there were more than 130 million people 
worldwide requiring humanitarian assistance. The problem is worsening: 
the global population of forcibly displaced persons has increased 75 
percent in the last two decades. Many national governments are 
unwilling (or unable) to fulfill their obligations under international 
law to assist migrants and internally displaced persons.

   How can the U.S. help realize the aspirations behind the New York 
        Declaration for Refugees and Migrants passed this past 
        September?

   What can the United States U.N. Ambassador do to ensure that member 
        states honor commitments made to protect refugees and migrants?

   Do you believe signing the global compact on refugees and the 
        global compact for safe, orderly, and regular migration are in 
        the U.S. national interest?

    Answer. The U.S. is by far the largest contributor to the U.N. High 
Commissioner for Refugees and provides billions more in direct and 
indirect assistance, bilaterally or through multilateral organizations 
like UNOCHA, to assist refugees and address humanitarian crises. U.S. 
contributions to these efforts are immensely important and, if 
confirmed, I will support U.S. leadership in this area and focus on 
making sure U.S. contributions are used to maximum effect. I will also 
highlight the security implications of fragile and unstable nations and 
the critical problems to which these situations contribute, including 
refugees, in the U.N. Security Council.
                               geographic
Western Hemisphere
            Central America
    Question. In recent years, Democrats and Republicans have forged a 
bipartisan consensus--including appropriating $750 million last year--
to respond to Central America's refugee and migration challenges. This 
assistance recognizes that countries like El Salvador, Honduras, and 
Guatemala have consistently ranked in the top five countries in world 
for high murder rates--murder rates generally seen only in war zones. 
Consequently, there is growing recognition that many Central American 
migrants should be viewed as refugees and thus eligible for 
international protections.

   As tens of thousands of vulnerable people arrive at our 
        southwestern border, how will you ensure that our legal and 
        moral international obligations are fulfilled in protecting 
        their well-being and rights?

   Will you maintain the United States partnership with the U.N. High 
        Commissioner for Refugees to ensure that Central American 
        migrants fleeing violence receive sufficient protections and 
        that they can be screened for relocation in third-countries?

    Answer. I anticipate that the Trump administration will be taking a 
look at our relationship with and funding for all U.N. and affiliated 
agencies to make sure our contributions are appropriate.

            Mexico
    Question. In its 2016 National Drug Threat Assessment, the Drug 
Enforcement Administration (DEA) identified Mexican transnational 
criminal organizations (TCO) as the ``greatest criminal drug threat'' 
to the United States. TCOs also pose a serious threat to Mexico's 
Central American neighbors as well. Some of these ultra-violent groups 
employ terrorist-like tactics and have begun to operate in non-
traditional areas.

   How can the U.N. better contribute to the fight against such 
        groups? Is the U.N. Office on Drugs and Crime an effective 
        leader on this problem? What could the office do in the coming 
        year to better coordinate international efforts to frustrate 
        Mexican TCOs?

    Answer. The U.S.'s strategy should be based in continuing efforts 
to weaken these TCOs by building capacity and strengthening the rule of 
law in Mexico. Despite the successful bilateral security cooperation 
between the U.S. and Mexico, insecurity exists in many parts of the 
country. As a result of high levels of trade, demographics, energy and 
geography, their security and stability is in our national interest.

    Question. The State Department plays a central role in coordinating 
U.S. counter narcotics assistance. Additionally, Mexican criminal 
organizations continue to illegally traffic South American cocaine and 
a growing volume of Mexican-produced heroin and Mexican- and Chinese-
produced fentanyl into the U.S.--which is fueling opioid addiction and 
an alarming number of overdoses across the U.S.

   As we cannot resolve this challenge alone, if confirmed, what 
        strategies will you employ to work with the Government of 
        Mexico and U.N. member states to combat these criminal 
        organizations and the illegal drug trade?

    Answer. Drug trafficking has destabilized Latin America and the 
expansion of fentanyl trafficking and precursor chemicals used in its 
production have become lucrative sources of revenue for Chinese 
criminals. The expansion of Mexican origin heroin has devastated 
communities throughout the U.S., with an immeasurable human toll. 
Unfortunately these drugs have a higher profit rate and are cost 
effective to smuggle into the U.S. than marijuana and cocaine. We must 
work to identify and shut down the illicit trafficking infrastructure 
from physical to financial and continue working to weaken the influence 
of drug trafficking organizations.

            Venezuela
    Question. The situation in Venezuela has deteriorated since the 
introduction of S. Res. 537, something for which I was an original co-
sponsor. Accordingly, I'm working with colleagues to reintroduce this 
resolution in the new Congress. I am profoundly concerned about the 
ongoing political, economic, social and humanitarian crisis in 
Venezuela.

   What will you do in New York to call for respect of constitutional 
        and democratic processes by President Maduro and this regime?

   Will you work to build consensus and support among fellow 
        Ambassadors, especially from OAS states, to hold the Maduro 
        regime accountable?

    Answer. The series of crises in Venezuela have become particularly 
acute in recent months. The Venezuelan government's criminality and 
corruption has wreaked havoc on its country and we must work to stop 
them from co-opting legitimate institutions like the U.N. Human Rights 
Council. We must also work to ensure regional stakeholders like leaders 
and the OAS hold the regime accountable.

    Question. I'd like to gauge your thoughts on the potential role of 
the U.N. in addressing Venezuela's crisis. As the world watched, the 
Venezuelan economy has collapsed; shortages of food and medicine are 
prompting a humanitarian crisis; and the country's authoritarian 
president has jailed political opponents and preceded over the demise 
of country blessed with natural and other resource.

   If confirmed, will you commit to meeting with Venezuelan human 
        rights activists and the families of political prisoners, 
        including Lilian Tintori, the wife of jailed opposition leader 
        Leopoldo Lopez?

    Answer. Currently Venezuela has more political prisoners than Cuba, 
a country governed by the Western Hemisphere's longest running military 
dictatorship. As the U.N. Ambassador, if confirmed I would be proud to 
meet with the relatives of political prisoners and advocate for their 
release. It appears the failure of UNASUR to negotiate a responsible 
outcome to the crisis was due to the lack of political support for 
publicly condemning Maduro. In order to avoid the U.N. falling into the 
same trap, I will work with other countries to raise awareness and 
build consensus on what the U.N.'s proper role in addressing Venezuela 
should be.

   Given that diplomacy by the Vatican and the Union of South American 
        Nations (UNASUR) have not produced results, is it time for the 
        United Nations to take an increased role in resolving 
        Venezuela's political, economic, and humanitarian crisis?

    Answer. Seeking a resolution to Venezuela's multitude of crises 
requires the support of regional and international stakeholders. Last 
year, the Secretary General of the Organization of American States 
applied the InterAmerican Democratic charter against the government of 
Venezuela. I believe future diplomatic efforts should be based on its 
principles of good governance and respect for human rights. For too 
long, the Venezuelan government has used organizations like the United 
Nations to legitimize their erosion of Venezuela's democracy. I will 
use every opportunity to exposing the destabilizing impact of this 
behavior.

            Haiti
    Question. This past autumn, I and some of my concerned Senate 
colleagues, sent letters to United States U.N. Ambassador Powers and to 
Secretary-General Ban Ki-Moon regarding the cholera epidemic that has 
swept through the country since the 2010 earthquake. There is general 
consensus that the United Nations Stabilization Mission in Haiti 
introduced the disease in the country. This epidemic has infected more 
than 779,000 people and caused at least 9,000 deaths so far. I was 
pleased that Secretary-General Ban Ki-Moon finally took some ownership 
of this dire problem and laid out a new policy to address, albeit 
belatedly, this preventable situation. I'm troubled by the time it took 
for the U.N. to accept responsibility and to take meaningful steps to 
stop and reverse the disease. I'm equally disappointed by this 
country's lassitude with regards to holding the U.N. accountable and 
seeming passivity as to forceful actions to stop the epidemic.

   If confirmed, will you pledge to ensure that the U.N. fully follows 
        through on its ``New Approach'' to the cholera epidemic and 
        that it make its implementation a top priority?

   Will you work with the new Secretary-General and your colleagues in 
        New York to ensure that other member states commit to providing 
        the necessary mandate and funds to support alleviating the 
        suffering caused by the epidemic?

    Answer. If confirmed, I would try to mobilize international support 
for Haiti.

    Question. Years after the earthquake that devastated Haiti, 
meaningful rebuilding and redevelopment continues, but it is far from 
complete and Hurricane Matthew only complicated an already desperate 
situation for Haitian nationals. The U.S. Congress played an 
instrumental role in the recovery effort by approving $3.6 billion in 
assistance for the Haitian government and its people, but more work is 
needed.

   If confirmed, what measures will you take to build international 
        consensus for sustained support to Haiti? And that such support 
        be provided from a broad range of donors in accordance with our 
        collective responsibilities?

    Answer. If confirmed, I would try to mobilize international support 
for Haiti but I would need to better understand the legal and financial 
implications of U.N. compensation and restitution before endorsing such 
a policy.

            Cuba
    Question. Despite the Obama administration's controversial and 
misguided decision to normalize relations with Cuba and its' hope that 
this could lead to improved governance and human rights, Cuban 
officials continue to arrest dissidents and violate the rights of 
citizens, and increased tourism revenues benefit only government 
officials and a small minority of the population.

   How do you plan to approach the United States' relationship with 
        Cuba within the context of your role at the United Nations?

   What strategies will you employ to apply further multilateral 
        pressure to lessen authoritarian rule in Cuba?

   Will you continue to support programs that promote democratic 
        voices and initiatives in Cuba through the aegis of the U.N. 
        and its subsidiary bodies and related organizations?

   Can you list some of those entities and how they might further 
        contribute to advancing this agenda?

   What steps will you take to increase international pressure on the 
        Castro regime to return American political fugitives like New 
        Jersey cop-killer Joanne Chesimard?

   What steps will you take to encourage the government of Cuba to 
        release political prisoners, artists, journalists, and other 
        Cubans being detained for politically-motivated reasons?

    Answer. As U.N. ambassador, I plan to make it clear that the U.S. 
will return to having common cause with Cuba's anti-Castro dissidents. 
President Obama's policy has led to skyrocketing levels of political 
repression, human rights abuses and an empowered government in Cuba. We 
must continue actively supporting the dissidents on the island, through 
programs aimed at carrying out democratic initiatives throughout the 
island. Our government will condition our relationship with the Cuban 
government on improvements on human rights as well as the return of 
wanted U.S. fugitives. The past administration did not understand that 
it is in America's interest to have a prosperous and free Cuba 90 miles 
from our coast and never tried to build coalitions of the like-minded 
in the matter.

            Colombia
    Question. The long running conflict in Colombia appears to be 
finally coming to an end with the signing of an agreement between the 
government and the FARC rebels. The U.N. has a small political mission 
there to assist in securing the peace.

   Can the U.N. contribute further to realizing peace and stability in 
        Colombia?

   What can you and USUN Mission do to ensure that the international 
        community remains committed to helping Colombia in this 
        difficult but long overdue process of normalization and 
        reconciliation?

    Answer. If properly implemented, this peace deal could potentially 
bring an end to the over fifty year-long conflict. From demobilizing 
combatants to removing mines, the U.N. and other international 
stakeholders stand to play an important role. To the extent possible, 
we must make sure that FARC combatants are held accountable for their 
crimes, and the gains from Plan Colombia are not forsaken in the 
process of implementing the peace deal.

Near Eastern and South and Central Asia Affairs
            Iran
    Question. Iran continues to be the largest state sponsor of 
terrorism in the world and a nuclear-armed Iran poses a grave threat to 
the United States and our allies.

   What concrete steps will you take to build and sustain efforts to 
        stop malign Iranian influence in Syria and Iraq?

   Likewise, what can the international community do, and especially 
        the U.N., to support the Iraqi government and the Iraqi people 
        to stop the influence of Iran and violent extremist groups 
        within the country?

    Answer. If confirmed I will work with my Cabinet colleagues to do 
my part at the U.N. to implement the administration's strategy to deter 
and stop Iran's malign influence in the region.

    Question. Iranian and Russian cooperation in the Syrian conflict is 
one facet of a web networks Iran is cultivating to advance its agenda 
in the Middle East.

   Do you believe that joint Russian-Iranian operations in Syria are 
        in the interest of the United States? If no, please describe 
        what steps specifically you plan to take to weaken the network 
        of Russian-Iranian military actions in Syria and across the 
        region.

    Answer. I do not believe Russian-Iranian operations in Syria are in 
the interest of the U.S. If confirmed I will work with my Cabinet 
colleagues to do my part at the U.N. to implement the administration's 
strategy in Syria

    Question. Iran is engaged in a concerted effort to undermine 
traditional U.S. allies in the region and to hold themselves out as a 
model for principled resistance to what they perceive as U.S./Western 
hegemony in the Middle East. Their use of proxies, such as Hezbollah, 
their fomenting conflict in Yemen and Syria, and their provocation in 
the Straits of Hormuz indicts that despite JCPOA, their involvement in 
international affairs is almost entirely malign.

   How do you plan to cultivate international support to aggressively 
        stop Iranian proxy networks like Hezbollah from attacking 
        Americans and other nationals?

   How will you work with other countries to ensure they comply with 
        primary and secondary sanctions we have in place to stop Iran's 
        proxy terrorist networks from destabilizing the region?

   Will you work to build support for additional sanctions against 
        Iranian individuals and actors who are known to fund terrorism 
        as required?

    Answer. If confirmed I will work with my Cabinet colleagues to do 
my part at the U.N. to implement the administration's strategy to deter 
and stop Iran's malign influence in the region.

            Syria
    Question. There are more refugees and internally displaced persons 
(IDP) in the world now than any other time since World War II. Many, 
but not all, of these refugees and IDPs stem from years of conflict in 
Iraq and Syria. 20 percent to 25 percent of the population of Lebanon 
is made up of such individuals.

   Are you satisfied with the leadership of U.S., from policy and 
        financial angles, within the international community to address 
        the crisis? If not, what do you plan to do to ameliorate the 
        situation?

   Should you be confirmed, what concrete steps will you take to 
        address the dire humanitarian crisis in Syria and to help 
        prevent the further destabilization of neighboring countries?

   What do you think the role of both the U.N. Security Council and 
        the U.N. High Commissioner for Refugees should play?

    Answer. I look forward to being briefed fully on these issues in 
the event I am confirmed. I understand that dealing with the refugee 
situation in the region is a priority for the U.S. goal of bringing 
peace and stability to the region. Should I be confirmed, I commit to 
assessing U.S. leadership with the context of my duties as U.N. 
ambassador and tirelessly working to make every effort to ensure U.S. 
leadership is as effective s as possible.

            Afghanistan
    Question. I co-sponsored with Senator Corker The Afghanistan 
Accountability Act, which lays out a framework for the United States to 
take meaningful steps, working with our Afghan interlocutors to tackle 
the roots of corruption including: developing clear accountability 
benchmarks; supporting the Afghan legal system to better oversee 
property rights and asset management; and, in certain cases, imposing 
specific penalties on persons who are knowingly involved in direct acts 
of mismanaging or misappropriating U.S. assistance.

   What steps can be taken internationally to encourage Afghanistan to 
        combat rampant corruption, extensive patronage networks, and 
        mismanagement of assistance dollars that is contributing to 
        instability and poor governance?

   How can the U.N. and our international partners contributed towards 
        institutionalizing reform and progress?

    Answer. I believe the efforts to reduce corruption and improve 
governance in Afghanistan are vital to advancing U.S. interests in 
bringing peace and stability to the region and the goal eliminating 
Radical Islamic Terrorism. I do not have sufficient knowledge to 
determine what specific additional measures to take. Should I be 
confirmed I look forward to gaining a greater understanding of this 
issue and in particular working with the Congress to determine how U.S. 
leadership can best contribute to this effort.

    Question. This is longest running armed conflict in U.S. history. 
Success seems elusive despite an unprecedented commitment by the U.S. 
and our allies.

   What specific policy steps would you take to further isolate the 
        Taliban and its supporters?

   What could the U.N. do further to undergird our efforts to achieve 
        improved security and good governance in the country?

   Some Americans feel the U.N. is not doing enough in Afghanistan. Do 
        you agree? What will you tell the Secretary-General when you 
        meet him in this regards?

    Answer. I believe U.S. leadership in helping Afghanistan achieve 
peace and stability is vital. That starts with ensuring the military 
defeat of the Taliban and mitigating their capacity to affect the lives 
of the people. I do not know what additional measures might be prudent 
for the U.N. to take. Should I be confirmed, I commit to fully 
assessing U.N. support and working tirelessly to make it both 
appropriate and effective.

Asia Pacific
            China
    Question. It is a longstanding US policy to not recognize Chinese 
claims of sovereignty over the South or East China Sea and or any 
islands therein. Yet we see the country taking aggressive steps to 
expand its influence and control, even to the point of militarizing the 
islands and outrageously seizing a U.S. Navy vessel in international 
waters.

   Would you work to build international support for a targeted 
        sanctions regime against firms and individuals that facilitate 
        certain investments in the South China Sea or East China Sea, 
        including land reclamation, island-making, construction, supply 
        facilities or civil infrastructure projects in any land that is 
        currently disputed territory between any other nations?

    Answer. I am open to considering any new approach to this problem.

    Question. Likewise, would you work to build international support 
to prohibit official recognition of the South China Sea or East China 
Sea as part of China, and to limit certain kinds of assistance to 
countries that recognize Chinese sovereignty over either Sea?

    Answer. Of course, we have complex relationships with many 
countries around the world. However, I am open to considering new 
approaches that raise the profile of this particular issue in our 
interactions with them.

    Question. How will you counter China's role in the U.N. Security 
Council to achieve these goals?

    Answer. Should I be confirmed, I will forcefully represent the 
views of the U.S. government at every opportunity.

            North Korea
    Question. One major concern at a global level is North Korea's 
sharing and transferring of nuclear technology. North Korea has 
successfully subverted sanctions and export and import controls, often 
through flagging cargo ships with non-North Korean flags.

   What steps has the international community taken since March to 
        more rigorously monitor and control North Korean shipping 
        vessels?

   What steps can be taken to ensure that all countries are complying 
        with stricter controls the U.N. Security Council passed last 
        March? Where are the weakest links in the system?

    Answer. I do not have sufficient knowledge to answer these 
questions. I do believe that the fullest and most comprehensive 
implementation of sanctions is vital to the U.S. goal of eliminating 
the threat of a nuclear North Korea. Should I be confirmed, I commit to 
learning more about this issue and working tirelessly in the effort to 
tighten and expand the sanctions regime.

    Question. I recognize that some analysts are skeptical about the 
effect of sanctions on a corrupt country like North Korea. However, as 
the leading sponsor of legislation that was overwhelmingly passed to 
impose and tighten sanctions on North Korea, I believe they can have a 
meaningful impact if rigorously enforced.

   How are we in monitoring member compliance of agreements to enforce 
        multilateral sanctions? What are not doing enough of in this 
        area?

    Answer. I have not been fully briefed on this issue, but should I 
be confirmed I commit to learning more about this issue.

    Question. How do multilateral sanctions fit into the fabric of 
prevention and deterring North Korea's nuclear ambitions?

    Answer. I believe in concert with U.S. unilateral measures they are 
vital.

    Question. Do you believe China is in fact in compliance with UNSC 
resolutions? What measures can we take to more tightly enforce our 
unilateral sanctions?

    Answer. No. I believe assessing China's effort and pressing them to 
be in full compliance is vital.

    Question. Will you work at the UNSC to impose additional sanctions 
on DPRK if needed?

    Answer. Yes.

            Taiwan
    Question. President-elect Trump suggested that the United States 
would no longer be bound by the One China policy--a policy that is in 
our national security interests. Moreover, Taiwan's successful 
democratic experiment is a significant accomplishment for American 
foreign policy; the country remains a strategic partner of the U.S.

   Are you committed to maintaining the One China policy?

    Answer. If I am confirmed, I will work with the President and the 
National Security Council on all aspects of our policy toward China.

    Question. Where does Taiwan stand in President-elect Trump's 
calculus? Is he committed to an alliance and partnership we maintained 
with Taiwan since 1949 or is it a negotiating ``bargaining chip?

    Answer. I believe the six assurances and the Taiwan Relations Act 
are the bedrock of U.S. commitments to Taiwan. I believe the president 
does as well.

    Question. What impact would this have on our relationship with 
China at the Security Council or other U.N. bodies?

    Answer. Regardless of the impact, the Taiwan Relations Act is law 
and six assurances a long-honored policy precedent that should continue 
to be followed.

    Question. I was extremely disappointed by the decision of the 
International Civil Aviation Organization (ICAO) not to issue an 
invitation to Taiwan to attend the 2016 ICAO Assembly that was held in 
Montreal, Canada. ICAO's unfortunate lack of resolve in the apparent 
face of Chinese coercion is deeply regrettable and reflects poorly on 
an agency created by the United Nations to support a safe, efficient, 
secure, economically sustainable and environmentally responsible 
international civil aviation sector. A similar situation continues with 
regards to sensible Taiwanese participation in INTERPOL. The vagaries 
of cross-strait relations should not be allowed to prevent the prudent 
participation of Taiwan in international bodies, assemblies, and 
agencies, even if only as an observer.

   What will you do to actively resist imprudent Chinese efforts to 
        isolate Taiwan even when common sense, international security 
        and safety imperatives argues for Taiwanese engagement?

   What can you do to put pressure on ICAO to reconsider this decision 
        for future gatherings and to demonstrate leadership, fairness, 
        and courage by allowing the needful participation of Taiwan?

    Answer. Should I be confirmed I pledge to resist efforts to isolate 
Taiwan and assist it in achieving meaningful participation in 
international organizations.

    Question. I'm the co-chair of the Taiwan Caucus. In that capacity, 
I've years of experience following the cross-strait relations between 
the People's Republic of China and Taiwan; this past April marked the 
37th anniversary of the enactment of Taiwan Relations Act (TRA), a 
pivotal event in our shared history and emblematic of our strong 
bilateral relations. Unfortunately, China is increasingly taking an 
aggressive approach with its neighbors, including Taiwan. Given these 
geopolitical developments, it would make sense to ensure that Taiwan 
can adequately defend itself and possess the means to resist new and 
increased military threats, from where ever source.

   Would you be supportive of being an advocate within the Trump 
        administration to return to a process of regular and normalized 
        arms sales for Taiwan as opposed to the ``package'' approach 
        that the past couple of administrations have taken?

    Answer. If confirmed, yes.

Europe
            Cyprus
    Question. We have a historic opportunity to achieve a peaceful 
resolution of the long festering and untenable situation in Cyprus. 
Positive Turkish engagement and support of this process is vital, as is 
that of International Organizations and the U.S.

   How do you view the current, ongoing Cyprus settlement talks held 
        under U.N. auspices?

   Do you support a reunified Cyprus with a single sovereignty, single 
        international personality and single citizenship; and with its 
        independence and territorial integrity safeguarded as described 
        in the relevant U.N. Security Council resolutions?

   Will you maintain U.S. high-level engagement on this issue and push 
        pack on any proposed U.N. solution that is not supported by the 
        concerned parties?

    Answer. I am hopeful that this issue can be resolved. If confirmed, 
I will do what I can to encourage a mutually acceptable agreement.

            Armenia
    Question. 2015 marked the centenary of the Armenian Genocide. Pope 
Francis has publicly affirmed the Armenian Genocide. However, Turkey 
has consistently denied that a genocide took place or that it has any 
meaningful culpability for this gross crime against humanity.

   Do you support a U.S. declaration calling the Armenian Genocide as 
        such and working with other member states to do so as well?

   Do you think our failure to do so hereto speaks ill of our values 
        and encourages the continuation of such crimes?

    Answer. I have not yet been briefed on this issue but I understand 
how emotive the subject is. Should I be confirmed, I commit to learning 
more about this issue. But, as a general matter, as I stated throughout 
my hearing, I will never shy away from calling out other countries for 
actions taken in conflict with U.S. values and in violation of human 
rights and international norms.

            Ukraine
    Question. On March 12, 2014, I authored and introduced legislation 
(S. 2124, the Support for the Sovereignty, Integrity, Democracy, and 
Economic Stability of Ukraine Act of 2014), to provide loan guarantees 
to support Ukraine, and to impose sanctions on Russian and Ukrainian 
officials responsible for violent human rights abuses against anti-
government protesters, as well as against those responsible for 
undermining the peace, security, stability, sovereignty or territorial 
integrity of Ukraine. The legislation, which was signed into law on 
April 3, 2014, also imposes asset freezes and visa revocations on 
Russian officials and their associates who are complicit in or 
responsible for significant corruption in Ukraine. Likewise, the 
Ukraine Freedom Support Act of 2014 called for the administration to 
impose sanctions on other defense industry targets as well as on 
special Russian crude oil projects. It also was signed by the 
President.

   How can USUN be used an effective tool to build international 
        consensus that will hold Russian and Ukrainian official 
        accountable for gross human rights abuses and for violating the 
        territorial integrity of Ukraine?

   What points will you make to counter Russian propaganda and 
        disinformation campaign with regards to Crimea?

    Answer. The U.S. should use its leadership position at the U.N. to 
maintain public pressure and awareness of Russia's actions in Crimea 
and eastern Ukraine. This includes working with like-minded partners in 
both the U.N. Security Council and the General Assembly. This is 
particularly important to show international support for Ukraine's 
territorial integrity and the gross human rights abuses taking place in 
occupied Crimea.

            Russia
    Question. The use of the veto power by Russia and other permanent 
members of the United Nations Security council has contributed to the 
UNSC's ineffectual responses to some serious humanitarian and security 
challenges, Syria and South Sudan come to mind. Some have suggested 
that a Trump administration could forge new understandings and 
mechanisms to move forward at the UNSC to solve some of the global 
problems facing us.

   Do you see forging a new relationship with Russia at the UNSC as a 
        realistic prospect?

   What fruitful areas might we be able to work with Putin's Russia at 
        the U.N.?

    Answer. I do not see, at present, the conditions which would allow 
the U.S. to forge a new relationship with Russia at the UNSC. However, 
each opportunity for cooperation would have to be considered on a case 
by case basis taking into consideration all the circumstances at the 
time.

    Question. Russia is running an influence campaign against the West 
to delegitimize governing institutions and weaken democratic states 
from within. Besides their interference in our own elections they have 
do so elsewhere, such as in Germany, and seem committed to undermining 
liberal, Western-style democracy across the globe.

   Do you believe that Russia is actively engaged in disrupting 
        elections in other western democracies? What can be done at the 
        United Nations to confront this threat?

    Answer. I do believe that Russia is actively engaging in trying to 
disrupt the democratic process in the West. The U.S. should use its 
leadership position at the U.N. to maintain public pressure and 
awareness of Russia's actions. This includes working with like-minded 
partners in both the U.N. Security Council and the General Assembly.

    Question. Do we need to embark on a Marshall-like plan for global 
democracy promotion?

    Answer. No. The Marshall plan was appropriate for the situation in 
post-World War II Europe. Should I be confirmed, I will advocate for 
plans that most effectively and efficiently foster U.S. interests.

    Question. Can you outline specific steps you would stake to 
encourage the U.N. to further embrace good governance initiatives? Can 
you point to specific programs or agencies who might be able to assist 
in this effort?

    Answer. I do not have sufficient knowledge to answer this question. 
Should I be confirmed, I commit to learning more about this and issue 
and in particular in consulting with the Congress.

    Question. What role could the U.N. play in terms of countering 
illiberal forces that it presently is not?

    Answer. Through strong, clear and consistent leadership against 
illiberal forces that beset the globe.

    Question. Because of Russia's vetoes at the Security Council, the 
Syrian conflict has been prolonged and Assad consolidated power. Russia 
has deepened its involvement in the region and crippled meaningful 
action at the U.N.

   What will you do in your capacity as U.S. Ambassador to the U.N. to 
        work humanitarian concerns aren't ignored?

   What will be your specific strategy at the U.N. Security Council to 
        hold Russia accountable for its aggressive activities in 
        Ukraine and Syria?

    Answer. The U.S. should use its leadership position at the U.N. to 
maintain public pressure and awareness of Russia's actions in Syria. 
This includes working with like-minded partners in both the U.N. 
Security Council and the General Assembly.

Africa
            Ethiopia
    Question. Ethiopia, an important security partner for the United 
States, is suffering its worst unrest in years, in response to the 
government's intensifying human rights abuses and restrictions on 
freedoms. The government's harsh response to the unrest--which has 
involved the killing of hundreds of protesters, mass arrests, the 
imposition of a state of emergency that includes curfews and travel 
restrictions for foreign diplomats--has created an unsustainable 
situation.

   In a world filled with serious problems, how can the U.N. and the 
        USUN Mission draw attention to the problems in Ethiopia and 
        effect positive changes?

   Can Ethiopia be an effective partner on terrorism without 
        addressing this illiberal turn?

    Answer. The human rights situation in Ethiopia is troubling. If 
confirmed, I will work to strengthen our partnership with Ethiopia on 
counterterror and other issues important to American interests. I will 
also use the tools available to me as Ambassador to the U.N. to 
encourage Ethiopia to grant its citizens the protections and rights 
critical to the flourishing of a just, free, and safe society.

            South Sudan
    Question. The humanitarian suffering, endemic corruption, and 
conflict South Sudan has the hallmarks of a failing state. The 
Transitional Government of National Unity, as established by the 
Agreement on the Resolution of the Conflict in South Sudan, has been 
unable to make progress. In November, 2016 I was part of a bipartisan 
letter, from both houses of Congress, to outgoing United Nations 
Secretary-General Ban Ki-Moon urging him to lead efforts to revitalize 
the stalled political settlement in South Sudan and to work to bring 
peace and stability to the nation.

   What specific steps would you take to put South Sudan back on the 
        track towards peace?

   Can you outline how you might use your office to help bring 
        attention, support, and leadership to ensure we avoid another 
        tragedy?

    Answer. Should I be confirmed, I recognize that this is an issue in 
which the U.S. must show leadership in the international community. 
Ethnic violence has continued over the last several years. I would 
commit to continuing to highlight the situation and pressing the U.N. 
to play a more effective role. I look forward to consulting Congress on 
this issue.

    Question. Relatedly, the conflict in South Sudan is becoming one 
with an increasingly ethnic aspect, one that some believe could bring 
about ``ethnic cleansing'' and even genocide. The U.N. peacekeeping 
mission in South Sudan (UNMISS) is providing protection to hundreds of 
thousands of civilians impacted by the fighting yet there have been 
inexcusable lapses by UNMISS.

   How can the U.S. and the U.N. help prevent a worsening of the 
        conflict and the specter of ethnic cleansing?

   What steps can the administration take to encourage better 
        operational effectiveness by UNMISS? Are the problems 
        structural or financial?

   What can be done to impede the flow of arms into the country?

    Answer. The situation in South Sudan is one of the most pressing 
humanitarian situations in the world. It is critical to help build some 
political space for reconciliation between the government and rebel 
factions. The United States should continue to engage in international 
forums like the U.N. and bilaterally with key partners in the area to 
address this issue, and decide upon a combined policy to address this 
violence. This would include deploying robust diplomacy, possible 
sanctions, and other measures.

            Central African Republic (CAR)
    Question. Recently Doctors Without Borders/Medecins Sans Frontieres 
(MSF) reported that it had to engage in food distribution in Central 
African Republic (CAR ) to address the worsening humanitarian situation 
there. They further pointed out that World Food Program efforts in the 
country are inadequate to meet the need.

   What can we do to assist the WFP in meeting this need? Will you 
        make it a priority to work with Ambassadors of other states to 
        increase emergency financial contributions?

    Answer. One of our steps to support WSF would be to work with 
Ambassadors of other states, which the United States could do.


                               __________

       Responses to Additional Questions for the Record Submitted
             to Governor Nikki Haley by Senator Marco Rubio

On the Western Hemisphere
    Question. In October 2015 at the United Nations General Assembly, 
the United States abstained from condemning the U.S. embargo against 
Cuba. President Kennedy proclaimed a U.S. embargo on Cuba as a result 
of actions taken by the Cuban government against American companies, 
including the confiscation and nationalization of property.

   Do you think the United States should vote against Cuba's yearly 
        resolution condemning the embargo against Cuba, or abstain on 
        the yearly resolution, as President Obama's administration did 
        in October of 2016?

    Answer. Yes, I think the United States should vote against Cuba's 
yearly resolution condemning the embargo against Cuba.

    Question. The Cuban government has been caught on several occasions 
smuggling weapons internationally. As you are aware, Cuba was found in 
breach of international sanctions for attempting to smuggle weapons to 
North Korea. These actions, with false manifests, also threaten the 
safety and integrity of the Panama Canal.

   What would you do to prevent Cuba's international weapons smuggling 
        in the future?

    Answer. I believe this effort is vital. Should I be confirmed I 
would work tirelessly with the rest of the cabinet to see what 
additional steps could be taken. I look forward to consulting with the 
Congress on this issue.

    Question. Venezuela is no longer a democracy. There are 
approximately 100 political prisoners. Political opponents and ordinary 
critics are routinely subject to arbitrary arrests and prosecution. 
Electoral authorities, which respond to President Maduro, have failed 
to carry out a recall referendum on his presidency and governor 
elections that should have occurred in 2016. The Maduro administration 
continues to exercise unchecked power, and has used the Supreme Court 
to undermine the powers of the National Assembly, the only independent 
branch of government left in the country. Meanwhile, the government has 
contributed to the dramatic humanitarian crisis that leads to the 
enormous suffering of many Venezuelans--among other things, by failing 
to ensure that international aid, which is readily available, reaches 
the Venezuelan people.

   What concrete measures would you take to address the grave human 
        rights situation and humanitarian crisis that Venezuela is 
        facing under the Maduro regime?

    Answer. Should I be confirmed, I would tirelessly work to make 
every effort within my duties as U.N. ambassador to highlight the human 
rights abuses and humanitarian crisis in the country and condemn the 
regime.

    Question. The cholera bacteria was introduced by the United Nations 
Stabilization Mission in Haiti (MINUSTAH) and has caused the death of 
thousands of Haitians. The disease is now putting the lives of many at 
risk, and the lack of clean water and sanitation infrastructure caused 
by Hurricane Matthew is only exacerbating the spread of the disease. 
U.N. Secretary-General Ban Ki-Moon had announced his plan to give 
cholera victims in Haiti or their communities cash payments from a 
proposed $400 million cholera response package.

   Will you commit to work to ensure these victims receive proper 
        compensation from the United Nations?

    Answer. If confirmed, I would try to mobilize international support 
for Haiti but I would need to better understand the legal and financial 
implications of U.N. compensation and restitution before endorsing such 
a policy.

On the U.N. Human Rights Council
    Question. Last year, the Obama administration rejoined the U.N. 
Human Rights Council, the membership of which is mostly made up with 
countries who hold some of the worst human rights records. The fact 
that countries such as Saudi Arabia, Cuba, China, and Egypt have a seat 
on the U.N. Human Rights Council proves that it is a broken and 
ineffective institution with very little credibility. Many of these 
countries use the Council to cover up their own abysmal human rights 
records.

   Do you believe the United States should even be a member the 
        Council while countries with abysmal human rights records sit 
        on it?

   If so, then what is best way for the United States to promote human 
        rights and basic freedoms on the Council when human rights 
        abusers like Cuba, China, Ethiopia, the Philippines, Saudi 
        Arabia also sit on the Council? And how do you plan to clean up 
        the U.N. Human Rights Council's membership and protect 
        fundamental human rights?

    Answer. the ability of human rights violators to be elected and 
shield each other from criticism. If confirmed, I will work with the 
President and the cabinet to determine the appropriate level of 
engagement with the HRC that best advances U.S. interests.

    Question. In March 2016, the U.N. Human Rights Council adopted a 
resolution calling for the creation of a database of Israeli companies 
operating in the West Bank, East Jerusalem and the Golan Heights. Last 
month, the U.N. General Assembly approved a budget that included 
$138,000to support this effort. I view this blacklist as a dangerous 
step that can lead to a boycott of our ally Israel.

   How can the United States derail this blacklist effort?

   What more can we do to make sure that we find ways to push back 
        against efforts to isolate the Jewish state and instead fully 
        include Israel as a state receiving equal treatment at the 
        United Nations?

    Answer. I agree. Israel is a vital ally of the United States, and 
we must meet our obligations to Israel as our most important strategic 
ally in the region. Should I be confirmed, I would recommend to the 
President that the U.S. announce it no longer supports UNSCR 2334 and 
would veto any U.N. Security Council efforts to implement it or enforce 
it, and block any future U.N. sanctions based on it. Although the U.S. 
may not be able to stop the implementation of the BDS list in the 
General Assembly, if confirmed, I commit to use my position to do what 
is possible to impede it.

On the U.N. Peacekeeping
    Question. Allegations of sexual exploitation and abuse by U.N. 
peacekeepers and personnel continue to surface.

   How will you push the United Nations to hold peacekeepers 
        accountable for abuses committed while on mission wearing the 
        U.N. blue helmet?

   How will you push the governments of troop-contributing countries 
        to hold peacekeepers accountable for abuses committed while on 
        mission wearing the U.N. blue helmet?

   Will you name and shame countries whose troops are involved in 
        sexual abuse allegations and publicly identify those countries 
        which have not taken steps to advance prosecution of soldiers 
        for alleged misconduct committed while part of U.N. missions 
        abroad?

   What specific reforms do you recommend to prevent future failures?

    Answer. See below.

    Question. The new U.N. Secretary General, Antonio Guterres, has 
pledged to make eradicating sexual exploitation and abuse from 
peacekeeping operations one of his priorities.

   How will you support him in these efforts?

    Answer. If confirmed, I will work with Congress and the United 
Nations to strengthen the U.N.'s zero tolerance policy on sexual 
exploitation and abuse. Effective steps must include naming and 
shaming, repatriation of units, and holding troop contributing 
countries to account and require transparent reporting on 
investigations, prosecutions, and punishment for offenders. This must 
include withholding payment and, as a last resort, barring countries 
from participating if they fail to comply.

On Global Women's Issues
    Question. Conflict and crisis have significant implications for 
women and girls. In contemporary conflicts, as much as 90 percent of 
casualties are among civilians, most of whom are women and children. 
Women are the first to be affected by infrastructure breakdown, as they 
struggle to keep families together and care for the wounded.

   How do you believe the United States and the United Nations should 
        approach and prioritize the protection of women and girls in 
        conflict settings?

    Answer. I agree that women and girls are most at risk in conflict 
situations, and that we should prioritize their protection in our own 
foreign policy programs and those at the U.N. I look forward to finding 
additional opportunities and initiatives to advance existing efforts, 
if confirmed. I also support efforts to advance women's participation 
in peace and security, including preventing conflict and building peace 
in countries threatened and affected by war, violence and insecurity.

    Question. One of the U.N.'s core missions is to promote equal 
rights for men and women around the world, including the right of all 
women and girls to decide if, when and whom they marry.

   What is your vision for how the United States and the United 
        Nations can continue to promote the rights of girls worldwide, 
        including the U.N. goal that commits to ending child marriage 
        by 2030?

    Answer. I strongly support the goal to end the human rights abuse 
of child marriage and will look for opportunities to advance this goal 
in the U.N. should I be confirmed.

On Israel and the Security Situation in the Middle East
    Question. U.N. Security Council Resolution 2231, which endorsed the 
JCPOA, calls upon Iran not to undertake any activity related to 
ballistic missiles and restricts Iranian arms transfers. Iran has 
violated these restrictions with virtual impunity. Iran continues to 
test ballistic missiles, ship arms to Assad, Hezbollah and the Houthis, 
and import arms from Russia.

   Will you insist upon robust enforcement of the ballistic missile 
        and arms transfer restrictions on Iran?

    Answer. Yes.

    Question. What steps can we take to overcome the reticence by other 
nations to enforce the U.N. Security Council's own edicts?

    Answer. The incoming administration intends to conduct a deliberate 
review of the JCPOA in order to determine its approach. At a minimum, 
it will be critical to ensure that all provisions of the deal are very 
strictly enforced to hold Iran accountable and deter any cheating.

    Question. In 2011, UNESCO voted to admit Palestine as a member 
state in the organization. That action triggered U.S. laws and a cut-
off in our financial contributions to UNESCO. The cutoff of U.S. 
funding had a dramatic effect. Since the UNESCO action, no similar 
agency has acted to grant membership to the Palestinians.

   Do you agree that the United States should oppose Palestinian 
        efforts to obtain full membership at any U.N. agency?

    Answer. Yes.

    Question. Will you continue to enforce U.S. laws requiring that the 
United States not fund international organizations that grant Palestine 
full member privileges?

    Answer. Yes.

    Question. The United Nations maintains several peculiar bodies and 
departments that focus on the Palestinians. These including the 
Division on Palestinian Rights (DPR), the Committee on the Exercise of 
the Inalienable Rights of the Palestinian People (CEIRPP), and United 
Nations Information System on the Question of Palestine (UNISPAL). The 
plethora of Palestinian-specific agencies in the U.N. does nothing to 
promote peace while reinforcing the U.N.'s systematic anti-Israel bias.

   Will you work to challenge the existence and funding of these 
        departments?

    Answer. I anticipate that the Trump administration will be 
examining our relationship with and funding for all U.N. and affiliated 
agencies to make sure our contributions are appropriate.

    Question. Rather than working to solve the problem of Palestinian 
refugees, the United Nations Relief and Works Agency (UNRWA) seeks to 
perpetuate refugee status for Palestinians. The U.N. treats Palestinian 
refugees in a manner different than all others--it grants refugee 
status to all descendants of refugees, even if they are citizens of our 
own nation. By this treatment, UNRWA has swelled the population of 
Palestinian refugees seven-fold in the last 60 years' to over 5 million 
people. Congress has sought to bring reality back to this issue, and to 
focus our efforts only on those individuals who can truly be considered 
refugees.

   How would you approach this issue? How can we get UNRWA to try to 
        solve the problem of Palestinian refugees rather than to 
        perpetuate the problem?


    Answer. I anticipate that the Trump administration will be 
examining our relationship with and funding for all U.N. and affiliated 
agencies to make sure our contributions are appropriate.

    Question. Since its inception, the United Interim Force in Lebanon 
(UNIFIL) has done nothing to prevent Hezbollah from rearming in 
Lebanon. Ten years after the Second War in Lebanon, Hezbollah has ten 
times the number of rockets and missiles it had at that time. UNIFIL 
does not even patrol certain urban areas out of a fear of Hezbollah. I 
am afraid that another war could breakout between Israel and Lebanon 
with devastating consequences.

   What more can and should we be doing to ensure compliance with U.N. 
        Security Council Resolution 1701, which ended the 2006 war in 
        Lebanon and required Hezbollah to disarm?

   Will you work to highlight Hezbollah's violations of Resolution 
        1701 and its illegal placement of arms among Lebanon's civilian 
        population?

    Answer. I have not yet been briefed on all aspects of UNSCR 1701, 
but should I be confirmed, I commit to learning more about this issue.

On Human Rights, Democracy and Religious Freedom
    Question. Throughout the world, political dissidents, activists, 
journalists, and human rights defenders have been victims of repression 
and imprisoned--or worse, tortured and killed--solely for peacefully 
exercising their right to freedom of expression.

   What would you do to reiterate the U.S. government's commitment to 
        protect and advocate for those on the frontlines, including 
        civil society organizations, who are exercising basic freedoms?

    Answer. If confirmed, I will use the microphone of the U.N. 
ambassador to state publicly and often that the United States supports 
and is committed to free speech and expression all over the world, and 
that we will call out those who are victimized because they are 
peacefully advocating their beliefs.

    Question. What will you do to initiate a U.N. inquiry on war crimes 
in Syria, including those committed by Russian and Iranian forces as 
well as Syrian forces?

    Answer. I have not been briefed on how such an inquiry could 
proceed, but, if confirmed, I commit to exploring this matter.

    Question. Saudi Arabia has one of the worst human rights records, 
with Freedom House giving them a score of ``Not Free'' on their annual 
Freedom of the World Report.

   How will you address these abuses at the United Nations and 
        encourage Saudi Arabia to improve its human rights record?

    Answer. Should I be confirmed, through clear, strong and consistent 
leadership on this issue.

    Question. Iraq and Syria's Christian community has been 
deliberately targeted, along with Yezidis and other religious 
minorities, by ISIS for genocide, as Obama administration stated in its 
official designation last year. Since 2011, Syrian Christians have been 
disproportionately underrepresented in refugee resettlement referrals 
to United States by the U.N. High Commissioner for Refugees as shown in 
State Department-published data.

   In light of these realities, how will you work to ensure that those 
        religious and ethnic minorities who are victims of genocide are 
        not neglected or marginalized in the U.N. context?

    Answer. By playing a leadership role, ensuring that the U.S. 
portion on this issue is clear, strong and consistent.

On North Korea
    Question. Currently, the human rights situation in North Korea is 
only discussed once a year at the U.N. Security Council, typically in 
December.

   Will pledge to place North Korea's human rights record on the U.N. 
        Security Council General's agenda every quarter--similar to 
        debates on the country's proliferation of nuclear weapons 
        technology?

    Answer. Yes.

    Question. The United Nations Commission of Inquiry Report on human 
rights in North Korea found that China was in violation of its 
obligations under international human rights and refugee law. 
Specifically, China's forced repatriation of North Korean refugees--
many of whom face torture, starvation, imprisonment, sexual violence 
and even execution--could be considered aiding in crimes against 
humanity.

   Will you make it a priority to press China to change its policies 
        as it relates to North Korean refugees?

   Will you use the United Nations to elevate this issue and press for 
        international action?

    Answer. Yes.



                               __________

       Responses to Additional Questions for the Record Submitted
         to Governor Nikki Haley by Senator Benjamin L. Cardin

Value of the U.N. to the U.S.
    As tempting as it may be to turn the U.N. into a scapegoat for the 
world's problems, the U.N. system performs duties that are of immense 
value to the United States. U.N. peacekeepers help maintain stability 
(albeit imperfectly) in countries where the U.S. cannot or will not 
deploy and the U.N. does so at a fraction of the cost of U.S. 
unilateral deployment. The U.N.'s humanitarian agencies (UNAIDS, UNHCR, 
WFP, UNICEF, etc.) have an unmatched capacity to help millions of 
people survive disasters, both natural and manmade, while sharing the 
cost for this immense burden across the international community. The 
U.N. serves as a forum for international cooperation in areas of great 
value to the U.S. ranging from setting standards for civilian air 
travel to combatting infectious diseases such as HIV/AIDS, and the Zika 
and Ebola viruses. Even staunch critics of the U.N., such as the George 
W. Bush administration, used these and other U.N. capabilities 
vigorously.

   What U.N. functions would you describe as being of the greatest 
        value to the United States?

   Would you agree that U.N. peacekeeping serves as a useful tool in 
        furtherance of U.S. interests around the world, and at a 
        fraction of the cost of a direct U.S. military deployment?

   Do you see any viable replacement to the life-saving work done by 
        the U.N.'s humanitarian agencies, which feed, shelter, and 
        protect millions of people around the world who have nowhere 
        else to turn? And isn't U.S. support for these U.N. activities 
        leveraged several times over by sharing the burden of the cost 
        for these operations with other U.N. members?

   If confirmed as U.S. Ambassador to the U.N., would you see it as 
        one of your responsibilities to serve as a spokesperson to the 
        American people regarding the value of the U.N. system to the 
        U.S., in addition to calling out its shortcomings?

    Answer. As I mentioned at my hearing, although it has flaws and 
failings, I believe that the U.N. does valuable work. Among the most 
important responsibilities the U.N. has are U.N. peacekeeping 
operations and the humanitarian work done by U.N. specialized agencies, 
funds, and programs. If confirmed, I will not shy from acknowledging 
the good work done by the U.N. and its affiliated organizations.

    Question. The New York City Mayor's Office, in its 2016 report, 
estimated that ``the U.N. Community contributed an estimated $3.69 
billion in total output to the New York City economy'' and that 
``approximately 25,040 full- and part-time jobs in New York City are 
attributable to the presence of the U.N. Community.'' The United 
Nations Foundation found that U.S. businesses generated more than $1 
billion in contracts with the United Nations in 2014 and 2015.

   Would you acknowledge that the U.S. reaps an impressive financial 
        benefit for staying engaged with the U.N.?

    Answer. U.S. contributions to the U.N. system should be based on 
the performance of the U.N. and how its activities advance U.S. foreign 
and security interests, not on whether those funds benefit New York.

U.N. Reform
    Question. Conservatives have long espoused the need for the U.N. to 
reform, but calls for reform are often nebulous including demands for 
``better oversight'' or ``eliminating waste and fraud.'' Alternatively, 
reform proposals center around issues that more appropriately stem from 
Member State policies as opposed to those of the U.N. Secretary-General 
or staff (i.e. Human Rights Council focus on Israel; Human Rights 
Council membership; Palestinian membership in UNESCO). A mechanism 
favored by conservatives to try to force the U.N. to accept reforms is 
to advocate for withholding of U.S. assessed membership dues. However, 
withholding of U.S. assessed dues has long been opposed by successive 
administrations, Democrat and Republican alike. In fact, U.S. 
Ambassador to the U.N. during the George W. Bush administration, John 
Bolton, testified before the House Foreign Affairs Committee (then 
named the International Relations Committee) on 9/29/15 that the Bush 
administration's position was to ``oppose mandatory withholding of U.S. 
dues.'' Bolton repeated this position the following month before the 
Senate Foreign Relations Committee, though eventually, after leaving 
government, Bolton personally advocated for withholding.

   If confirmed, would you advise the President that withholding of 
        U.S. assessed dues to the United Nations is a useful way to try 
        to leverage reforms at the U.N., despite successive 
        administrations, including the George W. Bush administration, 
        having opposed legislation that would mandate the non-payment 
        of dues as obligated by U.S. treaty commitments?

    Answer. As I stated during my confirmation hearing, I do not 
support slash and burn cuts to U.S. funding, but I do think that 
targeted and selective withholding can be effective. As I also stated, 
I think Congress can be a critical partner in advancing U.N. reform. If 
confirmed, I will work with Congress on these matters.

    Question. The U.S. has sometimes found itself in significant 
arrears to the U.N.

   Do you think failing to pay our bills in full and on time 
        undermines our ability to work constructively with other 
        members and with the U.N. management to pursue U.S. interests?

    Answer. As I stated during my confirmation hearing, I do not 
support slash and burn cuts to U.S. funding, but targeted and selective 
withholding tied to specific reforms has proven in the past to be an 
effective means for pressing the organization to implement reforms.

    Question. One of your predecessors for this role as U.S. 
Ambassador, Richard Holbrooke, once famously observed that blaming the 
U.N. for many of the failings laid at its doorstep is ``like blaming 
Madison Square Garden for the Knicks'' performing poorly. This may be 
simplistic, but it is true that it is often very difficult to separate 
out the U.N. shortcomings that result from management by the Secretary-
General and his staff, from the policies espoused or established by its 
Member States with which the U.S. disagrees.

   As Ambassador, how would you work to reform the U.N. itself, 
        without blaming it for the policy positions of its Member 
        States?

    Answer. The member states are often responsible for problems 
besetting the U.N. and for impeding reforms. If confirmed, I will work 
with the Secretary-General to encourage him to implement reforms within 
his responsibility and with other member states to implement reforms 
requiring their support.

    Question. On the one hand, the Human Rights Council has been 
criticized for allowing states that violate human rights to become 
members of the Council and also for disproportionately focusing on 
Israel. On the other hand, the Human Rights Council has brought much-
needed attention to human rights issues, including in North Korea.

   What is your perspective on the Human Rights Council and, if 
        confirmed, how would you engage with it?

    Answer. As I mentioned during my hearing, I think that the Human 
Rights Council is a flawed body, particularly in its bias against 
Israel and the ability of human rights violators to be elected and 
shield each other from criticism. If confirmed, I will work with the 
President and his foreign policy team to determine the appropriate 
level of engagement with the HRC that best advances U.S. interests.

    Question. One key set of U.N. instruments are the U.N. Human Rights 
Council Special Procedures or the ``Special Rapporteurs'' to defend 
specific rights. These Special Rapporteurs are assigned to work on key 
human rights issues, such as freedom of expression, freedom of 
religion, and freedom of association--many of which could be lifted 
right from our own American bill of rights.

   As U.N. Ambassador, what would you do to strengthen the mandate and 
        influence of these Human Rights Special Rapporteurs?

    Answer. My understanding is that the performance of the Special 
Rapporteurs varies, but I have not been fully briefed on what the U.S. 
has done and continues to do to address this issue. If confirmed, I 
commit to gaining a greater understanding of this matter.

U.N. Security Council
    Question. The Security Council has become increasingly gridlocked, 
with disagreements between the U.S. and western Europeans on one side, 
and Russia and China frequently aligned in opposition. This has 
crippled the Council's ability to address the nightmarish situation in 
Syria, and has led to inaction in numerous other hot spots. Some have 
advocated for Security Council reform, either in terms of expanding 
membership to make the Council more representative of the world of 
today, or diluting the veto power of the permanent five members in 
situations where there are humanitarian crises.

   If confirmed, would you advocate within the Trump administration 
        for looking at ways to reform the Security Council, either to 
        make its membership more reflective of the world we live in 
        today, or to restructure the ability of members to unilaterally 
        veto humanitarian initiatives?

    Answer. As I understand it, there is not a broad consensus among 
U.N. member states on Security Council reform. If confirmed, my advice 
would be based on the particulars of such a proposal. I would not 
support any reform proposal that weakens U.S. influence in the Security 
Council or undermines U.S. interests in that body. Although this can be 
immensely frustrating--for example, Chinese and Russian opposition to 
taking stronger action with respect to North Korea--I would not support 
any change to the veto power because such a change would undermine the 
ability of our nation's representatives to protect U.S. interests in 
that body.

    Question. Resolutions in the Security Council can be vetoed by any 
of the five permanent member states; thus the requirements to impose 
economic sanctions can be diluted and rendered ineffective. The 
earliest actions taken on North Korea and China's resistance to robust 
restrictions, for example, or Russia's resistance to considering a 
resolution in an attempt to deter the emerging civil crisis in Syria, 
offer critical examples.

   What alternative strategies would you consider in such 
        circumstances?

    Answer. If confirmed, I would consult with the President and the 
Secretary of State on possibilities to moderate such opposition or, if 
U.N. Security Council action was not possible, what alternative actions 
could be taken.

Extremism
    Question. On June 17, 2015, Dylann Roof shot and killed nine 
African Americans, including the senior pastor, State Senator Clementa 
Pinckney, at Emanuel African Methodist Episcopal Church in Charleston, 
South Carolina. You immediately and passionately denounced the massacre 
as ``an absolute hate crime'' and you successfully advocated for 
removing the Confederate flag from the grounds of the state Capitol. 
You know personally how bigotry, hate, and other extremism can cause 
violence.

   If confirmed, how would you, as Ambassador to the U.N., combat 
        bigotry and the rise of violent extremism?

    Answer. As I stated during my hearing, I strongly believe that the 
U.S. should unabashedly promote American values. If confirmed, I will 
work to advance human rights for everyone.

Americans at the U.N.
    Question. Traditionally, Americans have held the leadership 
positions in U.N. agencies such as UNICEF and the World Food Program. 
In addition, the U.S. has held at least one Under-Secretary-General 
position in the U.N. Secretariat's headquarters in New York. The U.S. 
has also had a senior American in an Assistant Secretary-General 
position in the Department of Field Support since the Department's 
inception in 2007. Having Americans in senior U.N. positions helps keep 
open vital channels of communication between Washington and the U.N., 
serves as a two-way street to help the U.N. hear from Americans, as 
well as have Americans speak credibly to the U.S. about the U.N. There 
have been proposals for the U.S. to zero out all voluntary 
contributions to U.N. agencies, endangering the ability of the U.S. to 
maintain the leadership post at UNICEF. And there is uncertainty as to 
whether the U.S. will try to maintain its hold on the important 
position of Under-Secretary-General for Political Affairs at U.N. 
headquarters.
    A member of the Trump administration's Transition Team at the State 
Department, Chris Burnham, has previously served as a United Nations 
staff member in the role of Under-Secretary-General for Management. An 
American, Jeff Feltman, currently serves as the head of the Department 
of Political Affairs, and Americans also run UNICEF and the World Food 
Program.

   Do you think it is important for Americans to continue to hold 
        senior jobs at the United Nations? If so, will you advise the 
        Trump administration to try to retain the post of Under-
        Secretary-General for Political Affairs for an American, or 
        would you suggest an American return to running the U.N.'s 
        Department of Management?

    Answer. I believe it is critically important to retain high level 
positions for Americans in the U.N. system, including UNICEF and the 
World Food Program. One of the issues I will pursue as soon as 
confirmed is determining, in consultation with the White House, 
candidates for these positions as well as for the Under Secretary 
General position. Both Under Secretary General positions have important 
implications for the U.S. which I look forward to discussing with the 
White House and conveying to the Secretary General.

    Question. The House of Representatives has proposed in recent State 
Department and Foreign Operations Appropriations bills to cut all 
voluntary U.S. contributions to the U.N., citing them as duplicative of 
assessed payments. These voluntary contributions are not duplicative, 
as all U.S. funding for UNICEF, for example, is made on a voluntary 
basis.

   If confirmed as U.N. Ambassador, would you advocate within the 
        Trump administration for stopping all voluntary contributions 
        to the U.N., including UNICEF, potentially endangering the 
        ability of the U.S. to advocate for an American to lead that 
        organization?

    Answer. No. As I stated in my testimony I would support selective 
withholding of contributions with the purpose of making institutions in 
the U.N. more effective and efficient working in concert with U.S. 
interests.

U.N. Secretary-General
    Question. Former High Commission for Refugees, and former Prime 
Minister of Portugal, Antonio Guterres, was recently elected by Member 
States as the 9th Secretary-General. Guterres received generally high 
marks for his leadership at UNHCR, and won surprisingly easy consensus 
for the Secretary-General post. President-elect Trump and Guterres have 
reportedly spoken by phone. With both a new U.S. administration, and 
new leadership at the U.N., it is an important opportunity for the U.S. 
to help empower the new SG in his early days in the job, and in any 
reform efforts he may undertake.

   If confirmed, how do you anticipate working with Secretary-General 
        Guterres?

    Answer. I very much look forward to working with the new Secretary-
General, and if confirmed, hope to present my credentials to him as 
soon as possible. His long experience as U.N. High Commissioner for 
Refugees will be a great asset to all of U.S. working on not only 
refugee issues, but on peacekeeping and other security challenges. His 
interest in addressing sexual exploitation in peacekeeping will be a 
critically important issue that we can and will work on as soon as I 
arrive in New York.

U.N. Treaties
    Question. A number of U.N.-negotiated treaties have been 
languishing in the U.S. Senate for years, despite some of them having 
strong bipartisan support (the Law of the Sea Treaty, which has the 
bipartisan support of officials ranging from every Secretary of State 
from Henry Kissinger to today, a host of current and former military 
leaders, and the U.S. private sector including the U.S. Chamber of 
Commerce), or others doing little more than codifying on an 
international basis legislation that has long been the law of the land 
in the United States (the Convention on the Rights of Persons with 
Disabilities, which was voted down despite the presence of former 
Majority Leader Robert Dole on the Senate floor during the vote). 
Others include the Convention on the Elimination of all Forms of 
Discrimination Against Women (CEDAW) and the Convention on the Rights 
of the Child, where the U.S. is in the embarrassing company of being 
one of two countries in the world (along with Somalia) that has yet to 
ratify. Simply having the apparent stigma of being a U.N. treaty seems 
to be enough to doom the chances for ratification, no matter how 
worthwhile the substance.

   If confirmed as Ambassador, will you advise your colleagues in the 
        Trump administration of the value of the U.S. ratifying any of 
        these important treaties?

    Answer. The United States should only join treaties that advance 
U.S. national interests. There are many treaties that the United States 
has signed but have not received the advice and consent of the Senate. 
If confirmed, such treaties will be reviewed to determine whether 
ratification would advance U.S. national interests.

Children and Youth
    Question. We know now that one billion children a year are victims 
of violence, and the global economic impact of physical, psychological, 
and sexual violence against children is as high as $7 trillion--or 8 
percent of the world's GDP.

   In your dealings and negotiations with U.N. colleagues, how will 
        you not only prioritize it in your day-to-day proceedings but 
        also elevate the issue of ending violence against children on 
        the international stage?

    Answer. Violence against children is abhorrent anywhere. As a 
mother, I am appalled with the prospect of such treatment of any child, 
anywhere in the world. U.N. agencies like UNICEF as well as non-
governmental organizations have done good work in this area and I look 
forward to learning more about how this issue can be further elevated.

Civil Society Space
    Question. Over 50 countries have introduced or enacted laws 
restricting the operations of NGOs and other civil society 
organizations. The promotion of vibrant civil societies has been a key 
element of U.S. foreign policy as a result of bipartisan support for 
many years. In 2016, the U.N. Human Rights Council passed a resolution 
committing States to protect civil society space.

   As Ambassador, how will you work with States to ensure the 
        implementation of this crucial U.N. Human Rights Council 
        resolution and otherwise help promote a safe and enabling 
        environment for civil society around the world?

    Answer. As I stated in my testimony I believe promoting civil 
society is a vital component of U.S. foreign policy. I have stated my 
reservations with regard to the ability of the Human Rights Council to 
advance the cause of civil society. Should I be confirmed, I will work 
to make the instruments of the U.N. more efficient, effective and 
accountable.

    Question. If confirmed, what else will you do to ensure that the 
U.S. continues to be a strong champion for civil society participation, 
space, and engagement at the U.N.?

    Answer. Should I be confirmed, I believe my greatest contribution 
will be working with other members of the cabinet to ensure our efforts 
at the U.N. work in concert with the other instruments of U.S. 
influence to advance U.S. efforts in promoting civil society.

Democracy, Rights, and Governance
    Question. A Democratically controlled Senate unanimously confirmed 
Ambassador Zalmay Khalilzad--a Republican nominee. Ambassador 
Khalilzad, in a 2007 speech on human rights, said ``The progress of 
freedom is a vital interest of the international community'' and ``we 
aspire to a world in which all human beings, regardless of their race, 
culture, or religion, see their fundamental rights respected and enjoy 
the progress and prosperity that protection of those rights make 
possible.'' Khalilzad's words represent U.S. values.

   As Ambassador to the U.N., how will you promote human rights and 
        protect fundamentals of freedom--including support for 
        elections, democratic governance, civil society, rule of law, 
        free speech, and human rights protection, especially as people 
        around the world--who share our values--struggle against the 
        dangers presented by repressive and authoritarian regimes and 
        governments?

    Answer. Should I be confirmed, I commit to working with other 
members of the cabinet to ensure our efforts at the U.N. work in 
concert with the other instruments of U.S. influence to advance human 
freedoms including support for elections, democratic governance, civil 
society, rule of law, free speech and human rights protection.

Gender
    Question. There is a growing body of evidence showing that the 
empowerment of women and girls, through investments in their health, 
education, livelihoods, and the prevention of violence, not only 
benefits them as individuals, but leads to healthier, more prosperous, 
and more stable societies.

   As Ambassador to the U.N., what concrete steps will you take to 
        prioritize the empowerment of women and girls in U.S. 
        development and humanitarian assistance and diplomatic 
        engagement?

    Answer. All around the world, we have seen how even modest 
investments in the abilities and potential of women and girls can yield 
transformative results not just for women and girls themselves, but for 
their families and communities. Investing in women produces a 
multiplier effect--women reinvest a large portion of their income in 
their families and communities, which also furthers economic growth and 
stability. I believe women's empowerment and advancement is an 
important part of our foreign policy and I look forward to promoting 
this further at the United Nations.

    Question. What role will the U.S. government play in ensuring 
grassroots women and girls' participation in the implementation of the 
Sustainable Development Goals by 2030?

    Answer. Should I be confirmed, I commit to learning more about the 
Sustainable Development Goals in this area and what appropriate role 
the U.S. should play.

    Question. The United Nations Population Fund provides services for 
women and girls globally, such as prenatal care, safe delivery 
services, and post-partum check-ups--saving the lives of babies and 
mothers worldwide, including in the midst of grave crises. For example, 
UNFPA's clinics in northern Nigeria provide medications, counseling and 
treatment to women raped by Boko Haram; UNFPA support in Northern Iraq 
reached victims of ISIL.

   Would you ensure that the U.S. remains an important supporter of 
        these efforts, including as the second-largest donor to the 
        UNFPA's efforts?

    Answer. As I stated at my confirmation hearing, I strongly support 
efforts to provide maternal care services. I anticipate that the Trump 
administration will be taking a look at our relationship with and 
funding for all U.N. and affiliated agencies to make sure our 
contributions are appropriate.

    Question. The Women Peace and Security (WPS) agenda has been a 
priority for the U.N. and the UNSC since passing UNSCR 1325 in 2000. On 
the 15th anniversary of 1325, the High Level Review of Women, Peace and 
Security was completed, as was the Global Study on Women, Peace and 
Security. These prompted the unanimous approval of UNSCR 2242, which 
formally adopts the recommendations of the Review.

   How will you specifically support the WPS agenda on the UNSC and 
        within the U.S. Mission's broader engagement? What commitments 
        to the WPS are you prepared to make today?

    Answer. Deadly conflicts can be more effectively avoided, and peace 
can best be forged and sustained, when women's lives are protected, 
their experiences are considered, and their voices are heard in all 
aspects of peacemaking and peacebuilding in their countries. I support 
these efforts and will look for opportunities to advance them at the 
U.N.

    Question. Improving maternal health was a U.N. Millennium 
Development goal. Despite this, access to safe sexual and reproductive 
care continues to be a major challenge for millions of women around the 
world.

   Would you make improving maternal health a continued global 
        priority?

    Answer. As I stated in my testimony, I am opposed to abortion, but 
I believe that maternal health is an important priority.

Women's Empowerment
    Question. As you know, U.S. foreign policy places a high priority 
on global women's empowerment, gender equity, and combating violence 
against women. Gender inequality and gender-based violence are 
impediments to development, economic advancements, democracy, and 
security. For example, one of the State Department's core missions is 
to promote gender equality and equal rights for men and women around 
the world, including the right of all women and girls to decide if, 
when and whom they marry. This understanding has transcended party 
lines. As former Secretary of State Condoleezza Rice noted, ``In 
today's modern world, no country can achieve lasting success and 
stability and security if half of its population is sitting on the 
sidelines.'' More recently, Secretary of State Kerry noted: ``Our path 
forward is clear. We must prevent and respond to gender-based 
violence--We must open the doors for women to fully participate in 
society--as farmers, entrepreneurs, engineers, executives, and leaders 
of their countries. And we must invest in the next generation of women 
by making sure girls can go to school in a safe environment.''

   If confirmed as U.N. Ambassador, how will you ensure that 
        empowering women remains a core pillar of U.S. foreign policy?

    Answer. Empowering women has always been a priority for me, both 
through setting a personal example, and through policies. If confirmed, 
I will work with the President and the National Security Council to 
develop our foreign policy goals and will use my position as U.S. 
Ambassador to forcefully and passionately implement them and the U.N.

    Question. How do you intend to build on the progress that has been 
made to ensure that our foreign policy reflects our national values 
that men and women should enjoy equal rights? Among other things, as 
U.N. Ambassador, how will you build on the work of former policymakers 
to elevate and fully integrate gender analysis into U.S. foreign 
policy? How will you support continued development and implementation 
of the U.S. Strategy to Prevent and Respond to Gender-Based Violence 
Globally and the U.S. National Action Plan on Women, Peace and 
Security?

    Answer. As mentioned above, I believe in supporting women's 
empowerment around the world and will look for ways to promote and 
further efforts in this regard in our own foreign policy and at the 
United Nations.

    Question. The U.S. has played an important role in expanding 
effective programs around the world to address gender-based violence 
and gender inequality, such as child marriage. According to recent 
estimates, at least one of every three women globally will be beaten, 
raped, or otherwise abused during her lifetime. In 2012, the State 
Department launched a global effort to combat gender-based violence, 
and this committee led a legislative effort to authorize this 5-year 
strategy in the State Department Authorization bill that was signed 
into law late last year. At the core of the strategy is a commitment to 
increase program resources for combating gender-based violence, improve 
coordination within the interagency, and increase the quantity and 
quality of data needed to design and implement effective GBV programs.

   As an issue that has enjoyed bipartisan support, please discuss 
        your vision for how the U.S. Mission to the U.N. can continue 
        to promote the right of all women and girls to live free from 
        gender-based violence and to decide if, when, and whom to marry 
        with free, full, and informed consent?

    Answer. The issue of gender-based violence is important to me 
personally, and I will support efforts at the U.N. toward preventing 
violence against women and girls and mitigation of the impact of such 
violence that is occurring around the world. This will include not only 
prevention of violence but also protection of women, both physical and 
legal, and prosecution of perpetrators.

Global Health and Nutrition
    Question. As you know, the United States has been a leader in 
global health and has played a catalytic role in increasing countries' 
own responses to health needs including HIV/AIDS, malaria, and maternal 
and child health. In fact, the U.S. has contributed to a 50 percent 
reduction in the deaths of mothers and children globally in the last 
two decades. We have made particular gains in areas with the world's 
most vulnerable populations, such as in Afghanistan, where the rate of 
women dying in child birth has dropped by more than half. I believe it 
is in America's economic interest to continue to lead the way in 
addressing global health issues including maintaining a strong focus on 
addressing the health of mothers and children around the world. 
Economists have found that an increase of just $5 per year in solutions 
that address children's and mothers' health will produce up to nine 
times the economic and social benefits over a generation, including 
increased GDP of a country.

   As U.S. Ambassador to the U.N., what will be your vision for U.S. 
        leadership to help end preventable child and maternal deaths 
        within a generation?

   How will you ensure that the United States continues to provide 
        robust support for the work of U.N. agencies such as UNICEF, 
        WFP, FAO, IFAD, WHO, and UNAIDS that all work to ensure global 
        health, food security and improved nutrition for vulnerable 
        populations?

    Answer. As I stated in my testimony, I am opposed to abortion, but 
I believe that maternal health is an important priority. I anticipate 
that the Trump administration will be taking a look at our relationship 
with and funding for all U.N. and affiliated agencies to make sure our 
contributions are appropriate.

Humanitarian Response/Refugees
    Question. How should the U.S. follow up on the commitments made at 
the World Humanitarian Summit and U.N. Summit for Refugees and 
Migrants?

    Answer. The U.S. provides billions of dollars in direct and 
indirect assistance, bilaterally or through multilateral organizations, 
to assist refugees and displaced persons. U.S. contributions to these 
efforts are immensely important and, if confirmed, I will support U.S. 
leadership in this area and focus on making sure U.S. contributions are 
used to maximum effect.

    Question. The global system developed to handle refugees is broken, 
leaving an estimated 21 million refugees in search of safety around the 
world. In September 2016, the United Nations General Assembly adopted a 
set of commitments to enhance the protection of refugees and migrants, 
the New York Declaration for Refugees and Migrants (NY Declaration). 
The New York Declaration reaffirms the importance of the international 
protection regime and represents a commitment by Member States to 
strengthen and enhance mechanisms to protect people on the move. It 
paves the way for the adoption of two new global compacts in 2018: the 
global compact on refugees and the global compact for safe, orderly, 
and regular migration.

   What do you see as the role of the United States at the United 
        Nations to help address the refugee and migrant crisis? To 
        meaningfully achieve the two new global compacts by 2018, will 
        you commit to working for concrete commitments by Member States 
        to share greater responsibility for refugee hosting and 
        resettlement, offer more safe and legal routes for refugees and 
        asylum seekers to secure protection, and defend the human 
        rights of people on the move?

    Answer. The U.S. is by far the largest contributor to the U.N. High 
Commissioner for Refugees and provides billions more in direct and 
indirect assistance, bilaterally or through multilateral organizations 
like the World Food Program, to assist refugees and displaced persons. 
U.S. contributions to these efforts are immensely important and, if 
confirmed, I will support U.S. leadership in this area.

    Question. While governor of South Carolina, you took the position 
that Syrian refugees were not being ``properly vetted'' before 
resettlement to the United States.

   Why do you believe that current systems are inadequate to properly 
        vet Syrians, and what specific changes to these systems would 
        you propose?

    Answer. Determining appropriate vetting processes is the 
responsibility of other members of the cabinet. Should I be confirmed, 
I commit supporting their efforts in accordance with my duties at the 
U.N.

    Question. The United States is currently a major supporter of the 
only prenatal care facility and maternity ward in Zaatari Camp, the 
world's largest Syrian refugee camp. Support to this maternity ward is 
given through contributions to UNFPA, the United Nations Population 
Fund, which is the world's leading provider of lifesaving care for 
mothers and their babies in humanitarian settings. As of today, more 
than 7,000 babies have been delivered without a single maternal or baby 
death--an amazing statistic in any setting.

   Cognizant UNFPA does not provide abortions and that U.S. funding to 
        UNFPA is subject to longstanding congressional restrictions, do 
        you know of any reason not to encourage the U.S. government's 
        support for UNFPA and its lifesaving work?

    Answer. As I stated in my testimony, I am opposed to abortion, but 
I believe that maternal health is an important priority. I anticipate 
that the Trump administration will be taking a look at our relationship 
with and funding for all U.N. and affiliated agencies to make sure our 
contributions are appropriate.

    Question. In recent years, Democrats and Republicans have forged a 
bipartisan consensus--including appropriating $750 million last year--
to respond to Central America's refugee and migration challenges. This 
includes the fact that countries like El Salvador, Honduras, and 
Guatemala have consistently ranked in the top five countries with the 
highest murder rates in the world--murder rates generally seen only in 
war zones. Consequently, there is recognition that many Central 
American migrants should be viewed as refugees and be eligible for 
international protections.

   As tens of thousands of vulnerable people arrive at our 
        southwestern border, if confirmed, will you maintain the United 
        States partnership with the U.N. High Commissioner for Refugees 
        to ensure that Central American migrants fleeing violence 
        receive sufficient protections and that they can be screened 
        for relocation in third-countries?

    Answer. Should I be confirmed, I will work with the President and 
Congress to ensure that our foreign policy priorities align with our 
domestic needs and fulfil our legal obligations. I have not yet been 
briefed on all aspects of the U.S. Refugee Admissions Program, but 
should I be confirmed, I will faithfully administer my responsibilities 
consistent with law and the policy preferences of the President.

International Humanitarian Law
    Question. The conflict in Syria provides a stark example of how 
attacks on health facilities are increasingly used as a weapon of war; 
by August 2016, attacks on health facilities were happening every 17 
hours in Aleppo.

   What is the role of the United States in ensuring compliance of 
        U.N. Security Council resolution 2286 to document and conduct 
        investigations of attacks on health workers and facilities? And 
        what more can and should be done to ensure that health workers 
        and the civilians they serve are protected in humanitarian 
        emergencies?

    Answer. I have not yet been briefed on all aspects of UNSCR 2286, 
but should I be confirmed, I commit to learning more about this issue 
and faithfully administering the policy preferences of the President.

Peacekeeping
    Question. How will you press troop contributing countries and the 
U.N. itself on transparency relating to sexual exploitation and abuse 
(SEA) so as to ensure that information on investigations and 
prosecutions is made public and also conveyed to the victims and 
witnesses affected?

    Answer. As I mentioned in my hearing, I am appalled that these 
crimes are being committed by those who should be protecting vulnerable 
people. I would need to be fully briefed on this issue in order to 
provide a complete response. Should I be confirmed, I commit to 
learning more about this issue and implementing the most effective 
policies to address this serious issue.

    Question. Many experts assert that U.N. peacekeepers from Nepal 
introduced cholera in Haiti in 2010, killing at least 10,000 and 
causing illness to many others. In December 2016, U.N. Secretary-
General Ban stated that the United Nations ``simply did not do enough . 
we are profoundly sorry for our role.'' Ban introduced a number of 
measures to address the issue, which would cost about $400 million over 
the next two years.

   Please provide your assessment of current U.N. efforts to address 
        the issue and how a similar incident can be prevented in the 
        future.

    Answer. Should I be confirmed, I commit to gaining greater 
knowledge of this issue. As in all matters in addressing U.N. 
operations I will press for greater transparency, accountability and 
clarity of mission, insisting on greater efficiency and effectiveness.

LGBT
    Question. If confirmed, how will you represent the government in 
discussions regarding the rights of LGBT persons? For example, will you 
continue U.S. participation in the LGBT core group?

    Answer. As I stated during my hearing, I strongly believe that the 
U.S. should unabashedly promote American values. If confirmed, I will 
work to advance human rights for everyone.

Atrocity Prevention and Accountability
    Question. What do you see as the U.S. role and responsibility to 
prevent atrocities globally? What will you do at the United Nations to 
advance this agenda? How can the Security Council prevent crises before 
they become threats to international peace and security?

    Answer. As I stated in my hearing, I am appalled that these crimes 
are being committed. I would need to be fully briefed on this issue in 
order to provide a complete response. Should I be confirmed, I commit 
to learning more about this issue and implementing the most effective 
policies to address this serious issue.

    Question. The outgoing U.S. Ambassador to the U.N. has been 
outspoken about human rights violations in armed conflict, including 
sexual violence.

   How do you see your role on these issues, as Ambassador, if you are 
        confirmed? What specific steps would you take in advocating for 
        preventing and responding to human rights abuses, including 
        accountability for perpetrators and services for survivors?

    Answer. As I stated in my hearing, I am appalled that these crimes 
are being committed and that countries committing human rights abuses 
sit on the Human Rights Council. I would need to be fully briefed on 
this issue in order to provide a complete response. Should I be 
confirmed, I commit to learning more about this issue and implementing 
the most effective policies to address this serious issue.

Climate
    Question. Do you believe that climate change is merely a 
``concept'' and a ``hoax'', created by the Chinese or someone else?

    Answer. No, I do not believe climate change is a hoax. If confirmed 
I commit to working with experts at the State Department and elsewhere 
in the government on the issue and helping to determine what role the 
U.S. Mission to the United Nations should play.
    Question. Do you accept the scientific consensus that should 
average global temperatures reach or exceed +2 degrees Celsius that 
many regions of the world will very likely experience catastrophic 
changes in the environment that may very likely impact the safety and 
prosperity of many people? If not, do you place greater credence in the 
opinions of less than 2 percent of climate scientists whose 
interpretation of the data on climate change yield less grave concern 
over the threat of climate change?

    Answer. I believe that climate change is real, and should be 
addressed, in concert with American economic and other interests. If 
confirmed I commit to working with experts at the State Department and 
elsewhere in the government on the issue and helping to determine what 
role the U.S. Mission to the United Nations should play.
    Question. Do you trust the analysis, concerns, and recommendations 
of security experts at the State Department, Department of Defense, 
Central Intelligence Agency, Navy War College, U.N. Security Council, 
and the World Bank, who have expressed growing concerns over the threat 
climate change poses to national and global security?

    Answer. If confirmed, I commit to taking a closer look at those 
specific recommendations.

    Question. What do you interpret Secretary of State nominee Rex 
Tillerson's comments that the U.S. should maintain ``a seat at the 
table'' with respect to U.S. involvement in international cooperation 
on climate change to mean?

    Answer. I agree with Mr. Tillerson that the United States should 
have a seat at the table when it comes to the discussion on climate 
change and other global environmental issues. We must participate and 
engage in those discussions to advance the interests of the United 
States.

    Question. Do you support maintaining U.S. leadership on climate 
diplomacy?

    Answer. I support maintaining U.S. leadership on all matters 
crucial to our national interests.

    Question. What is your understanding of how important global action 
to address climate change is to the global community and members of the 
United Nations?

    Answer. If confirmed I commit to helping to determine, along with 
other members of the Government, the proper role that the United States 
should play in international climate change negotiations and other 
matters.
Country-Specific Questions
            Russia
    Question. Russia's Ambassador to the U.N., Vitaly Churkin, has held 
his post for over a decade and has a deep knowledge on the U.N. 
politics and systems. If confirmed, you will be serving in your first 
significant position engaging foreign policy concerns.

   Given Russia's consistent efforts to block American interests in 
        the Security Council, how will you strengthen your expertise in 
        order to effectively counter Ambassador Churkin and his 
        colleagues on the UNSC?

    Answer. As I mentioned at my hearing, I am committed to working 
hard and representing the ideals and values of the United States in all 
of my work at the United Nations. If confirmed, I will be representing 
the U.S. in the U.N. Security Council and other U.N. bodies and, just 
as in my past experience in the South Carolina legislature and as 
Governor of South Carolina, I will work to overcome differences 
wherever they exist, including with Russia. I also understand that 
there is a fine group of foreign service and career staff at the U.S. 
Mission who are providing continuity and expertise on ongoing 
negotiations and issues with countries like Russia, and I look forward 
to working with them as well.

            Israel
    Question. Since 1967, successive U.S. administrations have promoted 
a negotiated two-state solution between Israelis and Palestinians with 
both sides living side-by-side in peace and security.

   Do you believe that supporting the two-state solution should still 
        be U.S. policy?

    Answer. Yes. However, the specific outlines of what the two-state 
solution looks like should be determined in negotiations between the 
two parties rather than imposed on them by others.

    Question. In December, the U.N. Security Council passed Resolution 
2334, which I believe is a biased resolution that unfairly targets 
Israel and makes restarting direct negotiations for a two-state 
solution more difficult.

   If confirmed as U.N. Ambassador, what steps do you plan to take to 
        mitigate the negative implications of 2334?

    Answer. Israel is a vital ally of the United States, and we must 
meet our obligations to Israel as our most important strategic ally in 
the region. Should I be confirmed, I would recommend to the President 
that the U.S. announce it no longer supports that resolution and would 
veto any U.N. Security Council efforts to implement it or enforce it, 
and block any future U.N. sanctions based on it.

    Question. In his outgoing remarks to the U.N. Security Council, 
Secretary General Ban Kim Moon acknowledged the U.N.'s institutional 
bias against Israel. He said ``Over the last decade I have argued that 
we cannot have a bias against Israel at the U.N. Decades of political 
maneuvering have created a disproportionate number of resolutions, 
reports, and committees against Israel. In many cases, instead of 
helping the Palestinian issue, this reality has foiled the ability of 
the U.N. to fulfill its role effectively.''

   In your view, how best can the U.S. work to rid the U.N. of its 
        institutional anti-Israel bias? What is an effective and 
        appropriate role for the U.N.?

    Answer. Israel is a vital ally of the United States, and we must 
meet our obligations to Israel as our most important strategic ally in 
the region. Should I be confirmed, I would recommend to the President 
that the U.S. veto any U.N. Security Council resolutions and oppose 
other U.N. resolutions that unfairly single out Israel or would 
undermine prospects for a negotiated peace. If confirmed, I would 
recommend that the President oppose Palestinian membership in U.N. 
organizations prior to a mutually acceptable peace agreement with 
Israel and enforce laws prohibiting funding to international 
organizations that do so.

    Question. In March 2016, the U.N. Human Rights Council adopted a 
resolution calling for the creation of a database of Israeli companies 
operating in the West Bank, East Jerusalem, and the Golan Heights. Last 
month, the U.N. General Assembly approved a budget that included 
$138,000 to support this effort. I view this blacklist as a dangerous 
step that will energize BDS activities against Israel.

   What efforts will you undertake if confirmed to challenge this 
        effort? What more can we do to make sure that--rather than 
        being isolated--we find ways to fully include Israel as a state 
        receiving equal treatment at the United Nations?

    Answer. Israel is a vital ally of the United States, and we must 
meet our obligations to Israel as our most important strategic ally in 
the region. Should I be confirmed, I would recommend to the President 
that the U.S. announce it no longer supports UNSCR 2334 and would veto 
any U.N. Security Council efforts to implement it or enforce it, and 
block any future U.N. sanctions based on it. Although the U.S. may not 
be able to stop the implementation of the BDS list, if confirmed, I 
commit to use my position to do what is possible to impede it.

    Question. Members of the U.N. Human Rights Council includes human 
rights violators such as China, Saudi Arabia, Cuba and Venezuela. These 
undemocratic countries outrageously focus on Israel and America while 
ignoring atrocities committed in states like Syria and Iran. The UNHRC 
has passed more resolutions condemning Israel than the rest of the 
countries in the world combined. Additionally, it maintains a permanent 
agenda item (item 7) that requires that Israel's behavior is raised at 
every UNHRC meeting.

   Will you commit to working to eliminate Agenda item 7? How will you 
        go about this?

    Answer. I oppose Agenda Item 7 and, if confirmed, I would strive to 
eliminate it. I will work with the President and the National Security 
Council to determine the appropriate level of engagement with the HRC 
that best advances U.S. interests, and, if confirmed, I would advise 
the President that elimination of Agenda Item 7 should be a primary 
goal of our participation or a condition for U.S. participation.

            Lebanon
    Question. What more can and should we be doing to ensure compliance 
with U.N. Security Council Resolution 1701, which ended the 2006 war in 
Lebanon and required Hezbollah to disarm? Will you work to highlight 
Hezbollah's violations of Resolution 1701?

    Answer. I have not yet been briefed on all aspects of UNSCR 1701, 
but should I be confirmed, I commit to learning more about this issue.

            North Korea
    Question. In recent years, with strong U.S. support, the U.N. 
Security Council has adopted several resolutions sanctioning North 
Korea for its nuclear and ballistic missile programs. Most recently, in 
early December, the U.N. Security Council adopted a new sanctions 
resolution aimed at curbing North Korea's ability to raise hard 
currency. The U.S.-drafted resolution caps DPRK coal sales--the 
country's biggest export--by approximately 60 percent and bans the 
export of copper, nickel, silver, and zinc, as well as the sale of 
several additional ``luxury'' items. Of note, under these new 
unanimously adopted sanctions, China will slash its DPRK coal imports 
by some $700 million compared with 2015 sales.

   What is the impact of these types of measures?

    Answer. The goal of sanctions is to force North Korea to comply 
with U.N. resolutions. We will have to see what effect they have.

    Question. What is a good example of how multilateral sanctions can 
have more impact than unilateral ones?
    Answer. I believe both types of sanctions can be appropriate, and 
if I am confirmed, expect both to learn more about the efficacy of 
each, their impact in combination, and advocate the policy of the 
President and the United States government in relation to any sanctions 
regime.

    Question. How will the U.S. work through the Security Council to 
ensure full implementation of these new sanctions? What additional 
measures through the U.N. do you think will be necessary to enforce the 
new round of U.N. sanctions?

    Answer. Should I be confirmed, I look forward to working with the 
other members of the cabinet to assess the impact of current sanctions 
and determine the next steps.

    Question. How do you intend to approach sanctions enforcement and 
implementation if you are confirmed as Ambassador?

    Answer. I believe rigorous enforcement of sanctions is vital, and 
if confirmed will advocate the policy of the United States

    Question. Do you believe that China has acted to fully implement 
and enforce UNSCR sanctions on North Korea? Has Russia? If not, what 
specific sanctions and in what ways has China (Russia) failed to 
implement and enforce?

    Answer. I believe they can do more. Should I be confirmed, I commit 
to learning more about their current compliance with U.N. sanctions and 
what I appropriate step I should take to ensure the fullest possible 
implementation.

    Question. Are there specific tools that the U.N. needs for the 
implementation and enforcement of sectoral and financial sanctions on 
North Korea under the UNSCRs that are currently lacking?

    Answer. Should I be confirmed I commit to work with the rest of the 
cabinet to determine what additional tools might be needed, receive 
guidance from the President and then advocate the policy of the United 
States.

   How do you view U.S. unilateral sanctions and UNSCR sanctions 
        working together to create an effective sanctions 
        regime?Answer. My goal would to be ensure they are 
        complementary, both supporting the U.S. goal of lessening the 
        threat of a nuclear North Korea.

   What additional steps will you support at the U.N. to highlight 
        North Korea's human rights record?
    Answer. Should I be confirmed I would take every opportunity to 
highlight the human rights record of North Korea in every forum within 
the institution where it was appropriate.

    Question. In addition to the new round of sanctions by the Security 
Council, are there additional steps that the United States should take 
through our alliances with Korea and Japan or through unilateral U.S. 
measures, including secondary sanctions as authorized by Congress, to 
set up a possible diplomatic pathway to denuclearization?

    Answer. Should I be confirmed, I would consult with the rest of the 
cabinet to what additional measures would be appropriate.

            Democratic Republic of Congo (DRC)
    Question. The DRC is in the midst of a major political crisis, with 
presidential elections delayed until April 2018 and President Joseph 
Kabila attempting to remain in power until then. The political 
opposition has accused Mr. Kabila of trying to extend his presidency 
(he is term-limited and was originally supposed to leave office on 
December 20th) through extra-constitutional means, and there are 
concerns that his efforts to cling onto power could spark violence. The 
U.N. peacekeeping mission in the DRC (MONUSCO) has been preparing for 
the possibility of violence, reinforcing its presence in the Congolese 
capital, Kinshasa, and deploying mobile teams to several cities where 
MONUSCO does not have a permanent presence to monitor human rights 
violations. Nevertheless, the U.N. has warned that these measures are 
unlikely to be sufficient to fully respond to a major outbreak of 
political violence, as most of the force is concentrated in the 
country's east, where it has been working to counter a variety of armed 
groups that continue to pose a serious threat to stability. As a 
result, the resources and capabilities available to the mission in 
Kinshasa and other places are stretched thin.

   What should the U.S. do to help bolster MONUSCO's capacity to 
        address this situation? How can the U.S. use its influence to 
        pressure the Congolese government to prevent a descent into 
        all-out violence?

    Answer. The United States must lead with its values; many times, 
that includes facilitating peace negotiations and settlements. If 
confirmed, I would work with the Secretary of State to engage the 
government of the Democratic Republic of the Congo (DRC) and other 
interested parties to encourage a peaceful political solution, with a 
guarantee of basic human rights and accountability for those who 
transgress such rights. Targeted sanctions, possibly through the U.N. 
Security Council, might be part of achieving that solution, but 
sanctions are a tactic, not a strategy or a solution. Through robust 
dialogue with relevant actors, the United States could help the DRC 
achieve a stable political outcome, which would also translate into 
increased stability regionally and an improvement in human rights.

            Syria
    Question. U.N. humanitarian agencies are playing a central role in 
responding to the conflicts in Syria and Iraq. These activities have 
powerful knock-on effects that reach beyond the immediate beneficiaries 
as well. For example, electronic food vouchers provided by WFP to 
Syrian refugees in Jordan, Lebanon, Turkey, Iraq, and Egypt have helped 
inject more than $1 billion into local economies in recent years, 
helping to create thousands of jobs in the food retail sector in these 
countries. Unfortunately, despite the generosity of the American 
people, ever-growing humanitarian needs in the region have consistently 
outpaced available financial resources over the past several years. 
This has negatively impacted U.N. aid operations, with agencies being 
forced to scale back assistance to vulnerable populations, which in 
turn has been one of the key drivers of the refugee exodus to Europe.

   How will the U.S. work with its international partners to convince 
        other countries--including oil-rich countries in the Persian 
        Gulf--to contribute more to these relief efforts?

    Answer. It is my understanding that there are a number of efforts 
ongoing. Should I be confirmed, I would want to assess ongoing efforts 
and consult with the rest of the cabinet and the President to determine 
what additional measures would be most appropriate.

    Question. The U.N. Security Council failed abysmally to stop the 
horrific carnage and targeted killing of civilians in Aleppo.

   In your new role, how will you push for the full and timely 
        implementation of U.N. Security Council Resolution 2328, which 
        passed on December 19, 2016, and calls for a U.N. led 
        monitoring mechanism for areas that have been retaken by the 
        Syrian government? This is a measure that would save lives and 
        make sure that agreements made by parties to the conflict to 
        protect civilians are upheld.

    Answer. I have not yet been briefed on all aspects of UNSCR 2328, 
but should I be confirmed, I commit to learning more about this issue.

    Question. Humanitarian access to people in need in Syria remains 
constrained by ongoing conflict, shifting front lines, administrative 
and bureaucratic hurdles, violence along access routes and general 
safety and security concerns in contravention of international 
humanitarian law.

   As U.S. Ambassador to the U.N., how would you prioritize 
        negotiating for humanitarian access?

    Answer. If confirmed, I will support the Secretary of State in his 
efforts with key parties to the Syrian conflict to achieve a political 
solution to the war and limit its humanitarian effect on Syrians. Part 
of these efforts will be assistance to internally displaced persons, 
through ongoing USAID programs and others, in coordination with our 
partners.

            Central African Republic (CAR)
    Question. In April 2014, the Security Council voted to dispatch a 
U.N. mission to CAR. The U.N. force is working to carry out a number of 
essential activities, including protecting civilians from violence, 
providing assistance to help the country carry out elections, 
facilitating the delivery of humanitarian aid, monitoring, 
investigating, and reporting on human rights violations, and helping 
build the capacity of CAR's police force and court system. Due to the 
collapse of virtually any semblance of law and order in the country, 
peacekeepers are also mandated to arrest and detain people in order to 
crack down on impunity. Over the last year, CAR has seen some promising 
signs of progress, with peacekeepers playing an important role. As a 
result of improvements in the overall security situation in the 
country, CAR organized, with U.N. support, largely peaceful and 
credible presidential and legislative elections in 2016 that led to a 
peaceful transition of power.

   Can you talk about the importance of the U.N.'s role in helping to 
        build on these gains moving forward? How should the U.S. work 
        with its international partners to help bolster the new 
        government in Bangui?

    Answer. The U.N. peacekeeping operation has helped stabilize the 
country, but has been plagued by sexual exploitation and abuse. If 
confirmed, I pledge to focus on this operation to shore up weaknesses 
and assist the government in reaching the point where the operation is 
no longer required.

            Colombia
    Question. The U.S. has invested $10 billion in support for 
Colombia--first through Plan Colombia and now Peace Colombia. This 
support has spanned three U.S. presidencies and has broad bipartisan 
backing in the U.S. Congress. Sixteen years ago, Colombia teetered on 
the edge of being a failed state. Today, it has an historic peace 
agreement and stands on the verge of joining the OECD. In January 2016, 
the U.N. Security Council unanimously adopted resolution 2261 to 
establish a political mission to monitor Colombia's ceasefire and the 
disarmament of armed combatants.

   If confirmed, will you work to ensure continued U.N. support for 
        the Colombian peace process so that the gains of the past 16 
        years are fully consolidated?

    Answer. I have not yet been briefed on all aspects of UNSCR 2261, 
but should I be confirmed, I commit to learning more about this issue.

    Question. As a result of the 16-year, bipartisan commitment by the 
U.S. to Plan Colombia, Colombia not only ratified a historic peace 
accord but also has become a net ``exporter'' of security assistance. 
Colombia's security forces have provided training to police forces in 
Central America, have contributed to counternarcotics initiatives in 
Afghanistan, and have maintained a presence in the Multinational Force 
and Observers (MFO) on the Sinai Peninsula.

   As Colombia's security forces assume a more traditional role in the 
        aftermath of the country's armed conflict, if confirmed, will 
        you support Colombian efforts to increase participation in U.N. 
        peacekeeping operations?

    Answer. Yes.

            Saudi Arabia/Yemen
    Question. U.N. Security Council Resolution 2216 (2015) required 
Houthi forces to withdraw from all major cities in Yemen, give up all 
weapons seized from the Yemeni military, and refrain from provocations 
or threats to neighboring states. Unfortunately, the Houthis have 
neither withdrawn from Yemen's cities nor given up their weapons. They 
have also repeatedly launched missiles into Saudi Arabia. The U.N.-led 
peace process in Yemen has been on hold since late November when Houthi 
leaders and former Yemeni president Ali Abdullah Saleh announced that 
they would form a national government. U.N. special envoy Ismail Ould 
Cheikh Ahmed called this development ``a concerning obstacle to the 
peace process.''

   What further steps can be taken to enforce Resolution 2216? Do you 
        believe that supporting the U.N. Special Envoy to Yemen's 
        roadmap remains the best chance of securing a negotiated 
        settlement to end this conflict? What specific steps can the 
        Government of Saudi Arabia take to move political talks 
        forward? If confirmed as U.S. Ambassador to the U.N., will you 
        call on the Saudi-led Coalition to refrain from steps that 
        escalate the conflict? What additional sources of leverage does 
        the United States have to press for unhindered humanitarian 
        access to address the suffering of Yemeni civilians?

    Answer. I have not yet been briefed on all aspects of UNSCR 2216, 
but should I be confirmed, I commit to learning more about this issue.

            Libya
    Question. Libya's Government of National Accord (GNA) was formed 
after a political agreement negotiated under United Nations auspices 
and in accordance with U.N. Security Council Resolution 2259 in 
December, 2015. The U.S., along with most of the international 
community, recognizes the GNA as the legitimate government of Libya. 
Russia is now increasingly supporting General Khalifa Heftar, a 
Qaddafi-era general who continues to defy the GNA's authority, hosting 
him on a visit to Moscow in November and most recently, on its aircraft 
carrier, the Kuznetsov.

   Do you believe that Russian actions and support for Heftar outside 
        of the GNA are helpful? What are U.S. national security 
        objectives in Libya and do we need the participation of the 
        U.N. and its agencies to achieve those objectives?

    Answer. I have not yet been briefed on all aspects of this matter, 
but should I be confirmed, I commit to learning more about this issue.

            China
    Question. I remain concerned about the continuous repression of 
basic human rights of Tibetans in China. Despite decades of oppression, 
the Tibetans continue to resist the injustice without resorting to 
violence. Since the mass demonstrations of 2008--where around 200 
Tibetans were killed and thousands were imprisoned by the Chinese 
authorities--more than 140 Tibetans have self-immolated to protest 
against Chinese rule and for the return of the Dalai Lama in Tibet. 
Over 600 Tibetans continue to be prisoners of conscience according to 
the U.S. Congressional Executive Commission on China. With respect the 
United Nations, specifically, the Chinese authorities continue to 
regularly deny access to U.N. officials in charge of human rights to 
the Tibetan Autonomous Region and other Tibetan areas. The U.N. High 
Commissioner for Human Rights has requested to visit China and Tibetan 
areas of China since the beginning of his mandate--and other U.N. 
Special Rapporteurs have done the same--but the Chinese government has 
prevented them to travel there.

   Will you make it a priority in your engagement with Chinese 
        officials at the U.N. to urge their government's compliance 
        with its international obligations on human rights, at the very 
        minimum, by allowing U.N. officials in charge of human rights 
        to travel to Tibetan areas?

    Answer. American values are a critical component of American 
interests. Standing up for human rights and democracy is not just a 
moral imperative but is in the best traditions of our country. If 
confirmed, I will support efforts to advocate for democracy and human 
rights as an integral element of our diplomatic engagement with China 
and other countries around the world.

            South Sudan
    Question. There is strong bipartisan commitment across multiple 
administrations and Congress' to promote the well-being of the people 
of South Sudan. The U.N. recently warned that ``a steady process of 
ethnic cleansing is already underway in some parts'' of South Sudan, 
and that the country is on the verge of an ``all-out ethnic civil war'' 
that could devolve into genocide. South Sudanese civilians face acute 
malnutrition, and the African Union and the United Nations have 
documented that war crimes and crimes against humanity that have 
occurred during the course of the conflict. Last year despite the 
administration's best efforts, we were unable to garner support for an 
arms embargo and additional targeted sanctions on individuals including 
Riek Machar, South Sudan Army Chief Paul Malong, and Information 
Minister Michael Makuei.

   Are you prepared to support assertive U.N. action to prevent 
        genocide or mass atrocities in South Sudan, if confirmed?

   If confirmed, will you seek to garner U.N. support for an arms 
        embargo and targeted sanctions?

   If confirmed, will you push the new Secretary General to convene a 
        high-level meeting to bring about a political settlement to the 
        crisis? What specifically will you do towards that end?

    Answer. The situation in South Sudan is one of the most pressing 
humanitarian situations in the world. It is critical to help build some 
political space for reconciliation between the government and rebel 
factions. The United States should continue to engage in international 
forums like the U.N. and bilaterally with key partners in the area to 
address this issue, and decide upon a combined policy to address this 
violence. This would include deploying robust diplomacy, possible 
sanctions, and other measures.

    Question. In two separate incidents in South Sudan last year, 
United Nations peacekeepers failed to adequately carry out their 
mandate to protect civilians; once during an outbreak of violence in 
Malakal in February, and again when hostilities broke out in July. In 
both instances, the Secretary General ordered a review.

   Will you commit to ensuring the United Nations takes steps to 
        improve its ability to protect civilians in South Sudan, if 
        confirmed?

    Answer. Yes.

    Question. Just last week, the Government of South Sudan rejected 
the Rapid Protection Force authorized by the United Nations last year.

   What will you do, if confirmed, to ensure the 4000 strong RPF 
        troops are deployed?

    Answer. I have not yet been briefed on all aspects of this matter, 
including what has been done and can be done, but should I be 
confirmed, I commit to learning more about this issue.



                               __________

       Responses to Additional Questions for the Record Submitted
             to Governor Nikki Haley by Senator Todd Young

    Question. Do you agree that we need maximum possible transparency 
and details from the International Atomic Energy Agency (IAEA) in its 
reporting on Iran's nuclear program?

    Answer. Yes.

    Question. If confirmed, do you commit to pushing the IAEA to 
provide the international community the maximum possible transparency 
and details regarding Iran's nuclear program?

    Answer. Yes.

    Question. Do you believe that all side agreements and 
understandings related to the implementation of the JCPOA should be 
made public?

    Answer. Yes, with appropriate redactions for classified matters.

    Question. Based on your preparation for this hearing, and your 
review of U.N. Security Council Resolution 2272, what is your 
understanding with regard to whether or not units that do not hold U.N. 
peacekeepers accountable for sexual exploitation are in fact being 
replaced?

    Answer. I have not been fully briefed on this matter. If confirmed, 
I commit to looking into this issue and sharing that information with 
Congress.

    Question. In light of the rapidly expanding ballistic missile 
programs of Iran and North Korea, what is your assessment of their 
collaboration currently, and what more do you believe the United 
Nations should do to oppose ballistic missile collaboration between 
North Korea and Iran?

    Answer. I will rely on the assessment of the DNI on the extent of 
the collaboration between Iran and North Korea. There is currently a 
strongly-worded UNSCR on North Korea, and I will push for the 
enforcement of its terms.

    Question. How would you characterize Russia's military activities 
and support for separatists in eastern Ukraine?

    Answer. Russia's actions in Eastern Ukraine and its invasion and 
illegal occupation of Crimea establishes a very dangerous precedent 
only last seen in Europe during World War II. This could lead to a 
complete breakdown in the post-war settlement which has largely ensured 
peace and stability throughout much of Europe since 1945. This would 
have a profound negative impact on U.S. national interests

    Question. Ukraine has filed a lawsuit at the International Court of 
Justice (ICJ) demanding that Russia immediately halt its support for 
separatists fighting in eastern Ukraine.

   What is your view of Ukraine's filing and the ICJ more generally?

    Answer. I am not familiar with the Ukraine's case against the 
Russian Federation at the ICJ, but I look forward to learning more 
about it if confirmed. The United States does not submit to compulsory 
jurisdiction at the ICJ.

    Question. If confirmed, what would you do at the U.N. to push for 
better intellectual property rights protections?

    Answer. I have not been fully briefed on the United Nations and 
IPR. If confirmed, I commit to learning more about this issue.

                               __________

       Responses to Additional Questions for the Record Submitted
           to Governor Nikki Haley by Senator Jeanne Shaheen

U.N. and Climate Change
    Question. Do you agree with the scientific consensus that global 
climate change is occurring and that coordinated action is urgently 
required to address the risks?

    Answer. See answer below.

    Question. Do you agree with the objective of the U.N. Framework 
Convention on Climate Change, under which the Paris Climate Agreement 
was negotiated, to stabilize greenhouse gas concentrations at a level 
that would prevent dangerous interference in the climate system?

    Answer. See answer below.

    Question. Will you advise President-elect Trump not to withdraw the 
U.S. from the Paris Agreement?

    Answer. See answer below.

    Question. Are you concerned that efforts to weaken or withdraw from 
this agreement could isolate the United States and diminish U.S. 
leadership or diplomatic leverage on issues of national interests?

    Answer. I commit to working with experts at the State Department 
and elsewhere in the government on the issue and helping to determine 
what role the U.S. Mission to the United Nations should play.
    If confirmed, I expect that the State Department and other 
departments of the government will conduct a review of the Paris 
Agreement and the U.N. Framework Convention on Climate Change. Whether 
the temperature goals set forth in those agreements are the correct 
goals, whether the agreements themselves are adequate to meeting those 
goals, and whether the agreements advance U.S. national interests will 
be part of that review.
    The United States should join international agreements only if 
membership would advance U.S. national interests. While having good 
diplomatic relations is in the U.S. national interest, it is only one 
factor that should be weighed. The decision to remain outside of the 
Kyoto Protocol, for example, did not to my knowledge diminish the 
United States' ability to conduct its foreign policy as it wished, nor 
did it impact U.S. national security or trade in any manner. I expect 
that these and many other factors will be weighed in any decision 
regarding U.S. membership in the Paris Agreement.

Special Immigrant Visas
    Question. As you may be aware, I am a longtime supporter of the 
Afghan Special Immigrant Visa program because I believe it would be a 
moral and strategic failing not to ensure that those Afghans who 
supported the U.S. mission and face threats to their lives as a result 
have the opportunity to seek refuge in the United States. Recognizing 
your family's personal experience with the Afghan Special Immigrant 
Visa program, will you promise to advocate for the program with the 
President-elect and the next Secretary of State?

    Answer. Should I be confirmed, I will work to ensure that the 
Special Immigrant Visa Program aligns with the national interest.

Refugees
    Question. The U.S. refugee admissions process takes an average of 
two years and requires a rigorous vetting process. Before a refugee 
comes to the attention of the United States, the U.N. Refugee Agency 
conducts its own thorough refugee status determination, which excludes 
anyone suspected of serious criminality. The U.S. vetting process 
involves extensive investigation by the Department of Homeland 
Security, the FBI, the National Counterterrorism Center and other 
agencies. Applicant refugees also undergo multiple, overlapping 
interviews and INTERPOL checks.
    Currently, the United States resettles more refugees than any 
country worldwide, and for decades, welcoming refugees from all over 
the world has been a bipartisan priority for U.S. administrations and 
Congress.

   How do you plan to maintain U.S. leadership on refugee protection 
        worldwide?

    Answer. The U.S. is by far the largest contributor to the U.N. High 
Commissioner for Refugees and provides billions more in direct and 
indirect assistance, bilaterally or through multilateral organizations 
like the World Food Program, to assist refugees and displaced persons. 
U.S. contributions to these efforts are immensely important and, if 
confirmed, I will support U.S. leadership in this area and focus on 
making sure U.S. contributions are used to maximum effect. I will also 
highlight the security implications of fragile and unstable nations and 
the critical problems to which these situations contribute, including 
refugees, in the U.N. Security Council.

    Question. The humanitarian needs in the Middle East continue to 
outpace available financial support, despite the incredible generosity 
of the American people. How will the Trump administration work with its 
international partners to convince other countries--including oil-rich 
countries in the Persian Gulf--to contribute more to these relief 
efforts? Are you concerned that your efforts will be hampered by the 
President-elect's rhetoric about Muslims and about immigrants?

    Answer. I agree that the humanitarian needs of refugees are dire. 
However, I have not been fully briefed on the ongoing efforts of the 
U.S. in this area, so am not in a position to judge where current 
efforts can be improved. If confirmed, I will work with our global 
partners with regard to the global refugee crisis.

Conflicts of Interest
    Question. If confirmed, how will you ensure employees you lead at 
the U.S. Mission to the United Nations will not feel pressure or 
encouragement, explicit or implicit, to benefit the President-elect's 
financial position or that of his family?

    Answer. Such pressure would be completely unacceptable. I will lead 
my staff faithfully in accordance with my oath of office.

    Question. If confirmed, how will you respond if you suspect that a 
foreign government or entity is attempting to influence the President-
elect's decision-making through his financial holdings or other means 
of leverage? Will you notify this committee?

    Answer. I will notify the appropriate law enforcement agencies in 
the event that I suspect foreign attempts to circumvent U.S. law.

Sustainable Development Goals
    Question. Do you think the 2030 Agenda for Sustainable Development 
a useful tool in promoting global development? Are the Sustainable 
Development Goals consistent with U.S. foreign policy priorities, as 
you see them? If not, where do you see specific inconsistencies?

    Answer. I have not been fully briefed on the Sustainable 
Development Goals. But my experience as a governor has convinced me 
that market oriented policies, reduced regulatory barriers to business 
and entrepreneurship, and a strong, fair and transparent rule of law 
are essential to higher economic growth and development. To the extent 
that the Sustainable Development Goals promote and encourage sound 
policy in developing countries, I believe they can be a useful tool in 
promoting global development. If confirmed, I commit to learning more 
about this issue.

LGBT issues
    Question. For many years, the U.S. mission at the United Nations 
has been an important member of the U.N. LGBT Core Group, a network of 
countries and civil society organizations that aims to ensure a place 
for sexual orientation and gender identity issues on the U.N. agenda. 
The U.S. mission at the U.N. has also played an important role 
protecting parts of the U.N. system challenged by governments hostile 
to the rights of LGBT people, including the newly appointed Independent 
Expert on Sexual Orientation and Gender Identity.

   If confirmed, will you work to further the rights of LGBT 
        individuals around the world? Will you continue U.S. 
        participation in the LGBT core group? What other actions will 
        you take to further this important issue?

    Answer. As I stated during my hearing, I strongly believe that the 
U.S. should unabashedly promote American values. If confirmed, I will 
work to advance human rights for everyone.

Women Peace and Security
    Question. In 2000, the U.N. Security Council formally recognized 
the role of women in peace and security, unanimously adopting 
resolution 1325, which specifically addresses the situation of women in 
armed conflict and calls for their participation at all levels of 
decision-making on conflict resolution and peacebuilding.

   How do you believe the U.S. should approach and prioritize the role 
        women in peace, security and conflict? How can we work with our 
        U.N. partners to ensure that women are prioritized in the 
        global peace and security agenda?

    Answer. As I stated in my testimony, I believe all human rights 
issues are important. Should I be confirmed, my approach would be to 
best address these issues with clear, strong and consistent leadership 
supporting programs that are efficient, effective and consistent with 
goals that support U.S. interests.



                               __________

      Responses to Additional Questions for the Record Submitted 
           to Governor Nikki Haley by Senator Johnny Isakson

    Question. One of the key complaints I hear from my constituents 
about the United Nations is that we, the United States, spend a lot of 
taxpayer dollars to support the UN, but we don't seem to get a lot of 
return on that investment. Will you commit to work with me and the 
committee to get greater transparency on the U.N.'s expenditures?

    Answer. If I am confirmed, yes.

    Question. There has been a lot of debate and discussion about the 
appropriate role of the U.N. Security Council in a number of different 
issues, particularly related to Israel and Iran.

   What are your views on our relationship with Israel?

   How will you work against the anti-Israel bias that we so often see 
        at the U.N.?

    Answer. Israel is a vital ally of the United States, and we must 
meet our obligations to Israel as our most important strategic ally in 
the region. Should I be confirmed, I would recommend to the President 
that the U.S. veto any U.N. Security Council resolutions and oppose 
other U.N. resolutions that unfairly single out Israel or would 
undermine prospects for a negotiated peace. If confirmed, I would 
recommend that the President oppose Palestinian membership in U.N. 
organizations prior to a mutually acceptable peace agreement with 
Israel and enforce laws prohibiting funding to international 
organizations that do so.

    Question. Regarding Iran, will you insist that Iran be held 
accountable for violations of UNSCR 2231, which endorses the JCPOA, 
calling upon Iran not to undertake actions related to ballistic 
missiles and arms transfers? How will you encourage other nations that 
it is worthwhile to enforce the U.N.'s own resolutions?

    Answer. As I stated at the hearing, if confirmed, I will do so.

    Question. I have strong concerns about the U.N. Human Rights 
Council and its agenda that often targets democratic nations while 
ignoring the atrocities committed in in places like Syria and Iran.

   Do you think it is appropriate for the U.S. to maintain a seat at 
        the table of the Human Rights Council?

    Answer. As I mentioned during my hearing, I think that the Human 
Rights Council is a flawed body, particularly in its bias against 
Israel and the ability of human rights violators to be elected and 
shield each other from criticism. If confirmed, I will work with the 
President and senior policymakers to determine the appropriate level of 
engagement with the HRC that best advances U.S. interests.

    Question. If so, will you commit to working to adjusting the focus 
of the Human Rights Council so that it actually focuses on the human 
rights violations we continue to see across the world?

    Answer. If it fits within the broader foreign policy design that 
comes out of the interagency process, I will pursue reforms to address 
this problem should I be confirmed.



                               __________

       Responses to Additional Questions for the Record Submitted
          to Governor Nikki Haley by Senator Christopher Coons

Refugee Protection
    Question. I attended the U.N. Summit on Refugees last September at 
the U.N. General Assembly in New York. Under President Obama's 
leadership, we secured commitments from 52 countries and international 
organizations around the world to cumulatively increase their total 
2016 financial contributions to U.N. appeals and international 
humanitarian organizations by approximately $4.5 billion over 2015 
levels; roughly double the number of refugees they resettled or 
afforded other legal channels of admission in 2016; create improved 
access to education for one million refugee children globally; and, 
improve access to lawful work for one million refugees globally. How do 
you intend to continue to advocate for U.S. leadership on the 
protection of refugees?

    Answer. The US is by far the largest contributor to the U.N. High 
Commissioner for Refugees and provides billions more in direct and 
indirect assistance, bilaterally or through multilateral organizations 
like the World Food Program, to assist refugees and displaced persons. 
U.S. contributions to these efforts are immensely important and, if 
confirmed, I will support U.S. leadership in this area and focus on 
making sure U.S. contributions are used to maximum effect. I will also 
highlight the security implications of fragile and unstable nations and 
the critical problems to which these situations contribute, including 
refugees, in the U.N. Security Council.

North Korea Human Rights Abuses
    Question. What are your views of the International Criminal Court?

    Answer. I share many of the concerns about the International 
Criminal Court expressed by Congress in the American Service-Members 
Protection Act and by previous U.S. administrations that led them not 
to seek ratification of the Rome Statute and limit U.S. interactions 
with the International Criminal Court.

    Question. Do you believe North Korea should be referred to the 
International Criminal Court for its human rights abuses?

   Will you make a concerted diplomatic effort to gain the votes 
        needed to overcome Russia and China's veto in the U.N. Security 
        Council?

    Answer. I wholeheartedly believe that the North Korean government 
has committed and continues to commit horrible crimes against its 
people. If confirmed, I will be forthright in condemning that 
government. Currently, there is no number of votes that can override a 
veto by a permanent member of the U.N. Security Council. Although this 
can be immensely frustrating on situations like North Korea where 
Chinese and Russian opposition prevents stronger action, I would not 
support any change to the veto power because such a change would 
undermine the ability of our nation's representatives to protect U.S. 
interests in that body.

U.N. Treaties
    Question. A number of U.N. treaties have been languishing in the 
U.S. Senate for some time. Among them is the Law of the Sea Treaty, 
which has the bi-partisan support of officials ranging from every 
Secretary of State from Henry Kissinger to today, a host of current and 
former military leaders, and the U.S. private sector including the U.S. 
Chamber of Commerce. The Convention of the Rights of Persons with 
Disabilities was voted down despite the presence of former Majority 
Leader Robert Dole being on the Senate floor during the vote. Only two 
countries in the world have failed to ratify the Convention on the 
Rights of the Child, the United States and Somalia. Many of these 
treaties seem to be opposed in the Senate simply because of their 
association with the United Nations. If confirmed as Ambassador, will 
you advise your colleagues in the Trump administration of the value of 
the U.S. ratifying any of these important treaties?

    Answer. There are many treaties that have been signed by the United 
States but have not yet received the advice and consent of the Senate--
a procedure in which this committee plays a central role. My 
understanding is that any incoming administration conducts reviews of 
such agreements to determine whether any of them should be prioritized, 
and whether the new administration will support U.S. ratification. At 
this time I don't hold a particular opinion as to the U.N. Convention 
on the Law of the Sea or the Convention on the Rights of the Child, but 
I look forward to reviewing those agreements along with other experts 
at the State Department if I am confirmed.



                               __________

       Responses to Additional Questions for the Record Submitted
              to Governor Nikki Haley by Senator Tom Udall

    Question. New Mexico's national labs have played a key role in 
nonproliferation and weapons monitoring since the dawn of the atomic 
age. And they played a key role in the Iran agreement--which is why I 
have strong confidence in the agreement. Do you trust the science 
behind the Iran agreement and that each pathway to create a nuclear 
weapon has been effectively stopped by the JCPOA?

    Answer. I am not confident that the agreement cut off Iran's 
potential to obtain a nuclear weapon.

    Question. Will you be open to briefings from Department of Energy 
and NNSA officials while you review the JCPOA?

    Answer. Yes.

    Question. All of the IAEA inspectors who are in the field today 
receive training from our nuclear experts at the national labs on how 
to identify violations to the Nonproliferation Treaty. Will you engage 
with the national labs and the National Nuclear Security Administration 
to address key issues regarding nonproliferation and take a science 
based approach to countering would be proliferators in the future?

    Answer. Yes.

    Question. What are your thoughts about the wisdom of sending arms 
to so called moderate rebels in Syria? (many of whom are affiliated 
with terrorist groups) Will you continue to support--in my opinion--
this misguided program?

    Answer. I have concerns, and if confirmed, look forward to learning 
more about the facts, and participating in any policy development as 
appropriate.

    Question. Our foreign relations budget is approximately 1 percent 
of the national budget--United Nations funding is far less than that. 
Yet, leveraged with other countries, our funding in the U.N. supports 
humanitarian efforts, peacekeeping, and the protection of national 
treasures. Do you support continued funding of the U.N., and how will 
you work to ensure that the U.N. better leverages that funding for the 
greater good?

    Answer. I anticipate that the Trump administration will be 
examining our relationship with and funding for all U.N. and affiliated 
agencies to make sure our contributions are appropriate.

    Question. The U.N. Security Council has adopted multiple 
resolutions to address the threat of North Korean proliferation--but 
North Korea's development of its nuclear arsenal continues. The last 
such resolution capped the export of North Korean coal. How will you 
work to maintain these multilateral sanctions on North Korea--and will 
you hold China accountable for its promise to slash imports of coal 
from North Korea? How will you work with the security council to ensure 
full implementation of its sanctions program?

    Answer. Should I be confirmed this would be a top priority. I would 
consult with the rest of the cabinet on appropriate actions. I look 
forward to consulting with Congress on this issue, and advocating the 
policy of the U.S. government

    Question. On November 30th, the Colombian parliament ratified a 
final peace agreement between the government and FARC rebels, ending 
the longest-running conflict in the Western Hemisphere. Currently, a 
U.N. political mission, made up of 450 unarmed military observers and 
additional civilian personnel, is on the ground in Colombia with a 
mandate to monitor and verify the cessation of hostilities and ensure 
that the FARC gives up its weapons. Can you talk about the UN's role 
here and what the U.S. is doing to support it?

    Answer. The U.N. mission is supporting the peace process in 
numerous ways including demobilizing and reintegrating FARC combatants. 
It is also supporting various civil society initiatives. If confirmed, 
I look forward to learning more about what the U.S. is currently doing 
and options for the future.

    Question. What is your stance on key multilateral treaties that the 
United States is signatory to but has not ratified--.for example: Would 
you support the ratification of the U.N. Convention on the Law of the 
Sea and do you agree that ratifying it would give the United States a 
stronger hand to address Chinese violations and illegal annexations of 
islands in the South China Sea?

    Answer. The United States should only join treaties that advance 
U.S. national interests. The U.N. Convention on the Law of the Sea 
(UNCLOS) has been debated on several occasions by the Senate Committee 
on Foreign Relations, and I will, if confirmed, examine UNCLOS to 
determine whether it is in the best interests of the United States to 
be a party.

    Question. Would you support ratification of the Convention on the 
Rights of Persons with Disabilities-- in order to ensure that U.S. 
standards for access by disabled individuals are adopted throughout the 
world?

    Answer. The United States is strongly committed to protecting the 
rights of disabled Americans through the legal protections afforded by 
the Americans with Disabilities Act (ADA) and other applicable laws, 
and to working cooperatively with like-minded partner countries 
interested in strengthening their own disability rights laws. In fact, 
the U.S. already funds and administers a number of programs that 
provide assistance to strengthen disability rights in foreign 
countries. My view on whether to support the ratification of the 
Convention will be based on such factors as whether the Convention 
benefits Americans who live in the United States and whether the 
Convention improves disability rights in other countries, thus 
benefiting Americans living abroad, the Convention's effects on U.S. 
sovereignty, and the Convention's impact on existing protections in the 
law and under the Constitution.

    Question. During the Presidential campaign, President-elect Trump 
made several very troubling statements and comments indicating that in 
the context of counterterrorism he would support waterboarding and 
other types of torture. Do you think those practices violate 
international prohibitions on torture and war crimes, and if so, will 
you urge the administration to avoid such violations?''

    Answer. Should I be confirmed I would support the law.

    Question. A bipartisan group of Senators, including Republicans and 
Democrats on this committee, have cosponsored legislation to remove 
restrictions on U.S. citizens' ability to travel to Cuba and to 
authorize U.S. companies to facilitate greater internet access inside 
Cuba. Do you believe that current restrictions on the rights of U.S. 
citizens to travel to Cuba enhances the cause of freedom for the Cuban 
people?

    Answer. Considering that the Cuban military fully owns the tourism 
industry under the holding company Gaviota and that Cuban citizens are 
largely barred from these facilities, I would be hesitant to believe 
that expanding travel for Americans would support freedom for the Cuban 
people. Purposeful travel for the intention of expanding people to 
people interaction should be allowed. The current statute as outlined 
by the U.S.'s Department of Treasury's Office of Foreign Assets Control 
(OFAC) should be governing principle.

    Question. Do you support allowing U.S. companies to expand internet 
access inside Cuba so that the Cuban people can have greater access to 
information that isn't currently available on the island?

    Answer. Expanding the ability of Cubans to communicate should be 
supported but not if the Cuban government seeks to use this as an 
additional tool to monitor or censor communications. Additionally, 
these U.S. companies must not be allowed to use seized property or 
assets that are part of the Department of Justice's Cuba Claims 
Program.

    Question. Do you agree that the U.S. should help support private 
entrepreneurs in Cuba with training or other assistance, so they can 
build businesses, market their products and services, and compete with 
state-owned enterprises?

    Answer. Unfortunately, Cuba does not have private entrepreneurs and 
working independently is not a right but a privilege granted only to 
supporters of the regime. Taking power after his brother stepped down, 
Raul Castro moved the profitable sectors of the Cuban economy under 
control of the military and divided them up into holding companies. 
While the U.S. should seek to empower entrepreneurs on the island, we 
should avoid doing so if it overwhelmingly benefits the regime.

    Question. Will you continue the recent practice of abstaining to 
the U.N. General Resolution pertaining to the statutory U.S. embargo on 
Cuba?

    Answer. No.

    Question. Do you agree that after more than half a century the U.S. 
embargo against Cuba has failed to achieve any of its principle 
objectives?

    Answer. We should be clear about a few things. The goal of the 
embargo was never to cause regime change, but rather to raise the costs 
of the Cuban government's bad behavior. Access to the U.S.'s market is 
not a right but a privilege and it's a privilege the Cuban government 
does not yet deserve. They do not meet the basic standards as outlined 
in the OAS's InterAmerican Democratic Charter, a resolution every 
single other country in Latin America meets.

    Question. Do you support continued diplomatic relations with Cuba?

    Answer. At this point, it is clear that President Obama's 
unilateral normalization process has resulted in a net loss for the 
U.S. Conditions were never put in place to the Cuban government, such 
as requesting an improvement on human rights, the return of wanted U.S. 
fugitives nor the compensation of stolen American property. Normalized 
relations with other countries depend on a certain level of trust and 
reciprocity, and that does not exist at the moment. Moving forward, we 
should ask to see improvements in these areas.

    Question. Do you support the New START agreement with Russia and 
how will you work with Russia to ensure that the agreement is followed?

    Answer. I support the implementation of New START, and I will 
advocate the policy of the United States government if confirmed.

    Question. The NNSA has made tremendous progress with the stockpile 
stewardship program. In short, our science based efforts to confirm 
that our stockpile is safe, secure, and reliable have worked--and have 
negated the need for testing of nuclear weapons. During the debates to 
consider the Comprehensive Test Ban Treaty, this was a significant 
barrier because the science had not yet matured. Now that the science 
has matured, will you advocated to the Trump administration that they 
support for the ratification of the Comprehensive Test Ban Treaty and 
will you visit with our experts at NNSA to learn more about the 
stockpile stewardship program?

    Answer. There are many treaties that have been signed by the United 
States but have not yet received the advice and consent of the Senate--
a procedure in which this committee plays a central role. My 
understanding is that an incoming administration conducts reviews of 
such agreements to determine whether any of them should be prioritized, 
and whether the new administration will support U.S. ratification. At 
this time I don't hold a particular opinion as to the Comprehensive 
Test-Ban Treaty, but I look forward to reviewing that agreement along 
with other experts at the State Department if I am confirmed.

    Question. In response to signals that the Trump administration may 
act less aggressively on climate change, leading Chinese officials have 
stated that they will continue to act aggressively to reduce their 
emissions and that they will take on more international leadership 
around climate change--including establishing a national carbon market 
and investing hundreds of billions in clean energy at home and abroad. 
Are we putting the nation at a disadvantage internationally by ceding 
U.S. leadership on climate change to China?

    Answer. I believe it is debatable whether any U.S. actions 
regarding climate change necessarily ``cedes'' leadership to China or 
any other nation. Each nation, including the United States, must act in 
its own national interest, protect its economy, and preserve employment 
security for its citizens. Such interests must come first before any 
perception of leadership on any particular issue.

    Question. I asked during the hearing if you were inclined to tear 
up the Paris Agreement. You responded that "We will keep what we see 
beneficial and revisit the parts that impact our economy." 
Specifically, which parts of the Agreement do you believe are 
beneficial, and which will impact our economy?

    Answer. The part of the Paris Agreement that will impact the U.S. 
economy is the U.S. Nationally Determined Contribution (NDC). If 
confirmed, I expect that the State Department and other departments of 
the government will conduct a review of the NDC submitted by the Obama 
administration as part of our review of the Paris Agreement and the 
U.N. Framework Convention on Climate Change to determine whether the 
NDC and/or the international agreements advance U.S. national 
interests. Both the UNFCCC and Paris Agreement were negotiated by 
different presidential administrations and it is the obligation of the 
incoming administration to make its own determination regarding the 
ongoing viability of those agreements to determine whether they advance 
U.S. national interests.

    Question. It was reported that during your administration in 2013 
the South Carolina Department of Natural Resources kept hidden a report 
which ``outlined serious concerns about the damage South Carolina will 
suffer from climate change--.'' Were you or anyone in your 
administration involved in the Department's decision to keep this 
report secret? Please outline any discussions you may have had with 
regards to this report.

    Answer. I am not aware of any attempt, nor do I recall any attempt, 
to keep such a report hidden. I will look into this matter.

    Question. Your administration in South Carolina called a minimum 
wage quote ``More government mandates on small businesses.'' Do you 
believe that advocating for a livable wage in foreign countries where 
there is a record of mistreatment of workers and poor wages is an 
unneeded mandate on businesses in those countries?

    Answer. My experience as a governor has convinced me that market 
oriented policies, reduced regulatory barriers to business and 
entrepreneurship, and a strong, fair, and transparent rule of law are 
essential for higher economic growth and development. If confirmed, I 
will advocate for these principles in other countries as a means to 
promote prosperity.

    Question. Will you advocate for basic workers rights in countries 
such as China and Bangladesh, where workers are known to be mistreated 
or underpaid?

    Answer. Yes

    Question. Do you support global efforts to improve safety for 
workers in the energy and agricultural sectors?

    Answer. Yes

    Question. Article 23 of the United Nations Declaration of Human 
Rights states that ``Everyone has the right to form and to join trade 
unions for the protection of his [or her] interests.'' The United 
States is a signatory to the declaration and has been an advocate for 
labor rights around the world. You were quoted as saying ``We 
discourage any companies that have unions from wanting to come to South 
Carolina because we don't want to taint the water'' and have been 
referred to as a ``union buster.'' Do you support the Declaration of 
Human Rights, and, more importantly, will you work to reinforce the 
United States' protection of labor rights around the world?

    Answer. I will support the human rights obligations of the U.S. for 
those treaties that have been ratified. I also support the principles 
set forth in the Universal Declaration of Human Rights (UDHR). However, 
the UDHR is not legally binding on the United States and does not 
require domestic implementation, including in regard to its provisions 
on labor rights.

    Question. In order for the United States to honor its commitment 
under Articles 23 and 24 of the Declaration of Human Rights, will you 
work with unions and other organizations to protect the right to free 
choice of employment; the right to just and favorable conditions of 
work; the right to rest and leisure, including reasonable limitation of 
working hours; and the right to worker safety and to equal pay for 
equal work?

    Answer. I will support the human rights obligations of the U.S. for 
those treaties that have been ratified. I also support the principles 
set forth in the Universal Declaration of Human Rights (UDHR). However, 
the UDHR is not legally binding on the United States and does not 
require domestic implementation, including in regard to its provisions 
on labor rights.

    Question. Your administration supported and signed into law a harsh 
``Arizona style'' immigration law. Using state police officers to 
attempt to enforce immigration laws, and opening the door to unneeded 
racial profiling and exacerbating diplomatic relations with our 
neighbors in the western hemisphere. How will you work to mend 
diplomatic relations with our southern neighbors given your support for 
this harsh policy and the President elect's comments calling Mexicans 
rapists, and murderers among other things?

    Answer. I will work closely with my U.N. counterparts and our U.S. 
ambassadors to ensure our relationship with all law-abiding nations are 
mutually beneficial to the maximum extent consistent with our national 
security. This includes our neighbors to the south.

    Question. Expanding democratic ideals and governance is an 
important policy of the United States government. A cornerstone of this 
effort is the observation of elections by multiple organizations 
including the United Nations. These efforts give the public, in new 
democracies, the confidence that their elections are free and fair. 
While you served as governor, however, you work to impede access to the 
ballot box by supporting voter id legislation, impairing the ability of 
low income and minority voters to cast their ballot. Will you work to 
support increased access to the ballot box overseas or do you plan to 
advocate for restrictions similar to those you supported in South 
Carolina?

    Answer. I will work toward ensuring the integrity of free and fair 
elections, including supporting methods that lead to honest and 
accurate results.

    Question. Will you oppose efforts to strip U.S. funding to the 
United Nations?

    Answer. As I stated during my confirmation hearing, I do not 
support slash and burn cuts to U.S. funding, but targeted and selective 
withholding tied to specific reforms has proven in the past to be an 
effective means for pressing the organization to implement reforms. I 
anticipate that the Trump administration will examine our relationship 
with and funding for all U.N. and affiliated agencies to make sure our 
contributions are appropriate.

    Question. Are settlements that break up the possibility of a future 
contiguous Palestinian state harmful to achieving a two state solution 
in your opinion?

    Answer. I do not believe that settlements are the principal 
obstacle to peace. Suicide bombers and rockets launched into Israel are 
much larger obstacles to peace. The issue of settlements should be 
resolved as part of a comprehensive peace agreement negotiated between 
the two parties, rather than imposed upon them by others.

    Question. Do you support Israel's legalization of previously 
illegal (under Israel law) Israeli settler outposts in the west bank 
and do you think this is harmful towards ultimately achieving a two 
state solution?

    Answer. I believe this is a matter of Israeli law.

    Question. How will you work to urge other countries to press the 
Palestinians to put an end to incitement and violence against Israelis?

    Answer. By clear, strong and consistent leadership on behalf of 
ending incitement and violence against Israelis, I believe I can work 
with other countries if confirmed.

    Question. What is your plan to address and oppose the boycott, 
divestment, and Sanctions movement and will you make it a priority to 
urge other countries and organizations not to join this movement?

    Answer. I oppose the movement. Should I be confirmed I would make 
every effort to press others not to participate.



                               __________

           Responses to Additional Questions for the Record 
         Submitted to Governor Nikki Haley by Senator Tim Kaine

Anti-Semitism and Israel at the U.N.
    Question. During a meeting of the U.N. General Assembly last 
January, former Secretary General Ban Ki-Moon stated, ``a U.N. that 
wants to be true to its founding aims and ideals has a duty to speak 
out against anti-Semitism.'' The gathering was the first of its kind, 
attended by prominent ministers, U.S. Members of Congress and 
diplomats, brought together to discuss the U.N.'s role in beating back 
the rising tide of global anti-Semitism.

   Can you elaborate on the significance of this meeting?

    Answer. I have not been briefed on the details of this event, but, 
as I mentioned at my hearing, I am alarmed by the bias against Israel 
that pervades many U.N. organizations and, if confirmed, am determined 
to use the influence of the U.S. to reduce it.

    Question. Does this signal a commitment to elevating the fight 
against global anti-Semitism within the U.N.?

    Answer. One meeting does not make a pattern or overcome decades of 
anti-Semitism. If confirmed, I will use the influence of the U.S. to 
address this problem.

    Question. Do you think continued strong U.S. engagement is 
important to the success of these initiatives?

    Answer. If confirmed, I will use the influence of the U.S. to 
combat anti-Semitism in the U.N.

    Question. While you were clear in the confirmation hearing 
regarding your firm opposition to UNSCR 2334, your position regarding 
continued Israeli settlement activity in the West Bank was vague.

   Do you believe that the Israeli government's policy of continued 
        settlement activity in the West Bank has an effect on efforts 
        to achieve a negotiated two-state solution?

    Answer. I support the long-standing U.S. policy that a negotiated 
two-state solution must be based on direct peace negotiations between 
Israel and the Palestinians, including negotiations on the future 
borders.


    Question. In 2011, members of UNESCO decided to admit the 
Palestinians as a member state. As a result, since FY2012, the U.S. has 
withheld approximately $80 million a year in funding to UNESCO under 
laws that prohibit funding to U.N. entities that admit the Palestinians 
as a state.

   Do you believe that the U.S. ability to stand up for Israel at 
        UNESCO and push back against biased resolutions is undermined 
        by the fact that the United States is currently prohibited from 
        paying dues to this organization?

    Answer. As stated at my confirmation hearing, I do not support 
renewed funding for UNESCO because it would encourage other U.N. 
specialized agencies to similarly grant membership to the Palestinians, 
undermining the prospects for a negotiated peace. Unlike the U.N. 
Security Council, the U.S. cannot block anti-Israel actions in UNESCO 
and the organization continues to take such actions despite the 
continued presence of the U.S. since 2011.

Colombia
    Question. The U.N. is playing an important role in the historic 
peace treaty between government and FARC by helping to demobilize FARC 
members and monitoring the peace process.

   Will you pledge your support for the U.N.'s efforts in Colombia?

   Will you encourage increased Colombian participation in U.N. 
        peacekeeping missions?

    Answer. Yes.

Human Rights
    Question. Secretary Kerry and Ambassador Power often used their 
channels, discreetly at times, to press for the release of unjustly 
detained American citizens. These efforts include Ms. Aya Hijazi, a 
Virginian, who has been imprisoned by Egyptian authorities due to her 
advocacy on behalf of the poor and children, and Mr. Otto Warmbier, an 
American college student who has been held by North Korea for more than 
a year on trumped-up charges.

   Will you commit to using your role as U.N. Ambassador to prioritize 
        and press for the release of detained Americans overseas, like 
        Ms. Aya Hijazi and Mr. Otto Warmbier?

    Answer. I have not been briefed on these specific cases, but I 
commit to working with the Secretary of State to protect Americans 
overseas and prevent their mistreatment.

International Commitments
    Question. Given comments by President-elect Trump, many in the 
international community are concerned that the United States cannot be 
counted on to uphold the commitments we have made on critical issues 
such as being a dependable ally for our NATO partners, combatting 
climate change, and preventing Iran from obtaining a nuclear weapon. In 
your confirmation hearing, you spoke about the importance of the United 
States building coalitions and maintaining strong alliances to advance 
our core U.S. national security interests.10. you think your ability to 
engage effectively with your counterparts at the United Nations will be 
undermined if the United States is seen as backing away from our 
commitments on key policy issues?

   How will you be able to gain the trust of other key members in the 
        international community if other governments do not believe we 
        can be expected to uphold our commitments?

    Answer. I do think that building strong coalitions is important and 
I look forward to building support in the U.N. for U.S. priorities. A 
new administration reviewing policies of a previous administration is 
not a new phenomenon and I believe I will be able to effectively engage 
with U.N. counterparts if I am confirmed.

ISIS
    Question. ISIS has undermined security and stability in the Middle 
East and poses a clear threat to international peace and security, 
including a threat to the United States and our partners.

   Do you believe the United Nations should play a more robust role in 
        the global effort to combat the threat posed by ISIS?

    Answer. Yes, but the U.N. is only one of many tools that the U.S. 
should use to use to combat the threats posed by ISIS.

Syria
    Question. In 2014, the Security Council unanimously adopted 
resolution 2139, demanding that all parties allow delivery of 
humanitarian assistance, cease depriving civilians of food and medicine 
indispensable to their survival, and enable the rapid, safe and 
unhindered evacuation of all civilians who wished to leave. It demanded 
that all parties respect the principle of medical neutrality and 
facilitate free passage to all areas for medical personnel, equipment 
and transport. It also called upon all parties, especially the Assad 
regime, to allow unhindered humanitarian access for U.N. agencies and 
its partners, including across conflict lines. However, as events over 
the last two months have shown, eastern Aleppo's residents were unable 
to flee aerial bombings and extrajudicial killings at the hands of the 
Assad regime, with the clear support of Russia.

   In you assessment, what prevented the implementation of resolution 
        2139?

   How would you deal with the issue of civilian protection, 
        particularly IDPs and refugees?

   How can the U.N. work with member countries to more strongly 
        enforce UNSCRs focused on humanitarian protection and aid 
        delivery?

   How would you respond to the massive violation of international 
        humanitarian laws and principles by Syria, Russia and other 
        parties to this conflict?

   After Russia's invitation to join the Astana peace talks, what will 
        you do in your first weeks in office to negotiate an end to 
        sieges of civilian populations and bombing of civilian 
        infrastructure?

    Answer. I have not yet been briefed on all aspects of UNSCR 2139, 
but should I be confirmed, I commit to learning more about this issue. 
If confirmed, I will support the Secretary of State in his efforts with 
key parties to the Syrian conflict to achieve a political solution to 
the war and limit its humanitarian effect on Syrians.

Treaties
    Question. The treaty ratification process has slowed down in the 
Senate. For example, UNCLOS was passed in 1982 and 167 nations have 
ratified it, including Russia and China. The U.S. is the only major 
power to have not ratified it, despite a bipartisan consensus among our 
military and diplomatic leadership that ratification would be in the 
U.S. interest in matters as diverse as China's island-building in the 
South China Sea or arctic drilling rights.

   Does our refusal to join the overwhelming majority of nations at 
        the table in a treaty such as this hurt U.S. interests and our 
        leverage at the U.N.?

    Answer. The United States should only join treaties that advance 
U.S. national interests. The U.N. Convention on the Law of the Sea 
(UNCLOS) has been debated on several occasions by the Senate Committee 
on Foreign Relations, and I will, if confirmed, examine UNCLOS to 
determine whether it is in the best interests of the United States to 
be a party.

    Question. Does our refusal to ratify the Comprehensive Test Ban 
Treaty (CBTB) hurt U.S. interests and our leverage at the U.N.? Would 
CTBT's ratification help efforts being pursued in the United Nations 
Security Council to reinforce the global norm against nuclear weapons 
testing and improve the verification architecture to detect such 
testing?

    Answer. At this time I don't hold a particular opinion as to the 
Comprehensive Test-Ban Treaty, but I look forward to reviewing that 
agreement along with other experts at the State Department.

    Question. Senate ratification of Montenegro's accession to NATO 
would reassure our European partners and reaffirm our support for our 
alliances. Would this message be helpful for your role at the U.N.?

    Answer. I support Montenegro's accession to NATO.

    Question. Does our refusal to ratify the Comprehensive Test Ban 
Treaty (CBTB) hurt U.S. interests and our leverage at the U.N.? Would 
CTBT's ratification help efforts being pursued in the United Nations 
Security Council to reinforce the global norm against nuclear weapons 
testing and improve the verification architecture to detect such 
testing?

    Answer. At this time I don't hold a particular opinion as to the 
Comprehensive Test-Ban Treaty, but I look forward to reviewing that 
agreement along with other experts at the State Department.



                               __________

       Responses to Additional Questions for the Record Submitted
          to Governor Nikki Haley by Senator Edward J. Markey

Proliferation
    Question . Governor Haley, for more than seven decades, U.S. 
leadership has been vital for slowing the spread of nuclear weapons. 
President-elect Trump has threatened to upend this policy by saying it 
would not be so bad if South Korea, Japan, or Saudi Arabia acquired 
nuclear weapons.

   Do you disagree with President-elect Trump? If not, why not?

    Answer. I believe in the nonproliferation of nuclear weapons.

Arms Control
    Question . The United Nations is a vital forum for international 
discussions of arms control issues. Arms control is a vital component 
of U.S. national security, as it can reduce the risk of nuclear war by 
accident or miscalculation, while simultaneously reducing the risk of 
destructive and costly arms races.

   Do you support proposals to negotiate verifiable arms control 
        treaties between the world's nuclear powers? If not, why not?

    Answer. If confirmed, I look forward to learning more about the 
various arms control negotiations taking place in the U.N. and how U.S. 
national security interests can be best served by them.

China
    Question . As one of the five permanent members of the Security 
Council, China has the power to veto any resolution. As such, China's 
cooperation is vitally important on a range of issues, particularly 
those affecting security in the East Asian region. President-elect 
Trump has chosen to aggravate China by threatening to recognize 
Taiwan's independence, which Beijing fiercely opposes, and by 
threatening a trade war.

   How do you intend to work with China's permanent representative to 
        the United Nations, when the President-elect is deliberating 
        picking fights with Beijing over issues that are of core 
        concern to China's leaders?

    Answer. The U.S. relationship with China has elements of 
cooperation and competition. The President, as President-elect, 
reaffirmed that the U.S. will continue to follow the Taiwan Relations 
Act. If confirmed, I am committed to working in a straightforward 
manner with my Chinese counterpart on all matters, including the 
critically important issue of North Korea.

Democratic Republic of the Congo
    Question . The Democratic Republic of the Congo (DRC) is home to 
one of the U.N.'s largest and most complex peacekeeping missions--the 
22,500-person strong U.N. Stabilization Mission in the Democratic 
Republic of the Congo (MONUSCO). This peacekeeping force is charged 
with protecting civilians, humanitarian personnel, and human rights 
defenders under threat of physical violence, and to support the 
government of the DRC in its stabilization and peace consolidation 
efforts. Yet the government of the DRC has triggered a political crisis 
because of President Kabila's refusal to step down and hold elections, 
as the constitution requires. International pressure (including US 
sanctions freezing the U.S.-held assets of top government officials) as 
well as internal pressure from opposition groups and citizen-led 
protests (in which more than 50 Congolese were killed) led to an 
agreement between the government and the opposition brokered by the 
country's Catholic bishops. The deal calls for establishment of an 
interim governing arrangement and elections by the end of 2017. While 
the deal offers a way out of the crisis, significant implementation 
challenges lie ahead.

   How will you use U.S. leadership in the U.N. to help ensure that 
        the DRC remains on course to elections in 2017 and an eventual 
        peaceful transfer of power to a new democratically elected 
        leader?

   How can the United Nations help the DRC strengthen its institutions 
        and eventually end its dependence on the organization's largest 
        and most costly peacekeeping mission?

    Answer. The United States must lead with its values; many times, 
that includes facilitating peace negotiations and settlements. If 
confirmed, I would work with the Secretary of State to engage the 
government of the Democratic Republic of the Congo (DRC) and other 
interested parties to encourage a peaceful political solution, with a 
guarantee of basic human rights and accountability for those who 
transgress such rights. Targeted sanctions, possibly through the U.N. 
Security Council, might be part of achieving that solution, but 
sanctions are a tactic, not a strategy or a solution. Through robust 
dialogue with relevant actors, the United States could help the DRC 
achieve a stable political outcome, which would also translate into 
increased stability regionally and an improvement in human rights.

Nigeria
    Question . Boko Haram continues its campaign of violence and terror 
across much of northern Nigeria. In November, Save the Children found 
that around 200 children die each day from malnutrition and disease in 
areas ravaged by Boko Haram. The group has destroyed houses and schools 
and forced two million people to flee their homes, according to the 
U.N. Coordinator for Humanitarian Affairs. U.N. officials estimate that 
fourteen million people need humanitarian assistance and that the 
specter of widespread famine remains, with 75,000 children in immediate 
danger.

   How can the United Nations help Nigeria reverse the humanitarian 
        disaster that is already occurring in areas affected by Boko 
        Haram?

   How can the United States and our allies help countries like 
        Nigeria better combat terrorist groups like Boko Haram while 
        minimizing the harm done to civilians?

    Answer. The challenge of radical Islamic terrorism in Africa is a 
serious and growing problem. Through its diplomatic engagement, 
assistance programs, and public diplomacy efforts, the State Department 
clearly has a leading role in helping shape long-term U.S. efforts to 
counter and defeat the ideology of radical Islamic terrorism--in Africa 
and around the world. The United States should also continue to engage 
in international forums like the U.N. to address this issue and decide 
upon a combined policy to address this violence. This would include 
deploying robust diplomacy, possible sanctions, peacekeeping efforts, 
and other measures. If confirmed, I will work with and support the 
efforts of the President, the Secretary of State and other cabinet 
officials to address this issue.

South Sudan
    Question . The political and humanitarian crisis in South Sudan 
continues to worsen, and there are now warnings of mass atrocities or 
genocide. USAID estimates that ``food security will deteriorate in 
northern South Sudan from February-May 2017 due to poor harvest yields, 
disruption of livelihood activities, and high staple food prices.'' In 
addition to the food insecurity, there is a cholera outbreak in 
southern South Sudan. The United States has delivered more humanitarian 
aid than all other donors combined, and now there are new warnings of 
mass atrocities or genocide. The government of South Sudan has 
continued to restrict the activities of the U.N. Mission in the 
Republic of South Sudan (UNMISS). In December, the Security Council 
failed to adopt a U.S.-sponsored resolution that would have imposed an 
arms embargo on South Sudan and placed sanctions on officials 
responsible for human rights violations there.

   What specific measures will you pursue in the Security Council and 
        through the U.N.'s humanitarian agencies to address both the 
        conflict and the humanitarian situation in South Sudan?

    Answer. The situation in South Sudan is one of the most pressing 
humanitarian situations in the world. It is critical to help build some 
political space for reconciliation between the government and rebel 
factions. The United States should continue to engage in international 
forums like the U.N. and bilaterally with key partners in the area to 
address this issue, and decide upon a combined policy to address this 
violence. This would include deploying robust diplomacy, possible 
sanctions, and other measures.

Women's Rights and Education
    Question . Your opening statement said that you are ``painfully 
aware that the chance for 13-year-old girls to read and learn and grow 
is something that does not exist in far too many places around the 
world today.'' Unfortunately, this is the case. According to the U.N.'s 
most recent data from 2013, male literacy in sub-Saharan Africa was 72 
percent, but female literacy was only 57 percent, a gap of 15 
percentage points. In India, that gender gap in literacy was 18 
percentage points, while in Pakistan, the gap was 27 points. These 
stark gender disparities in education and literacy represent a tragic 
and unjust waste of human potential. They are also a major hindrance to 
economic development and health. According to a 2014 report from 
UNESCO, if all women in low-income countries had a secondary education, 
child mortality rates would fall by 49 percent, resulting in 2.8 
million lives saved every year.

   If confirmed, how will you work to improve the rates of female 
        education around the world, and to improve women's rights more 
        generally?

    Answer. If confirmed, I will work to promote the advancement of 
women and girls around the world and will look for opportunities to do 
so both in our own foreign policy and at the U.N.

U.N. Peacekeeping
    Question . U.N. peacekeeping operations can provide a vital 
contribution to international peace and security by helping to prevent 
conflicts, stabilize fragile states, protect civilians from human 
rights violations and other atrocities, and support the delivery of 
needed humanitarian relief. Some peacekeeping missions have not, 
however, always lived up to these goals. During your testimony you 
repeatedly stressed the need for reform of U.N. operations and pledged 
to closely examine all 16 U.N. peacekeeping missions in order to 
evaluate their effectiveness.

   Please describe the kinds of specific criteria that you will use in 
        evaluating peacekeeping missions and discuss how you plan to 
        consult on the results of that evaluation with Congress.

   Please also describe how you will work to ensure that peacekeeping 
        missions work to build the capacity of the states where they 
        operate, thereby reducing the need for prolonged dependence on 
        U.N. peacekeepers.

    Answer. If confirmed, I will consult with the President, the 
Secretaries of State and Defense, and experts in the U.S. government 
and the United Nations to develop these criteria and assessments so 
that current and future peacekeeping missions are more effective.

Climate Change and International Security
    Question . In his first speech to the U.N. Security Council on 
January 10, Secretary-General Antonio Guterres warned that global 
conflicts are ``exacerbated by climate change.'' The Pentagon has taken 
a similar view, noting in 2015, ``Global climate change will have wide-
ranging implications for U.S. national security interests over the 
foreseeable future because it will aggravate existing problems that 
threaten domestic stability in a number of countries.'' Climate change 
can cause water and food shortages, refugee flows and other 
developments that can drive conflict and instability, as has been seen 
in as North Korea, Chad, Bolivia, and Yemen, which are experiencing 
widespread food insecurity and undernourishment. U.N. agencies are 
often on the front line of responding to such crises.

   What do you see as the role for U.S. leadership at the U.N. to 
        address climate changes as a threat to global peace and 
        stability?

    Answer. If confirmed I commit to working with experts at the State 
Department and elsewhere in the government on the issue and helping to 
determine what role the U.S. Mission to the United Nations should play.

Human Trafficking
    Question . As many as 17,500 persons are trafficked into the United 
States every year, and more than 100,000 are trafficked within our 
borders. In addition, legalized indentured servitude exists in several 
countries around the world, notably in Qatar and Bahrain (where the 
United States maintains a naval base). Both human trafficking and 
indentured servitude are clearly antithetical to American values and 
human rights.

   How would you uphold human rights and continue to advance efforts 
        to address trafficking in persons and protection of workers in 
        the global supply chain?

    Answer. Should I be confirmed, I commit to working tirelessly with 
the President-elect, representatives of the National Security Council, 
and other federal agencies to assist in the fight against human 
trafficking through my voice, vote and influence in the United Nations.

Children's Rights
    Question . While 196 states are parties to the U.N. Convention on 
the Rights of the Child, the United States is not, despite having 
helped to draft portions of it and signing it in 1995. The convention 
includes protections such as a ban on the use of child soldiers, the 
rights of children to stay in contact with their families across 
international borders, special rights as refugees, and the rights of 
parents to have a say in determining what is best for their child and 
protecting their child's rights.

   Do you support this convention, and what are your plans to support 
        efforts to defend the rights of children around the world, if 
        you are confirmed as U.N. Ambassador?

    Answer. There are many treaties that have been signed by the United 
States but have not yet received the advice and consent of the Senate--
a procedure in which this committee plays a central role. My 
understanding is that an incoming administration conducts reviews of 
such agreements to determine whether any of them should be prioritized, 
and whether the new administration will support U.S. ratification. At 
this time I don't hold a particular opinion as to the Convention on the 
Rights of the Child, but I look forward to reviewing the agreements 
along with other experts at the State Department if I am confirmed. My 
understanding is that the Convention has never been transmitted to the 
Senate for its advice and consent.

Humanitarian Intervention
    Question . One of the most divisive debates in the U.N. Security 
Council in recent years has been over when the international community 
should act to prevent a government from using violence and committing 
gross human rights violations against its own people. Russia and its 
allies have blocked United Nations Security Council resolutions on 
Syria, and impeded international action in places like Sudan and South 
Sudan. In the absence of effective external action, we have seen 
widespread human rights violations and mass atrocity crimes in these 
places.

   What do you see as the proper role for multilateral action to halt 
        a government from committing mass atrocities against its own 
        people?

   How will you exert U.S. leadership at the U.N. to help prevent 
        genocide and other crimes when committed by a state against 
        people within its borders?

    Answer. As I stated at my hearing, I believe that such serious 
decisions should have broad support among the American people and the 
Congress. If I am confirmed, I will work with the President and the 
National Security Council to develop the appropriate response to these 
issues and will use my position as U.S. Ambassador to forcefully and 
passionately implement them and the U.N.

Global Health
    Question . Antimicrobial resistance is a global problem with far-
reaching implications for global health. Currently, antimicrobial 
resistance is present in every country and resistant strains are 
present in almost every disease of note in the world. Approximately 10 
percent of the 2 billion cases of tuberculosis worldwide are 
extensively drug resistant, meaning they are resistant to at least four 
of the core treatment drugs. There are significant incidences of 
resistance in malaria, HIV, and influenza all around the world. 
Problems surrounding antimicrobial resistance include misuse or over 
prescription of antimicrobials, lack of effective prescription laws, 
and lack of research and development into new antimicrobial therapies.

   How would you work within the United Nations system in order to 
        mitigate or solve the problem of antimicrobial resistance?

    Answer. I agree that is a serious concern. However, I have not been 
fully briefed on the ongoing efforts of the U.S. in this area, so am 
not in a position to judge where current efforts can be improved. If 
confirmed, I will work with our global partners with regard to this 
issue.



                               __________

       Responses to Additional Questions for the Record Submitted
            to Governor Nikki Haley by Senator Jeff Merkley

    Question. The threat of global climate change is an important 
priority for the United Nations with climate change now affecting every 
country. Every country in the world has signed on to the United Nations 
Framework Convention on Climate Change and Paris agreement and most are 
already taking action. Mr. Tillerson last week said that ``we need a 
seat at the table.'' The majority of Americans believe that the U.S. 
should stay in the Paris Agreement and honor its commitment to lead on 
climate. Do you think it is important for the United States not just to 
have a seat at the table but to have an active leadership role in 
addressing climate globally? Do you believe it is important to honor 
our commitments under the Paris Agreement and that reversing course 
would negatively affect U.S. credibility and influence in other 
diplomatic pursuits? What role do you think the United States should 
play in addressing this crisis?

    Answer. If confirmed, I expect that the State Department and other 
departments of the government will conduct a review of the Nationally 
Determined Contribution submitted by the Obama administration as part 
of our review of the Paris Agreement and the U.N. Framework Convention 
on Climate Change to determine whether the NDC and/or the international 
agreements advance U.S. national interests. Both the UNFCCC and Paris 
Agreement were negotiated by different presidential administrations and 
it is the obligation of the incoming administration to make its own 
determination regarding the ongoing viability of those agreements to 
determine whether they advance U.S. national interests.

    Question.  An important element of the Paris Climate Agreement is 
that countries made commitments to help the most vulnerable countries 
in the world adapt to the worst impacts of climate change - such as 
food scarcity, drought, and sea level rise - and help leapfrog to 
cleaner energy technologies. This has been a longstanding bipartisan 
policy of this country, and a universal desire across the world. Do 
think it is advisable to walk away from this policy? Part of the Paris 
Agreement is that much of the funding for this work would be provided 
by the Green Climate Fund. The Green Climate Fund has received 
bipartisan support in Congress, and the Republican Congress even gave 
the State Department explicit authority to contribute to the Green 
Climate Fund, yet President-elect Trump has said he would stop funding 
all United Nations climate funds. A large number of countries have 
contributed to the Green Climate Fund, intend to fulfill their pledges 
to the Green Climate Fund, and expect the United States to not walk 
away from its own pledge. What, in your view, is the advantage of the 
United States fulfilling its pledge to the Green Climate Fund? What are 
the advantages of withdrawing the United States support for the Green 
Climate Fund? Are you concerned about the diplomatic challenges that 
would be created if the United States did not fulfill its pledge to the 
Green Climate Fund? How would you suggest the United States lead in 
combatting climate change and help developing countries avoid the worst 
outcomes?

    Answer. If confirmed, I intend to participate in a review of the 
U.S. role in international climate change matters, including the 
funding of mitigation and adaptation measures through the Green Climate 
Fund and other financial mechanisms.

    Question.  Secretary General Guterres just last week told the U.N. 
Security Council that many of today's conflicts are ``exacerbated by 
climate change,'' and that the U.N. spends ``far more time and 
resources responding to crises rather than preventing them.'' The State 
Department's latest Quadrennial Diplomacy and Development Review 
concluded that ``we are already seeing the negative consequences of 
climate change, which is a national and global security threat.'' 
Recent National Intelligence Council (NIC) reports say that climate 
change ``will have direct and indirect social, economic, political, and 
security effects.'' Another NIC report says climate change is likely to 
pose "wide-ranging national security challenges for the United States 
and other countries over the next 20 years." Do you agree that acting 
now on climate to avoid some of its impacts will improve security and 
reduce global conflicts? How will you support the U.N. and Secretary 
General Guterres's attempts to be more proactive in avoiding climate 
driven conflicts?

    Answer. If confirmed I commit to working with experts at the State 
Department and elsewhere in the government on the issue and helping to 
determine what role the U.S. Mission to the United Nations should play.

    Question. We are already seeing the impacts of climate change on 
the ground around the world. 2016 was the hottest year on record (and 
15 of the 16 warmest years have been since 2000). Some countries have 
already relocated citizens due to climate change, creating the world's 
first climate refugees. Extreme drought in the Middle East and even 
small amounts of sea level rise in parts of Asia are likely to displace 
tens of millions of people, and Western nations have been asked to 
accept some of the displaced people. Do you agree that the rise in 
refugees presents a unique national security threat that requires 
international solutions? What do you view as the role of the U.N. and 
the United States in aiding with climate refugees around the world?

    Answer. If confirmed I commit to engaging experts at the State 
Department and the U.N. on the issues of climate change and refugee 
resettlement. The U.N. plays a significant role in the management of 
refugees on a global basis. If confirmed, the role that climate change 
plays in refugee flows is an issue I look forward to assessing, and 
assisting refugees is a U.S. policy in which I look forward to 
engaging.

    Question.  You have spoken passionately about American values and 
the need to uphold those values at the U.N. Can you explain what you 
mean by ``American Values'' and how you see those values playing out in 
the international arena at the U.N.?
    Answer. The American values that I spoke of at the hearing are 
those embodied in the U.S. Constitution and the Bill of Rights, 
including but not limited to the freedom of speech and the press, the 
right to worship, and other fundamental civil and political rights. 
Such rights are sometimes placed at risk within the U.N. system in 
General Assembly resolutions, resolutions of the Human Rights Council, 
and in other parts of the system. If confirmed I commit to adhering to 
and speaking out for American values at all times.

    Question.  Do you believe it is consistent with those values for an 
American company to skirt US sanctions by creating and using a European 
subsidiary to do business with State Sponsors of Terrorism--Iran, 
Syria, and Sudan?

    Answer. I believe U.S. companies should follow U.S. law. Observance 
of the rule of law is crucial protection for individual liberty.

    Question.  President Obama was derided for his desire to ``reset'' 
relations with Russia when he came into office. In truth, much progress 
was made by our nations while Dmitry Medvedev was President. However, 
President Putin has waged a relentless battle against international 
norms since retaking power in 2012. How do you plan to use your post to 
counter Russia's delegitimizing of the democratic process throughout 
the West by helping fund illiberal parties like France's National 
Front, hacking our allies like Germany to interfere with their 
elections, and hacking our election to help discredit Hillary Clinton?

    Answer. The lessons to learn from the failed Russian ``reset'' is 
that as long as Vladimir Putin is in charge Russia will never be a 
credible partner for the United States. If confirmed I will use my 
position to raise awareness of and increase international pressure on 
Russia's malign influence increasingly prevalent in Western 
democracies.

    Question.  Do you agree that rewarding Russia for their actions by 
rolling back sanctions would not only embolden them, but other nations 
to defy international norms?

    Answer. I agree with the President's policies that at present 
sanctions against Russia should remain in place.

    Question.  Would you support and work with our allies to place 
further sanctions on Russia?

    Answer. I believe that sanctions can be effective as a part of an 
overall strategy to advance U.S. interests and achieve foreign policy 
goals. Should I be confirmed, any recommendations for sanctions would 
be based on observing that principle.

    Question. What do you believe are the appropriate levels of US 
funding for the U.N., for the assessed regular budget, voluntary 
contributions, and assessed peacekeeping budget?

    Answer. Under the current system, fewer than 20 U.N. member states 
pay roughly 80 percent of the U.N. regular and peacekeeping budgets. 
The U.S. by far pays the most. In my opinion, this impedes efforts to 
adopt reforms to use U.N. funds more effectively. If confirmed, I will 
work to spread the scale of assessments more equitably among the member 
states so that even small contributors have a financial interest in 
making sure they oversee efficient use of their contributions, too. I 
will consult within the administration and in Congress as to how to 
achieve this goal and determining what appropriate funding levels 
should be.

    Question. Do you agree with the concerns of many experts that if 
the US were to withhold funding that China would then fill that void? 
Do you have concerns about China's increasingly aggressive influence in 
the U.N. and how the US withholding funding would contribute to that?

    Answer. I am concerned about China's increasingly aggressive 
influence. However, I do not believe that Chinese motivations are 
determined by U.S. contributions to the U.N. They will continue to 
pursue their interests as they see them regardless of U.S. funding. If 
confirmed, I will work to defend and advance U.S. interests in the U.N.
    Question. In many places around the world, including Africa, the 
Middle East and the Former Soviet Union, among others, lesbian, gay, 
bisexual, transgender and queer people are criminalized, arrested, 
tortured and even killed simply because of their sexual orientation or 
gender identity. The U.N. has held hearings, passed resolutions and 
even created a position to help protect the lives of people based on 
their sexual orientation and gender identity. The Obama administration 
has made protecting LGBTQ rights around the world a cornerstone of its 
international policy. This has included working through the U.N. and at 
the U.N. to support LGBTQ individuals. Will you continue the Obama 
administration's legacy on LGBTQ rights?

    Answer. As I stated during my hearing, I strongly believe that the 
U.S. should unabashedly promote American values. If confirmed, I will 
work to advance human rights for everyone.

    Question. Do you agree that the Olympics should only be awarded to 
any country that protects its LGBTQ citizens?

    Answer. Although the International Olympic Committee was granted 
permanent observer status by the U.N. General Assembly, it is not a 
U.N. organization and this question is outside of the responsibilities 
I would have if confirmed.



                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                              ----------                              


         Explanation of Vote at the Adoption of U.N. Security 
      Council Resolution 2334 on the Situation in the Middle East

                        Ambassador Samantha Power, 
                     U.S. Permanent Representative 
                             to the United Nations,
                        U.S. Mission to the United Nations,
                                                      New York, NY.


                                                  December 23, 2016
    Thank you, Mr. President, let me begin with a quote:


        The United States will not support the use of any additional 
        land for the purpose of settlements during the transitional 
        period. Indeed, the immediate adoption of a settlement freeze 
        by Israel, more than any other action, could create the 
        confidence needed for wider participation in these talks. 
        Further settlement activity is in no way necessary for the 
        security of Israel and only diminishes the confidence of the 
        Arabs that a final outcome can be freely and fairly negotiated.


    This was said in 1982 by President Ronald Reagan. He was speaking 
about a new proposal that he was launching to end the Israeli-
Palestinian conflict. While ultimately, of course, President Reagan's 
proposal was not realized, his words are still illuminating in at least 
two respects.
    First, because they underscore the United States' deep and long-
standing commitment to achieving a comprehensive and lasting peace 
between the Israelis and Palestinians. That has been the policy of 
every administration, Republican and Democrat, since before President 
Reagan and all the way through to the present day.
    Second, because President Reagan's words highlight the United 
States' long-standing position that Israeli settlement activity in 
territories occupied in 1967 undermines Israel's security, harms the 
viability of a negotiated two-state outcome, and erodes prospects for 
peace and stability in the region. Today, the Security Council 
reaffirmed its established consensus that settlements have no legal 
validity. The United States has been sending the message that the 
settlements must stop--privately and publicly--for nearly five decades, 
through the administrations of Presidents Lyndon B. Johnson, Richard 
Nixon, Gerald Ford, Jimmy Carter, Ronald Reagan, George H.W. Bush, Bill 
Clinton, George W. Bush, and now Barack Obama. Indeed, since 1967, the 
only president who had not had at least one Israeli-Palestinian-related 
Security Council resolution pass during his tenure is Barack Obama. So 
our vote today is fully in line with the bipartisan history of how 
American Presidents have approached both the issue--and the role of 
this body.
    Given the consistency of this position across U.S. administrations, 
one would think that it would be a routine vote for the U.S. to allow 
the passage of a resolution with the elements in this one, reaffirming 
the long-standing U.S. position on settlements, condemning violence and 
incitement, and calling for the parties to start taking constructive 
steps to reverse current trends on the ground. These are familiar, 
well-articulated components of U.S. policy.
    But in reality this vote for us was not straightforward, because of 
where it is taking place--at the United Nations. For the simple truth 
is that for as long as Israel has been a member of this institution, 
Israel has been treated differently from other nations at the United 
Nations. And not only in decades past--such as in the infamous 
resolution that the General Assembly adopted in 1975, with the support 
of the majority of Member States, officially determining that, 
``Zionism is a form of racism''--but also in 2016, this year. One need 
only look at the 18 resolutions against Israel adopted during the U.N. 
General Assembly in September; or the five Israel-specific resolutions 
adopted this year in the Human Rights Council--more than those focused 
on any other specific country, such as Syria, North Korea, Iran, or 
South Sudan--to see that in 2016 Israel continues to be treated 
differently from other member states.
    Like U.S. administrations before it, the Obama administration has 
worked tirelessly to fight for Israel's right simply to be treated just 
like any other country--from advocating for Israel to finally be 
granted membership to a U.N. regional body, something no other U.N. 
Member State had been denied; to fighting to ensure that Israeli NGOs 
are not denied U.N. accreditation, simply because they are Israeli, to 
getting Yom Kippur finally recognized as a U.N. holiday; to pressing 
this Council to break its indefensible silence in response to terrorist 
attacks on Israelis. As the United States has said repeatedly, such 
unequal treatment not only hurts Israel, it undermines the legitimacy 
of the United Nations itself.
    The practice of treating Israel differently at the U.N. matters for 
votes like this one. For even if one believes that the resolution 
proposed today is justified--or, even more, necessitated--by events on 
the ground, one cannot completely separate the vote from the venue.
    And Member States that say they are for the two-state solution must 
ask themselves some difficult questions. For those states that are 
quick to promote resolutions condemning Israel, but refuse to recognize 
when innocent Israelis are the victims of terrorism--what steps will 
you take to stop treating Israel differently? For those states that 
passionately denounce the closures of crossings in Gaza as exacerbating 
the humanitarian situation, but saying nothing of the resources 
diverted from helping Gaza's residents to dig tunnels into Israeli 
territory so that terrorists can attack Israelis in their homes--what 
will you do to end the double-standard that undermines the legitimacy 
of this institution?
    Member States should also ask themselves about the double standards 
when it comes to this Council taking action. Just this morning we came 
together, as a Council, and we were unable to muster the will to act to 
stop the flow of weapons going to killers in South Sudan, who are 
perpetrating mass atrocities that the U.N. has said could lead to 
genocide. We couldn't come together just to stem the flow of arms. 
Earlier this month, this Council could not muster the will to adopt the 
simplest of resolutions calling for a seven-day pause in the savage 
bombardment of innocent civilians, hospitals, and schools in Aleppo. 
Yet when a resolution on Israel comes before this Council, members 
suddenly summon the will to act.
    It is because this forum too often continues to be biased against 
Israel; because there are important issues that are not sufficiently 
addressed in this resolution; and because the United States does not 
agree with every word in this text, that the United States did not vote 
in favor of the resolution. But it is because this resolution reflects 
the facts on the ground--and is consistent with U.S. policy across 
Republican and Democratic administration throughout the history of the 
State of Israel--that the United States did not veto it.
    The United States has consistently said we would block any 
resolution that we thought would undermine Israel's security or seek to 
impose a resolution to the conflict. We would not have let this 
resolution pass had it not also addressed counterproductive actions by 
the Palestinians such as terrorism and incitement to violence, which 
we've repeatedly condemned and repeatedly raised with the Palestinian 
leadership, and which, of course, must be stopped.
    Unlike some on the U.N. Security Council, we do not believe that 
outside parties can impose a solution that has not been negotiated by 
the two parties. Nor can we unilaterally recognize a future Palestinian 
state. But it is precisely our commitment to Israel's security that 
makes the United States believe that we cannot stand in the way of this 
resolution as we seek to preserve a chance of attaining our long-
standing objective: two states living side-by-side in peace and 
security. Let me briefly explain why.
    The settlement problem has gotten so much worse that it is now 
putting at risk the very viability of that two-state solution. The 
number of settlers in the roughly 150 authorized Israeli settlements 
east of the 1967 lines has increased dramatically. Since the 1993 
signing of the Oslo Accords--which launched efforts that made a 
comprehensive and lasting peace possible--the number of settlers has 
increased by 355,000. The total settler population in the West Bank and 
East Jerusalem now exceeds 590,000. Nearly 90,000 settlers are living 
east of the separation barrier that was created by Israel itself. And 
just since July 2016--when the Middle East Quartet issued a report 
highlighting international concern about a systematic process of land 
seizures, settlement expansions, and legalizations--Israel has advanced 
plans for more than 2,600 new settlement units. Yet rather than 
dismantling these and other settler outposts, which are illegal even 
under Israeli law, now there is new legislation advancing in the 
Israeli Knesset that would legalize most of the outposts--a factor that 
propelled the decision by this resolution's sponsors to bring it before 
the Council.
    The Israeli Prime Minister recently described his government as 
``more committed to settlements than any in Israel's history,'' and one 
of his leading coalition partners recently declared that ``the era of 
the two-state solution is over.'' At the same time, the Prime Minister 
has said that he is still committed to pursuing a two-state solution. 
But these statements are irreconcilable. One cannot simultaneously 
champion expanding Israeli settlements and champion a viable two-state 
solution that would end the conflict. One has to make a choice between 
settlements and separation.
    In 2011, the United States vetoed a resolution that focused 
exclusively on settlements, as if settlements were they only factor 
harming the prospects of a two-state solution. The circumstances have 
changed dramatically. Since 2011, settlement growth has only 
accelerated. Since 2011, multiple efforts to pursue peace through 
negotiations have failed. And since 2011, President Obama and Secretary 
Kerry have repeatedly warned--publically and privately--that the 
absence of progress toward peace and continued settlement expansion was 
going to put the two-state solution at risk, and threaten Israel's 
stated objective to remain both a Jewish State and a democracy. 
Moreover, unlike in 2011, this resolution condemns violence, terrorism 
and incitement, which also poses an extremely grave risk to the two-
state solution. This resolution reflects trends that will permanently 
destroy the hope of a two-state solution if they continue on their 
current course.
    The United States has not taken the step of voting in support of 
this resolution because the resolution is too narrowly focused on 
settlements, when we all know--or we all should know--that many other 
factors contribute significantly to the tensions that perpetuate this 
conflict. Let us be clear: even if every single settlement were to be 
dismantled tomorrow, peace still would not be attainable without both 
sides acknowledging uncomfortable truths and making difficult choices. 
That is an indisputable fact. Yet it is one that is too often 
overlooked by members of the United Nations and by members of this 
Council.
    For Palestinian leaders, that means recognizing the obvious: that 
in addition to taking innocent lives--the incitement to violence, the 
glorification of terrorists, and the growth of violent extremism erodes 
prospects for peace, as this resolution makes crystal clear. The most 
recent wave of Palestinian violence has seen terrorists commit hundreds 
of attacks--including driving cars into crowds of innocent civilians 
and stabbing mothers in front of their children. Yet rather than 
condemn these attacks, Hamas, other radical factions, and even certain 
members of Fatah have held up the terrorists as heroes, and used social 
media to incite others to follow in their murderous footsteps. And 
while President Abbas and his party's leaders have made clear their 
opposition to violence, terrorism, and extremism, they have too often 
failed to condemn specific attacks or condemn the praised heaped upon 
the perpetrators.
    Our vote today does not in any way diminish the United States' 
steadfast and unparalleled commitment to the security of Israel, the 
only democracy in the Middle East. We would not have let this 
resolution pass had it not also addressed counterproductive actions by 
Palestinians. We have to recognize that Israel faces very serious 
threats in a very tough neighborhood. Israelis are rightfully concerned 
about making sure there is not a new terrorist haven next door. 
President Obama and this administration have shown an unprecedented 
commitment to Israel's security because that is what we believe in.
    Our commitment to that security has never wavered, and it never 
will. Even with a financial crisis and budget deficits, we've 
repeatedly increased funding to support Israel's military. And in 
September, the Obama administration signed a Memorandum of 
Understanding to provide $38 billion in security assistance to Israel 
over the next 10 years--the largest single pledge of military 
assistance in U.S. history to any country. And as the Israeli Prime 
Minister himself has noted, our military and intelligence cooperation 
is unprecedented. We believe, though, that continued settlement 
building seriously undermines Israel's security.
    Some may cast the U.S. vote as a sign that we have finally given up 
on a two-state solution. Nothing could be further from the truth. None 
of us can give up on a two-state solution. We continue to believe that 
that solution is the only viable path to provide peace and security for 
the state of Israel, and freedom and dignity for the Palestinian 
people. And we continue to believe that the parties can still pursue 
this path, if both sides are honest about the choices, and have the 
courage to take steps that will be politically difficult. While we can 
encourage them, it is ultimately up to the parties to choose this path, 
as it always has been. We sincerely hope that they will begin making 
these choices before it is too late.
    I thank you.



                               __________

   U.S. Permanent Representative to the United Nations Susan Powers, 
         Speaking Before the Atlantic Council, January 17, 2017

    Russia: The Threat, the International Order, and the Way Forward

    Thank you so much. Thank you. I have had the privilege of serving 
in the Obama administration for eight years: first in the White House 
and for the last three and a half years as the U.S. Ambassador to the 
United Nations. I have never had a more meaningful job. And now I have 
just three days left.
    This is my last major speech as a member of this administration. 
And much as I would have liked to use it to urge young people to go 
into public service or to make the pragmatic case for strengthening the 
United Nations, I feel that the circumstances require me to focus on a 
much more immediate subject, a major threat facing our great nation: 
Russia.
    Before getting to the core threat posed by Russia, I want to stress 
from the bottom of my heart that some of the most rewarding and 
impactful work I have done at the United Nations has come in the times 
when my Russian counterpart and I have been able to cooperate. Back in 
2013, together we negotiated a resolution to get the most dangerous 
chemical weapons out of Syria. Russia, as you all recall, was a key 
pillar in imposing sanctions on Iran for its illicit nuclear program--
sanctions that were essential in bringing Iran to the table, so that we 
could forge an agreement that cut off Iran's pathways to a nuclear 
bomb. And Russia worked really constructively with the rest of the 
Security Council to select the best candidate for a new U.N. Secretary-
General, a leader with tremendous experience and vision.
    While people tend to look to the Cold War as the paradigm for 
understanding the nature of U.S.--Russia relations, the reality is that 
for pivotal parts of our shared history, U.S. and Russian interests 
have frequently aligned. We fought together in both of the 20th 
century's world wars. Indeed, had it not been for the colossal 
sacrifices made by the Soviet Union in World War II, in which they lost 
more than 20 million people--many times more than any other nation, 
friend or foe--the war would have dragged on for much longer, millions 
more Americans and people of other allied countries would have lost 
their lives, and fascism might well have prevailed in large parts of 
the world, not to mention that the post-World War II order may never 
have been built. Russia's immense contribution in that war is part of 
their proud history of standing up to imperialist powers, from the 
Mongols in the 16th century to Napoleon in the 19th century. In 
addition, many of the challenges that Russia faces today, from violent 
extremism and China's territorial expansionist aims, to national 
industries and jobs that have been rendered obsolete by globalization, 
are ones we also face here in the United States. So--let me say from 
the outset--it is very much in our interest to try to solve problems 
with Russia. Dialogue between us is absolutely imperative.
    Having said that, anyone who has seen my debates in the U.N. 
Security Council with Russia knows that I and my government have long 
had serious concerns about the Russian government's aggressive and 
destabilizing actions. The argument I want to make today goes beyond 
any particular action Russia has taken to its broader strategy and what 
that means for the security of the United States and the American 
people.
    Today, I will set out how the Russian government under President 
Putin is taking steps that are weakening the rules-based order that we 
have benefitted from for seven decades. Our values, our security, our 
prosperity, and our very way of life are tied to this order. And we--
and by ``we,'' I mean the United States and our closest partners--must 
come together to prevent Russia from succeeding in weakening that 
order. This means better understanding and educating our public about 
how Russia is challenging this order. This means reaffirming our 
commitment to the rules and institutions that have long undergirded 
this order, as well as developing new tools to counter the tactics that 
Russia is using to undermine it. And this means addressing the 
vulnerabilities within our democracy that Russia's attacks have exposed 
and have exacerbated. To do this, we cannot let Russia divide us. If we 
confront this threat together, we will adapt and strengthen the order 
on which our interests depend.
    Now, terms like ``international order'' can seem quite abstract. So 
let me be very concrete about what is threatened by Russia's actions. 
The order enshrined in the U.N. Charter and other key international 
agreements in the aftermath of the Second World War was built on the 
understanding that all of our nations would be more secure if we bound 
ourselves to a set of rules. These included the rules that the borders 
between sovereign states should be respected; that, even in times of 
war, some weapons and some tactics should never be used; that while 
forms of government might vary from one nation to another, certain 
human rights were inalienable and necessary to check state power; and 
that the nations that break these rules should be held accountable.
    Now, as we all know, a lot has changed in the seven decades since 
that order was created. When the United Nations was founded, there were 
just 51 Member States, a fraction of today's 193; some great 
contemporary powers were not yet independent nations; and many 
countries that did exist did not have a say, much less an equal voice, 
in developing its rules. In addition, some of the threats that we face 
today, such as violent terrorist groups and cyber-attacks, would have 
been unimaginable to the architects of that system. So there are many 
reasons why the rules--based order conceived in 1945 is not perfectly 
tailored to the challenges that we as an international community face 
in 2017. And it is reasonable to think that we need to update those 
rules with more voices at the table, some of which we will not agree 
with. Yet, evolve as the system may, the vast majority of countries 
today recognize that we all benefit from having rules of the road that 
constrain certain kinds of behavior to enhance our shared security, 
rules that must not be rewritten by force.
    Now, I also acknowledge that there are times when actions the 
United States takes in the interest of defending our security and that 
of our allies can be seen by other nations as offensive moves that 
threaten their security, and we need to be alert to this, which is why 
dialogue is so very important. And some may argue--not unreasonably--
that our government has not always lived up to the rules that we 
invoke. As President Obama made clear when he entered office, while the 
United States strives to lead by example, there are still times when we 
have fallen short. Yet, under President Obama's leadership, we have 
shown our commitment to investing in and abiding by the rules-based 
international order. The same cannot be said for the Russian government 
today.
    For years, we have seen Russia take one aggressive and 
destabilizing action after another. We saw it in March 2014, not long 
after mass peaceful protests in Ukraine brought to power a government 
that favored closer ties with Europe, when Russia dispatched its 
soldiers to the Ukrainian peninsula of Crimea. The ``little green 
men,'' as they came to be called, for Russia denied any ties to any of 
them, rammed through a referendum at the barrel of a gun, which Mr. 
Putin then used to justify his sham attempted annexation of Crimea.
    We saw it months later in eastern Ukraine, where Russia armed, 
trained, and fought alongside separatists. Again Russia denied any role 
in the conflict it manufactured, again flouting the international 
obligation to respect the territorial integrity of its neighbor.
    We saw it also in Russia's support for Bashar al-Assad's brutal war 
in Syria--support it maintained even as the Assad regime blocked food 
and medicine from reaching civilians in opposition-held areas, 
civilians who were so desperate that they had resorted to eating 
leaves, even as photographs emerged of countless prisoners who had been 
tortured to death in Assad's prisons, their bodies tagged with serial 
numbers, even as the Assad regime repeatedly used chemical weapons to 
kill its own people.
    We saw it in 2015, when Russia went further by joining the assault 
on the Syrian people, deploying its own troops and planes in a campaign 
that hit hospitals, schools, and the brave Syrian first responders who 
were trying to dig innocent civilians out of the rubble. And with each 
transgression, not only were more innocent civilians killed, maimed, 
starved, and uprooted, but the rules that make all of our nations more 
secure--including Russia--those rules were eroded.
    We saw it in Russia's effort to undercut the credibility of 
international institutions like the United Nations. For example, in an 
emergency U.N. Security Council meeting last month, then--Secretary-
General Ban Ki-Moon told the Member States that the Assad regime forces 
and Iranian militia were reportedly disappearing men as those forces 
took parts of eastern Aleppo. In response, the representative of 
Russia, which was providing air cover for the offensive, not only 
claimed that Russian investigations had uncovered ``not a single report 
of ill treatment or violation of international humanitarian law against 
civilians of eastern Aleppo,'' but also accused the Secretary-General 
of basing his information on fake news. Minutes later, Syria's 
representative to the U.N. echoed Russia's line, holding up as proof 
what he claimed was a photograph of a Syrian government soldier helping 
an elderly woman. The only problem was that the photo was taken six 
months earlier, in June 2016, in Fallujah, Iraq.
    In this same period, we also saw Russia's systematic efforts to sow 
doubt and division in democracies and to drive a wedge between the 
United States and our closest allies. Russia has done this by 
supporting illiberal parties, like France's National Front, which has a 
xenophobic, anti-Muslim platform. When the National Front was having 
trouble raising funds for its 2014 campaign, a Russian bank with ties 
to the Kremlin stepped in to loan the party more than $11 million. 
While that may not seem like a very large amount compared to the 
budgets of U.S. national campaigns, it was roughly a third of what the 
party was aiming to raise, and the National Front made significant 
gains in that election. With national elections coming up in France 
this year, the National Front has said that it is looking again to 
Russian financing for help. Little surprise that the party's leader has 
repeatedly attempted to legitimize Russia's attempted land--grab of 
Crimea.
    Russia has also used hacking to sow distrust in the democratic 
processes of some of our closest allies and undermine the policies of 
their governments. Consider the case of Germany. According to German 
intelligence agencies, groups linked to the Russian government carried 
out a massive May 2015 attack targeting the German parliament, energy 
companies, telecoms, and even universities. And just last month, 
Germany's domestic intelligence agency reported an alarming spike in 
what it called ``aggressive and increased cyber spying and cyber 
operations that could potentially endanger German government officials, 
members of Parliament, and employees of democratic parties.'' The 
agency attributed this to Russian hackers. The head of Germany's 
foreign intelligence service said the perpetrators' aim is 
``delegitimizing the democratic process.''
    In other instances, Russia's interference in democratically elected 
governments has been far more direct. Late last year, officials in 
Montenegro said that they uncovered a plot to violently disrupt the 
country's elections, topple the government, install a new 
administration loyal to Moscow, and perhaps even assassinate the prime 
minister. Montenegro's prime minister had been pushing for the country 
to join NATO, a move that Russia openly opposed. The plotters 
reportedly told investigators that they had been funded and equipped by 
Russian officials, who had also helped plan the attack.
    It is in this context that one must view the Russian government's 
latest efforts to interfere in America's democracy. As our intelligence 
community found and as you are now familiar, we know that the Russian 
government sought to interfere in our presidential election with the 
goals of undermining public faith in the U.S. democratic process, 
denigrating one candidate, and helping the other candidate. Our 
intelligence agencies assess that the campaign was ordered by President 
Putin and implemented by a combination of Russian government agencies, 
state-funded media, third-party intermediaries, and government-paid 
trolls. We know that, in addition to hacking the Democratic National 
Committee and senior Democratic Party officials, Russia also hacked 
U.S. think tanks and lobbying groups. And we know that Russia hacked 
elements of multiple state and local electoral boards, although our 
intelligence community's assessment is that Russia did not compromise 
vote tallies. But think for just a moment about what that means: Russia 
not only tried to influence our election but to access the very systems 
by which we vote.
    At first glance, these interventions by Russia in different parts 
of the world can appear unrelated. That is because the common thread 
running through each of them cannot be found in anything that Russia is 
for. The common thread can be found only in what Russia is against--not 
in the rules that it follows but in the rules that it breaks. Russia's 
actions are not standing up a new world order. They are tearing down 
the one that exists. And this is what we are fighting against. Having 
defeated the forces of fascism and communism, we now confront the 
forces of authoritarianism and nihilism.
    There are multiple theories as to why the Russian government would 
undermine a system that it played a crucial role in helping build and 
that has fostered unparalleled advances in human liberty and 
development. Perhaps, as some speculate, it is to distract the Russian 
people from the rampant corruption that has consumed so much of the 
wealth produced by the nation's oil and gas, preventing it from 
benefiting average citizens. Perhaps it is because our rules-based 
order rests on principles, such as accountability and the rule of law, 
that are at odds with Russia's style of governing. Perhaps it is to 
regain a sense of its past glory or to get back at the countries that 
it blames for the breakup of the Soviet Union, which President Putin 
has called the ``greatest geopolitical catastrophe of the 20th 
century.''
    It is not my aim here to theorize about which, if any, of these 
motives lie behind the Russian government's actions, which not only 
threaten our democracy but the entire order upon which our security and 
our prosperity depends. It is instead to ask: what are we going to do 
to address this threat?
    First, we must continue to work in a bipartisan fashion to 
determine the full extent of Russia's interference in our recent 
elections, identify the vulnerabilities of our democratic system, and 
come up with targeted recommendations for preventing future attacks. 
The congressional hearings initiated last week, the bipartisan inquiry 
announced on January 13th by the Senate Select Committee on 
Intelligence, the Joint Analysis Report on Russian Malicious Cyber 
Activity and Harassment, and the Joint Intelligence Report prepared at 
the request of President Obama are all important steps toward achieving 
these crucial objectives.
    The purpose of such efforts is not to challenge the outcome of any 
races in our recent election. The purpose is to identify the gaps in 
our defenses that Russia exploited, as well as other gaps that may not 
have been seized upon in this attack but that Russia or others could 
take advantage of in the future. And the purpose is to determine the 
steps needed to close such gaps and strengthen the resilience of our 
system because it would be deeply naive and deeply negligent to think 
that those who have discovered vulnerabilities in our system would not 
try to exploit them again and again--and not just Russia but all of the 
governments and non-state actors who see undermining our democracy as a 
way of advancing their interests. Indeed, it already has happened 
repeatedly. As we know, there were also hacks in our presidential 
elections in 2008 and in 2012.
    That these efforts be bipartisan is absolutely essential. Allowing 
politics to get in the way of determining the full extent of Russia's 
meddling and how best to protect our democracy would undermine our core 
national security interests. It is healthy for our parties in our 
political system to debate issues such as how to expand our middle 
class or what role our nation should play in the wider world. What is 
not healthy is for a party or its leaders to cast doubt on a unanimous, 
well-documented assessment of our intelligence community that a foreign 
government is seeking to harm our country.
    Second, we have to do a better job of informing our citizens about 
the seriousness of the threat the Russian government poses. Here too, 
our unity is crucial. When we send conflicting messages about a threat 
Russia poses, it sends a mixed message to the American people. A recent 
poll found that 37 percent of Republicans hold a favorable view of 
President Putin, up from just 10 percent in July 2014. That is an 
alarmingly high proportion for a leader that has had journalists, human 
rights activists, and opposition politicians murdered, for one who has 
ridiculed our constitutional safeguards, and tried to tip the scales in 
our elections. I know that some have said that this focus on Russia 
that we are bringing is simply the party that lost the recent 
presidential election being ``sore losers,'' but it should worry every 
American that a foreign government interfered in our democratic 
process. It's not about the leader we choose--it's about who gets to 
choose--who gets to choose our leader. That privilege should belong 
only to Americans.
    We must also forcefully reject the false equivalency between the 
work that the U.S. government and the Russian government are doing in 
other countries. There is a world of difference between supporting free 
and fair elections, and investing in independent institutions that 
advance human rights, accountability, and transparency, as we do; and, 
on the other hand, trying to sow distrust in democratic processes, 
misinform citizens, and swing elections toward illiberal parties, as
    Russia is doing.
    Third, we must reassure our allies that we have their backs, and we 
must ensure that Russia pays a price for breaking the rules.
    That means maintaining our robust support for NATO and making clear 
our nation's steadfast commitment to treat an attack on any NATO member 
as an attack on us all. We expect all of our NATO allies to do their 
part in keeping the Alliance strong, which includes meeting the pledge 
made in 2014 to spend at least two percent of their GDP on defense--a 
commitment that we in the Obama administration have pushed relentlessly 
for them to fulfill. We also need to increase cooperation and 
intelligence sharing to deter, detect, and defend against the next 
generation of hacks and cyber threats, particularly as France, Germany, 
and the Netherlands look forward to national elections this year.
    That also means maintaining the sanctions placed on Russia, 
including those imposed by President Obama in response to Russia's 
meddling in our election. Now, some have argued that the most effective 
way to get Russia to start playing by the rules that undergird the 
international order is actually by easing sanctions. If only we reduce 
the pressure, they claim, Russia will stop lashing out against the 
international order. But they have it backwards: easing punitive 
measures on the Russian government when they haven't changed their 
behavior will only embolden Russia, sending the message that the best 
way to gain international acceptance of its destabilizing actions is 
simply to wait us out. And that will not only encourage more dangerous 
actions by Russia, but also by other rule-breakers like Iran and North 
Korea, which are constantly testing how far they can move the line 
without triggering a response.
    Similarly flawed is the argument that the United States should put 
recent transgressions aside and announce another reset with Russia. 
Yes, the Obama administration tried this approach in our first term. 
But 2017 is not 2009. In 2009, Dimitri Medvedev was president of 
Russia, and we were able to find common ground on issues such as 
counterterrorism, arms control, and the war in Afghanistan. More 
important, in 2009, Russia was not occupying Crimea, fueling an ongoing 
conflict in eastern Ukraine, and bombing hospitals and first responders 
in Syria. Nor, most importantly, had Russia interfered directly in the 
U.S. election.
    Yet it would be a mistake to think that all we need to do to defend 
ourselves and our allies against the threat Russia poses is to rely on 
the same tools we have been using; that if we just close the gaps in 
our defenses, inform our public, maintain or even ratchet up sanctions, 
shore up NATO, we do all that, it would be a mistake to believe that we 
will be able to protect the rules-based order. We have to do more, 
because Russia has an edge in one respect. It turns out is easier to 
break institutions down than to build them up. It is easier to sow 
skepticism than to earn 8 people's trust. Making up fake news--ask the 
reporters here today--is a lot easier than reporting the facts required 
for real news. Put simply, in international affairs in 2017, it is 
often easier to be bad than good.
    Let me give just one example. On September 16th, 2016, as you might 
remember, a humanitarian convoy of the Arab Red Crescent was bombed in 
the Syrian city of Urem al-Kubra, killing at least 10 civilians, and 
destroying 18 trucks filled with food and medicine intended for 
desperate Syrian civilians. Because the strikes were carried out in a 
region where only the Assad regime and its Russian allies were flying, 
the attack was widely reported as likely being carried out by the 
regime or Russian forces. Yet rather than accept any responsibility, 
rather than even try to get to the bottom of what had happened, the 
Russian government did what it always does in the face of atrocities 
with which it is associated: deny and lie.
    Russia's Ministry of Defense initially said no airstrikes had been 
carried out in the area by Russian or Syrian planes, and that its 
expert analysis of video footage of the strike showed that the aid 
convoy had been destroyed by a fire. Then President Putin's press 
secretary said that terrorists had been firing rockets nearby, 
suggesting they were the ones who had struck the convoy. Then Russia 
claimed that a U.S. drone had been detected above the convoy just 
minutes before it was struck, contradicting its initial assessment that 
the convoy had not been hit from the air. Two days. Three stories. All 
false.
    Yet Russia's willingness to lie turned reporting on the attack into 
an ``on the one hand, on the other hand'' story, even in respected 
outlets like the New York Times, the BBC, and CNN. And Russian 
government-controlled networks like RT played a critical role in this 
effort, rapidly disseminating those lies while questioning the accounts 
of witnesses. As RT's own editor once said, ``Not having our own 
foreign broadcasting is the same as not having a Ministry of Defense. 
When there is no war, it looks like we don't need it. However, when 
there is a war, it is critical.'' In other words, lying is a strategic 
asset. It didn't matter whether Russia's accounts were accurate or even 
consistent; all that matters was that Russia injected enough 
counterclaims into the news cycle to call into question who was 
responsible. By the time the U.N. issued a report on the incident more 
than three months later, concluding that the convoy had been struck by 
an airstrike that could only have been carried out by the Assad regime 
or Russia, the finding and Russia's cover-up received almost no 
attention. Deny and lie.
    At times, it can start to feel that the only way to outmaneuver an 
adversary unbounded by the truth is to beat them at their own game. But 
that would be deeply misguided. If we try to meet the Russian 
government in its upside-down land--where right is left and black is 
white--we will have helped them achieve their goal, which is creating a 
world where all truth is relative, and where trust in the integrity of 
our democratic system is lost.
    We don't need to gin up our own propaganda networks, bankroll our 
own army of trolls, and inundate social media platforms with even more 
fake news targeting our adversaries. We have to fight misinformation 
with information. Fiction with facts. But documenting and spreading 
facts, just like manufacturing fake news, takes resources. A report by 
the UK parliament found that the Russian government spent between $600 
million and $1 billion a year on propaganda arms like RT. So we need to 
be spending at least as much--and arguably much more--on training and 
equipping independent reporters, protecting journalists who are under 
attack, and finding ways to get around the censors and firewalls that 
repressive governments use to block their citizens from getting access 
to critical voices.
    This brings me to the fourth and final way to address the threat 
Russia poses to the rules-based international order: we must continue 
to seek ways to engage directly with the Russian people and, coming 
back to where I started, with the Russian government.
    It can be easy to forget that virtually all the tactics the Russian 
government is using to undermine democracy abroad are ones that they 
fine-tuned at home, on the Russian people, to devastating effect. After 
all, when Russian soldiers are killed fighting in a conflict in eastern 
Ukraine that their government denies it has any role in, it is Russian 
mothers, widows, and orphans who are denied the benefits and 
recognition they deserve as the family members of slain soldiers. The 
mafias that the Russian government uses to sow corruption abroad profit 
most off the backs of the Russian people. And it is Russian journalists 
and human rights defenders who have been harassed, beaten, and even 
killed for uncovering their government's abuses.
    So we must be careful to distinguish between the Russian government 
and the Russian people. We cannot let America's relationship with a 
nation of more than 140 million people--people who have made remarkable 
contributions to the world, who have a proud, rich history and culture, 
and whom we fervently wish to see prosper--be defined solely by the 
nefarious actions of a tiny subset in their government. And yet we have 
less contact with ordinary Russians today than at any time in decades. 
This is no accident; in the past few years, the Russian government has 
closed 28 U.S. government-funded ``American Corners,'' which offered 
free libraries, language training, and events about American culture to 
Russian citizens, and has shuttered the American Center in Moscow, 
which hosted more than 50,000 Russian visitors per year. It has also 
expelled U.S. government-supported and independent non-profits, such as 
the National Endowment for Democracy and the Open Society Foundation, 
which had spent decades fostering civil society and the rule of law in 
Russia. As the Kremlin closes off these outlets for reaching the 
Russian people, we must find others to take their place.
    We also cannot give up engaging with the Russian government. We 
should do this in part because collaborating on issues of shared 
interest will allow us to show, not just tell, what we know to be 
true--that our nations have a lot more to gain by working to build up a 
system of shared rules and principles than tear it down; and, in part, 
because by working together, we may be able to rebuild the respect and 
the trust needed to tackle unprecedented global threats that we face 
today--many of which cannot be solved without one another's help.
    Let me conclude. In 1796, our nation's first President, George 
Washington, used his farewell address to issue a stark warning to the 
American people about the danger of foreign governments trying to 
interfere in our democracy. He told his audience: ``Against the 
insidious wiles of foreign influence (I conjure you to believe me, 
fellow-citizens), the jealousy of a free people ought to be constantly 
awake, since history and experience prove that foreign influence is one 
of the most baneful foes of republican government.''
    More than 220 years later, Washington's warning feels strikingly 
relevant. For if anything, the vulnerabilities that Washington saw, in 
his words, ``to tamper with domestic factions, to practice the arts of 
seduction, to mislead public opinion, to influence or awe the public 
councils''--those are his words--those have only multiplied with modern 
technology. And unlike in 1796, it is no longer enough for us simply to 
protect our own democracy against foreign interference; we also have to 
protect the integrity of the entire rules-based international order, on 
whose foundations our security and our prosperity rest.
    Yet while so much has changed since Washington issued his warning, 
the essence of the threat has not. It goes to the creation of America 
itself--a nation born out of a simple, yet revolutionary idea: that it 
was the American people, ordinary citizens--and not a government, 
domestic or foreign--who should enjoy the rights to shape our nation's 
path. That is a right that we have had to fight to defend throughout 
our history. And while in recent decades we may have felt confident 
that no power would dare try to take that right away from us, we have 
again been reminded that they will try.
    Just as the threat is fundamentally unchanged since Washington's 
time, so is our most effective way to confront it. And that is by 
renewing the faith of the American people in our democracy. Our 
democracy's vitality has long depended on sustaining the belief among 
our citizens that a government by and for the people is the best way to 
keep ourselves and our loved ones safe, to preserve the freedoms we 
value most, and to expand our opportunities. It is not that we have a 
perfect system, but a perfectible system--one that the American people 
always have the power to improve, to renew, to make our own. That faith 
is the engine that has powered our republic since its creation, and it 
is the reason other nations still look to America as a model.
    And it is precisely that faith that the Russian government's 
interference is intended to shake. The Kremlin's aim is to convince our 
people that the system is rigged; that all facts are relative; that 
ordinary people who try to improve their communities and their country 
are wasting their time. In the place of faith, they offer cynicism. In 
the place of engagement, indifference.
    But the truth is that the Russian government's efforts to cast 
doubt on the integrity of our democracy would not have been so 
effective if some of those doubts had not already been felt by many 
Americans, by citizens who are asking whether our system still offers a 
way to fix the everyday problems they face, and whether our society 
still gives them reason to hope that they can improve their lives for 
the better. In this way--and we need to reckon with this--the attack 
has cast a light on a growing sense of divisiveness, distrust, and 
disillusionment. But we know here in America not only what we are 
against, we know what we are for. So just as we are clear-eyed about 
the threat that Russia poses from the outside, and unified in 
confronting it, we must also dedicate ourselves to restoring citizens' 
faith in our democracy on the inside, which always has been the source 
of America's strength, and always will be our best defense against any 
foreign power that tries to do us harm.
    I thank you.

                               __________




                   The Screening Process for Refugee 
                    Entry Into the United States\1\
---------------------------------------------------------------------------

    \1\ https://obamawhitehouse.archives.gov/blog/2015/11/20/
infographic-screening-process-refugee-entry-united-states. [Editor's 
note: In its original form the ``infographic'' version of this 
information was not compatible with the GPO's hearing format; the 
information was converted into a text document.]
---------------------------------------------------------------------------



          Many Refugee Applicants Identify Themselves to the 
                U.N. Refugee Agency, UNHCR. UNHCR, Then:

  <diamond> Collects identifying documents

  <diamond> Performs initial assessment

          Collects biodata: name, address, birthday, place of 
        birth, etc.

          Collects biometrics: iris scans (for Syrians, and 
        other refugee populations in the Middle East)

  <diamond> Interviews applicants to confirm refugee status and 
        the need for resettlement

          Initial information checked again





        Only applicants who are strong candidates for 
        resettlement move forward (less than 1% of global 
        refugee population).



  Applicants are Received by a Federally-Funded Resettlement Support 
                             Center (RSC):

  <diamond> Collects identifying documents

  <diamond> Creates an applicant file

  <diamond> Compiles information to conduct biographic security 
        checks



        Refugees are subject to the highest level of security 
        checks of any category of traveler to the United 
        States.



  Biographic Security Checks Start with Enhanced Interagency Security 
                                Checks:

  <diamond> U.S. security agencies screen the candidate, 
        including:

          National Counterterrorism Center/Intelligence 
        Community

          FBI

          Department of Homeland Security

          State Department

  <diamond> The screening looks for indicators, like:

          Information that the individual is a security risk

          Connections to known bad actors

          Outstanding warrants/immigration or criminal 
        violations

  <diamond> DHS conducts an enhanced review of Syrian cases, 
        which may be referred to USCIS Fraud Detection and 
        National Security Directorate for review. Research that 
        is used by the interviewing officer informs lines of 
        question related to the applicant's eligibility and 
        credibility.




        This process is repeated any time new information is 
        provided, such as a previously used name or different 
        phone number. Otherwise the process continues.



         Department of Homeland Security (DHS)/USCIS Interview:

  <diamond> Interviews are conducted by USCIS Officers 
        specially trained for interviews

          Fingerprints are collected and submitted (biometric 
        check)




        Re-interviews can be conducted if fingerprint results 
        or new information raises questions. If new biographic 
        information is identified by USCIS at an interview, 
        additional security checks on the information are 
        conducted. USCIS may place a case on hold to do 
        additional research or investigation. Otherwise, the 
        process continues.



                       Biometric Security Checks:

  <diamond> Applicant's fingerprints are taken by U.S. 
        government employees

          Fingerprints are screened against the FBI's biometric 
        database.

          Fingerprints are screened against the DHS biometric 
        database, containing watch-list information and 
        previous immigration encounters in the U.S. and 
        overseas.

          Fingerprints are screened against the U.S. Department 
        of Defense biometric database, which includes 
        fingerprint records captured in Iraq and other 
        locations.




        If not already halted, this is the end point for cases 
        with security concerns. Otherwise, the process 
        continues.



                             Medical Check:

  <diamond> The need for medical screening is determined.



        This is the end point for cases denied due to medical 
        reasons. Refugees may be provided medical treatment for 
        communicable diseases such as tuberculosis.



Cultural Orientation and Assignment to Domestic Resettlement Locations:

  <diamond> Applicants complete cultural orientation classes.

          An assessment is made by a U.S.-based non-
        governmental organization to determine the best 
        resettlement location for the candidate(s). 
        Considerations include:

          Family; candidates with family in a certain area may 
        be placed in that area.

          Health; a candidate with asthma may be matched to 
        certain regions.
          A location is chosen.




        Recurrent vetting: Throughout this process, pending 
        applications continue to be checked against terrorist 
        databases, to ensure new, relevant terrorism 
        information has not come to light. If a match is found, 
        that case is paused for further review. Applicants who 
        continue to have no flags continue the process. If 
        there is doubt about whether an applicant poses a 
        security risk, they will not be admitted.



                                Travel:

  <diamond> International Organization for Migration books 
        travel

  <diamond> Prior to entry in the United States, applicants are 
        subject to:

          Screening from the U.S. Customs and Border 
        Protection's National Targeting Center-Passenger

          The Transportation Security Administration's Secure 
        Flight Program




        This is the end point for some applicants. Applicants 
        who have no flags continue the process.



                             U.S. Arrival:

  <diamond> All refugees are required to apply for a green card 
        within a year of their arrival to the United States, 
        which triggers:

          Another set of security procedures with the U.S. 
        government.





        Refugees are woven into the rich fabric of American 
        society!



                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
